<html>
<title> - DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                    DEPARTMENT OF TRANSPORTATION AND

                    RELATED AGENCIES APPROPRIATIONS

                                FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                                ________
 SUBCOMMITTEE ON THE DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES 
                             APPROPRIATIONS
                    HAROLD ROGERS, Kentucky, Chairman
 FRANK R. WOLF, Virginia             MARTIN OLAV SABO, Minnesota
 TOM DeLAY, Texas                    JOHN W. OLVER, Massachusetts
 SONNY CALLAHAN, Alabama             ED PASTOR, Arizona
 TODD TIAHRT, Kansas                 CAROLYN C. KILPATRICK, Michigan
 ROBERT B. ADERHOLT, Alabama         JOSE E. SERRANO, New York
 KAY GRANGER, Texas                  JAMES E. CLYBURN, South Carolina
 JO ANN EMERSON, Missouri
 JOHN E. SWEENEY, New York          
                         
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
  Richard E. Efford, Stephanie K. Gupta, Cheryle R. Tucker, and Leigha 
                      M. Shaw, Subcommittee Staff
                                ________
                                 PART 7
                      DEPARTMENT OF TRANSPORTATION
                 Transportation Security Administration
                                                                   Page

   Wednesday, February 6, 2002....................................    1
   Wednesday, April 17, 2002...................................... 87, 
                                                                    105
   Thursday, June 20, 2002........................................  155

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 81-853                     WASHINGTON : 2002




                       COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
 DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2003

                              ----------                              

                                       Wednesday, February 6, 2002.

                 TRANSPORTATION SECURITY ADMINISTRATION

                                WITNESS

JOHN MAGAW, UNDER SECRETARY OF TRANSPORTATION FOR SECURITY

                          Introductory Remarks

    Mr. Rogers. The Committee will be in order. The Committee 
will be in order.
    Today, we would like to welcome everyone to the 
subcommittee's first hearing on the Fiscal 2003 budget request. 
I think, in fact, the first subcommittee hearing of the entire 
Appropriations Committee, to hear from Mr. John Magaw, the new 
Undersecretary of Transportation for Security, as he presents 
the administration's request of $4.8 billion for the 
Transportation Security Administration.
    It is stunning to reflect on just how much transportation 
has changed over the last year. A year ago airlines were making 
good profits, and pushing so many people through the system, we 
were worried here about system gridlock. The big problem was 
airline delays.
    A few short months later, airlines were tottering on the 
brink of bankruptcy, even taking a $15 billion federal bailout 
to stabilize that industry, and public confidence in flying, as 
we all know, is still not quite back to normal.
    Aviation security has gone from being a poor stepchild in a 
large agency to one of the highest priorities in the land, 
overseen and managed directly by the secretary's office. And 
new priorities are being established for the U.S. Coast Guard 
and other modal administration as budgets are trimmed to 
finance improvements in our homeland security, not only in 
aviation but maritime and surface transportation as well.
    None of us could have imagined one year ago that we would 
open our hearings off this year with an entirely new agency, 
the Transportation Security Administration. TSA has a daunting 
challenge ahead of it this year, and I believe their leaders 
deserve the strong support of the Congress.
    This agency has to go from about 25 people today to an 
estimated 40,000 by the end of this year, or a little later. 
They are expected to manage the procurement and installation of 
as many as 3,000 bomb detection systems at over 400 commercial 
airports without disrupting airline operations, without 
disrupting passengers or cargo, all in about 10 months. They 
have to build an improved intelligence network and evaluate a 
busy array of security systems and technologies.
    And as if this weren't enough, they have to focus their 
sights beyond aviation security, toward improvements in the 
security of our ports, our subway systems, intercity rail, and 
the like.
    This is a colossal challenge, but one that is critical and 
urgent for national security. I believe Congress made the right 
decision in establishing a new agency to meet this challenge, 
one with a single mission--security. In doing so we put a sharp 
focus on the issue at hand. We elevated the management 
responsibility several levels, to an undersecretary position. 
Expert advice is now only two levels below the president. Under 
this structure we will no longer have minimum wage bag 
screeners with criminal backgrounds who may or may not be 
citizens of the country. We will no longer have to force the 
airlines to use bomb detection equipment bought for them by the 
Federal Government. We will no longer have a sky marshal force 
the size of an NFL football team to deter and prevent hijacking 
all across the country. And we will no longer have intelligence 
gathered but unshared among relevant agencies of the 
government.
    Making all of this happen will not be easy, but I am glad 
to see the President has chosen an executive who has taken on 
tough jobs before with great success. This morning we are 
pleased to have before us for the first time Mr. John Magaw, 
who served as director of the Secret Service and the Bureau of 
Alcohol, Tobacco and Firearms, as well as acting director of 
the Federal Emergency Management Agency. He has an extensive 
background in law enforcement, dating back to his service as a 
trooper with the Ohio State Patrol.
    It is an extraordinary background and I think it will be of 
great value as he sorts through the challenges of standing up 
this new agency this year.
    We want to welcome you, sir, before the subcommittee. Your 
entire written statement will be placed in the record without 
objection, and we would in a moment welcome your oral summary 
of your statement. But first let me recognize for any comments 
he would like to make, my good friend the gentleman from 
Minnesota, Mr. Sabo, for any opening remarks he would care to 
make.

                    Mr. Sabo's Introductory Remarks

    Mr. Sabo. Well, thank you, Mr. Chairman, and Mr. Magaw, 
welcome to the Committee. You have a big task in front of you, 
and you bring impressive credentials to this job, and I am sure 
you will do well.
    I expect I, like others, have lots of questions. We deal 
with money in this committee. While I understand that is a new 
agency developing a program, and it is not easy to put budgets 
together, we still await detail for both 2002 and 2003. We have 
a money request for 2003, but not much detail. I hope you would 
describe some of the issues that make it difficult for you to 
put a budget together so we can begin to have some 
understanding of what is necessary this year, and next year.
    I noted that the DOT's inspector general in testimony 
yesterday said in his judgment that TSA clearly will need a 
supplemental for 2002. If that is the case, and I expect it is, 
when we are going to get that request and to what degree will 
this impact what we have to do next year?
    We are less than two weeks away from TSA taking over the 
contracts for all the screeners. I read with some interest a 
story in the paper this morning indicating that some contracts 
will be continued with some airlines for a periodof time. I am 
just curious how that whole process is going to work, and we are 
looking at lots of screeners being federal employees by the end of the 
year.
    The other concern that I have not heard much discussion of 
is that we also assume a significant amount of law enforcement 
obligations by the federal government. How many law enforcement 
people we are going to have to hire to be available at our 
airports throughout the country, what kind of pay scale are we 
looking at for those people, and what kind of recruitment and 
organization is in place for that?
    I would also have to say that we have some concern that we 
made money available last year for responsibilities other than 
airports. Particularly we provided money for increased port 
security, and plans on how those dollars are going to be used 
appear not to be ready yet. Has anything happened in that 
category? I have lots of other questions.
    Let me just voice one additional concern at this point. I 
know that the agency is using lots of senior advisors from 
outside government to help get going. I can understand that 
need, but I hope that there are strong safeguards in place so 
that those advisors are not in a position to impact contracts 
that might be related to the particular companies or other 
outside group they come from. Any structure you have in place 
to make sure that is the case would be welcome information for 
this committee.
    I thank you. You have a big challenge in front of you, and 
I am sure you are up to it.
    Mr. Rogers. Please proceed.

                           Opening Statement

    Mr. Magaw. Chairman Rogers and Ranking Member Sabo, and the 
members of the committee. I am pleased to appear before you 
today and I wish to thank the committee for calling this 
hearing on a matter of critical importance to the nation, 
ensuring the security of all modes of travel across the United 
States.
    As we implement the Aviation Transportation Act, it is 
very, very important that you have close oversight and I will 
make sure that we are working very closely with all of your 
staff. If you ask a question, you will get an answer. It will 
be a straightforward answer. I commit to that as we move along, 
you will get a quick response.
    Your leadership in passing the act means that Americans 
will continue to exercise their right to travel free from fear 
of terrorist violence. On behalf of Secretary Mineta, I want to 
assure Congress that the Department of Transportation is 
making, and will continue to make, every effort to fulfill each 
and every deadline contained in the act.
    In just a few months, as the Chairman mentioned, TSA will 
have hired thousands of new employees to screen passengers and 
baggage at 429 airports nationwide. We will put in place 
employee background screening, testing and evaluation 
procedures. With our public and private sector partners, we 
will strengthen every mode of transportation based upon 
comprehensive security and intelligence assessments.
    From the date of enactment, the Secretary has focused on 
efforts on complying with or exceeding the deadlines 
established in the new law. As Secretary Mineta has stated, we 
consider the law's tight deadlines as a promise made to the 
American people, and we will do everything humanly possible to 
keep these promises.
    As you know, we met the 30-day deadlines of this act, 
including action on enhanced Class B airspace and 
qualifications for the future screeners. January 18th marked 
the 60-day deadline for action. We met all of the deadlines, 
including the most challenging and important one, 100 percent 
screening of checked baggage.
    Our comprehensive baggage checking measures employ a 
combination of explosive detection equipment and alternative 
techniques.
    We also issued the necessary guidelines for the new 
passenger security fee on airline tickets that are sold on or 
after February 1.
    The one-year deadline for screening all baggage and cargo 
through detection technology is one of our highest priorities. 
In the meantime efforts are being made to utilize every 
available explosive detection machine to its maximum capacity.
    The FAA issued its guidelines for flight crews who face 
threats on board an aircraft, and we had a chance to 
reviewthose before being issued. Air carriers began to electronically 
transmit foreign airline passenger manifests. We have released our 
screener training plan, a plan that is key to creating a highly 
professional, uniformed career federal security force that this 
committee and the American people will be proud of.
    Our success to date in meeting the deadlines is due to the 
contribution of our dedicated employees and the cooperation of 
all parts of the nation's aviation industry.
    I would also like to mention future deadlines on which we 
are most focused. On February 17, just a few days from today, 
TSA will take over the airlines' screening contracts and 
equipment. As we move forward, we will staff TSA with 
sufficient federal screener and other personnel to assume all 
passenger screening responsibilities by November 19 of this 
year.
    In bringing TSA on line, we are creating a flat and 
flexible organizational structure with well trained managers, 
emphasizing front-line service delivery at a low number of 
levels prior to getting to the decision of main security, the 
main decisionmakers.
    One key to our success will be a core of senior managers, 
to be known as Federal Security Directors, who will bring 
federal authority directly to the point of service, directly to 
the point of the passenger interface at the airport. I expect 
to select those first Federal Security Directors shortly.
    Another key to our success will be baggage screeners. We 
are designing a compensation and benefit structure that will 
help attract the highest quality employees while also 
developing a fair process that allows us to quickly remove 
those who neglect their work.
    Last December we announced the qualifications for the new 
screeners. Our federal screeners will be part of a competent, 
dedicated workforce that will be proud not only in their 
uniforms, but in their training and in their courtesy to the 
public in providing world class security.
    Regarding our resources, the President's 2003 budget for 
TSA requests $4.8 billion, an increase of $3.6 billion above 
the level of funds provided directly to TSA in fiscal year 
2002.
    We will maintain a commitment to measure performance 
relentlessly, building a security organization that, as I said 
before, provides both a world-class security and world-class 
customer service to all of those who travel in our nation.
    Just as military personnel are on the front lines defending 
our country overseas, our airport screeners will also serve on 
the front lines defending right here at home.
    The new security system will be robust and redundant, and 
will be relentless in our search for improvements. It is better 
today than it was yesterday, and it will be better tomorrow and 
for the foreseeable tomorrows to come.
    As I stated before, TSA will be paying attention to moving 
forward with improved security in all modes of transportation, 
not just the one that is getting a great deal of focus today, 
aviation.
    That concludes my statement, Mr. Chairman.
    Mr. Rogers. Thank you, Mr. Magaw.
    All of us have a number of questions. We will try to be as 
brief as we can. Out of fairness, we should do it today, 
because of the number of members here, we will go by the five-
minute rule.

                           SCREENING DEADLINE

    I want to ask you first about the screening deadline. 
Within nine months you have got to hire 30,000 screeners, maybe 
more. That is about 3,000 a month, 150 people hired each 
business day between now and then for nine months.
    I assume you will have to ramp up slowly in the beginning, 
so you are going to have a crunch as this thing goes on like no 
one has seen in a long time.
    Can you do it?
    Mr. Magaw. Yes, Mr. Chairman, we can do it. We are putting 
plans together to do that. We believe that an outstanding 
workforce is out there. The airlines business has had a number 
of layoffs. Those people will be given an opportunity to apply. 
The military, obviously, will be given the priority as we have 
done in the past. The pay scale that is being put together is 
going to be very inviting in every area of the country. We are 
putting together training programs now, organization and teams 
that will do the training, the 40 hours classroom, the 60 hours 
practical, and then the continuing testing. The uniforms are 
being looked at now to select and purchase. We think we are 
clear that all of these things will come together to meet the 
time frame, sir.

                            SCREENER DUTIES

    Mr. Rogers. One of the problems we have faced in the past 
with the screening was the low performance level, the low 
morale of that group of people doing very mundane things over 
hours and hours of time.
    How will you cure that problem that we have had?
    Mr. Magaw. Each one of the duties, as you say, can be 
boring. Most airports have what they call a bank of flights, 
and that bank of flights comes and goes in about a two-hour 
block, sometimes a three-hour block. What we plan to do, for 
instance, during the time that they are doing the examination 
of the baggage we expect to rotate them to three or four 
positions, not leaving them too long in any one--20 minutes, 25 
minutes, to rotate them. So that if they are watching the 
screens and operating the equipment, they would then move to 
hand checks, they would move to the other equipment that is 
there.
    During the downtime in between the banks, we expect to have 
a training facility, a room to train in at each airport where 
we can take those examiners--screeners--during the downtime and 
do some training. It does not always have to be training 
concerning their work. As we move along, it can be training 
that helps them be better family members, that helps them be 
better--whatever it might be, whatever theirwishes are.
    And we also want to attract the type of person that wants 
to move forward, that wants to become a supervisor. My guess is 
three or four years from now some of them will be federal air 
marshals that we hire between now and then. Some will be on the 
law enforcement side, on the coordination side there at the 
airport. So we do want to create things that will keep them 
from boredom.

                 SCREENING CONTRACTS--FEDERAL TAKEOVER

    Mr. Rogers. Now, do you expect any problems in taking over 
the existing screener contracts February 17?
    Mr. Magaw. It is all on schedule right now. I suspect that 
there will be a little problem here and there in terms of 
working out the contracts. However we will have our federal 
personnel at the airport. There is going to be an interim 
manager there a couple of days before this takes place so that 
every airport will have somebody speaking for TSA and watching 
out for the concerns of security.
    It could be that after we are looking at this for three or 
four days that there are a number of people that need to be 
pulled out and given training. We will be prepared to do that.
    There could be a situation where the contractors are not 
measuring up. And if that is the case, we will have to move 
them and bring another unit in, and we have done some 
preparation to do that if those problems occur.
    We are trying to anticipate problems that might occur and 
make preparations for them. I would rather not talk too much 
about it in a public forum because we want to make sure that we 
keep the competition in terms of prices and contracts so that 
they are reasonable for us to assume.
    Mr. Rogers. The Secretary this morning announced in the 
paper that he would not re-employ Argenbright, a company that 
we have been quite critical of on this subcommittee for 
security lapses.
    Can you elaborate on that?
    Mr. Magaw. Argenbright has some existing contracts which we 
then would be responsible to oversee. We are going to look at 
that performance very quickly and in very much detail at the 
airports. And if that security is not measuring up, then we 
will replace it.

                        INTELLIGENCE INFORMATION

    Mr. Rogers. Now, on 9-11 the problem was not with 
screeners. The problem was, in my judgment, intelligence that 
was not shared nor used; is that a fair statement?
    Mr. Magaw. Well, I think clearly intelligence is so 
important. I do not disagree with what you are saying, but I 
also do not know enough about the specifics of that day to be 
able to say for sure.
    Mr. Rogers. Well, the point I wanted to get at was in the 
law that we passed, we provided, of course, as you mentioned, 
for federal security directors at each airport who would be 
privy to intelligence from our nation's intelligence systems, 
which hopefully they would be able to share so that each 
airport would have direct information about who and who was not 
a suspected terrorist, or who was on the watch list or what 
have you, that could then hopefully be utilized to prevent 
those people from boarding aircraft. Is that essentially 
correct?
    Mr. Magaw. That is essentially correct and very, very 
important. And in our organizational chart at the very highest 
level, just one level under my office, is an Office of 
Intelligence, and we are seeking now to hire a person for that 
position and a deputy for that position that are totally 
acceptable and received within the intelligence community, 
because it is a rather guarded community.
    So that if we need to--if this person needs to walk in and 
confer with any of the intelligence units, regardless of who 
they are here in D.C., they will have that immediate open door. 
And then they will very quickly be transferring or have a 
secure direct line to those airport directors so that there 
should be a very quick flow.
    In fact, we have already started to do that. In the last 
couple of weeks we have--because I get briefings every morning 
or I get a call in the evening--we will put something out to 
the security directors of the airlines, giving them some 
information that they might want to do something slightly 
different for the next few days.
    Mr. Rogers. Now, how soon will you have those federal 
security directors on the scene?
    Mr. Magaw. Well, we are going to have some interim 
directors on the scene immediately. We are taking----
    Mr. Rogers. Are these federal employees?
    Mr. Magaw. These are federal employees. They are FAA and 
TSA employees. In fact, we are notifying, have already notified 
them, and are doing some training in the next few days, and 
they will be on scene prior to the implementation of this.
    At the same time, for instance, at National and Dulles and 
Atlanta, and there are others, there must be 15 or 20 that we 
are very close to hiring. And so we will have them on the site 
either before or on the very day or a few days after. We 
advertised for 81 airports and have had 10,500 applications.
    Mr. Rogers. Well, this is one item that we are going to 
keep a real close watch on. To me, it is utterly important that 
we have the intelligence that the nation has gathered in a 
usable place, i.e., the place where people board aircraft at 
every commercial airport in the nation. So this is what I am 
going to be keeping on you.
    Mr. Magaw. Yes, sir.
    Mr. Rogers. And perhaps we need to talk about this in a 
closed setting, and I understand that. But I just want youto 
know that this is one thing that the committee is going to take very 
seriously, getting that intelligence capability in the right place 
quickly, and then utilizing the intelligence we have to prevent certain 
people from boarding aircraft.
    Mr. Magaw. That is right.
    Mr. Rogers. And I know you share that same----
    Mr. Magaw. Yes, sir. Yes, sir, I do.
    Mr. Rogers. Mr. Sabo.
    Mr. Sabo. Thank you, Mr. Chairman.
    I am still trying to understand how this coordination is 
going to occur on February 17, and in the period until 
November, I think it is, when they all become federal 
employees.
    My understanding is you have received bids for the 
contracts that go into effect in February?
    Mr. Magaw. That is correct. The legal counsel is working 
with the existing contract holders that are now contracted to 
the airlines, for us to take those contracts over.
    Mr. Sabo. Are those contracts then simply extended with 
you----
    Mr. Magaw. It's----
    Mr. Sabo [continuing]. Rather than being new bids and new 
contracts?
    Mr. Magaw. It's a combination of both. If that contract is 
set up, there are, you know, 40 some major security firms, and 
then there are a lot of the small family operations--so the 
contracts differ a little bit.
    The fact is we will be paying for all of them as of the 
17th. And some of them are being renegotiated because there are 
additional requirements put on them now--on the 17th--that they 
do not have now because some of the airlines will not be doing 
some of the security that they are doing now, some of the 
checks that they are doing. So it is a mixed bag.
    The fact is, though, that every airport and the security 
people who work in that airport in those companies will have 
contracts that are paid for by the government, by TSA.
    Mr. Sabo. Okay. The story in the paper this morning 
indicated that the airlines, and this was in relationship to 
Dulles, will continue their existing contract.
    Mr. Magaw. Well, yes. There are some contracts around the 
country that are better left alone in terms of money. If you--
sometimes if you renegotiate them, you are at a much higher 
rate. We will just reimburse the airlines for that cost, but we 
will be there physically on that date overseeing everything 
that takes place.
    The money and how it is going to be paid, what we are 
trying to do is do it with reasonable economy because it is 
going to be a big ticket item. And so we will be paying for 
them.
    Now, also, as you mentioned, while we put this federal 
force in place, that federal force in some of these airports 
are going to start arriving fairly quickly after that, and it 
will be geared up to where they are arriving very fast. There 
are also some very good checkers, security people within those 
existing companies, and we want to--we want to recruit the very 
best ones. And if they can meet the requirements, we will 
certainly hire them. They should have the opportunity to do 
that.
    I am sure as you have gone through these lines you have 
seen some very, very good ones, and then others that you are 
not sure of. We will have that weeded out very quickly. But the 
ones who are good, we will--put them through the same training 
as the others do, so even though they have been on the job for 
awhile, we will bring them through our system.
    Mr. Sabo. Have any bids been let yet for the purchase of 
more baggage explosive detection equipment?
    Mr. Magaw. They are very close to being issued. I do not 
think they have been issued yet today, but they are very close 
to being issued.
    Mr. Sabo. I think that is one of your biggest challenges to 
get all of those in place by the end of the year. That is lots 
of equipment, and not something you buy off the shelf.
    Mr. Magaw. No, that is right, and that is a big concern. 
What we are trying to do is to look at the whole picture. There 
are two companies that are capable of producing the machines 
that are certified. There is one that has come very close to 
certification. If we just issue--well, let us say they can--the 
make about 100 a year. They can gear up for a few more. But 
even if they could each make 200 a year, that is only 600, sir, 
and we need almost 2,000.
    So what we are doing is trying to look at how we can take 
care of their property rights and at the same time expand the 
production to other major producers who--it is not a difficult 
machine to make in terms of putting it together. It is a matter 
of getting all the parts and the parts suppliers.
    But if we would just cut a contract with the three 
companies to do that, they go on making those machines, we will 
not get there. So what I wanted to do is, before we gave them 
contracts, is to make sure that we have the whole picture in 
sight so that we can meet these deadlines, and to keep them 
competitive and to get them to talk about their intellectual 
property rights, and give those to other producers.We want to 
hold the contracts. It is very close. It could have been issued this 
morning, I do not know.
    Mr. Sabo. As it relates to the money question we face, I 
assume that is probably one of the most capital-intensive parts 
of your budget. You need a supplemental for this year, and I am 
not sure what you are assuming for capital expense next year. 
If we are going to meet that goal, we not only have the expense 
of buying all that equipment, which has to be paid for, at 
least in this calendar year, not fiscal year, but also the 
expense of putting the machines in the airports, which is 
substantial.
    Mr. Magaw. That is right. Everything is----
    Mr. Sabo. And I assume that is going to have to be paid for 
too.
    Mr. Magaw. Everything----
    Mr. Sabo. I would think it is a huge capital expense 
before----
    Mr. Magaw. That is right.
    Mr. Sabo [continuing]. The end of the fiscal year.
    Mr. Magaw. Everything that we bring up would have best been 
done months ago. But what we are trying to do, again, four 
weeks ago this organization was just a white piece of paper, 
and so what we are trying to do is to make sure that we are--we 
are trying to send teams out now for each airport. What has to 
be done in order to--first of all, how many machines do they 
need for sure? Then, what has to be done in that airport to 
handle those machines? Does the floor have to be reenforced? 
These machines weigh tons. And do they have room for them? Do 
they have to move walls? What is that cost going to be?
    And then installation, there are a number of contracts, 
union rules and regulations in each of the airports, that we 
have to deal with in order to see how much it is going to cost 
us for construction, or installation. So all of those things 
are trying to be done simultaneously so that we can have that 
picture for you in 60 to 90 days, sir.
    Mr. Sabo. Good luck.
    Mr. Rogers. Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    Welcome to the committee, John.
    Mr. Magaw. Thank you, sir.
    Mr. Tiahrt. I have three things I would like to have you 
comment about.
    First, in air travel we want people to be safe when they 
travel in the air, but it is becoming an uncomfortable 
situation to get on an airplane. And I think there is 
technology out there that would help us for people who want to 
voluntarily submit themselves to a background check, to use 
some kind of a technology to let them have access to an express 
lane. I think it would help with the bottleneck that we have 
now getting people on the airplane, plus it would help with the 
costs that are associated with that, and once we have the 
nonrecurring cost of getting the technology in place.
    The second thing is the burden we put on the airports. This 
is a tremendous cost not only to airlines to implement new 
safety regulations, but also to the airports.
    Mr. Magaw. That is right.
    Mr. Tiahrt. Once we get this nonrecurring cost or 
investment of technology, we need to design a system that does 
not overburden the airports so that we have a disincentive for 
air travel by such high costs. So in constructing that system, 
I hope you will remember the cost effectiveness on long term on 
the effects of the airport.
    The third thing is general aviation in the smaller airports 
that concerns me. The unfortunate incident of the teenager who 
flew a Cessna 172 into the side of a building in Florida showed 
us that a Cessna 172 is not a very good weapon for a terrorist. 
I am not sure what the child's motivation was. I know he was 
troubled. But he broke an office window, he did some damage to 
an office, and killed himself, unfortunately, and destroyed an 
airplane. But it was not a September 11th type incident.
    Yet we have categorized some of these small airports and 
shut them down for a long period of time, and you even have 
some of these problems with security today. And I think we need 
to have sort of a thoughtful approach to the general aviation 
in these smaller airports so that we do not overburden them 
with security regulations that may be overkill.
    So I want people, again, to be safe. We do not want to have 
anybody misuse an aircraft regardless of the size, but I think 
it can be proportional.
    Would you comment, please?
    Mr. Magaw. Yes. On the general aviation, clearly we have to 
address that, a tragic situation. There is a lot of probably 
small things that we can do security-wise that will help those 
be safer. That is a topic which, at the same time all of these 
others are being taken up, we are trying to take that up and 
address it not only in the near term, but in the longer term. 
So we will be addressing that.
    The burden on the airports, we will watch that as we move 
along, and that is the same thing with the burden on the 
federal government. If we are not careful and use technology 
the way it should be used, there is no amount, a number of 
people that we would have to hire in order to do it. I mean, we 
could--you know, we could get to the point of 70 or 80 thousand 
people here. We are just not going to do that. Sotechnology is 
very important as we move along both for us and for the airport.
    I visited an airport last week, and have instructed all of 
our personnel to start visiting these airports, go directly to 
the airport manager, to the law enforcement entity, to the 
airlines there, sit down and listen to their concerns. Each 
airport is going to be somewhat different, and we want to make 
sure that we are coordinating with the airport and keeping in 
mind the burden.
    The special pass issue, the technology is there to do that 
now, the ability to do it. It is not as costly, nearly as 
costly, as the kind of things we are talking about. I would 
like to look at it for a little bit longer. I know it is used 
in a couple of places in Europe now.
    What they find is two or three things. If you put it next 
to the lines of the normal traffic, it becomes an us and them, 
the haves and the have nots. It also, in order to make it more 
workable in those areas, they have put it to a kind of an off 
place in the airport, and they find that the people are not 
using it. So there is a lot of things to look at.
    But even more important than that, what does that gain us 
to do that? Would you now not put their suit--I am not 
answering this question, I am just throwing it out. Would we 
not ask them to have their suitcase checked? Would we let them 
carry their handbags on the aircraft without them being 
checked? I am not willing to take that move at this point.
    The other thing is, for the long term, I want to look at 
it. The terrorist motto is revenge is best enjoyed, the soup of 
revenge is best enjoyed cold. They will wait seven, eight, ten 
years, and they will be in this system because they will come 
here clean. They will operate in a clean manner. And we will 
have to be very careful that we do not build a system that will 
later defeat us.
    So for all those reasons I would like a little more time to 
look at that. We are certainly not against it. Secretary Mineta 
has said that it is something worth looking at, and we will 
look at all of the pros and cons on that, sir.
    Mr. Rogers. Thank you.
    Mr. Pastor.
    Mr. Pastor. Good morning. A few minutes ago you talked 
about working with the airports in response to a question that 
Congressman Sabo had, that you did not know whether the floors 
had to be reenforced because you had these machines that 
weighed tons, and then you talked about the transition of the 
screening employees.
    You are going to visit the airports or have visited 
airports. What other steps have you taken? For example, I would 
think that as you implement the act and you talk about 
screeners and screening devices, 300-foot waivers, et cetera, 
that you need and should involve the airport operators.
    Mr. Magaw. Absolutely.
    Mr. Pastor. So in addition to visiting airports, what have 
you done in terms of involving the actual operators----
    Mr. Magaw. My first few days----
    Mr. Pastor. like the operator down in Sky Harbor. How is he 
involved with you in implementing this act?
    Mr. Magaw. On my first few days after being confirmed, we 
did have a telephonic conversation with 20 or so airport 
managers to kind of listen to what their concerns were. As a 
result of that, now we are going to continue trying to do that, 
myself and others, in a conversation every other Friday for a 
couple of hours.
    In the meantime, as I mentioned, we are having our interim 
federal supervisors move into all of those airports starting 
late next week, I believe.
    Mr. Pastor. How many would you--how many airports would you 
be able to cover----
    Mr. Magaw. We will cover all 429, sir.
    Mr. Pastor. Next week?
    Mr. Magaw. We have pulled them out of our ranks right now, 
the existing. When we--when we became TSA, approximately 1,500 
personnel from FAA were in the security area. They transfered 
to TSA.
    Mr. Pastor. Okay.
    Mr. Magaw. And so we are using a cadre of that personnel. I 
made a video tape talking to them. We are putting together a 
package of briefings for them, and within the next few days 
have them prepared to move to each of these airports.
    Mr. Pastor. So are these potential federal security 
directors?
    Mr. Magaw. No, they are not.
    Mr. Pastor. No.
    Mr. Magaw. They are the interim ones until we can get the 
permanent ones hired. And again, just in the last three or four 
weeks we have been able to advertise them. We have got 
something like--Korn Ferry has got something like 140 or 150 
people that, based on our job description, that they have 
selected for us to interview. We are doing those interviews 
every day, and we will get them in there one, two, three or 
four at a time, sometimes ten in a week or 15 in a week, so 
that we get this covered as quickly as we can.
    And once they move in and are briefed and their training 
takes place and their interface takes place, then the interim 
person will go back to the duties that they were performing now 
or some other duties in the restructuring of TSA.
    Mr. Pastor. Because of the deadlines the act has, I would 
hope that as much as you can and beyond visiting the airports 
and possibly having telephonecalls, that you actually develop 
working teams with your interim people and with your director to see 
how these machines are going to fit and how these screeners are going 
to occupy space, because the deadlines you have imposed on you are very 
difficult. And I would hope that you would develop a working 
relationship with the airport directors so that----
    Mr. Magaw. Absolutely.
    Mr. Pastor [continuing]. You will be able to meet the 
deadlines, at the same time do not have the costs that people 
are anticipating.
    Mr. Magaw. Can you imagine them sitting out there today 
knowing a lot of these things are going to take place, but we 
have not conferred with them yet? It is not lack of intent, it 
is because of just getting started. But we are going to have 
those interim managers in there within the next few days, and 
they will start this process. That would be one of their 
requirements, to oversee the screening process, the changes, 
and then make plans for how these other things are going to 
occur.
    Mr. Pastor. If you do not have the 30,000-40,000 federal 
employees who are going to be screeners, what is your plan 
going to be by November?
    Mr. Magaw. Well, the plan is we advertise these jobs, and 
as quick as we advertise them we have the procedures set up to 
do the background checks and do the training in regional areas, 
so they do not have to go very far for training.
    As they are moved into a particular airport, let's say we 
have a class of 30 that we are moving into the airport, we will 
identify 30, just using rough figures, 30 in the existing force 
that can meet the requirements, that are quality employees, get 
them trained locally and back into the force. So that is in 
general the way it will work.
    Mr. Pastor. My last question, Mr. Chairman.
    Will these employees be seen as second class employees or 
will they have all the rights of all federal employees? Meaning 
will they have whistle blower protection? Will they have all 
the health benefits? Will they be allowed to organize under 
Chapter 71 of U.S. Code, Title 5? Will you have equal 
employment protection, laws, and regulations that will cover 
these people?
    And you said you will also have a process that if they do 
not work out, you will be able to remove them as quickly as 
possible. Now, hopefully, these employees will enjoy all the 
rights to a good job and also to be able to protect themselves 
from the whims of some of the managers.
    Mr. Magaw. Yes. Well, that is a long question.
    Mr. Pastor. No, it is not a long question. Basically, the 
question is are they going to have all these rights that any 
federal employee enjoys? And are you going to make sure that 
those rights are prtected?
    Mr. Magaw. Based on the law that is written, you know, if 
they are nonperformers, I have the authority to remove them. My 
guess is that the Congress wanted us to do that so that we did 
not have systems that would protect nonperformers, or delay us. 
If we employ the whistle blower part of it, they can come in 
and stop that operation. So I do not think it was the intent to 
employ the whistle blower. But virtually every other benefit, 
you know, they are going to have retirement. They are going to 
have the training. They are going to have the locality pay. 
They are going to be paid on a scale with the rest of the 
market in that community. They are going to be very, very 
competitive. These jobs are going to be sought very quickly.
    In fact, the first thing we are going to get is complaints 
from city and state and some of the airlines that we are taking 
a lot of their good people away.
    So it is a--it is a good first class, first rate federal 
system, like all the other federal employees, with the 
exception of the in-depth whistle blower. All of my history has 
been fairness and rights to employees and I will continue that. 
But the full force of the whistle blower, they would not have.
    In terms of unionizing, that is still being discussed by 
the Secretary and the administration, and we will have to see 
how that goes.
    Mr. Pastor. Thank you, Mr. Chairman.
    Mr. Rogers. Ms. Granger.
    Ms. Granger. Yes. Thank you very much. I have a couple of 
questions of concern.
    With increased security and restrictions and additional 
equipment, I think everyone understand that this may increase 
costs, and I think the public is very aware that that may 
increase the time it takes to travel. I also think the public 
has been very patient through these changes. I am in airports 
all the time and they stand quietly and patiently, and go 
through the security, and those of us in Congress travel very 
frequently. Most of us go home every weekend.
    Mr. Magaw. Right.
    Ms. Granger. And during the district time, travel from one 
city to another. And I became more and more concerned about 
consistency. And we are willing to fund. However, just dollars 
poured in is not going to make it right.
    Mr. Magaw. That is right.
    Ms. Granger. Make it safe.
    Mr. Magaw. That is right.
    Ms. Granger. And we can put all the restrictions and rules 
we want to, but if those rules are not followed andconsistently 
followed, which they are not being from airport to airport, in fact, I 
do not think they are being followed consistently within the same 
airport from week to week.
    And the President has asked us all to be vigilant, and so I 
know that I have been vigilant. And when I see that there is a 
change, I will quietly, politely point out, and there is 
complete disagreement about what the rules are, when do you 
show your identification, when do you not.
    I am very concerned about that, so I want to know not only 
how intensive the training is, but also the follow up of those 
trained individuals.
    Mr. Magaw. All of those things that you have just described 
are occurring. They will not occur as we have some time to move 
this into position. The consistency is very, very important. 
That is why we are going to have a very--flat organization no 
levels. That director of the airport can pick up and talk to my 
office in a moment's notice.
    If, let us say, we decide something in San Francisco makes 
sense today, we are going to change something, we are going to 
adjust something. As soon as that is done every airport in the 
country, and those managers of the airports, our federal 
managers, will be advised so that you will have consistency 
across the board.
    You know, we are having people take their shoes off, and I 
want to make sure that that procedure is a reasonable one. And 
if we have somebody take their shoes off, should we not also 
have chairs and shoe horns. I mean, if somebody asks me to take 
my shoes off, I have an artificial hip and a bad knee, I cannot 
do it without sitting down. At the check points, when we have 
somebody examined or at their agreement be frisked, that should 
be closed. That should not be just two walls that people 
walking by can see that.
    So we are going to correct all of those things. In fact, 
your concerns about lines and people waiting, that patience is 
going to go away. It is starting to go away now. What we want 
to--in fact, what we have now is we have two companies 
assisting us. And, by the way for all the companies that are 
helping us, there are documents, legal documents set up that it 
is not going to gain their company in any way. So we have 
companies that are now helping us that handle--for instance, 
Disney. Nobody handles lines and crowds better than Disney. 
What can we learn from Disney that will help us improve these 
airports?
    Everything we look at we are trying to get the experts in 
the field to also confer with the government, and see how we 
can better do it. I agree with all your concerns.
    Mr. Rogers. But Mr. Magaw, you are not going to have a 
Mickey Mouse operation, though, are you?
    Mr. Magaw. No, sir. [Laughter.]
    No, sir. No, sir, not at all, not at all.
    Ms. Granger. Good. I hope that is absolutely true because 
it really is not happening right now.
    The other concern I have, and I had the opportunity to talk 
for several hours with an air traffic controller who has been 
in that position since October, and it was of great concern. 
And one of the concerns he had in talking to me was the 
cooperation with authorities. Now, as you said, the 
interaction, the shared information, not only shared 
information but what is the shared follow up?
    If there is a problem, then who takes control? If it is the 
local authorities, what kind of follow up is there, from place 
to place? And he gave an instance that I will not share right 
now, but it was of great concern. So that interaction with 
agencies is going to be absolutely necessary and work very 
quickly, and I think that is going to be something that we need 
to be very aware of. Because if there is, as you said, we are 
going to become lax again, that is not going to be helpful.
    Mr. Magaw. No.
    Ms. Granger. So I want us to really follow up and listen to 
those people that have been there.
    Mr. Magaw. Absolutely.
    Ms. Granger. I mean, they have been flying, they have been 
watching it. They say there is not consistency. For instance, 
from airline to airline and how they are treated, our air 
traffic controllers are treated. That should have been, to me, 
a pretty easy one. So I would certainly hope that we would work 
with that.
    And the last thing, when you are talking about this 
additional equipment, are you working with the airports? Are 
you working with the airlines?
    In other words, when you are going into an area, saying at 
an airport what is needed, who is giving you an answer? The 
airlines or the airport?
    Mr. Magaw. A combination of both. When I went to the Miami 
Airport last week, the airport manager met me. We talked for 
awhile. She is anxious to move forward with this. Then we met 
with the airlines representatives, and we walked through the 
whole process. They talked about how many machines they would 
need, what they were going to have to do to meet those needs.
    See, an airport like Miami is probably going to need 
another 50 or 60 machines, and of course, this takes personnel 
also. So we have to look at all of that. And we are doing that. 
Like I say, 30 days ago, you know, we hardly existed.
    Ms. Granger. My question though is not what you are doing. 
It is who gives the answer. I sat on an airport board, and I 
remember the concerns over and over and over concerningsecurity 
and other things that would come to the airport. It turned out it was 
not in the control of the airport, of course. It was in the control of 
the airlines. And I know that in airports often an airline comes in and 
puts in the way they want their services to be handled. So it is really 
under their control because it was their dollars. So I think it is very 
important who is answering those questions and who is giving you the 
information.
    Mr. Magaw. Well, with the federal manager there, you have 
not had that before. See, with the federal security manager 
there these things will be addressed right up front. They will 
work hip to hip with the airport manager, the law enforcement 
unit there, and the airlines to make sure that it is a smooth 
process.
    Mr. Rogers. Ms. Kilpatrick.
    Ms. Kilpatrick. Thank you, Mr. Chairman. Good morning, Mr. 
Magaw.
    Mr. Magaw. Good morning.
    Ms. Kilpatrick. I'll look forward to working with you.
    You mentioned earlier that all baggage is now being 
screened, and if so, the machines that were mentioned before--
the congresswoman just mentioned--do we have all baggers on 
line now to check all screened baggage, or is there some other 
method you are using?
    Mr. Magaw. There are only--there are less than 170 
functioning machines out there today, so not all baggage is run 
through an EDS machine, explosive detection machine. But all 
bags on originating flights, and I have to be very careful here 
because I do not want any misunderstanding.
    If I am going from San Francisco nonstop to Chicago, all 
that baggage from San Francisco is being examined. It is being 
examined either by an EDS machine or by dogs or it is being 
done by a hand search or it is being done by what they call a 
swatch.
    Ms. Kilpatrick. We have seen those.
    Mr. Magaw. Okay.
    Ms. Kilpatrick. We fly twice a week.
    Mr. Magaw. So it is being done by at least one of those and 
sometimes two. There is also a baggage match.
    Now, if you are going from San Francisco to Washington, 
D.C. via Chicago, and there is a plane change in Chicago and 
your bag is moved to a connecting flight, the baggage at this 
time is not being checked from Chicago to Dulles. It is a very 
difficult, much more difficult job to do that because coming 
off of an airplane that pulls into Chicago may be 15 or 16 
connections. Some of them may be with other airlines, and a lot 
of them are, and their systems do not talk to each other.
    So to get the baggage match done in time with a date 
certain that you gave us, we did it on originating. We are 
about to start, and have had the agreement from the airlines to 
start, a pilot project on how we--how we do this in terms of 
the connection.
    Ms. Kilpatrick. Okay, let me just stop you there because I 
know the Chairman is going to--thank you. Thank you very much 
for that. I know it is an awesome responsibility and the 
deadlines that the law now gives you, you are attempting to 
meet them. I can see that just by your testimony this morning, 
and we appreciate that.
    You mentioned the airport managers, the airlines and the 
law enforcement people who are the team. The missing piece is 
the concessions, the concessionaires who are almost out of 
business across America since September 11th. I know now--you 
know, I do not have the answer, but as you put this together, 
and I know you need to come back before the committee and we 
will be working with you closely, right now two-thirds of the 
people who come to the airport, at least before September 11th, 
were not flying. They were either bringing somebody, seeing 
someone off, and in those instances they used the various 
concessions across America.
    The Association of Concessions has been in my office a 
couple of times asking for relief. The only relief I can see 
down the line after you get your primary responsibilities set 
up is that those people be allowed to come into the facility as 
well, at some point going through the screening, which means 
you will have to have more manpower or whatever you have to 
have in order to save that industry, and you know, I do not 
care what airport you go in in America all concessionaires are 
really being devastated. Their mortgages, their rent payments, 
all that is going on, but their revenue has been decreased, in 
many instances two-thirds of what they were making prior to 
September 11th.
    I would like to work with you to see how we can help in 
that regard, if anything can be done. Otherwise, many of those 
businesses will be out of business, many people will be out of 
work.
    Any thoughts or is this so overwhelming right now that we 
have not really gotten to that?
    Mr. Magaw. I am aware of the problem. It has been made 
aware to me, not quite in the detail that you have made it.
    My reaction to anything like that is let us work with it. 
There has to be a way that will make it better and still be 
secure. And so we will be working with you.
    Ms. Kilpatrick. Okay. And finally, Mr. Chairman, just 
please, my last thing would be on--well, maybe I will hold that 
one for next time.
    Thank you, Mr. Magaw. Thank you, Mr. Chairman.
    Mr. Rogers. Ms. Emerson.
    Ms. Emerson. Thanks, Mr. Chairman. Thank you, Mr. Magaw, 
for being here, and thank you for the dedication that you have 
given to this job which is probably the toughest in the country 
right now.
    I have got a couple of questions I want to ask. The first 
one has to do with smaller airports, particularly the one like 
mine in Cape Girardeau, Missouri where I live. We probably have 
three, four, maybe five flights in and out a day, and my 
concern is that we do not overburden that airport with those 
few flights a day with so much that they are not going to be 
able to stay in business.
    Can you just address that issue for me a little bit?
    Mr. Magaw. That is very important to me to include the 300-
foot parking rule, which sometimes puts them clear outside the 
parking area. What can we do to--it is common sense and good 
judgment that we are going to be trying to apply here. And with 
the federal force you can generally do that fairly quickly once 
you get them on and get them properly briefed and trained. So 
every airport is going to be treated, you know, as an 
individual airport.
    If we need one machine there or we need to do something at 
the airport--at the parking lot, we are going to work very 
closely with them not to overwhelm them. And I realize that, 
you know, being an ATF, that is a regulatory agency, regulating 
industry. And so we want to make sure that we do not 
overburden, and those will be kept in mind on virtually every 
issue.
    Ms. Emerson. Okay. Yes, because, you know, with 300-foot 
rule, we are parking on the grass now.
    Mr. Magaw. That is right. That is right.
    Ms. Emerson. And so it is--that is--it is a point I hear 
more about from my constituents----
    Mr. Magaw. Sure.
    Ms. Emerson [continuing]. As you can well imagine.
    If I can go back to some of the other questions that were 
asked having to do with airports and the airport managers who 
currently run airports all over the country, and their 
involvement with you in trying to formulate the best plans, and 
I appreciate how much you have to do in such a short amount of 
time.
    But it concerns me that perhaps, and I have heard from some 
that were not involving the airport managers enough in making 
decisions because lots of time we forget on the federal level 
that people down at the local level know best about how to----
    Mr. Magaw. Absolutely.
    Ms. Emerson [continuing]. Make things function. And while I 
appreciate your having conference calls, I wonder if your 
intentions are to go beyond the conference call at least as far 
as involving these folks in the total--in making the situation 
at their particular airport work most efficiently.
    Mr. Magaw. One of the--one of the mottos that we have 
adopted is that we want to think and plan locally, coordinate 
nationally. So as soon as that interim manager gets on board at 
that airport within 10 days, then followed by the airport 
manager or director of security, these kinds of things will 
virtually go away because if it is still happening then I need 
to get a new airport director.
    Ms. Emerson. Okay.
    Mr. Magaw. So I would be--just very shortly those are going 
to go.
    Absolutely, the people who can solve the problem the best 
are the people who are there doing the work, and that is the 
approach we are going to take.
    Ms. Emerson. Okay, I appreciate that. Thank you. And then 
one last question.
    Because I am concerned as one who represents probably the 
biggest part of the Mississippi River in my congressional 
district, I am concerned about funds for other modes of 
transportation. And how much--because I have not looked at--
probably it is my fault, I should not be even asking you this 
question, but how much of your budget request will be for other 
modes of transportation, whether it be barge or rail or buses?
    Mr. Magaw. Let me talk about the ports for a minute.
    Ms. Emerson. Okay.
    Mr. Magaw. Seaports. We have been given $93 million, just 
short of $93 million. There are about 341 ports in the country. 
We are going to issue grants in a very short period of time to 
those ports, and give them an overlay of the kinds of security 
things that we would want to make sure they considered along 
with their input. And it will not take near the $93 million to 
do that. And so we also want to then give them money to start 
buying the alarms, the bio equipment and things like that. So 
that is just the seaports.
    In terms of rail, in terms of trucking, in terms of buses, 
at the highest level of the organization you will see that we 
are going to have people who have backgrounds in those areas on 
my immediate staff, watching out for that throughout the 
country. We are going to have somebody who also has a rail 
background, a different person who has a trucking background, 
and we are hoping to recruit somebody who has a commercial bus 
background. So that every day as we are making decisions none 
of those entities are forgotten, at least it is put in some 
kind of priority.
    Ms. Emerson. Do you think you will have enough money for 
all of that?
    Mr. Magaw. Well, you know, the President has said that I 
certainly have to do all those things in what we arelooking at 
for this year or next year. But the President has said that, you know, 
the money will be there to do these kinds of things, and I take that at 
face value.
    Ms. Emerson. Thank you. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman, and welcome, Mr. 
Secretary.
    Let me just pick up on Ms. Emerson's comments. We have been 
talking about airports, so I did not hear anything about rail 
before. Will you be expanding your authority and does the law 
mandate that you also look at other areas?
    Mr. Magaw. The law, the Aviation and Transportation 
Security Act of 2001, does give us the authority for security 
of rail and all kinds of transportation, so whether it be a bus 
or a train or an airport or a dock, a deep sea port, whatever, 
we do have the responsibility.
    Now, there is a bill up here on the Hill, as you know, I am 
not sure who it is sponsored by, I think Senator Hollings is 
one of them, it was passed by the Senate, I believe it is now 
in the House--that talks about port security and cruise ship 
security and those kinds of things.
    The way the early writing of that is, is that it would give 
that responsibility to TSA, so we will have to see how you 
decide as it comes off the Hill.
    Mr. Serrano. But at present, is there something being done 
with rail service? Because I know that there are no added 
security visible with Amtrak, for instance.
    Mr. Magaw. Again, that is why I am trying to hire somebody 
at the highest levels. In fact, I just--on my desk this morning 
were two recommendations from the railroad companies as people 
that we could interview that knew well the railroad and the 
railroad problems and they have a security background. So I 
have to get personnel on my highest level of staff and then it 
has to filter down through the organization.
    Mr. Serrano. So the answer is that eventually you will be 
seeing all modes of transportation.
    Mr. Magaw. Absolutely.
    Mr. Serrano. Also, I understand that the law requires for 
you also to act on what we call non-passenger cargo, such as 
FedEx and UPS and so on.
    What are we doing in that direction and what are your 
concerns?
    Mr. Magaw. Well, my concerns are that cargo is being not 
examined in the depth that you or this country would expect 
that it would be under the circumstances. It is not, though, 
not doing anything. For instance, in your cargo area, if you 
want to put some kind of cargo on an aircraft, whether it be a 
cargo aircraft or whether it be a multiple type, which would be 
cargo and passengers, there are procedures in place.
    In talking to the Inspector General and others, they have 
tried to subvert that over the last few months and get cargo 
screened. They have not been successful one time. So that gives 
me a little bit of early observation.
    In talking yesterday with some of the airline executives, 
FedEx and others, they have some specific concerns that I would 
want to talk about in a classified briefing. They have given us 
some pretty good ideas of how they could close those loops, 
potential loops, and we are going to be working very closely 
with them to take those recommendations and see how we can make 
that better within reason and we will keep this committee 
advised as we go along.
    Mr. Serrano. Thank you. Let me clarify something for my 
information. You will be hiring directly these 40,000-plus 
folks or you will be contracting out to folks who then will 
hire these folks?
    Mr. Magaw. We will have the job descriptions written and 
then we will contract it out. We have identified good training 
companies all over the country. We will be able to give them 
the training packet as to how it is to be done and make sure 
that they are complying with that so it is consistent around 
the country, keeping it in regions, using some community 
colleges and other places to get the training done in a 
reasonable time and with consistency.
    Mr. Serrano. I am sure, Mr. Secretary, that you are trying 
to do the right thing. Let me just close by making a comment to 
you which if not fully understood some people may think is 
tacky at this moment of this national crises, but when my city 
was hit and the World Trade Centers came down, those terrorists 
did not single out one group or another, they hit all Americans 
and all visitors and you see what our country is like when you 
see the list of those who are missing and those who died.
    I imagine if you were to put a camera on the battlefields 
right now of where we are you would see the diversity that is 
America in those troops. I hope when we move to the next step 
of security that those employment opportunities and assignments 
also reflect what America looks like.
    Mr. Magaw. If I could just comment for a moment, because 
that is a very important issue to me. In my years on the 
highway patrol in Ohio, we did not have one female, we did not 
have one African-American, we did not have one Asian. When I 
left there, we just received the first African-American.
    All during my years at the Secret Service, we had trouble 
getting them to the high policy level. ATF had that problem 
when I went there. We had a lawsuit that we settledand now you 
look at ATF and you will see that.
    This organization, this is the one advantage I have because 
I can start from the top down. This organization is going to 
look like America and if they sat around this table, they will 
look like America and I guarantee you that it will go through 
the whole organization. If you start there, it will go through. 
It has been hard coming up. That will not happen here.
    Mr. Serrano. Well, I thank you so much. That is a very nice 
thing to say and I know you will follow up on it.
    Thank you, Mr. Chairman.

                           REGIONAL STRUCTURE

    Mr. Rogers. When I hear you talk about regionalizing the 
organization, bells go off in my head because my former chore, 
as Mr. Serrano has now, on the Commerce, Justice, State 
subcommittee, is overseeing INS. We do not want your 
organization to look like the INS. We want it to look like 
America, but not the INS organization.
    Are you in any way remotely familiar with INS?
    Mr. Magaw. Yes, I am.
    Mr. Rogers. And is that one you will steer away from, that 
problem?
    Mr. Magaw. We are not going to regionalize at all in terms 
of our structure. The regionalization will only be to help 
recruit so that people do not have to pull their families up 
and move some place for both training and their assignment.
    Mr. Rogers. But you will retain the authority to make this 
organization uniform and responsive nationwide, will you not?
    Mr. Magaw. That is right. Because I will go directly to the 
airport director and all of our assets for that particular 
airport, whether it is air marshals or whether it is the 
investigators or the undercover agents or the person who backs 
up the checkers or the checkers, they will all be under that 
individual person who can come direct to my office.
    Mr. Rogers. And will you have the authority to fire anybody 
like that who does not obey orders?
    Mr. Magaw. You have given me that right in the law and that 
came up a little bit earlier. You have given me that authority 
and I will exercise it.
    Mr. Rogers. Well, that is one thing I want to be sure, that 
we are not creating another INS type organization, which is the 
worst in the whole government.
    Mr. Sweeney.
    Mr. Sweeney. Thank you, Mr. Chairman.
    Welcome, Under Secretary Magaw. I recognize, we all 
recognize the great challenge that you have and, as you said, 
30 days ago this was an agency that barely existed. So I think 
in your subsequent testimony, April 17th, when you are next 
scheduled, there will be more defined questions and we will 
look for more definitive answers. And what I would ask in 
preparation for that is you and your folks work with us, we 
work at developing as best standards of performance evaluation 
that we can on all of the myriad challenges that you are 
facing, issues that you face, so there are really in that 
subsequent appearance some more definitive opportunities for us 
to explore what challenges we all face and what you in 
particular face.
    I have one area that relates to a company in my district 
and I would like some clarity from you. I am concerned about 
the interactions between the department and the various 
existing airport security companies, how we are going to 
utilize them. I understand that all are going to stay under 
contract or most are going to stay under contract until 
November.
    Command Security happens to be one of those companies that 
happens to be in my district, so you will understand my 
particular interest here. It is domestically owned and my 
question fundamentally begins with will each of the companies 
be dealt with individually or separately? There are other 
companies that exist out there, many of them rather infamous at 
this point in time, who have lesser records that this 
particular company and some others that exist.
    After November, what happens with the expertise that these 
companies have developed? What happens? How do they fit in the 
system or will they fit into a system at all?
    And, in the meantime, what procedures are you going to use 
with these companies to award the contracts at the five test 
airports that are called for?
    And, finally, will domestic companies be treated any 
differently--or will foreign-held companies be treated any 
differently than domestic companies? Will there be preferences 
for domestic companies?
    And I ask this because the point has been raised--some of 
those who run some of those security firms are very successful, 
have very successful security records, they are feeling as 
though this is a government taking and the principles of 
eminent domain ought to be applied here and I am also concerned 
that maybe what we are doing is we are throwing the baby out 
with the bath water, where in that process going to lose some 
real quality expertise that could be used and help you expedite 
the challenge that you have before you.
    Mr. Magaw. Congressman, we plan to use every bit of 
qualified expertise that is out there right now. Yes, once the 
federal force comes in, once they are all trained and 
everything, the company responsibility and that contract will 
go away, but the people do not have to go away. If there are 
people within the company that qualify to come on and 
becertified and become supervisors of the federal screening force, we 
are going to give them every opportunity to meet that requirement. But 
the contract with the company will go away as soon as we get the 
federal force in there. That is the direction I have in this law.
    Mr. Sweeney. How will you deal with the individual 
companies? And I'll give you a specific example, the 
Argenbright firm versus a Command Security firm, there is a 
great disparity in their records.
    Mr. Magaw. Hugely different. We will come in, look at what 
they are doing, the federal manager will come in and look at 
what they are doing. If things are being done very, very well, 
then some of those ideas will be put into the national plan and 
every person that they have working for them and with them at 
the time will be screened for possible federal employment. So 
that is about the only way I can answer that question.
    Mr. Sweeney. If I could, I would like to just direct this 
through you to your colleagues from the department and we 
request for this particular firm and others the opportunity to 
come in and talk about the transition period and the post-
November period and if that opportunity could be afforded, I 
would appreciate it.
    Finally, I will just say this. I think there are going to 
be a lot of modifications and I think the fiscal constraints 
especially over time that you are going to face and we are 
going to face in this committee are going to be tremendous and 
I think there will be modifications to the underlying bill and 
one of the notions I had, I am hesitant to go in this area, 
just because I know that the chairman, as he mentioned, the red 
flags went off when anyone talked about regionalization because 
of some past experiences with the INS and other agencies, the 
idea of hiring interior managers for every airport in the 
nation seems to be a little bit duplicative.
    I know in my region, for example, there are three airports 
that probably all have similar experiences, similar challenges 
in terms of security and the notion that you hire a U.S. 
Marshal-like figure to really oversee the security of those may 
save money and that may be something we find appropriate later 
on.
    Have you had thoughts about that? And maybe you could 
comment on the need for flexibility or the lack thereof. I know 
there is some flexibility in the law for you and where would 
you recommend we look next?
    Mr. Magaw. What we are going to do is, when these internal 
managers are out there, if you have an airport that has four or 
five flights a day and you have an airport close by that has 
the same number, can we do that with one manager?
    I believe the answer is yes, but I would want to bring that 
back to this chairman because as the law is set, I think it was 
the intention that you would have one at each place and I would 
want to make sure it is clear that, yes, you have an airport 
manager for this airport and this airport, but they are one and 
the same. And so I would want to work that through. And we will 
be able to resolve that, I think, or at least get to the 
discussion phase, when these interim people go in here in a few 
days and work with that.
    Mr. Rogers. Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman. I want to apologize, 
the committee on which I am ranking member is meeting as we 
speak and I needed to be there for a least a portion of that 
and I will be going back shortly. I had intended, actually, to 
sit quietly and listen to what others were saying, but that 
only lasts for a very short period of time. I have now heard 
what some others have been saying and so I do have a couple of 
comments to make.
    To you, Mr. Magaw, you have a big job and you have made a 
commitment to make your organization look like America from top 
to bottom. That is something that you cannot hide from because 
one of these times you will be here with six or eight of your 
management people and it will become obvious how you have 
worked on that. So I am grateful for your commitment on that 
matter.
    The Secretary of Transportation recently--I am going to 
comment mostly on non-air things, I guess, because I suspect 
those have been covered rather well here. The secretary had 
given you the charge, to focus mainly on aviation and so I am 
sort of curious at this point, recognizing that you are new and 
your full management team is not in place and following up a 
law that is less than 60 days old, how much of your effort has 
been on the aviation side up to now? Just as a kind of a 
benchmark.
    Mr. Magaw. Well, a lot of my work up until now has been 
building and growing and maintaining a structure and writing 
job description for these directors. But I would guess you 
would say 75 percent, but it is clear--and the secretary was 
very clear when we interviewed for this job that he wanted to 
make sure that in light of all of the attention on aviation 
that we were paying attention to the maritime, that we were 
paying attention to the railroad and all of that.
    And in transportation, we have administrators for each one 
of those areas and in my organization I am hiring people at the 
top level that have expertise in each area. So we are going to 
pay attention to it as we move along.
    Mr. Olver. Okay. Well, I am actually gratified to hear that 
it is 75 percent of your time. There is not much getting out in 
the public awareness that there is much going on other than in 
air transportation. Of course, 9/11 had an enormousand profound 
effect upon the whole travel and hospitality industry all over the 
country, it was not just the devastating effect in Boston and New York 
and Washington that we have seen, but a very, very profound effect on 
the whole of that industry. And we have rightly spent a good deal of 
effort on that.
    At the same time, my guess is if there are cells out there 
that are trying to create the next major problem for the U.S., 
seeing what a profound effect it had on our economy and 
employment and so on, that it is not likely to be in the air 
area where so much effort has been put down. I mean, where 
would one disrupt the transportation system without a major 
loss of life?
    Well, it probably would be something like the bridge and 
tunnel crossings of the Hudson River and you might attack a 
couple of places at once, the San Francisco area, the Bay area 
and so on. That would have a tremendous effect.
    On the other hand, probably the most profound effect upon 
the American psyche would be attacks upon something like a 
train or subway system, transfer points where there are a huge 
number of people going quickly from one place to another in 
transfers. Lives would be much more at risk than from an attack 
upon a tunnel directly or bridge crossings and so forth.
    And so those issues of the bus systems at major transfer 
points, our subway systems and our train stations, I think we 
need to get at those pretty quickly and, of course, ports are a 
little bit different, from these other things that I mentioned.
    Mr. Magaw. You are right on mark and the ports are 
important not only because of the ports but also because of the 
cruise ships. So we really have to get at every area that you 
have discussed. You have hit it right on the head.
    Mr. Rogers. Thank you.
    Mr. Wolf. Chairman Wolf. My predecessor in this chair.
    Mr. Wolf. Thank you, Mr. Chairman.
    Mr. Magaw, welcome. You just seem to be a glutton for 
punishment. We go from point to point in all these tough jobs, 
but I think you are a good appointment and I welcome you and 
wish you well and I know the chairman and the committee will 
work with you.
    I have two questions and if they have been asked then 
somebody can just tell me and we will just look at the record.
    One, Mr. Rogers and I worked together and we put language 
in last year mandating that the airlines, Kuwaiti airlines, 
Saudi airlines, share the manifest with us before. What is the 
status of that? Is that now being done? Do the Saudis currently 
give you the manifest and do you have it now?
    Mr. Magaw. I will have to answer that question specifically 
on Saudi because----
    Mr. Wolf. Well, the Saudi, Kuwaiti, everyone should be 
complying.
    Mr. Magaw. Most of them are. About 83 or 85 percent are. 
There are a few airlines that do not have the technical 
capability to do that and we are working that with Customs. In 
fact, it is probably more near 90 percent. We are working with 
Customs now to try to figure out how we can help those who do 
not have the technical capability, the information systems, how 
we can work with them to meet that requirement. We are not 100 
percent there, but we are fairly close.
    Mr. Wolf. What airlines are not complying?
    Mr. Magaw. I would have to get that list for you.
    Mr. Wolf. If you could share that with us for the record, 
because, you know, the Saudis did not want to do it and if they 
are not complying at a certain point I do not believe that we 
should allow them to land.
    Mr. Magaw. I think the only ones that are not complying now 
are those that do not have the technology and the Saudis have 
the technology, but let me make sure I get that answer back to 
you. We are very close to being 100 percent.
    Mr. Wolf. Okay. Secondly, is all the information being 
shared now with--are your computers tied in with the FBI and 
INS with regard to if somebody in a consular's division over in 
whatever country is picking up something, they notify the FBI, 
are you being notified?
    Mr. Magaw. Yes.
    Mr. Wolf. You are now part of that link?
    Mr. Magaw. We are not part of the link yet because I do not 
even have the machines and the systems, but we will be. And I 
get a briefing every morning, I participate with the secretary 
on the CIA briefing and others. There is a good intelligence 
unit within FAA that will be coming to this unit. There is a 
very good intelligence unit in the Coast Guard.
    So I want to make sure that I do not create another entity 
here, I want to make sure that when we form this that we have 
somebody at the head of this organization that can walk in to 
the head of every intelligence agency in the country and be 
received as one who is totally qualified and understands so 
that we have that free flow.
    The airport directors, when they are in place, we are going 
to put direct secure lines to them so that we can communicate 
with them on a moment's notice.
    We will get to where you are talking about as TSA. As TSA 
we are not there yet, but we are there yet in terms of me 
knowing----
    Mr. Wolf. And you have not seen anybody notcooperating in 
the federal government, law enforcement?
    Mr. Magaw. No, in fact, I went to--we have asked the CIA, 
we have asked the FBI, we have asked NSA and the White House to 
give us recommendations of who they think should head this 
unit.
    Mr. Wolf. Okay. And the last question is there were stories 
that the FAA and some of the airport security people were 
sharing pictures of the FAA teams in order so that the airport 
would have a very high rating. In essence, the FAA had a team 
that would try to breach security. Some of the airports were 
sharing the pictures of those people on the team so that they 
would be apprehended and the airport would have a good record.
    If you find that taking place, what are you going to do 
about that? What should an airport operator know, that if they 
do that and share the pictures of anybody?
    Mr. Magaw. I would discharge them for an offense like that.
    Mr. Wolf. No, but what if it is a private operator who 
wants to show that his or her airport is doing very well in 
screening and therefore they are letting people know at 
security that this person is going to try to breach it, this 
person is going to try to breach it, and you are trying to do 
it to find out if the system is working? What will you do to an 
airport that you find is doing that?
    Mr. Magaw. I would make every effort in this transition 
time to replace that company with another company.
    Mr. Wolf. But not only the company, at times, it was 
actually the airport. It was actually the airport. At Dulles 
Airport, they were circulating pictures of the FAA team that 
was trying to breach security to see if it worked. They had the 
person's picture up so that the security people were able to 
say, okay, I see this person. Then they shut that person out 
and their ratings look very, very high.
    If you find that any airport authority is doing that, what 
would your intentions be?
    Mr. Magaw. Well, my intention would be to have it 
discontinued immediately and I would have to look at what laws 
you have given me that I could--if there is a violation of law, 
I would certainly charge them.
    The other thing, and I have talked to the Inspector General 
about that, he has teams that rotate all the time, different 
people on different teams and they rotate all the time going to 
these airports and I have encouraged him to continue.
    Mr. Wolf. Are you going to have a team doing that, too?
    Mr. Magaw. I will have to discuss that with the Inspector 
General. I could have.
    Mr. Wolf. But does not every law enforcement--I mean, the 
police department usually has a division to make sure that 
things are working, the FBI has an Office of Professional 
Responsibility. Are you not going to have a group to make sure 
that the system is working and it cannot be breached?
    Mr. Magaw. No, I will have an office of inspection and we 
will try to make sure we coordinate with the IG so that if they 
are doing certain airports we will do other ones so that there 
is----
    Mr. Wolf. I would hope and encourage you to do that because 
that was part of the problem at the FAA, I think, in the past. 
They really did not want to show that there was a problem and 
therefore they were not--so I think you should try to breach 
your system as much as you possibly can to find out if there is 
a problem and I would hope that you would have an office that 
would have that responsibility.
    Mr. Magaw. The airport directors also--the new federal 
airport directors are going to have the authority, too, to call 
in teams and take a look. We will do those kinds of things that 
you are talking about.
    Mr. Wolf. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    We have two votes on the floor back to back and so I am 
going to declare a recess here for 10 or 15 minutes at least. 
Immediately after the second vote we will resume the hearing. 
And we will try to conclude near the noontime hour. So we will 
stand in recess briefly.
    [Recess.]
    Mr. Rogers. The committee will be in order.
    We will conclude the session very soon. I appreciate the 
fact that you are here during the lunch hour and I apologize 
for the delay that we just had with the votes on the floor.

                      EXPLOSIVE DETECTION SYSTEMS

    Back briefly to the explosive detection systems. This is 
going to cost a huge amount of money (a) to acquire the 
machines and (b) to rearrange airports at great expense. I 
assume that in the final analysis, at our expense. At any rate, 
we are talking about billions of dollars, are we not?
    Mr. Magaw. Yes, sir. We are. The installation is going to 
be fairly expensive, too, even after the walls are removed.
    Mr. Rogers. Yes. I live with the fear that we are going to 
spend these billions of dollars and rearrange every airport in 
the country at great expense, to them and to us, and then when 
we get all this done we will discover that there is a much 
simpler, cheaper way to detect bombs in luggage. And we will 
ask why did we not think about this before we disrupted the 
whole system?
    Is that something I should worry about?
    Mr. Magaw. Well, it is certainly something I am worried 
about and going to pay attention to and will keep you advised 
on, Mr. Chairman. That is one of the reasons we are taking a 
look at this whole package. These machines can cost up to 
almost a million dollars. If we are going to buy these and 
there is going to be a larger group producing them, can we not 
get that price down some? And along with that where is the next 
technology? There has to be the next technology somewhere and 
if it is three or four years down the road, that is one thing. 
If it is six months or a year down the road, that is a totally 
different item.
    So as we mentioned in our conversation yesterday, I am 
reaching out to hire some of the best engineers that I can 
find, those that have been in the private sector and those that 
have been in the public sector so that we make sure that 
somebody every day is constantly watching this for me and 
making those kinds of judgments.
    Plus, as you talked about yesterday, and it is so important 
to us, what technology is out there? Are we listening to 
everybody? Is there somebody out there that has technology that 
has not had the funds to bring it forward?
    We need to look at all of that and we do have a group that 
are receiving all of the inquiries, looking at them. If they 
make some kind of sense or are something we possibly could use, 
then we are asking the people to come in and present it to us.
    So we are trying to do the very best job that we can, also 
interfacing with other entities in government and the private 
sector to make sure there is not being something done out there 
that we would miss.
    Mr. Rogers. Well, I just have to believe in this 
technological age in which we are now involved that there has 
got to be a much simpler, less expensive way to do what we need 
to do. And I would hope that your folks would be out there 
searching every angle, every nook and cranny of the 
technological world to find this.
    I know last year, the subcommittee looked at the Rome 
airport. They have done a masterful remodeling job based around 
security. This was before 9/11, obviously, and they have done a 
huge job, but down underneath, in the basement where all the 
baggage goes, it is a maze of computer-driven carrier belts 
that route a particular piece of luggage any number of ways.
    But in the security aspect, they have the machines that we 
are talking about, the L-3 in-line, but they first run all 
baggage through a regular X-ray machine, and only if they are 
still unsure about something does that bag go to the more 
complex CAT scan machines, which we are talking about here. And 
they do not need as many CAT scan machines, therefore, at 
greatly reduced cost and space requirements. Is that a 
possibility?
    Mr. Magaw. Well, we are going to look at that, every 
possibility that we can find. The backscatter technology that 
is out now, it just seems--we are using it on the borders in a 
couple of places and it really--very quickly, when you look at 
it, it tells you what is there, it is so clear that very seldom 
has any----
    Mr. Rogers. Well, I am just going to say this. It is not 
humanly possible for you to acquire the 2000 machines that we 
need by the deadline. That is not going to happen. It is 
humanly impossible for these two companies, even if they 
outsource or whatever, to get that many machines made and in 
place by the deadline.
    And so we are looking for alternatives. And I just want to 
tell you, unless I am assured that you have checked every nook 
and cranny for alternatives to building these huge, expensive 
machines, we may be hard to get along with. And I have just got 
to believe out there somewhere that there is an answer to this 
problem. You have a deadline to meet and we are going to insist 
upon the deadline. You had better be looking for other ways, 
because you are not going to get there on this route, and I 
think you know that.
    You cannot admit it to me, but I think you know that.

                       BUDGET REQUEST FOR FY 2003

    And that brings me to the budget request. We appropriated 
$2.3 billion for TSA or the FAA in '02. You are requesting for 
next year, '03, $4.8 billion. I think it is very unlikely that 
the combined amounts of '02 and '03, will be enough to meet the 
mandated deadlines that we have laid before you, unless you 
find some way around this big machine problem.
    The IG estimates that the cost to acquire and install these 
systems could cost about $4.8 billion, $2.5 billion for 
acquisition and $2.3 for installation. I think those are 
conservative numbers.
    Operating costs in '02 alone are estimated at $2.2 billion, 
bringing the screening costs to therefore $7 billion. That does 
not include sky marshals, management, security improvements on 
other modes of transportation. So you have a huge shortfall in 
the making.
    The budget request is far short of what will be needed 
unless we change course here somehow, but the department has 
been silent on how much you are going to need to meet these 
deadlines or when you are going to get to where you can tell us 
what the amount is going to be.
    Any request after April 1st is not going to give us 
adequate time to review it--after the middle of April--so we 
are going to need from you some detail on how you plan to use 
this $4.8 billion, and how far short that is going to fall in 
the real world.
    Other committees can deal with ideas and with platitudes. 
We have to deal with everyday existence. We have to pay the 
bills and we cannot pay them unless we know what the bills are 
and what they are being used for.
    So I just plead with you to get that information to us as 
quickly as you can so that we have time to digest it, run it 
through the machinery that it has to go through before we can 
make a decision on it. Is that a fair request?
    Mr. Magaw. Yes, sir.

                                CAPPS II

    Mr. Rogers. Mr. Magaw, it is very obvious that the airline-
developed CAPPS system did not work very well last year. No 
surprise, really, looking back at it. On that day, 19 
terrorists got by the CAPPS system and were allowed on 
aircraft, even though some of them had known contacts with 
other terrorists and others were on expired visas. One of them 
at least had a stolen identity. So the system broke down, what 
system we had.
    If at that time we had homogenized profiling data from the 
FBI, the INS, other agencies' databases, and that information 
had been available to whomever screened people onto the plane, 
we very well may have prevented that disaster. And so that is 
where I want us to focus our attention, a better CAPPS system.
    I do not know whether that should be done by the airlines 
or in conjunction with your agency or just how. My guess is 
that we will not get these agencies to share this kind of data 
with anything other than a very secure governmental agency, 
i.e., yours.
    My question is how will that information, when you get it, 
be practically applied on the ground to prevent another 9/11?
    Mr. Magaw. Two areas, Mr. Chairman. There is technology out 
there now that when we ran the names of the 19 it kicked out 17 
or 18 of them. So that technology is there. And we are going to 
be working with all the other federal agencies to try to get 
that technology, not in duplication, but shared by all. We are 
using some of our research funds to do that as we speak and I 
will be able to update you on that as we move along. But your 
thoughts are exactly right, there is so much information out 
there, properly handled with meeting all the guidelines for the 
safety and freedom of the American public that we can do a much 
better job in this area.
    Mr. Rogers. Well, I agree and I want to be kept up to date 
on that as we go through the process with private briefings of 
our committee, confidential briefings as we go along, not 
necessarily a hearing, but the briefing process. I do not want 
to take so much of your time away from what you are doing, but 
we do want to be kept informed.
    Can I say that at this point in time the other agencies 
that handle classified security information are on board, 
cooperating, working with you on creating the shared database?
    Mr. Magaw. I have not delved into that enough yet. That is 
why I am trying to get this intelligence--one of my major 
assistants in intelligence to start working with that every 
day, so I have not had time to delve into it. The technology is 
there, the cooperation of the heads of the other agencies is 
there. It is a matter of us spending more focused time in that 
area to see exactly where we are.
    Mr. Rogers. Well, we hope Homeland Security would be on top 
of this.
    Mr. Magaw. Absolutely. And Homeland Security, virtually 
everything we do is in coordination so that we are not going 
different directions.
    Mr. Rogers. They are working with you?
    Mr. Magaw. That is right. Yes, sir.

                            COCKPIT SECURITY

    Mr. Rogers. Now, cockpit security. Let me just deal quickly 
with some of the other issues. We have focused on screeners and 
checking baggage and all of that. What about the real cause of 
September 11? Frankly, the proximate cause was intruders 
gaining access to the cockpit, the last line of defense. Where 
are we?
    Mr. Magaw. The cockpit doors on virtually all the big 
airliners and most of the smaller ones have the doors 
reinforced on a temporary basis and they are functional. What 
we are doing now, too, is developing a replacement door and as 
those replacement doors--again, the technology is there, some 
of the designs are finished and the phase two would be to 
replace the existing doors with the new fully armored door.
    Mr. Rogers. We gave you $100 million for that very effort 
this past year. When do you expect that to begin to take place?
    Mr. Magaw. I'll have to get back to you on the date on 
that, Mr. Chairman.
    Mr. Rogers. All right.
    Mr. Magaw. The doors now are being examined. There are two 
or three that they are trying to be decided on, but I will have 
to get back to give you the specifics on that, so we will do 
that.

                              SKY MARSHALS

    Mr. Rogers. The sky marshal program, an equally important 
part of the cockpit security efforts. We were told last 
November that the program was being slowed not by the pool of 
candidates, but by a lack of training capabilities, facilities. 
We provided $15 million last December to address that problem. 
Have we got that under control?
    Mr. Magaw. The Federal Law Enforcement Training Center in 
Georgia has a complex in New Mexico that we have been able to 
virtually take over that operation. We bring the personnelin to 
Atlantic City, do the initial briefings, the ethics briefing, the 
personnel papers, then we fly them out there to New Mexico and bring a 
fresh class back. So we have--right now, I think we have four classes 
going on out there.
    They vary in size because every two weeks we want to start 
one and so we will start with whatever we have. Some of them 
might be two classes totaling 70 at one time, others will be 31 
or 32. But those classes are in session and that rotation is 
working very well.
    Mr. Rogers. What is the duration of the training program?
    Mr. Magaw. Until we get to the point that we have the 
number that you and the rest of us believe is a good number, 
that has not been decided yet. I can discuss that with you in a 
closed session.

                         ARMING OF FLIGHT CREWS

    Mr. Rogers. All right. Now, what do you think about arming 
the flight crews with non-lethal weapons like stun guns?
    Mr. Magaw. The Justice program that is doing that study is 
supposed to be getting back to us within a few weeks with their 
recommendation and their reports. I want to study that, I want 
to make a decision fairly soon after that, also in conference 
with your committee, and with the secretary's approval we would 
move forward.

                  BUDGET FOR MODES OTHER THAN AVIATION

    Mr. Rogers. On other modes of transportation, other than 
aviation, how much of this $4.8 billion budget request for '03 
would be used in areas other than aviation?
    Mr. Magaw. It is a little too early for me to tell that. I 
am in the process of, as I mentioned before, hiring the 
equivalent to a top assistant for maritime, for the railroads 
and for the trucking and bus and once I can get them on board, 
which I would hope to do that within a few weeks, I would want 
them totally looking at that program so we could get some sense 
of what we are going to be able to do and what that would cost.
    Mr. Rogers. You gave us a copy of your organization chart.
    Mr. Magaw. Yes, sir.
    Mr. Rogers. We have looked at it. Is that a finalized 
chart?
    Mr. Magaw. It is finalized in my judgment to this level, to 
the level that you see it here, and the secretary has approved 
it at this level. I think the Equal Employment Opportunity 
unit, I think that will be renamed as Civil Rights, but it is 
really all the same issues.
    You can see that top line going across there, the eight 
boxes. That is the staff that will actually run this 
organization every day to make sure that we are keeping on 
track with spending, we are keeping on track with the 
timeliness, the goals, that we are keeping on track in terms of 
budget and that we are meeting the strategic plan.
    This organization will be driven by the strategic plan and 
this is the group that will drive it every day as a single 
entity. That way, every part of the kind of things that you are 
concerned with, whether it be maritime, or railroads or 
training or intelligence or inspection or financial things or 
goals performance, will all be represented in what we do every 
day.
    We installed this in the Secret Service a few years ago and 
it was successful. When I went to ATF we installed it and if 
you are running a shortfall, for instance, on something, that 
whole team meets, they decide what it is that they are not 
going to do in order to do what now becomes a priority.
    So it has been very successful. I installed that at ATF 
when we went there right after Waco and it has performed very 
well for seven years there. You just cannot make decisions in a 
vacuum and these people will not allow you to do that. They 
will not allow any other entity to do it and it has proved very 
successful.
    Mr. Rogers. Well, it has in the past, and you are to be 
commended for it. We only wish you the very best and that it 
works in this instance as well.

                      USE OF FORMER FAA PERSONNEL

    Now, one thing bothers me a little bit. I believe your plan 
is to bring into TSA virtually the entire FAA aviation security 
organization that was managing these efforts before 9/11.
    Let me just note that if Congress wanted the FAA to 
continue with security, we would have said so, but we did not. 
We took it away from FAA and gave the mission to the secretary 
and consequently TSA. That was not an accident, there was a 
very important reason. This committee has been very critical of 
how the FAA managed its aviation security operations. Make us 
feel comfortable that this is no longer going to be the case, 
that FAA, the old way, is not going to prevail.
    Mr. Magaw. The old way, as you refer to it, did not satisfy 
you. I was not here, but I know clearly what you want. You know 
clearly what my intentions are. And whatever changes need to be 
made, we will make.
    The Secretary is very clear on that and so is the Deputy 
Secretary, to the point that a decision has not been made yet 
of what personnel will come to me and what will not. That is in 
a discussion phase right now. And it is at the Secretary's 
level. So he clearly understands.

                          PERFORMANCE MEASURES

    Mr. Rogers. Last year, long before 9/11, the problem this 
committee dealt with, and took upon ourselves in a real 
detailed way, was the airline delay problem, which a year ago 
people recollect was a real problem. And we brought a panel of 
experts from variousaspects of the problem here, and we brought 
them back from time to time. I thought it was a very effective way of 
addressing that problem and I think it produced some results.
    Obviously, that problem has gone away now, but the problem 
we are dealing with, of course, is security, principally 
airline security, but also others. We are talking and thinking 
about re-instituting that type of periodic temperature taking, 
if you will, of security, TSA, to have a group of people that 
would be here from time to time to keep us informed.
    And so by our next hearing, April 17th, I want to develop 
specific performance measures, objective checkpoints along the 
way to effectively evaluate how things are going. So I just 
wanted to be sure that you understood that what we are thinking 
about doing. We are talking with the IG, among others in your 
offices, about ways to do that objectively, and hopefully 
reassure the American traveling public that things are on track 
and doing well or where there is a problem. I do not want us to 
hide our heads in the sand and say there is not a problem when 
in fact we know there is.
    We cannot afford another mistake, so I would hope that you 
could see your way clear to help us with it.
    Mr. Magaw. We will be happy to do that, sir. We will be 
very responsive.
    Mr. Rogers. I want you to know, Mr. Under Secretary, that 
this subcommittee wants to be helpful to you. We are not here 
to stand in the way or block by any means. We are here to 
promote and help and push and shove and hopefully furnish 
enough money for you to do the job with. So rest assured that 
we have a telephone line that is open to you, my office and the 
committee's offices are open to you. And feel free to ask. We 
may not be able to provide, but we can certainly try. But we 
wish you every success, obviously, in this job. You have a huge 
chore that you are trying to handle. We appreciate your coming 
out of retirement, I think it was, was it not?
    Mr. Magaw. I was still working with terrorism, helping FEMA 
prepare for response to terrorism events, but I was not near 
this----
    Mr. Rogers. As busy? Well, we appreciate your public 
service and the national chores that you are doing for all of 
us. And we, as I say again finally, we wish you every success.
    Mr. Magaw. Thank you, sir.
    Mr. Rogers. Thank you.
    The hearing is adjourned.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, April 17, 2002.

                 TRANSPORTATION SECURITY ADMINISTRATION

                               WITNESSES

MICHAEL JACKSON, DEPUTY SECRETARY, U.S. DEPARTMENT OF TRANSPORTATION
KENNETH M. MEAD, INSPECTOR GENERAL, U.S. DEPARTMENT OF TRANSPORTATION

                      Chairman's Opening Statement

    Mr. Rogers. The committee will be in order. This morning we 
will have our second hearing of the year on the budget requests 
and start-up activities of our newest agency, the 
Transportation Security Administration (TSA). At the time of 
our first hearing on February 6, TSA was just getting started 
and their first budget had just been submitted. So we gave the 
agency more time to provide details of their budget and tell us 
how they want us to measure and judge their performance.
    Unfortunately, even today much of this work remains to be 
done. The agency has a long way to go justifying its $4.8 
billion budget request for next year and they can only describe 
about half of the $4.4 billion supplemental request which was 
recently submitted.
    Much of this stems from an inability to make a decision on 
how to proceed with the deployment of explosive detection 
systems. This lack of detail and lack of crisp decision making 
by those in charge will not be tolerated much longer by this 
subcommittee. We have a responsibility to make sure you are 
spending money wisely--we are talking lots of money--and we 
cannot do that unless you provide budget details and answer 
questions in a timely manner.
    I am also disappointed that TSA has not yet developed 
performance measures by which we can hold them accountable. I 
mentioned that as a top priority to Under Secretary Magaw when 
he was here in February. These measures have still not been 
developed and approved, and DOT included no performance 
measures in its recently issued performance plan.
    Well, so be it. If you cannot do it, we will. I have 
developed my own lists, which I am sure surprises you, which I 
will share with all of us today. These measures will be put on 
a board back here. You may have seen something like this 
before, and we are going to use that board to track your 
performance all through the year. Racetracks have these boards. 
We are not going to be doing any betting on whether or not you 
achieve your goals.
    Mr. Callahan. Yes, we are.
    Mr. Rogers. But do not be surprised if there is money 
involved in whether or not you meet your goals. We will have 
the agency back in a few weeks, and we will see how you are 
doing. We will expect improvements and we will hold you 
accountable in the budget process. Mark that down. If anyone at 
TSA doubts the resolve of this subcommittee, let them ask other 
agencies what happened to their executive performance bonuses 
when they did not meet their goals.
    The taxpayers expect us to hold agencies accountable, even 
law enforcement agencies, and we will make sure it happens.
    TSA has a huge challenge ahead of it with strict 
Congressional deadlines, but that does not give the agency a 
license to grow into a huge bureaucracy. I am deeply concerned 
over reports that TSA projects a work force now estimated at 
72,000 people, when the estimate was only 30,000 just a few 
months ago. I am deeply concerned when I hear the agency may 
pay $1.6 billion this year for screening contracts that the 
airlines paid $400 million for last year. I do not know where 
we get jumping this four times in just one year, and I am 
concerned when the IG says that the agency is not taking 
adequate control over how it spends money.
    Finally, TSA must do more to coordinate effectively with 
the 429 commercial airports in the country. That is where 
airport security largely takes place. It is where the rubber 
meets the road in security. TSA expects to do an effective job 
without the close involvement of airport officials, and what I 
am hearing from airports all around the country is that 
cooperation from TSA has been, to put it mildly, poor. TSA must 
work cooperatively with airports, not impose its will on them.
    We want to hear some of those issues today and help steer 
TSA toward a more effective relationship with the nation's 
airports.
    We are glad to welcome back today the Honorable Michael 
Jackson, the Deputy Secretary of Transportation, representing 
the TSA--the Director is unable to be with us today; the 
Honorable Kenneth Mead, the Inspector General of DOT; and 
representatives of four airports, who will give us case studies 
of the issues faced by individual airports as they try to 
accommodate new security systems, procedures, and staff in a 
very short time frame.
    Let me welcome Mr. James C. DeLong, the Chief Executive 
Officer for the Regional Airport of Louisville in Jefferson 
County, Kentucky; Mr. James J. Welna, the Director of Public 
Safety for the Metropolitan Airports Commission in Minneapolis, 
Minnesota; Mr. James Koslosky, Aeronautics Director for the 
Gerald R. Ford International Airport in Grand Rapids, Michigan; 
and Jeffrey Fegan, CEO of the Dallas/Fort Worth Airport in 
Dallas, Texas.
    Gentleman, we want to thank each of you for coming from out 
of town to offer your testimony today. It will be helpful to 
see the kind of problems that are cropping up at individual 
airports, particularly as we see TSA's requests for funding.
    We would like to hear a brief oral summary of the statement 
in the order in which I mentioned your names, with Mr. Jackson 
first, and we will make your complete written statement a part 
of the record without your having to read it, and we would 
welcome in a moment your oral summary of your testimony.
    First, let me recognize Mr. Sabo.

                      Mr. Sabo's Opening Statement

    Mr. Sabo. Thank you, Mr. Chairman, and welcome to all the 
witnesses this morning. I would echo everything the chairman 
said in terms of our expectations. I find it incredible that we 
are at this point in late April and we have no detail to speak 
of for next year's budget, and virtually none for the 
supplemental that we have before us, which I assume people want 
acted on rather quickly.
    That is just totally unacceptable. I think all of us 
understood the difficulty of getting started. I think this 
committee showed a great deal of patience at earlier hearings. 
But as we have looked at all the money that is being requested, 
I think most Members at the point in time that they voted for 
the authorization bill which was signed by the President, 
thought that it was self-financed. All the money we are looking 
at in the supplemental, the 4.4, is money from general revenue.
    My understanding is that as we look forward to next year 
the fees from the tickets and the airlines will be around 2 
billion. The budget is 4.8. That is another 2.6 billion coming 
from general revenue, with the nonair traveler paying the bill. 
We are looking at, as I recall, about $3 billion of general 
revenue for the operations of FAA. This is lots and lots of 
money that could fund lots of things, and we need to know that 
that is being spent in the most important fashion.
    The obligation of this agency is not only airports, it is 
the balance of transportation security. We are looking at 
spending close to $5 billion this year of general revenue, 
close to $3 billion next year, and none of us really expect the 
$4.8 billion budget request is going to be the total bill for 
next year for the most important transportation security issues 
in this country.
    So we expect much more from the department. We expect more 
detail. We expect more judgment. We wait for that, and I think 
I and all members of this committee are very disappointed at 
the lack of detail and explanation we have yet today.
    Thank you, Mr. Chairman.
    Mr. Rogers. Chairman Young.

                     Mr. Young's Opening Statement

    Mr. Young. Mr. Chairman, thank you very much. I want to 
welcome all of our witnesses today. You have an important task 
before you and we certainly want to be cooperative and part of 
the solution. We welcome you and look forward to hearing your 
testimony.
    I would like to repeat something Chairman Rogers said and 
Mr. Sabo said. My job is to get this supplemental through the 
House and hopefully through the Senate and to the President. 
The President would like the supplemental through the House by 
the end of April. The Speaker of the House has asked me to do 
everything possible to have this supplemental through the House 
by the end of April, and I am doing everything I can to make 
that happen.
    But I would tell you, with emphasis, we are not in the 
business of creating contingency funds. In this supplemental 
request there are numerous requests for contingencies for which 
we have no idea what the purpose would be or how they would be 
used. So the $1.9 billion contingent emergency appropriation is 
something we need answers for. I hope that your testimony will 
address the issue of when we might get the specifics on that 
$1.9 billion.
    I am also concerned very much about what cost containments 
are in place to ensure we are getting what we expect for the 
dollars we are investing. I am interested in are we getting a 
commensurate increase in security and safety with the 
additional increases in appropriations.
    Those are the things I would like to hear about this 
morning, and I know that you all are interested in having this 
supplemental become law just as quickly as it possibly can, 
but, again, we are not going to move a bill that is full of 
contingencies for which we have no specifics on how those 
monies are to be used.
    Mr. Chairman, thank you very much.
    Mr. Rogers. Thank you, Mr. Chairman. Mr. Obey.

                      Mr. Obey's Opening Statement

    Mr. Obey. Thank you, Mr. Chairman. I would simply like to 
add my voice to what has already been said, and I guess I can 
do it in the form of a couple of questions, rhetorical, but 
questions nonetheless. I guess I would ask does the agency take 
this committee to be a bunch of chumps or do you really expect 
that we are simply going to supinely provide blank checks.
    The Secretary of the Constitutional Convention was a fellow 
by the name of Jackson, and the Constitution that he certified 
that our Founding Fathers had written gave the Congress an 
obligation to hang on tightly to the power of the purse. And as 
the Chairman of the full committee has indicated, we have got 
work to do. We need to work together. But so far with respect 
to the supplemental my understanding is that you have provided 
the needed explanations for only one-half of that $4.4 billion 
that you are asking. And for the new regular appropriations 
bill, so far as I know, you have provided nothing by way of 
detailed explanations.
    I mean, that is the most miserable case of the slows I have 
seen in quite some time. And I would just say we have a 
responsibility to work with you, but we also have a 
responsibility not to appropriate taxpayers' money until we 
know what we are doing. And we are not going to know if your 
agency does not get off its fazagga and get it to us.
    So, Mr. Chairman, I simply want to say that I agree with 
everything that the previous three members have said. I know it 
is very frustrating to be charged with the responsibility, as 
the Chairman Young is, to produce legislation in a timely 
fashion. It is even more difficult when the people who 
areasking for the money don't provide the information that we need to 
comply. So my only message is get with it.

                       CLOSED SESSION DISCUSSION

    Mr. Rogers. Thank you. Just by way of information for 
members mainly, we will be going into a closed session of this 
subcommittee on these topics at 2 o'clock this afternoon. So if 
you have a question or if the witness has an answer to a 
question that needs to be done in a closed setting, let us know 
about that so we can reserve that then for the closed session 
at 2 o'clock. Some of these matters obviously cannot be 
discussed in public.
    Mr. Secretary Jackson, you are recognized.

                  Deputy Secretary's Opening Statement

    Mr. Jackson. Thank you, Mr. Chairman. Mr. Chairman, I would 
like to report that Mr. Magaw is recovering from his surgery 
and will be back on the job next week.

                   TSA EMERGENCY SUPPLEMENTAL REQUEST

    Mr. Rogers. Will you please convey to him our best wishes? 
We hope things are well, and I understand they are.
    Mr. Jackson. Yes, sir, thank you very much.
    Mr. Chairman and members, I understand the frustration that 
you have about our having laid a request on the table for a 
$4.4 billion emergency supplemental without laying at the same 
time the detail that you need to make a decision. I absolutely 
understand that you need to have, that you must have that. We 
expect to be able to provide the remaining detail that we did 
not provide with our original submission in a matter of days. I 
apologize for the inconvenience of bringing it to you 
piecemeal, but we thought that we would give you the parts that 
we knew were clear and that we were certain about. I will 
explain a little bit more in a moment what is to come and what 
is missing. But I certainly understand your frustration and I 
share your frustration.
    It is a very complex set of tasks we are trying to pin 
together. We will do so in the most expeditious manner 
possible. Mr. Chairman, the team is hard at work on these 
issues and our focus is on this mission in delivering the 
requirements of the statute as passed by the Congress. We 
recognize that there is a large amount of money and a large 
challenge particularly for this committee. We are grateful for 
your willingness to roll up your sleeves with us. I promise 
that we will keep ours permanently rolled up in working with 
you.

                               TSA GOALS

    Since we met last February we have had clarity in the 
planning process on the four driving goals to protect 
passengers, checked bags, cargo and the perimeter of our 
Nation's airports. There are questions that I think we will 
have through your conversation today, what is the plan and what 
are we doing to guarantee that we have improved security.
    Chairman Young, we absolutely must prove to you that we are 
indeed using these tremendous amounts of monies in an effective 
and responsible fashion. We will do that, sir.
    The second question this committee must struggle with is 
how much will it cost. We are prepared to talk significant 
details about that today and, in a moment, I will tell you 
about the remaining deliverables and when we can get those to 
you.

                               TSA BUDGET

    How do we think about the problems? Our budget and our 
process is really focused on three things: people, one-time 
capital expenditures to start up this agency and make the 
initial deployment work effectively, and then the capital 
equipment for costs of equipment and other capital investments 
that we make at the start of this program.
    So, if you take those programs and money and you divide it 
into these three categories, we have a matrix that really 
requires the discussion of six levels of conversation: people, 
one-time startup, and capital costs.

                          PASSENGER SCREENING

    I would like to provide a quick status on the substance and 
then move to the money. On the passenger screening side, which 
is one of the major points of our work, we have good progress 
and we have provided details to you on how we would roll out 
the passenger checkpoints screening process through the 429 
airports. We have conducted an intense process redesign that we 
tested at Baltimore-Washington International Airport (BWI). We 
are in the deployment phase for 15 pilot airport tests of these 
principles for passenger checkpoint screening. We have hired in 
the last several weeks three classes of supervisors who will be 
training the screeners all around the country. There are 
approximately 850 people on board with roll-outs in play. We 
have a contract that we are prepared to sign contingent upon 
appropriate funding that will help us do this roll-out.

                           BAGGAGE SCREENING

    On baggage screening, we have looked at this issue with 
great care. Frankly, after talking to airport directors, after 
talking to the industry who has had experience screening 
baggage in the Nation's airports, after reviewing alternative 
technologies that are out there, and after careful financial 
planning, we have stepped back a little bit and revised our 
initial plans about the application and approach to those 
technologies. This is an area that has required resources from 
within and outside of government to make this process work. The 
President himself has been keenly interested in this and we are 
bringing that set of decisions to a close and recalculating how 
to submit an appropriate funding request to this committee. I 
literally expect within a few days we will have worked that all 
through again, put the numbers together, and will give it to 
the committee so you can consider in appropriate detail the 
entire package of the $4.4 billion request.

                              TSA'S BUDGET

    There is no contingency fund here that is out in theozone 
as a protection blanket for this. We have kept the budget lean. We have 
strong and clear needs and we have a very precise calculation of how 
these monies would be used. We will be absolutely delighted to go 
through that in detail with the committee and have all that patched 
together.
    I just want to say a word about the technology because we 
will come back and talk, Mr. Chairman, at your discretion in 
both the closed session and also in a subsequent session. I 
would like to say a couple of words of orientation quickly.

                            CORE PRINCIPLES

    Two core principles for us, as we looked at the question of 
how to take these very large and significant costs in people, 
and equipment, and deliver in two of the core requirements of 
the statute, were the core principles of fairness and good 
security. The same high performance standards are applied at 
all airports. In our plan, everyone deserves and will get world 
class customer service and world class security. Of course, we 
will apply different tools to different sized airports. ``One 
size fits all'' will not work, and I hope that is a welcome 
message to my colleagues on the airport side.
    Frankly, it is through input from them that we are refining 
this approach to try to get it right. We have made changes 
continuously and will continue to make them. For example, next 
week the TSA will be announcing some refinements to the dreaded 
300-foot rule. We think those are good and warranted changes. 
We will continue to work on components of our security package 
and keep the system of systems alive as we look through changes 
in our security portfolio.

                     CURBSIDE CHECK-IN RESTRICTIONS

    We have already, for example, imposed and then removed 
certain restrictions on curbside check-in. I think that is just 
the nature of this operation. It will have changes as we bring 
new security tools on line, and we hope to be responsive to the 
business needs of our airport partners and our airline 
partners.

                     MULTIPLE TOOLS FOR DETERRENCE

    Taken together across the entire system, we will have a 
fair and comparable system using multiple different tools, both 
the two scientifically certified and reliable tools that we 
have for us today, CT scan technology and trace detection. Both 
are very different machines. Both have different pros and cons. 
Again, Mr. Chairman, with your permission, I would like to talk 
a little bit more about that later today. But both have a role 
here in our roll-out.

                               TSA BUDGET

    Let me just say a word about the numbers which we have 
shared in advance with you. Of the three parts, we have 
provided you the numbers for the people and the one-time 
startup costs. We owe you the costs for the people and the 
capital associated with the $1.9 billion. I think that we have 
that just about pinned down and should be able to give you the 
level of granularity that you need. I wish I could give you the 
type of granularity for this budget that you all want and that 
I want for you early and quick. We just have been working 
through this, and frankly, we have tried to use these last 
couple of months to try to get to as close to the right 
solution as we can.
    I think that we have a good plan and it is an expensive 
plan, Mr. Chairman. It is more expensive than we thought. I 
know it is more expensive than you thought. I will defer 
talking about the detailed components of the numbers I have 
submitted so far. I will simply say that I will be happy to 
answer questions about that and any other matters, and thank 
you very much, sir, for your having me here today.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                 Inspector General's Opening Statement

    Mr. Rogers. Thank you very much. Mr. Mead.
    Mr. Mead. Thank you, Mr. Chairman. I think the overriding 
goal for TSA must be to provide tight and effective security in 
a way that avoids waste and ensures cost effective use of 
taxpayer's dollars. That is the value system that should be 
driving us all.
    In February we testified that the cost of good security 
would be substantially greater than anyone had anticipated at 
the time this legislation was passed, and I think Mr. Sabo is 
quite right. Today there is greater clarity on what those 
numbers look like, and they are, in fact, sobering. I would 
like to say a word about the Department to all of you.

                               IG'S ROLE

    The IG's role is to exercise oversight. The challenges this 
law imposes are very formidable, and we are encouraged in most 
respects by the direction the Department has been going in. I 
think we all know that this is a task that has never been 
undertaken before on a scale of this magnitude. This year alone 
we are talking about $6.8 billion, and this is a partial year.

                              TSA'S BUDGET

    I do not know what TSA will look like at the end of fiscal 
year 2003 and what the fiscal year 2004 budget will look like. 
The estimated size of the work force, back when the law was 
being discussed, was 30,000. It then jumped to 40,000. Then you 
started hearing 50,000, 60,000, and today you are hearing 
estimates of somewhere in the neighborhood of 70,000.
    You should also know that after much planning the pace is 
about to pick up substantially in terms of acquisition of 
staff, the creation of overhead, outlays, the acquisition of 
the explosive detection machines, and the acquisition of trace 
technology, which is also used to detect explosives.
    As Mr. Sabo pointed out, the new passenger security fee is 
not going to come close to covering the cost. I think TSA will 
collect about $2 billion this year, and you are looking at a 
budget for TSA in the neighborhood of $7 billion.
    By the end of May, TSA is likely to be out of money, and 
there is some urgency in moving through the supplemental. It is 
also true that they (TSA) have not fully clarified their 
budgetary requirements, particularly in the area of the 
explosive detection machines, the associated staff, and the 
approach that will be required at airports, for checked 
baggage. This is associated with the December 31 date by which 
100 percent of all checked baggage must go through an explosive 
detection system.

                      TECHNOLOGY TO SCREEN BAGGAGE

    I would like to just say a word about the two types of 
technologies that are being used to check bags for explosives. 
One is the explosive detection machines that you have been 
funding all these years. They run in the neighborhood of about 
$1 million a copy, perhaps a bit less. They require fewer staff 
than what is known as the trace technology. The trace 
technology costs about $40,000 per unit, but at the same time 
it requires much more staff. That is the balance the Department 
and other units of government, are trying to deal with.
    At the present time it is a virtual certainty that we will 
not be able to have 100 percent of checked baggage going 
through explosive detection machines, at least the $1 million 
version, by the end of this year. There are several reasons for 
that. One is that the manufacturers cannot produce enough 
machines. Second, even if they could, you couldn't install them 
in airport lobbies. You are going to have to integrate them 
into the baggage system, and that level of construction cannot 
be done throughout the country by the end of the year. This is 
why you are going to have to rely on the trace technology.
    In addition, coming back to the point that Mr. Sabo was 
making about financing, in this entire financing arrangement 
the costs of construction and renovation at the airports for 
these explosive detection machines is not covered by TSA. So I 
imagine you will hear from my colleagues from the airports 
today as to how this construction would be paid for. We know 
that one airport, Dallas/Fort Worth, estimates construction 
will cost about $193 million. We are pegging across the country 
an estimate of a little over $2 billion for construction. I 
think it is also important, that as you start up an agency like 
this, when we are talking about $7 billion, possibly 70,000 
people, that we be ever vigilant for opportunities for cost 
control and cost effectiveness. I have a list of measures. I 
would just like to mention several for the committee to 
consider. We have shared them with the Department and I know 
they are considering some. It will take some time to sort out 
exactly how they can be implemented.

                     OPPORTUNITIES TO CONTROL COSTS

    One is part-time positions. Most of the screeners will be 
full-time positions. However when you have periods at an 
airport where you need to have more staff than you would for 
most of the day, I think they should consider part-time 
screener positions. The cost savings could be enormous.
    Second is former FAA positions. A little over a thousand 
people that were at FAA were transferred over to the 
Transportation Security Administration. They are there now. It 
is not clear to us what plans TSA has for them, how they are 
going to integrate them into the work force. Some of these 
people used to be in charge of security oversight at the 
individual airports, but that is not going to be their job 
presumably any longer. I think that is important. That is a 
$300 million cost item.
    Third is law enforcement positions. TSA's budget includes 
room for about a thousand law enforcement officers. The law in 
fact says there shall be a law enforcement presence at each 
screening checkpoint. This does not mean that you need somebody 
at each screening checkpoint that is paid the equivalent of an 
FBI special agent. For the FBI Special Agent series, the 1811 
series, median pay would be about $95,000 a year. The Defense 
Department uses a series called Police Officer, which seems to 
me to be more suited for the law enforcement presence at a 
checkpoint. Their salary runs about $56,000 a year. We will 
recommend that the Department consider that.
    Also, TSA is forming a Criminal Investigations Division, an 
Internal Affairs Division. They will have criminal 
investigators at airports. I think some scrutiny is needed 
regarding what the role of these people will play and how they 
will interface with the Federal Bureau of Investigation.
    Finally, a word about the security contracts. We all know 
they were low bidded in February by the Department. We took 
them on. You are right, we are paying more than the airlines 
did. I think we are frankly getting more, too, than the 
airlines did, but it is a lot of money. It is about $1.6 
billion. A lot of bills are coming in. We just started an audit 
of this and about 2 weeks ago found that there are not 
sufficient controls in place. I mentioned this to Mr. Jackson, 
and I am sure the Department will take some action to correct 
that. But we need to validate these bills that are coming in, 
especially when we were outlaying $250 million a month to these 
people to make sure that we are getting what we are paying for.
    Thank you.

                       DEMEANOR OF TSA EMPLOYEES

    Mr. Rogers. Thank you. Chairman Young, do you have 
something?
    Mr. Young. Mr. Mead's comments brought to mind some issues 
that we wanted to make mention before our comments get cold 
this morning. All of us travel a lot because of the nature of 
our business, and I am sure you travel a lot. And I have spoken 
with so many people waiting in line to get screened and waiting 
for tickets and whatever it is they are waiting for, and I find 
that nobody really objects to that. They understand that it is 
important that we secure our transportation agencies and our 
transportation facilities, but I would just like to ask Mr. 
Jackson and Mr. Mead, whoever is in charge at any particular 
time, to give these people some sensitivity training because 
some of them are not very nice. Some of them are downright 
rude. And I think that the traveling public is willing to 
suffer the inconvenience because they want to be safe in their 
travel, but at least these people could be halfway friendly, at 
least not be rude. And I just wanted to say that while your 
discussion was fresh in my mind about the screeners and how the 
process would work.
    Thank you.

                          SENSITIVITY TRAINING

    Mr. Rogers. You can respond now briefly or we can do it 
later.
    Mr. Jackson. I will be very brief. We could not agree with 
you more, sir. We are building into the training of our new 
Federal screeners courses on courtesy and elements on conflict 
resolution. This is an absolute mandate for us. It must be that 
way and we will insist upon it.
                                         Wednesday, April 17, 2002.

                 TRANSPORTATION SECURITY ADMINISTRATION

                               WITNESSES

JAMES A. KOSLOSKY, AERONAUTICS DIRECTOR, GERALD R. FORD INTERNATIONAL 
    AIRPORT, GRAND RAPIDS, MICHIGAN
JAMES C. DeLONG, GENERAL MANAGER, LOUISVILLE INTERNATIONAL AIRPORT, 
    LOUISVILLE, KENTUCKY
JEFFREY P. FEGAN, CHIEF EXECUTIVE OFFICER, DALLAS/FORT WORTH 
    INTERNATIONAL AIRPORT
JIM WELNA, DIRECTOR, PUBLIC SAFETY, METROPOLITAN AIRPORTS COMMISSION, 
    MINNEAPOLIS-ST. PAUL, MINNESOTA

                      Mr. DeLong's Opening Remarks

    Mr. Rogers. Mr. DeLong.
    Mr. DeLong. Thank you, Mr. Chairman. I am Jim DeLong, 
General Manager of the Regional Airport Authority responsible 
for Louisville airport in Bowman.
    A brief description of our airport system--first, it is one 
of two of the largest cargo express carrier operations in the 
world, obviously the home of UPS's headquarters for aviation. 
We are a medium hub airport claiming 1.9 million passengers a 
year. We have 15 scheduled airlines regularly serving 
Louisville. Our peak hour is 6:00 to 7:00 in the morning and in 
the afternoon between 4:00 and 5:00 with a max number of bags 
being handled of about 2,100 per hour, and that is critical 
when you start to calculate the number of people as well as 
equipment necessary for operations at our airport.
    I should also emphasize the importance of Louisville being 
in Kentucky, and Kentucky is home to Chairman Rogers, who we 
are very pleased to be in Kentucky with the chairman.
    My remarks today will focus on basically two things, number 
one, the actual cost that we envision for putting in place the 
TSA operation. I will provide some granularity at the micro 
level that Michael alluded to earlier: Costs for checkpoint, 
cost for 100 percent bag screening and cost at the gates 
themselves.
    Also I want to share with you some pending concerns we have 
learned from our experience with international arrivals 
facilities. We are hoping that the Deputy Administrator, or 
Secretary rather, can focus on those as he moves forward. 
First, the cost as it relates to the TSA.

                        ENHANCED SECURITY COSTS

    Pre-9/11, at Louisville International Airport, we spent 
$629,904 on the screening operation. This is strictly activity 
at the checkpoint itself. Globe Aviation Security provided 32 
people to achieve that goal. The airport put a police officer 
doing a 16-hour a day operation at the checkpoint, at a cost of 
$127,000. So the total came to approximately $750,000. That is 
pre-9/11.
    Post-September 11, today, currently, Globe Security has 126 
people, with an average cost per year of $2.983 million. We 
have police officers whose costs are in excess of $500,000, so 
today we are spending $3.5 million.
    I would now draw your attention to a chart that I provided 
in my prepared remarks that tries to dissect what we estimate 
the cost of TSA, including the cost of capital equipment, might 
be once the program is fully implemented. We have had an 
opportunity to do work in this area simply because we initially 
established what we identified as a Beta project and worked 
closely with TSA to determine the numbers of people necessary. 
So as the chart suggests, there would be a need for a director 
of TSA, a deputy manager, security supervisor, and I will not 
go through all the list but you can see that the number exceeds 
250 people necessary for Louisville. That compares with the 
number I stated earlier, 32, pre-9/11. The costs for TSA 
employees we believe to be in the order of $8,635,600, direct, 
that means FICA, that means medical insurance. Others, using a 
factor of 1.4, would be another 3.4 million; and indirect, 
which would include leasing of offices, costs at the 
headquarters and elsewhere of $3.6 million. So a total cost of 
personnel of $15,716,792.
    As it relates to security equipment, we have been told that 
we will require a minimum of nine CTX 5500s and 13 ETDs. We 
estimate miscellaneous costs of $100,000. Amortizing that over 
4 years, which we believe to be the useful life of the 
equipment, we can assume the annual cost of the equipment alone 
would be $2,795,000.
    As it relates to facility requirements, there is going to 
be a necessary beefing up of the structure underneath the 
ticket counter to accommodate these very large machines, wiring 
installation, and a major modification to the checkpoint to 
accommodate more people. That amortized over a much longer 
period of time reflects a cost of $295,000. When you recognize 
that the sum of these three comes to $18.806 million, and that 
we have a total of 1.9 million passengers, the cost per 
passenger, per enplaned passenger, is on the order of $9.90.
    I would remind the committee that the authorizers have 
allowed, to my understanding, a $5 charge, although only $2.50 
is being instituted at this time.
    So again, those are the costs as we understand them based 
on the salaries that we have been provided by the TSA.
    Let me move to another subject, and it is based on an 
experience I have had working in other airports that have had a 
Federal inspection services area housing Federal employees, 
including Agriculture, Customs, Immigration and sometimes 
Health. These are just concerns that I have that I am sure we 
can circumvent if we think about them now rather than in the 
future.

              FOCUS SCREENING EFFORT TO DETECT TERRORISTS

    First, there has been a tendency in the past to enforce 
laws other than the laws strictly dictated by Congress. We hope 
the TSA spends most of its time at the checkpoints looking for 
potential terrorists and not getting into drug interdiction and 
other activities. That is a very important job, but it seems to 
me that it will kind of diffuse the effort that is most 
available to us. That is number one.

                      FLEXIBILITY OF TSA WORKFORCE

    Number two, the appropriations process has historically 
been slow in the international arrivals facility. I can tell 
you at airports we can see 25 percent swings in passenger 
traffic in 12 months. Louisville experienced that in the 1994-
1995 time frame. Providence is experiencing that today because 
of Southwest Airlines. Give the TSA latitude to increase and 
decrease numbers of people quickly as market forces dictate. 
That is point number two.

                DISCRETION OF FEDERAL SECURITY DIRECTORS

    Number three, do not fall into what I refer to as facility 
standardization syndrome. There is a tendency before changes 
are made in a terminal to centralize the decision-making 
process. As it relates to the international arrivals 
facilities, that sometimes takes years. Give the latitude to 
that local director, whoever it might be, to go with whatever 
seems to be the best approach. There will be some mistakes 
made, but that will really pay dividends in the long term, from 
my perspective at least.

                EQUITABLE TREATMENT OF AIRPORT EMPLOYEES

    And finally, fund the program to a point that employees can 
be treated the same way other employees are treated in the 
terminal. There is a paradigm. Employees are used to paying for 
bussing, used to paying for remote parking. They are expected 
to pay for badging. I hope TSA employees are treated and funded 
appropriately so they can be treated like any other airport 
employee working in the terminal.
    That completes my remarks, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                      Mr. Welna's Opening Remarks

    Mr. Rogers. Thank you. That is very helpful, Mr. DeLong.
    Mr. Welna.
    Mr. Welna. Thank you, Mr. Chairman, committee members. My 
name is Jim Welna. I am the Director of Public Safety for the 
airport in Minneapolis-St. Paul, Congressman Sabo's home. In 
addition to being the Public Safety Director, I have been the 
chief law enforcement officer at the airport for the last 17 
years.
    I have also recently completed three terms as chair of the 
ACI World Security Committee, which is based in Geneva, 
Switzerland, which represents over 1,200 airports in over 160 
countries on security issues. In that work I have looked 
closely at what they do in Israel, what the U.K. has been 
doing, what the European countries have been doing during the 
last 10 years in addressing some of the issues that we are 
facing today.

                          PART-TIME EMPLOYMENT

    And building on Mr. Mead's comments on the use of part-
timers, in Israel work at the airport in security is one of the 
most sought after positions in the country. It is a position 
that is often filled by young men and women that have come out 
of the military, and as they go into college they work at the 
airport on a part-time basis. In their case the bulk of their 
flights depart in the morning so they have a 3 or 4-hour period 
where the security staff comes out on a part-time basis, works 
at the airports and then goes to their college, schools. So 
there may in fact be applications in our country as well for 
that.
    I have read and support the comments of the chief 
executives from the other three airports that are here this 
morning. I would like to focus on a couple of points from my 
testimony that is completed and given to you.

                       IMPORTANCE OF INTELLIGENCE

    The first is to step back and say while it is very 
important for us to have the best we can in aviation security 
and have the personnel and have the technology, it is very 
important to look at September 11 and remember that part of 
what happened on September 11 was in part a failure of 
intelligence, and the effort that is going on and the 
cooperation that we are reading about as late as this week 
between the National Security Council, the CIA, the FBI, the 
sharing of data bases between the State Department, between the 
U.S. Customs and the FBI and getting that information to the 
TSA and their commitment, which they have been very clear 
about, that they will get the information to the right people 
at the right time is a very important part of having the right 
foundation, which will then be supported by the personnel and 
equipment that are put in place.

                           BAGGAGE SCREENING

    With regards to the explosive detection system or the 
requirement of the 100 percent screening, we think every day 
that passes it becomes more difficult to meet the deadline if 
EDS is going to be the solution. And looking at the problems 
with it, we have looked at--in our case that is going to take 
about 24 machines. A cost of infrastructure, not the machines 
but the infrastructure changes will run about $50 million.
    The place to do that, in our ticket lobby areas they are 
already full. We are already to the position where the 
customers in some cases are being pushed out into the street, 
and being outside in the Minnesota winter is not a place where 
we want to put our customers. To put in additional pieces of 
equipment in our lobby areas, there is not going to be space. 
In the baggage makeup areas, they are also full. So we will 
have to go to make a new area to put this system in place. We 
will probably think that our valet parking garage will be the 
best spot for that. But it will take about $50 million to bring 
the infrastructure changes in place to go to the valet parking 
in order to be able to use that.
    And the deadline itself may be driving some decisions, 
which I am concerned about may result in some poor decisions, 
and in the effort to make that December deadline we may have to 
make choices which are not the best choice. We may make 
mistakes that we will have to go back later and spend more 
money to correct. And I know that the deadline is a very 
sensitive issue, but I believe in the Congress' 
originaldeadline they were looking at a December 2003.
    I would urge Congress to listen carefully to what TSA 
shares with you regarding the challenges that they face as they 
learn more about this issue during the coming weeks.

                   TRANSITION FROM THE NATIONAL GUARD

    The other issue I would like to talk about is the transfer 
or the change from the National Guard to the LEO's of the 
checkpoints. As the National Guard leaves, airports are being 
asked to put in their own airport LEO presence there. Since 
September 11 at the airport in Minneapolis we have had our 
officers working 12-hour shifts with limited days off in order 
to meet the existing requirements that came out shortly after 
September 11 associated with the changes.
    So we are not going to be able to take and have those 
officers work more hours. We have to go out to the surrounding 
community in the metropolitan area and hire those departments 
to come in and provide officers to do that on a mutual aid 
basis. The costs for that are--because those officers are 
coming on a time and a half basis are substantial. We are 
trying to negotiate with the TSA an agreement to do that, but 
frankly we are being told they do not have the money in order 
to fully fund us. We are looking at right now about a $6 
million shortfall between what our actual costs would be, not 
any markup of costs that goes on right now with what the 
screening companies are charging the TSA, these are actual 
costs, we will have a $6 million shortfall. We do not have the 
money to do that and we need your help to do that.
    Thank you very much.

                     Mr. Koslosky's Opening Remarks

    Mr. Rogers. Thank you. That is very useful testimony.
    Mr. Koslosky.
    Mr. Koslosky. Thank you, Mr. Rogers and members of 
subcommittee, for the opportunity to be before you here today. 
I am Jim Koslosky, Aeronautics Director for the Gerald R. Ford 
International Airport in Grand Rapids, Michigan. We are a small 
hub airport in the west coast of Michigan opposite of Detroit 
and have for a small hub airport an excellent level of air 
service. We have 12 passenger airlines, 7 cargo airlines, about 
170 flights a day in and out of our community and about 6,000 
people a day between passengers and meeters and greeters 
interacting with our air terminal facility in the greater Grand 
Rapids area.

                  GRAND RAPIDS TESTING NEW PROCEDURES

    I am here today, I believe, to speak about our experience 
and we have real live working experience now with the TSA. 
First, we were one of the 15 airports selected to be a 
benchmark. We had consulting teams come in and look at our 
facility in terms of how passengers are processed from the 
front curb through ticketing, through the checkpoints, to the 
gate area. We had people observe the processing of baggage, how 
that is currently handled at our airport, and I suspect this 
went on at the other 15 airports as well, how belly hold cargo 
is dealt with, and a team that looked at access control and 
perimeter activities. And I assume from that benchmarking 
exercise TSA is going back and again trying to develop best 
practices and approaches to dealing with civil aviation 
security moving into the future.
    We also have heard that we were selected as a test site for 
installation of the EDS equipment as a smaller airport in terms 
of again their benchmarking exercises, and we have been working 
diligently and cooperatively with the TSA over the last month 
or so in terms of trying to find a suitable location for these 
rather large pieces of equipment. As you know, they are the 
size of a pickup truck. We have looked at four alternatives, 
four options for installing this equipment within our terminal 
facility, and found that in reality we only had one place to 
put them because of space, building code, fire code, and air 
handling issues related to placement of this equipment. That 
was in our ticketing lobby. And at this point we are looking at 
six of these machines to be placed in our ticketing lobby, 
5500s. Originally 2500s were selected, but because of their 
research with our carriers, the number of bags that are handled 
during peak hours, we increased the capability of this 
equipment to be placed in our building. We have been working 
towards installing that equipment, I believe as soon as this 
week, but have since run into an impasse that I will describe 
to you later.
    We have also been notified that we will be one of the first 
airports to receive a fully federalized screening security 
point work force at our airport, requiring the full transition 
from contract labor to TSA employees at the checkpoint and 
related support facilities which have yet to be fully defined. 
So we are gaining extensive experience in advance of many of 
our peers in this process.

                          TSA INWARDLY FOCUSED

    I want to acknowledge, and I think others would as well and 
you certainly have, that the TSA is faced with a daunting task 
of trying to implement the law and the deadlines that are 
before them. Unfortunately, I think that has forced them to be 
internally driven in terms of developing their organization. As 
much as I keep hearing that they need to work with airports and 
I keep hearing that they are giving you assurance that they are 
doing that, I cannot help but feel that airports are not being 
included or collaborated with by TSA as a result of the way the 
TSA is currently operating.
    A concern that I have overall is that we are going to lose 
our flying public, number one, if we do not have a safe and 
secure system and the public has an assurance of that. Number 
two, we have to have a system that is customer friendly, user 
friendly and convenient, and it has got to be cost effective. 
All three have to be kept in balance. If any one of those 
swings out of balance, we will affect our civil aviation system 
in this country in a detrimental way.
    To give you an example of how TSA is largely internally 
focused, the most recent event was the mandate, the directive 
that the airports step in and provide an increased law 
enforcement presence until the TSA can staff up.
    It seemed to me there was plenty of lead time to do some 
planning in this particular area. We at the airports found out 
about this mandate in our biweekly telecom with the TSA, and 
there was an indication by smaller airports that this may be an 
obstacle that they couldn't climb. Unfortunately, the attitude 
was: Perform, meet the directive, or you may face the loss of 
air service at your given community. And, quite frankly, I 
think that is an attitude that we in the aviation business can 
do without.
    Mr. Rogers. Would you mind repeating that, what you just 
said?
    Mr. Koslosky. A question in the telecom was what happens if 
an airport or a community--because these airports are owned by 
communities--can't staff up to deploy law enforcement officers 
at the checkpoint because local resources would not permit it? 
Keep in mind in many small communities you may only have five 
law enforcement officers in a given department, and they are 
stretched at this point as well. The response was that the 
community may be faced with the loss of air service.
    Mr. Rogers. Response from whom?
    Mr. Koslosky. TSA.
    Mr. Rogers. How did you take that? What did you take that 
to mean?
    Mr. Koslosky. I took that to mean that if we did not in 
some manner find law enforcement for the checkpoint, that we 
would be forced to lose air service because we were not meeting 
the directive to have a continuous presence of law enforcement 
at the checkpoint. I would hope we would be able to build in 
for those situations some kind of flexibility. We for years 
worked with flexible response to the checkpoint within certain 
times and time requirements to do that. We have formally asked 
for that in a letter to the TSA. We have yet to get a response 
to our letter to provide a flexible response at our two 
checkpoints.

                             TSA'S ATTITUDE

    That is just one example of what I am concerned about in 
terms of attitude and presence.
    Airports and communities are hungry to work collaboratively 
and cooperatively with the TSA. We recognize their daunting 
task. They just need to realize we are not the enemy. We are 
here to work with them in a positive manner, and we have 
something to offer in terms of helping them get through this 
process.
    I think they have got to realize that we have a public role 
as professionals and experienced airport operators to provide a 
safe and secure facility. That has been our goal all along, and 
that is probably more important for us at the local level than 
it is even here in Washington.
    Another recent example is ever since the interim facility 
director representative arrived on site requesting office 
space, we have indicated that there was going to be a lease 
requirement within our facility, as we do for all of our 
tenants, including the FAA, who want to lease space in our 
facility. Our airport is wholly self-sufficient by policy of 
our local unit of government, and as a result, we charge user 
fees and lease rentals to all of our tenants to cover the cost 
of the space we provide to them.

                   FUNDING CONCERNS AT LOCAL AIRPORTS

    We subsequently submitted two lease documents to two 
different arms of the TSA project teams that are working our 
facility and asked that those leases be considered, and up 
until today we hadn't received a single response to those lease 
submittals. We are willing to discuss, negotiate in any form 
how we can get by this particular impasse. But TSA has to 
realize that the airports are business operations. Many of us 
have local public policies dealing with leasing requirements 
and business practices at our airport that have to be complied 
with, as well as covering the cost of the space that we provide 
to them.
    We just went through a $50 million terminal remodeling 
project in Grand Rapids, and it was not funded with Federal 
funds because of other Federal and local priorities, and local 
dollars, lease rentals, are paying off the debt service on that 
$50 million.
    I don't want to repeat what has already been said. You have 
a copy of my written testimony. I think it is also important 
that we focus in on getting airports reimbursed, fully 
reimbursed, for these homeland defense issues that we are 
dealing with. There is a concern among us that we may not get 
full reimbursement for the law enforcement presence that we may 
be providing at our airport. We have already only recovered 
half of our costs by virtue of the $175 million. I want to 
thank you for the $175 million you did appropriate last year 
for airports, but at our airport, out of the $1.2 million that 
we are already advancing this year for increased security 
requirements post-9/11, we have only been reimbursed for about 
half of that, and we will incur additional costs as the TSA 
moves into our facility.
    So I would urge you to do everything you can to appropriate 
the funds to reimburse airports especially smaller airports, 
for their continuing costs. And I would also like to suggest 
perhaps it is time we stepped back and looked for a new 
security screening model. The current model which TSA continues 
to pursue to implement is a 30-year-old model that has been 
developed in a tiered, fragmented approach dealing with threats 
as they occurred. I would suggest that we should as a country, 
as a Nation, get the best minds in security and airports, 
airlines, TSA, FAA, anybody else that wants to be in the room, 
and look at a new model for screening of baggage, cargo and 
passengers, and to do it more effectively and more cost-
effectively.
    We have got a tired old model that needs to be looked at, 
and I think some of the cost numbers that you are looking at 
are evidence of that. So I would urge you to again continue to 
find additional resources to reimburse airports, and I would 
like you to look at the issue and deal with TSA's use of space 
at airports up to and including a provision in the bill, as you 
have done for the FAA, to prohibit the TSA from getting cost-
free space. Thank you very much.
    Mr. Rogers. Thank you for that frank testimony.

                         TSA EMPLOYEE ATTITUDE

    And before we move on to Mr. Fegan, let me just say that 
this subcommittee will not tolerate a dictatorial attitude at 
TSA, the same as the subcommittee that funds the Secret Service 
does. This is a different job. You are clients. You are not 
subservient people, and you are whom we represent up here, and 
we will just not tolerate a Secret Service-type dictatorial 
attitude toward you. And I hope that message gets to the proper 
place.
    Mr. Fegan.
    Mr. Jackson. Mr. Chairman, if I might, I would like to say 
that certainly resonates with this gentleman. I will not 
tolerate that, nor will Norm Mineta, nor will John Magaw. So, I 
just want to say, I was not on this phone call. I have 
repudiated this policy when it was raised by staff, as has 
John. So the idea that we are stopping flights if we can't 
resolve one of these temporary hiccups is ludicrous. That is 
just not going to happen.
    I do want to say that if you agree to be on the far end of 
the learning curve, then there are going to be times when you 
learn with us. I am grateful for the collegiality of those at 
this table who have agreed to learn with us on the far edge. 
Sometimes it is painful, but I will tell you that none of us 
will tolerate anything other than looking at these people as 
our partners in this terribly important enterprise.
    Mr. Rogers. Good. I am glad to hear that. I appreciate your 
clarification of that for us. We are all learning as we go; 
you, me, and everyone else. We must not get too haughty in our 
attitudes.
    Mr. Fegan.

                      Mr. Fegan's Opening Remarks

    Mr. Fegan. Mr. Chairman, members of the committee, I 
appreciate the invitation to testify before you today on this 
very critical and timely issue. My name is Jeff Fegan. I am the 
chief executive officer of the Dallas/Ft. Worth International 
Airport.

               SECURITY IMPROVEMENTS AT DALLAS/FT. WORTH

    Of course, the most critical piece of legislation stemming 
from the September 11th attacks on our country was the Aviation 
and Transportation Security Act, and already working with the 
TSA the National Guard and other local law enforcement 
agencies, the initial deadlines of the act have been met. But 
we have also been working with the TSA to begin the required 
transition of security forces, and, in fact, DFW Airport is one 
of the first airports in the country to enter into a memorandum 
of understanding with the TSA which outlines how we will deploy 
our local law enforcement officers at these security 
checkpoints until such time as the TSA can deploy their own 
agents or officers.
    Currently, DFW and the Nation's other 400 airports are hard 
at work planning for the compliance with December 31st deadline 
to screen all checked bags with explosive detection systems. I 
believe it is this deadline that will be the most challenging 
for U.S. airports to meet.
    In an effort to be proactive, DFW Airport recently 
completed a 12-week, $2 million planning process including 
enhanced computer simulation, which identified the facility, 
operational and manpower requirements necessary to meet the 
December 31st, 2002, deadline. As part of that process, we 
assembled a multidisciplinary team, 18 different consulting 
firms, people who were qualified in architectural engineering, 
baggage systems and other analysis, in order to look at our 
existing infrastructure to determine how best to accommodate 
this new EDS requirement.
    The DFW team of consultants studied numerous processes, 
numerous alternatives, and in evaluating the alternatives, the 
consultants had to take into account that DFW Airport's layout 
and design is very unique and has some very unique 
characteristics. We have four separate semicircular-shaped 
terminals that handle both airside and landside functions. And 
relative to other large hub airports, we actually have a very 
small depth of passenger processing areas, approximately 35 
feet between the ticket counter and the wall or the glass at 
curbside. So it is virtually impossible to accommodate enough 
of the stand-alone EDS machines in the ticketing area of DFW 
Airport's terminals. Simply put, there is virtually no space to 
accommodate the EDS machines in the ticketing area of DFW 
Airport's existing terminals. In addition, DFW Airport 
processes approximately 55,000 pieces of luggage a day, a 
substantial number by any measure.
    At the conclusion of this comprehensive 12-week planning 
process, it was determined that the preferred alternative, in 
fact, really the only feasible alternative for the airport 
given its unique layout and design, is an explosive detection 
system that will be integrated in line with the airport's 
existing baggage system. The concept is expected to cost the 
airport approximately $193 million to create the necessary 
footprint and infrastructure in all four of our existing 
terminals. The concept not only meets the statutory deadline to 
screen all checked bags, it will also have a minimal impact on 
customer service and airline operations and actually results in 
the lowest recurring operating and maintenance cost to the TSA.

                 FORMAL COMMITMENT BETWEEN DFW AND TSA

    Obviously, we are very eager and willing to do our part to 
meet the December 31st deadline. We have on numerous occasions 
informed the TSA that in order to meet the aggressive deadline, 
we need a written assurance by mid-April that TSA would endorse 
the preferred inline solution, commit to procure a sufficient 
number of EDA CTX 9000 systems--we actually need 40 machines 
and, in addition, 20 spares, for a total of 60. We also need 
157 ETD machines plus spares. We also asked the TSA to commit 
to have the available andtrained security staff and supplies at 
DFW to operate and maintain this preferred alternative by the deadline. 
And, again, we wanted to have a memorandum of understanding formalizing 
the details of this effort by the TSA and DFW Airport.
    Unfortunately, the TSA has recently informed us that they 
could not provide us a written commitment by mid-April, and as 
a result we have informed the TSA, and I am here to inform you 
today, that DFW Airport will be unable to guarantee its ability 
to provide the new infrastructure to support the EDS inline 
solution by the December 31st, 2002, deadline. We estimate that 
we will experience a day-for-day delay in making available the 
required infrastructure from this point forward.
    I want to assure you, each and every one of you, that if we 
do get a written commitment from the TSA, I am prepared to ask 
our board of directors to immediately invest in the necessary 
infrastructure improvements; however, I can no longer guarantee 
that the facilities will be ready by the statutory deadline. As 
I understand it, at least part of the TSA's reluctance to 
commit is their concern over receiving the necessary funding 
from Congress to acquire the machines and provide the necessary 
manpower.
    I strongly urge you to appropriate sufficient funds to meet 
all the mandates articulated in the Aviation and Transportation 
Security Act. As a first step, I urge you and your colleagues 
to appropriate the $4.4 billion for the TSA that was included 
in the administration's $27.1 billion supplemental budget 
request. I want to bring to your attention that noticeably 
absent from the request is funding to reimburse airports for 
security expenses already incurred, as well as funding to 
install the many and costly EDS machines at our Nation's 
airports. On behalf of all the airports across the country, I 
urge you to appropriate this funding so that airports can move 
forward with their plans to install EDS machines to comply with 
the act.
    I also want to urge to you consider waiving the eligibility 
requirement that mandates these construction projects must meet 
all the Federal bidding requirements in order to receive 
Federal reimbursement.
    In conclusion, I want to thank you for inviting me to 
testify today and to address the very serious and time-
sensitive issues airports face in trying to comply with the 
Aviation and Transportation Security Act. Thank you.
    Mr. Rogers. Thank you, Mr. Fegan.

                  COST CONTROL OVER SCREENER CONTRACTS

    Mr. Jackson, let me ask you, TSA thus far has received 
appropriations of $2.3 billion for fiscal 2002, but you are out 
of money. Just to get you through the end of May, I am told you 
are transferring $275 million from the federal air marshal 
program as a bridge loan, if you want to call it that, until 
the supplemental that we have here might be approved, and 
because of the spendout rate that you are on, you are putting 
enormous pressure on us to approve the supplemental quickly. 
However, Mr. Mead says that TSA is exercising little cost 
control over the screener contracts that they inherited from 
the airlines in February. He says, in fact, quote, ``According 
to the contracting officers, they receive bills from many 
companies that have no contracts, and no one knows the exact 
number of companies actually providing services. Bills are 
being paid as they come in, even though no one can verify that 
the amounts being charged are actual costs. These contracts 
could cost as much as $1.6 billion by mid-November, yet there 
appears to be virtually no controls,'' end of quote, Mr. Mead.
    You started this year with $2.3 billion we gave you, and 
now you are out of money, and apparently--according to Mr. 
Mead--no controls about how you are spending your money. Do you 
want to respond to that?
    Mr. Jackson. Yes, sir, I do. I would like to disagree 
respectfully with my colleague Mr. Mead. He told me about this 
particular concern for the first time last night. We have 
already allocated some resources to look at the issue that he 
raised with me last night.
    I don't believe that it is true that we have no controls. 
Nor do I think Mr. Mead would suggest that we have no controls. 
Can we improve them? Absolutely. Let me talk a little bit about 
the contracts that he raises specifically and that you have 
asked about, sir.
    When we began to assess the amount of money that we would 
need and what we had on our hands, we realized the initial 
contract had grown from a pre-9/11 state in a very, very 
significant way. It is misleading to look at these contracts a 
year ago at airports and try to figure out what the cost is. We 
have had some testimony here about very, very significant 
increases in security screening that have taken place this 
year. We have worked with Ken on trying to understand those 
issues, too. So what we have is a system which, on February 
17th when we inherited the responsibility to manage these 
ongoing contracts, has grown very, very substantially.
    The typical contracting terms prior to 9/11 were minimum 
wage workers. In order to retain those workers and to entice 
them to do the work and to meet new screening requirements 
imposed by the DOT after the terrorist attacks, the airlines 
typically gave some significant increases to the wages of 
employees, plus added more screeners. So what we see 
issometimes two, three, four, five times as many people in a given 
airport based upon a 1-year retrospective look back.
    Second thing is that every one of these contracts is going 
to end, and every contractor is going to be out of a job by 
November. We are going to roll them off sequentially as we go 
along. This was a considerable part of the conversation when we 
had this debate during consideration of the original 
legislation. The absolute requirement to end all third-party 
contracts at a certain time at the end of this year 
disincentivized them to provide cost-effective contracting with 
us.
    Despite that we have, I think, done an excellent job with 
them. I want to say that the contracting firms have cooperated 
very, very well, including Argenbright, who we have begun to 
move out and will move out from the system with a large 
transition that starts next week.
    We have had good cooperation. The costs are up, and the 
$1.6 billion is a good estimate of what we expect the screening 
contracts to cost. It may be diminished if we can go forward a 
little bit faster. But it is a reasonable estimate of how to 
make this thing work.
    Mr. Rogers. Mr. Mead, do you want to respond to this topic?
    Mr. Mead. Yes. We started an audit 2 weeks ago of the 
screening contracts. We thought it was a prudent thing to do. 
One of the first things that came to our attention was that the 
program is not being administered by TSA, it is being 
administered by FAA employees. There were two employees. They 
were obligating out $250 million a month. When the contractors, 
or the security companies, submit their bills, they do submit 
documentation. There is no validation currently going on that 
that service was actually provided. What needs to be done, and 
I think we are still very early in the process so it can be 
done, is that TSA needs to set in place a program where they 
spot-check bills so that the billing actually comports with 
what is occurring. You can't do a universal check, but you can 
do a spot-check. We may need to hire a contractor to do that.
    Just this past week, or within the last 2 weeks, they added 
some additional clerks to support these two other employees. 
But it was the contract office that was telling us, if you want 
to have controls over these contracts and to validate that the 
costs are as represented, then TSA is going to have to 
establish some controls over them.
    I would also like to say that Mr. Jackson and I did discuss 
this yesterday, and frankly, I don't think that the Deputy 
Secretary of Transportation or the Inspector General ought to 
have to be the ones that ensure that these charges get checked. 
I think it should come naturally to the agency that is 
incurring the charges at the low, maybe middle management 
levels. But Mr. Jackson and I, work together all the time, and 
I am sure we will take this one on, too, I am sure the next 
time we come back to report, these costs will be validated.
    Mr. Jackson. Mr. Chairman, one more layer of data on this. 
I agree with Mr. Mead that we need to do this. We so ordered 
this morning, and it will be dealt with.

                  CONTROLLING SCREENER CONTRACT COSTS

    Mr. Rogers. Well, before you get away from that, we would 
like to know what you agreed to do and the fact that it is 
being done, and I want a report up here to this committee, a 
letter or whatever from both of you, saying what steps are 
being taken to verify that the costs these screening companies 
are submitting are verifiable expenses, legitimate and 
verifiable expenses. I can't believe that you would have let 
this go this long, and just two people apparently, according to 
Mr. Mead, two people trying to keep track of all of these 
expenses.
    Mr. Jackson. Well, I will give you a little bit more 
granularity on it. The interim Federal security folks at the 
airport have the responsibility at the ground level to review 
these invoices and to evaluate and send them forward. That is 
one point. So the people in Washington are augmented by folks 
in the field who have responsibilities as well.
    The second point is that these contracts are by and large 
still undefinitized contracts. Let me explain what that means. 
In order to be able to execute contracts, we established the 
terms and conditions and a price cap that we would not exceed 
with the multiple screening companies. We have approximately 70 
contracts of this nature in place. We are undergoing a 
contract-by-contract definitization process, and I am sure I do 
not have the number for you. I will provide it in the letter 
about where we stand on the definitization. The definitization 
provides a look-back function that allows us to take those 
invoices after we have finished the definitized contract terms 
on pricing. The costs will not go up. It goes down. We will go 
back and look at those invoices and retroactively adjust costs 
if necessary.
    So the process that Mr. Mead is identifying now is the 
beginning stage of a process that will take many months for us 
to reach completion. But we promise that we are going to engage 
the right type of accounting assets, oversight assets to make 
sure this is done carefully and that we account for every 
penny.
    Mr. Rogers. Well, we expect a letter telling us what you 
have done to correct this problem.
    Mr. Jackson. Absolutely. Happy to.
    [The information follows:]

    A letter discussing the screening contracts is being 
prepared and will be provided to the committee as soon as 
possible.

    [Clerk's note.--As of September 23, 2002, this letter has 
not been received by the Committee].

                          ARGENBRIGHT CONTRACT

    Mr. Rogers. Number 2, Argenbright. Apparently you debarred 
Argenbright a couple of months ago from operating in airports, 
correct?
    Mr. Jackson. Yes, sir, the Federal Government, had a 
debarment action in place.
    Mr. Rogers. However, I am told that now some airlines are 
employing Argenbright, and you are reimbursing the airlines; is 
that correct?
    Mr. Jackson. Yes, sir. Let me explain how that process 
worked. We made a determination that when we took over the 
security screening contracts at each airport, we would evaluate 
whether we wanted to go forward and execute contracts and do 
business with each of these screening firms. In the case of 
Argenbright, the Department of Transportation decided that we 
would not use them as a vendor during the bridge period between 
now and November.
    So what we did is allow the existing airline contracts with 
Argenbright to remain in place and reimbursed the airline for 
their expense through that contracting mechanism. In other 
words, we did not renegotiate another contract; we did not work 
on pricing with Argenbright. We maintained the existing pricing 
and the existing contract in place and then put in place a 
mechanism to replace the Argenbright Company with other 
screening companies on an airport-by-airport basis in the 
roughly 35 airports they were operating in mid-February.
    We have already made the transition in some of those 
airports. The largest group of them will take effect next week, 
and we will very shortly have those contracts, with the 
exception of a few very small handful of airports which we will 
move directly from third-party screening to Federal employees 
in a couple of the pilot airports.
    Mr. Rogers. Let me say there, if Argenbright is still in 
any airport by the time we pass the supplemental bill, you will 
know that. You will know by what we do in the supplemental that 
Argenbright shouldn't be in any airport.
    Mr. Jackson. We are moving expeditiously to get that 
situation completed, sir, and we are trying to find the right 
balance so as not to disrupt the airport operation by 
precipitously trying to make a transition that we are not 
prepared to work. It does involve some increased training 
requirements of new employees, and moving a management team in 
place. We have put oversight through the TSA, so I would tell 
you that we are absolutely in lockstep with you on the 
intention. We are executing it smartly. In this month we are 
making the vast bulk of the changes necessary, and it will be 
done.
    Mr. Rogers. However you want to do it, they better be out 
by the time we pass the supplemental bill. I do not care how 
you do it. Get them the hell out of these airports.
    Mr. Jackson. Okay. Understood.
    Mr. Rogers. Mr. Sabo.

                REQUIREMENT FOR LAW ENFORCEMENT OFFICERS

    Mr. Sabo. There is so much that concerns me, it is hard to 
ask questions practically. In my view, TSA is an agency that 
seems to think that there is endless money out here or out at 
the airports, and you issue all kinds of requirements. It is 
beyond me why you have to have law enforcement officials to 
replace the National Guard, who played a largely symbolic 
value. For people who are highly trained, it takes lots of 
skill to stand around and look and stay attentive. They should 
be commended.
    But why we spent the millions of dollars to keep them there 
for months when, as I understand, if there was any problem, you 
had to call a law enforcement officer. And now we finally say, 
you can go home to your regular job, and now you have got to 
hire more law enforcement officers to replace them. It is 
beyond me. I see these staffing requirements coming in with 
just exploding numbers. You are going to have an agency much 
larger than the Coast Guard, you know. It just boggles my mind 
what you are doing.
    Why we aren't looking at part-timers for activity that 
clearly has significant peaks and valleys. Where the biggest 
problem is boredom, a part-timer is likely to stay more 
attentive than a full-timer.
    But why in the world would you require the airports to go 
out and pay double time, probably, to hire law enforcement 
officers to stand around and do what the guards were doing?
    Mr. Jackson. I will be happy to answer that. It is a 
component of the congressional statute that there be a law 
enforcement officer at each passenger screening checkpoint, and 
that is the requirement of the TSA. It has a November 
implementation date. In the spirit of this law, we are trying 
to provide some continuous supplemental coverage by law 
enforcement trained people at passenger screening checkpoints. 
The President, in consultation with the Governors, did deploy 
the National Guard for good reason, to try to augment and 
stabilize the confidence of the traveling public. They have 
done, I think, an excellent job and have contributed to the 
work that is being done.
    Mr. Sabo. If there was an incident, what did they have to 
do, call the airport police?
    Mr. Jackson. There are a lot of incidents. If there is an 
unruly passenger, there is an amazing calming influence that 
comes when someone with a rifle comes and says, can I help you, 
sir? What is the problem? They have engaged in that same 
process. They have been a security blanket to some extent.
    What we have in the statute is an absolute and clear 
requirement that there be a Federal law enforcement officer at 
each screening checkpoint. The idea here is that they are 
capable of resolving any incidents, and even if they do not 
become the arresting officer, they can detain and question 
passengers.

           TRANSITION OF LAW ENFORCEMENT OFFICERS AT AIRPORTS

    Mr. Sabo. I assume on November 1st, then, the local 
airports can put their police force back to normal days and 
maybe even reduce their force?
    Mr. Jackson. This is intended as a transitional device to 
keep a law enforcement presence there, and the TSA has 
volunteered to pay at the rate of roughly $50 an hour to 
reimburse airports for the cost of doing this.
    Again, Mr. Chairman, this goes to one of your points. We 
are not trying to hit a big stick on the table and make 
unilateral demands. We have been working for weeks and weeks 
trying to find a bridge to get the Guard out. The President has 
determined that, and appropriately so, that this deployment of 
the Guard will end by the 31st of May. Our clear reading of the 
statute was that there was a strong congressional intent to 
have law enforcement presence at these sites. We literally 
cannot hire, train, and deploy Federal law enforcement officers 
at these sites in a sufficient time to cover that gap between 
the end of May and the November deployment.
    Mr. Sabo. I am not sure that this bill is about unruly 
passengers. It is about terrorism, and there is a significant 
difference.
    Mr. Welna.
    Mr. Welna. Mr. Chairman, Congressman Sabo, committee 
members, I agree with Mr. Jackson about why the TSA is having 
to do this. But absent that requirement to have an LEO at the 
checkpoints, going back historically we had that requirement 
back in the early 1970s, and it is very difficult to go out and 
to attract and to retain the folks to stand at those 
checkpoints to do basically stationary patrol.
    In Minnesota, as in many States, we have a college degree 
requirement for police officers. They go to school for 13 weeks 
to become a police officer. They want a career in community 
service. To recruit them to go to the airport in the 1970s, 
airports had many problems with recruitment and retention.
    I believe that we can meet the needs for tough security, 
meet the intent of Congress, and meet the goals of what TSA is 
trying to do by having a flexible response capability at the 
airports, whether it be the airport operator, whether it be the 
TSA, which will really allow that person, instead of just 
standing there, to be able to move around in the area, to be 
observing, to be watching, to be talking to folks instead of in 
that sort of fixed location. So I would ask Congress to 
reconsider that requirement.
    Mr. Sabo. Did having the Guard on duty alleviate--reduce 
your law enforcement officer obligations while that was going 
on at any of your airports?
    Mr. Fegan. No.
    Mr. Jackson. There were increased law enforcement 
requirements all across the country's airports, and so as a 
whole there was no takedown as a general rule. I think most of 
my colleagues would agree.
    Mr. Sabo, if I could just--I made a mistake. I said $50 an 
hour. I meant $50,000 annual rate for our officers here on 
reimbursement.

                       USE OF PART-TIME EMPLOYEES

    Sir, you have also raised a question about part-time 
employees, and that is absolutely part of our plan. The federal 
law enforcement officer and the federal security director on 
the ground will make appropriate decisions about how to use a 
workforce that can be a part-time and full-time mix. We are 
giving them those tools, and we would expect that, depending 
upon the flight structure and the number of banks and the size 
of them, that there will be many airports where an opportunity 
to use part-time employees in a cost-effective way will be 
absolutely part of the mix of employment at the airport.

                    TECHNICAL AND POLICY AMENDMENTS

    Mr. Sabo. Let me also suggest that as you go about 
implementing this law and you find things that do not make 
sense, I think there is an obligation to come and ask for 
change. The message I got from authorizers as I listened to the 
discussion of this legislation was that it would pay for itself 
with the fees being imposed and the assessment on airlines. 
That clearly is not the case. We are now being asked to pay 
billions of dollars in general revenues for the requirements of 
this law that is being implemented by the Administration. And 
the Administration signed it, bought on to it. I think that is 
part of your obligation.
    Mr. Jackson. We are keeping a list of possible technical 
amendments.
    Mr. Sabo. I am not just looking at technical amendments. 
These are substantial issues. I think this is a prime example.
    Mr. Jackson. This includes technical and policy amendments, 
you are right, and we have a list of issues that we will bring 
up in due course for consideration.
    There was no ill will on anybody's part, but when we took 
on this task in the days after 9/11, no one knew what the price 
tag was going to be.
    I do think it is important for us to allow in 2002, and to 
some extent in 2003, a sorting out of the one-time costs and 
the stand-up costs so that we can figure out what the 
relationship is between the ongoing operational expenseof this 
agency with the fees that we have levied here. I think they may be a 
little higher than the $2 billion figure discussed earlier. In the next 
couple of months we will have the second set of data by that 
regulation, we have required from the airlines to be able to give you a 
definitive answer on what size the fee structure will generate.
    I know that there are very, very significant and strong 
investments that we have to make in this year and next, and I 
think we are a few months, regrettably, from understanding 
fully what the baseline operating costs of this new statute 
will be.
    Mr. Sabo. Well, Mr. Chairman, I am fearful we are going to 
spend a lot of money unwisely on TSA, and, as some witnesses 
suggested, find ourselves redoing airport security measures at 
great cost in the near future. I think Mr. Mead----
    Mr. Mead. I would just like to refer back to a point I made 
in my testimony because it is germane to this law enforcement 
presence issue. Now is the time to watch the cost growth in 
that area, and I am hopeful that in the budget justification 
materials that you find out how much they are planning to pay 
these law enforcement officers. The law enforcement series can 
be very expensive, and if you had the equivalent of FBI special 
agents at each security checkpoint, you are going to pay a lot 
more than if you have a regular Federal police officer such as 
they have at Defense. It is roughly, as I said in the 
testimony, the difference between $56,000 and almost $100,000.
    Secondly, I think you need information about the numbers. 
This can turn out to be a pretty big area and a pretty big cost 
driver.

                          STAFFING REQUIREMENT

    Mr. Rogers. Well, we are talking about an enormous amount 
of money here. And as we said earlier, when Congress envisioned 
this agency, we envisioned about 30,000 employees. As has been 
said, the estimates of the Department over the past 4 months 
have steadily risen to around 72,000 people. That would be 
larger than either the FAA, which is 50,000, or the Coast 
Guard, which is 40,000. It would be bigger than the FBI, DEA, 
Border Patrol, and Customs Service combined.
    I am here to tell you, it ain't going to happen. Why, it is 
ridiculous. We are not going to fund 72,000 people.
    So make your plans. Make do. You do part time, you do what 
you want to do, but we are not going to fund 72,000 people. 
Why, it is incredible, more than twice what we envisioned 4 
months ago.
    Mr. Callahan.
    Mr. Callahan. Mr. Chairman, I share in your frustration, 
and I am sure that they share as well in the frustration of 
trying to resolve this problem we face at this time in history. 
But you and I as late as last night discussed the dilemma we 
are in with Amtrak, and that is the cost of Amtrak supersedes 
the cost of flying a passenger to California. The taxpayer is 
paying $300 to Amtrak for every passenger that rides from 
Chicago to California. So wouldn't it be better off if we just 
gave them $300 and let them fly?
    The same theory is here, Mr. Chairman. We are taking a 
situation where we might be better off to give the traveler a 
clothing allowance and a toiletry allowance when he or she 
boards the airplane, and when they get to the destination 
without all of these bags, give them a check for $300 and let 
them buy some clothes. We are going to have to make some 
radical changes, Mr. Chairman.
    And I know that I have discussed this with you and some 
members in the industry about the inevitability of a major, a 
radical change, and that is by disallowing any baggage other 
than a hand-carry-on baggage to go on a passenger airplane. 
Some people might think that is ludicrous, it wouldn't work, 
but I assure you that UPS or FedEx could get their bags to the 
hotel before they would get there. They have overnight and 1-
day delivery, and we may someday be looking at an alternative 
by using UPS or FedEx and telling passengers, you stop by this 
terminal here or at this drop-off, and you check your bags 
through in a different fashion if they exceed one carry-on that 
the does not fit above, and then we could adequately screen 
what they carried on.
    But these costs Mr. Chairman, are not going to go down. And 
I know your threat, and I will agree with you that we should 
admonish them to start saving their pennies. My Web site and 
telephones are ringing off the hook because of the 
advertisement that you all are rightfully doing in putting out 
these employment opportunities on the Internet, and most of the 
people that call me are interested in the $100,000 and above 
jobs.
    And that is one question I have, how many jobs are we 
creating that pay an annual salary in excess of $75,000?
    Mr. Jackson. I will have to get you a more accurate answer. 
The vast bulk of the employees are screeners. They are the 
marching soldiers of this organization. Their starting salary 
is $23,600, I believe, for an entry-level screener.
    [The information follows:]

    As of April 17, 2002, there are 111 employees whose 
salaries are in excess of $75,000.

                 MANDATES AND COSTS IMPOSED ON AIRPORTS

    Mr. Callahan. Secondly, let me reemphasize what one of the 
airport managers said, and that is the capital cost that 
someone is going to have to pay for in order to comply with all 
of these new regulations that Congress and TSA and everyone 
else are putting on them. We are talking about major physical 
reconstruction of airports.
    Secondly, let me say that you cannot use a cookie-cutter 
approach towards airport security with respect, for example,to 
the 300-foot setback. In a small town like Mobile, Alabama, in an 
airport with a design like ours, which is still 600 or 700 yards from 
any airplane, there is no need for a 300-foot setback. If you are going 
to allow a car to drive up, you have an opportunity for a terrorist to 
blow the airport up, and to have this cookie-cutter approach saying 
every airport in America must have this restriction I think is moving 
in the wrong direction.
    I have some other concerns, Mr. Chairman, but I want to 
stay within my 5 minutes. But let me tell you this figure that 
you are facing today, this $4 or $5 billion, next year is going 
to be $8 billion, and it is going to continue to grow. And 
ultimately the bottom line, Mr. Chairman, who is going to have 
to pay for this? It is the consumer, the user. Somebody is 
going to have cough up the money to pay for this monstrosity of 
protection that we are creating. And I don't mean monstrosity 
in a negative sense. I mean in the huge sense. The flyer is 
going to have to pay for it. We have tokenized the flyer by a 
$2.50 enplanement fee, but we are looking at a $50 enplanement 
fee per passenger to pay for all of this.
    So I would encourage you to do everything you can to keep 
that cost down because your primary concern, other than 
security, is the loss of passengers. You are going to lose 
passengers when they realize that they are going to be paying 
the $50 that it takes to protect them from terrorist 
activities.
    And let me just close by saying, and I know Mr. Mineta has 
been under the weather, but eight Members of Congress wrote a 
letter to Secretary Mineta on February 27th regarding a 
communication service from the ground up, a different type of 
antenna situation. We still have not received a response to 
that. Would you get someone in Mr. Mineta's office to see what 
happened to that?
    Thank you, Mr. Chairman.
    [The information follows:

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you, Chairman Callahan.

                     CONGRESSIONAL OVERSIGHT OF TSA

    Mr. Mead made a point that I think might be appropriate to 
underline here in this conversation a moment ago, and that is--
and it is an obvious point--while you are going through this 
rapid, huge buildup that Congress directed you to do, once we 
get that system set in place, it is going to be hard to modify 
or change. That is just the way bureaucracies are. It will take 
on a life of its own. So it is very important that we restrain, 
as best we can, the urge to overstaff at this point in time, 
because once they are in place, it is hard to get rid of them.
    That is another big reason why we are going to insist that 
we know what you are doing every step of the way, because we 
are not going to pay for it unless we know that, unless we are 
assured in our own minds that you need these numbers of 
employees or the type that you have. And we are going to keep a 
close eye on that. And I just want to tell you again, we need 
answers to our questions. And if you do not provide them, you 
do not get any money.
    Mr. Jackson. Yes, sir. We welcome that oversight, that 
scrutiny, and the partnership with you in this. You have our 
pledge, from the Secretary, myself, and Mr. Magaw, that we will 
work with you.
    Mr. Rogers. I have heard that before, Mr. Jackson.
    Mr. Jackson. We are doing our very best, sir, to work 
through a series of things that have never been undertaken 
before on such a large scale, and we will keep working with 
you.
    Mr. Rogers. I understand that, and we are in that position, 
too. We have never gone through this either.
    Mr. Jackson. I understand.
    Mr. Rogers. But we will be the ones held responsible one of 
these days if something goes wrong moneywise. That being the 
case, and me being Chairman of this subcommittee, I am going to 
insist that we know precisely what you are doing, when you are 
doing it, and how, and if we do not like what we see, we will 
insist on changes as we go along. I don't want this thing set 
in place without us knowing about it, and then give us a bottom 
line bill that we can say yes or no on, and giving us no choice 
to control the process as it is set. Do you follow me?
    Mr. Jackson. I absolutely understand.
    Mr. Rogers. I have heard you say before, we are going to 
keep you informed, and you haven't. And so you have got a short 
string you are on at this point in time.
    Mr. Jackson. Understood. We have been working to close on 
what I think are some of the most thorny problems related to 
the Explosives Detection System (EDS)/Explosive Trace Detection 
(ETD) deployment, and that is what, within a matter of days, 
will allow us to impact not only the question about personnel, 
but equipment, and those are very large drivers of our success.

                             MAGNETOMETERS

    Mr. Rogers. Here is just a typical point, and I will be 
brief on this because others have questions. You could do with 
a lot fewer people, in my judgment, at the check-through lines 
for passengers if we spent a few dollars renovating the 
magnetometers, the plain old x-ray lines that are in airports 
now. I am told that the latest models of the magnetometers 
would reduce the numbers of people needing to be wanded by a 
human being from some 32 or 33 percent that is now required to 
around 7 percent. In other words, the newest equipment can 
discern whether or not a nail in your shoe is a pistol, where 
the present ones cannot, just as an example, and that we could 
substantially reduce the numbers of wanders that would be 
required under your setup just by bringing in the new 
magnetometers, at a cost of around $20 million for all 
airports. That is my information. Am I incorrect on that?
    Mr. Jackson. I will have to get back to you on these rates. 
I would just say that that is a part of the equipment review 
that we will be presenting in our dollar figures for you, sir.
    [The information follows:]

    The number of staff required for hand wand searches would 
not be reduced by the purchase of the latest models of Walk-
Through Metal Detectors (WTMD). The number of hand wand 
screeners is dictated by the security procedures put in place 
after September 11.
    Approximately $24 million is the full amount needed to 
upgrade and deploy our metal detection capability by purchasing 
next-generation WTMDs. Annual maintenance is estimated at $0.5 
million. An additional $1.2 million is required to replace 
7,500 hand-held metal detectors that are currently in use.

    Mr. Rogers. Before you hire the people that may not be 
necessary, we want to know the benefits of modernizing existing 
equipment.
    Mr. Jackson. Understood.
    Mr. Rogers. And I use that only as an example. There are 
many others.
    Mr. Jackson. I would just give you a caution, sir. If I had 
been able to take a buck to the bank for every vendor's claim 
about what they were going to do to make this cheaper, faster, 
then I would be able to retire from government service today. 
It is something that we have to look at every single day. We 
have to look at every single technology and examine them very 
carefully. We have been disappointed in many of these claims so 
far.
    We will certainly make sure that we give you the detailed 
information about the magnetometer manufacturers.
    Mr. Rogers. Well, other countries have been doing this, 
modernizing the magnetometers at great savings. They do not 
need as many personnel on the payroll as they would have, other 
countries. Yeah, vendors, sure, they will sell you anything.
    But at some point in time it is verified and other 
countries, you know, are doing this. I do not know why we have 
not done it sooner myself. Maybe some of the airport operators 
might have a thought about this point.
    Mr. DeLong.

                             TSA WORKFORCE

    Mr. DeLong. Not as it relates to the checkpoint, but we 
know, for example, that the CTX 9000 can process twice to three 
times as many bags and do it with one fewer person than the 
proposed combination, where with the 5500 and one trace 
detector they need three people. So as, for example, that 
technology comes on-line, you can reduce by 33 percent the 
number of people necessary for the bag search portion. So the 
answer is in time I believe you will see those economies 
occurring.
    Mr. Rogers. By then we will have hired all of these people 
we do not need.
    Mr. Jackson. Mr. Chairman, I will say we have built into 
this process, through statutory provisions that Congress baked 
into the statute, the capacity to surge the work force up and 
down, and that is how we are advising people. That just has to 
be a component of this particular operation. If a given airport 
drops 20 percent of its flights because of an ingestion in the 
marketplace or an airline moving, we have tobe able to match 
appropriately our assets in the field. In addition, our multi-year plan 
for TSA starts with balancing people versus the large capital 
expenditures in, I think, a measured way. So the people costs will be 
initially somewhat higher and, in a plan that is measured, move down as 
we make coherent technology investments to go along with the work that 
you are generically asking us to do.
    We do not intend to be hamstrung, nor did the Congress 
intend to hamstring us, by the amount we have to surge in to 
meet the challenge. But by the same token, we are very 
respectful of the specific obligations that this department has 
under the statute to meet these requirements. We are taking 
them seriously. We are trying to give you our best plan to get 
there and to do what is asked of us and to do it in a 
reasonable and coherent fashion that allows us to minimize the 
expense to the taxpayer this year and in years forward.
    Mr. Rogers. We will just keep a close tab on it, and I will 
tell you again you will not get 72,000 employees.

                    VOTE TO CLOSE AFTERNOON HEARING

    We have to do a housekeeping chore while we have several 
members of the majority here. The afternoon session at 2:00 is 
proposed to be a closed session. That does require a vote of 
the subcommittee. So I move the afternoon's hearing be closed 
to the public for the purposes of discussing national security 
information which has been determined to be classified by 
appropriate authority. All in favor of the motion say aye. All 
opposed say nay. The Clerk will call the roll.
    The Clerk. Chairman Rogers.
    Mr. Rogers. Aye.
    The Clerk. Mr. Sabo.
    Mr. Sabo. Aye.
    The Clerk. Chairman Young.
    [No response.]
    The Clerk. Mr. Olver.
    Mr. Olver. Aye.
    The Clerk. Mr. Wolf.
    [No response.]
    The Clerk. Mr. Pastor.
    Mr. Pastor. Aye.
    The Clerk. Mr. Delay.
    [No response.]
    The Clerk. Ms. Kilpatrick.
    Ms. Kilpatrick. Aye.
    The Clerk. Mr. Callahan.
    Mr. Callahan. Aye.
    The Clerk. Mr. Serrano.
    [No response.]
    The Clerk. Mr. Tiahrt.
    Mr. Tiahrt. Aye.
    The Clerk. Mr. Clyburn.
    [No response.]
    The Clerk. Mr. Aderholt.
    [No response.]
    The Clerk. Mr. Obey.
    [No response.]
    The Clerk. Ms. Granger.
    Ms. Granger. Aye.
    The Clerk. Mrs. Emerson.
    Mrs. Emerson. Aye.
    The Clerk. Mr. Sweeney.
    Mr. Sweeney. Aye.
    Mr. Rogers. The vote is 10 in favor and none against, and 
the 2 o'clock session will be closed accordingly.
    Mr. Pastor.

                       USE OF ADVANCED TECHNOLOGY

    Mr. Pastor. First after all, Mr. Chairman, thank you for 
having this hearing. And I, like many members up here, after 
hearing the testimony, have acquired a sense of frustration. 
One is hearing, Mr. Jackson, that because the statute requires 
certain deadlines and in trying to reach those deadlines it is 
causing serious concerns among the airports. Therefore they 
want to be partners. I think they should be partners, but yet 
they are finding themselves in a situation where as they 
respond to your inquiry, their response may not be the one that 
you want to hear.
    Something was brought up that I would like to just spend a 
few minutes on, and anyone on the panel could discuss it. I 
agree with Congressman Sabo, I feel like I am throwing good 
money at a bad situation. We are dealing with a screening 
process that is at least 30 years old and other nations are now 
using more advanced technology but it seems that we are 
addressing this problem in the same old way by throwing 
billions of dollars, 72,000 employees, maybe less, and a 
$100,000 salary, and are people as secure as we want them to 
be?
    Has anybody thought about maybe looking at this and saying, 
hey, maybe this deadline is not realistic and it is causing us 
to look at this situation in the wrong manner? Is there a 
better system that we can implement that would be more 
effective, maybe less costly and the airport could be able to 
implement and you would not have to have a policeman standing 
at every screen? Do we have time to do that?
    Mr. Jackson. Mr. Pastor, I believe that we are not imposing 
a 30-year-old system. That would be an unfair characterization 
of what we are trying to do. We are open to every technology 
and operational change that we can find to make this work 
better. I will give you just two quick examples.

                     EVALUATING SCREENING SOLUTIONS

    First, at BWI Airport we ran a laboratory on the process of 
how to run people through an airport screening checkpoint more 
effectively. We did not use rocket science for this. We used a 
lot of very smart people who looked at a multiplicity of very 
small things. It was a combination of 20 or 30 different minor 
changes that yielded a 23 percent per employee productivity 
increase on moving passengers through the checkpoint. We made 
an enormous stride there, and it was not by taking the 30-year-
old system and simply embracing it. We used that laboratory to 
good effect.
    Mr. Pastor. Let me ask a question on that. Was there new 
technology used and did it show that there was a reduction of 
personnel needed, which is a concern the chairman has?
    Mr. Jackson. The technology was not new. We used the exact 
technology that was there. So we could say if we inherited the 
magnetometers and x-ray machines that we had and added to them 
in minor ways, what would we be able to do. The chairman raised 
an absolutely appropriate and important question. You go and, 
say for a dollar, added what is the incremental net benefit if 
you bring new technology in. That is very much a part of what 
we are doing there.
    I would love to take any of the members of this committee 
to BWI and show you our lab and how we are working that 
process. I think it is a very educational experience.
    We are using the 15 airports next to try to take that model 
and squeeze it down more and learn more. We are absolutely in 
partnership with the airports. They are absolutely frustrated 
because they all wanted to know in January what is it I need to 
do. They all stood up and saluted to the President and to the 
Congress and to the reality of the threat that there are bad 
guys in this world and in this country.
    They have been willing to do a lot and we have taken what 
is, I know, a frustratingly small pause here to make sure we 
get it right. We take it at a couple of places, and work it and 
test it, so that when we take this crushing deadline schedule 
of a 1-year forced march we can deliver with the maximum 
impact. We are now at the point, as the Inspector General said, 
where we are about to launch a lot more publicly visible work, 
but we did not want to launch without effect. We did not want 
to fire before we aimed.
    So that is a case of the process on the passenger side. On 
the baggage side we have gone through an arduous process of 
reevaluating the mix and protocols for using the explosives 
detection equipment in airports over the last 2 months. Again 
it has not been publicly visible to my colleagues for the most 
part. But we did so precisely to make sure we could reduce the 
capital expenditures in a coherent way and refine and test and 
use this technology in an aggressive fashion.
    We have recruited in a procurement, which closed last week, 
some of the finest technology companies in the world to be 
partners in helping to drive down the error rates and to 
strengthen the capacity to detect explosives with the equipment 
we have. I am very pleased at the type of cooperation we are 
getting.

                      TSA DECISION-MAKING PROCESS

    I do not want to leave you with a misapprehension that we 
are sitting on our thumbs or that we are just taking what is 
inherited and working it. It is a hard set of issues. We do not 
have all the answers. We will make mistakes. We have already 
done so. We will get back there and try to correct them while 
they are there.
    Mr. Pastor. I want to minimize mistakes but we have a tough 
deadline. The deadline is pushing you, is pushing them, and yet 
we are coming to some decisions that may be very costly to the 
airport and costly to TSA and more costly to the passengers 
because they do not know if they are any more secure than they 
were before September 11.
    Mr. Jackson. We are very much more secure than we were 
before September 11. We have all worked hard to make this work 
right. The Congress has, the Administration has, the airports 
have, the airlines have and the public has been patient while 
we do this for the most part. It is a significantly better 
aviation system. It will be better month by month throughout 
this year.
    I will tell you about Mr. Fegan. He jumped up to the plate 
early in this process. I went down to visit him in January. We 
went through this process to look at his airport because he has 
a very unique set of very complicated and very expensive 
problems. Secretary Mineta was in his airport on Sunday.
    Mr. Pastor. I was there yesterday.
    Mr. Jackson. I am sure the airlines appreciate that. We 
have been back there. We put one of our newest federal Security 
Directors on the job in his airport. We think that we can 
reach, with the policy decisions that we are bringing to close 
within the Administration this week, an answer to the question 
that he has fairly and appropriately laid on the table and we 
can proceed in a deliberate way. If we did not want to false 
start, we needed another week or two to make sure that we did 
not have one. He has been patient and we will get there.
    Mr. Pastor. It is not to criticize you and I did not want 
it to sound that way. As I sat up here and heard the panel, it 
seemed to me that the deadlines of the statute are causing some 
decisions to be made and those decisions may be throwing good 
money at a bad situation. None of the members of this 
subcommittee do not want to do that. So again, as Congressman 
Sabo told you, what you need to do is inform us and say, look, 
this deadline is not practical for these reasons, so at least 
we can be aware of the reality and as we work on appropriations 
or the supplemental then maybe we can give relief, he may also 
be able to adjust the legislation or help you in making sure 
that the security is there, but it is at a reasonable cost and 
that the airports are not taking up all the load.
    Mr. Chairman, I will tell you maybe one of the first things 
we ought to do with the supplemental, as we discuss it, is to 
consider the cost that the airports have already been bearing 
up to date and maybe that should be the first cut in their 
reimbursement.
    Mr. Rogers. The gentleman is correct and in putting the 
supplemental together, there will be monies that we recommend 
for that purpose.

                   DOT'S COMMITMENT TO MEET DEADLINES

    Mr. Jackson. Mr. Pastor, I will give one contextual 
response to your remarks, and I appreciate the intensity which 
all of you have focused on this issue. When I came to the 
Department of Transportation to work for Norm Mineta and his 
team was put together, one of the things we heard in talking to 
members is the that Department ofTransportation had a culture 
of noncompliance. It had too often missed regulatory mandates given to 
it by the Congress, and it had failed to move with alacrity on many 
important tasks to implement crucial statutes.
    So we were determined to try to remedy, as much as we 
could, the backlog, but when we got this most important 
national security priority from the Congress after a 
substantial convulsion of debate and discussion, and admittedly 
compressed into a short period of time, we affirmed to 
ourselves that we were not going to let anybody get in the way 
of this program. We are not going to do it stupidly. We are not 
going to spend money wastefully. We are going to to make this a 
case study for the implementations that will be an A-plus 
effort by the Congress and Administration to work together.
    I will tell you if we are guilty of anything, I am guilty 
of intolerance for people who tell me they cannot figure it out 
or get it done. If they cannot figure it out, we will work with 
you to figure it out. If we make a mistake, we will correct it 
and we will get on with it. But we will not sit on our haunches 
and say we cannot do this and woe is us.
    So if the conversation with the Congress generally will 
give us a different direction, we will make sure we behave 
accordingly, but until otherwise instructed this is one crew of 
people who otherwise are intent on doing the job. It is a hard 
one. It is a tough row to hoe. It requires an enormous amount 
of money, but we will get it done with your help. We know it is 
going to be hard.
    Mr. Pastor. Thank you, Mr. Chairman. I will recommend one 
thing, as Chairman Young made the recommendation to have the 
screeners have sensitivity training, that Mr. Koslosky 
suggested maybe the TSA could also participate in those 
classes.
    Mr. Rogers. I thank the gentleman for his excellent 
questions and comments.

                         DECEMBER 31ST DEADLINE

    I think Mr. Sabo's suggestion is an excellent one. Mr. Mead 
has said that, in his judgment, you cannot comply with the law, 
that you cannot do what you have got to do by the deadline, 
December 31.
    Mr. Mead. I did not quite say that. I said that they cannot 
install by December 31 the explosives detection machines 
sufficient to screen 100 percent of checked luggage. They in 
fact probably can, through some combination of the explosives 
detection machines and explosive trace detection units, which 
is very staff intensive. Somehow, if they focus on that 
myopically, I think they can do it, but it will be very, very 
costly.
    Mr. Rogers. Like I said, you cannot get there from here. 
You can qualify what you say, but we all know you cannot get 
there. That being the case, I think Mr. Sabo's suggestion is a 
very good one. If you would tell us what technical corrections 
to the law would be especially helpful, it is something that we 
can try to work on with the authorizers to try to provide some 
safety release here, because if these deadlines were causing us 
to spend $10 zillion when if we waited a couple months more we 
could get it done for half that price by getting new equipment 
or whatever, then that is worth talking about and we are 
willing to be the agents for that if necessary. So I hope that 
you will take that seriously.

                      ABILITY TO REDUCE STAFF SIZE

    Number two, if you hire all of these people and then later 
we learn that we can get new magnetometers or some other 
equipment that renders a good portion of these people 
unnecessary, I do not think we can quickly reduce that work 
force as you have suggested might be possible. If so, it will 
be the first time in the history of mankind.
    Mr. Jackson. There will be many firsts in the history of 
mankind when the history of TSA is written. I hope to make this 
one of them and I fully intend that it is one of them.
    Mr. Rogers. I am saying we do not want you to hire those 
people until you have exhausted all other avenues, equipment 
upgrade, what have you. That is the only point I can make 
because I do not think you can get rid of those people once you 
have hired them.
    Mr. Jackson. Actually, sir, you gave us pretty good 
authority there, sir, and we will use it.
    Mr. Rogers. Mr. Tiahrt.

               FLEXIBLE AND APPROPRIATE SECURITY MEASURES

    Mr. Tiahrt. Mr. Jackson, you are setting up a new 
administration and I assume that you are using generally 
accepted accounting practices in the way you are keeping your 
books. If you are not, I would like to know why and what 
obstacles are in the way. We do not want to have another 
situation like the Department of Education that cannot account 
for a billion dollars. A lot of money is going to be going 
through your administration, and we want to make sure we can 
account for it.
    Secondly, I have personally witnessed what appeared to be 
an 8-year-old girl being searched and wanded. I have also seen 
an 80-year-old woman who is helped out of a wheelchair to be 
searched and wanded. In my wildest dreams I cannot imagine them 
charging a cockpit, kicking down the door and holding a pilot 
hostage. I have also seen a Navy captain who we have entrusted 
with our Nation's most dangerous weapons be searched and wanded 
at an airport. I was told as I came from Wichita, Kansas just 
yesterday that Ray Charles, the blind performer, the pianist 
was searched and wanded at Wichita's airport.
    The system is broke because even with all of thatnonsense, 
which is a waste of time and taxpayer dollars, it still does not stop 
someone who is intending on committing suicide, a homicide bomber from 
getting on an airplane if they happen to fall outside the random 
sample. We are checking one out of three or four or five and still 
people are getting through that system.
    So through technology and common sense we have to change 
that system and we have to allow for frequent travelers 
especially to travel comfortably. We are strangling general 
aviation, small and medium airports, fixed base operations, mom 
and pop shops are suffering because the Department of 
Transportation, the FAA and TSA are not acting in a timely 
manner to open up airports and allow access. A good example is 
Reagan National.
    We have an opportunity, through a proposal that was put 
forth by the National Business Aviation Association, through 
security letters of authorization that allow background checks 
for pilots and crew and people that maintain airplanes, a 
passenger list, that are more than we get out of Saudi Arabia 
on their incoming flights. They are willing to do that so we 
can open up airports like Reagan National and allow people who 
conduct business here in Washington to do that.
    Right now it is a tremendous inconvenience that is running 
people out of business. I want to see us move forward on 
opening these airports. I do not understand the restrictions. I 
understand the United States Secret Service asking them for 
advice. They are pessimists. The glass is never half full. It 
is their job to be pessimists, I am glad they are, but they 
cannot rule over what is going on at Reagan National. And I 
think you guys have only listened to them. I want to know why 
we cannot open up Reagan National and general aviation.
    One last thing, you mentioned the 300-foot rule that is 
going to be revised. I hope it will not be a one size that fits 
all. Can you give us a preview of what that will be and can you 
commit to when we will get some kind of firm guideline?
    Mr. Jackson. I think it is the intention of TSA to wrap 
this up next week. It has not come to me or the Secretary for a 
final briefing. We would like to make sure that we do that. It 
is a rule that is intended to make sure that we do not have a 
one size fits all. It is a rule that bakes in flexibilities at 
the smaller level and the higher level in different ways, and 
then some on-ground discretion to exercise what you so rightly 
said needs to be a cornerstone of the way this works, which is 
some common sense from the Federal Security Director on the 
ground to work with airports to make that work more 
effectively.
    I will say there is a lot of frustration on that front, but 
it is an example of what happened after September 11. I was 
sitting with the Secretary as he had to make some tough 
decisions about how to throw up a system of systems around a 
threat that we did not fully understand. We knew it was real. 
We had seen it bring mayhem to our country on that day and I 
think we did some things that were beyond what we needed on a 
normal operating basis once we return to the new normalcy.
    So we are trying systematically and carefully to review 
each of these types of rules. We have made significant changes 
and new additions as we go along. It will be a moving picture 
to continue to provide common sense. I think you are absolutely 
right on that, sir.
    On Reagan National, I can report that I am very pleased 
that this week marks the return of authorization for all 
commercial flights to Reagan National. This was a long and 
difficult process, but one we have managed in a systematic way 
from the very beginning with support from the President of the 
United States, the Secretary, all the way down, to make certain 
that we got there.
    General Aviation (GA) is the last component part that we 
have to fix and we are working very, very carefully on that. As 
a matter of fact, I believe it was last week with the same 
individuals that you mentioned in the trade association that is 
trying to represent a solution here, we are actively engaged on 
a process to try to make that work. It is a complex set of 
questions but we are committed to working it. I am optimistic 
that we will find a timely solution to that as well.
    So that will be the last GA disruption in the United 
States. We have narrowed the range. It took months to get here, 
but we have not lost the vision of making sure we get back to 
normal in some meaningful way everywhere across the country.

                      ECONOMIC IMPACT ON AVIATION

    Mr. Tiahrt. Aviation typically is the first to feel the 
impact of economic recession. Cashflows get short so they quit 
taking delivery on airplanes. They are also the last to recover 
because people want to see cash before they buy the airplanes 
or take delivery on airplanes. So every moment that we delay we 
put a hindrance in air transportation and the aviation 
industry, and that is a big component of our economy. And if 
our economy is not strong, our revenues are down. And if our 
revenues are down, we cannot pay for the things we need to pay 
for to make this country safe.
    I want to encourage you to keep pushing the envelope, keep 
pushing to get things done.
    Mr. Jackson. Yes, sir, we are in agreement with you. This 
is the last one that we have to figure out this way, and there 
are alternatives that business users are currently using in 
local area airports to land and take off here. Thisis an 
important thing to do and we are working on it. Thank you, Mr. 
Chairman.
    Mr. Rogers. Mr. Olver.
    Mr. Olver. Mr. Chairman, Ms. Kilpatrick was here before I 
was.
    Mr. Rogers. Ms. Kilpatrick.
    Ms. Kilpatrick. Thank you, Mr. Olver. Thank you, Mr. 
Chairman.

                         UNREALISTIC DEADLINES

    Two and a half hours later I am just trying to make sure 
first that I understand. Since February--let me back up, since 
September 11 the very foundations of America and the world has 
been shattered. Loss of lives and degradation that the country 
and the world has gone through since that time, the world will 
never be the same and certainly not our country. As we passed 
the legislation that set up the TSA, the goals that the 
Congress put forth appear unrealistic. We now know that. The 
airports know it. The airlines know it, and I think TSA knows 
it and really has not been back to this body, as many have 
said, to ask for some changes.

                               TSA COSTS

    This is the appropriations committee. You spent $2.2 
billion or will be out of it in the next few weeks. You come to 
the committee with no budget justification asking for another 
$4.4 billion and then expect us to just give it to you, which I 
think the chairman and the ranking member and all of us are 
saying that will not happen. Four months ago it was 30 to 
40,000 employees. Today it is 70,000-plus employees.
    The costs are too high. The equipment we are talking about 
putting into facilities, and we have four airports represented 
here, two of which have to have new facilities to even house 
the equipment. The costs are too high. I like what the Grand 
Rapids gentleman said, maybe the technology needs to be looked 
at. Some members up here also acquiesced to that. The passenger 
security fee is not enough. Now we know that. What Mr. Callahan 
said, what we thought would be $2.50 or $5 may end up being $25 
to $50 and the cost of flying is already too high.
    The reimbursements the Dallas airport asked for and you 
talk about working with them and, yes, they want to work with 
you, but they need a new facility to put machines in at the 
cost of some $193 million. No rooms for machines at other 
places.

            CONCERNS WITH COSTS, EFFECTIVENESS AND DEADLINES

    The screening companies, and we found out right after a 
week after the tragedy, the companies were foreign-owned, 70 
percent of the employees were not U.S. citizens. We are still 
finding Argenbright is still operating. The chairman said 
emphatically today move them or you will not get much of the 
supplemental funding you are asking for. I think it is time for 
the subcommittee and the administration and all of us to work 
better together.
    What we have done since September 11 to rectify the 
aviation system that existed then and what we are trying to 
build now is not working. We do not have the dollars to make 
sure that you get what you need. Mr. Mead has been very gentle. 
They always take particular attention to listen to him when he 
testifies. He is the objective voice we listen to. 
Additionally, we have four airports here, I might say.
    Mr. Jackson, I might say you have been masterful in Mr. 
Magaw's stead. I commend you for that. You certainly know how 
to testify before a congressional committee. You are very good 
at that.
    I am just at a loss where we go from here. The dollars that 
you need, and they are not unlimited dollars. The country is in 
very much of a slowdown. We have to take care of our medical 
care system, which is collapsing in America and is not on 
anybody's agenda, from the doctors to the hospitals or anybody 
in between.
    Today as we come to airline security and TSA's 
responsibility as this Congress has given to you, you cannot do 
it. When I came to this committee we were talking about Amtrak 
was going to be self-sustaining by this December. They could 
not do it then and they cannot do it now. We have to be 
realistic. It is so stressful to fly. Ninety percent of 535 
Members fly twice a week, so you have our ear to make it right. 
We too are spread-eagled and shoes off and all of that. We are 
not asking it be any different, but the system we have been 
talking about for the last 2 hours, instead of doing the cookie 
cutter approach, we need to do an overhaul and we need to take 
the time to do it right and look at what is available 
technology-wise realistically at the airports and then see how 
we do it. I think the American people want us to do it right 
rather than quick, want us to be secure.
    So, Mr. Jackson, as you come today for Mr. Magaw, and we 
send our regards to him as he has had heart surgery, thank you 
for your presentation, but I am certainly at a loss to see 
where we go from here. 30,000 employees 4 months ago, now you 
need 70,000. I do not care what you say, the employees do not 
make up this $4.4 billion. The bulk of that, and we have no 
budget justifications, is probably the equipment, and it may be 
outdated.
    I saw you get a little afraid when somebody talked about 
it. Of course, you have to try everything and come up with the 
best. We live in a high tech society and there is probably 
something on the drawing board that can probably do it quicker, 
faster and cheaper. And being the last person and having heard 
everyone else speak, the advantage of that is to really see, 
and, Mr. Mead and Mr. Jackson, you have heard everything all us 
of have said. We have heard you this morning. Are we going to 
make it? Do we start over anew?
    We know the deadlines are unrealistic. The way they 
getchanged is you come to the chairman or somebody and say let us get 
it changed. We can do that. That only takes 218 votes and 51 on the 
other side.
    So the screeners themselves who are at the airport and you 
are saying $21,000, that could not add up to $4 billion. And by 
the way, another problem, women screeners. Women want women to 
screen them. We do not particularly want men to screen us. You 
do not have enough women on staff for that.
    It is problems right down from the very existence and 
starting of TSA. Rather than doing it wrong, I would like to do 
it right. We have to help the airports. They need new 
facilities to put the machines in. We used to do big phones 
with cords. Everything is new now. There is probably something 
new that can help us in our baggage as we go on airlines.
    Really, Mr. Jackson, I am making more of a statement than a 
question. You have been masterful this morning in terms of 
fending for yourself and the agency, but 70,000 new people when 
you needed 30,000-40,000 a few months ago, that probably will 
not happen. Are we any safer? We do not really know. There has 
not been any new conflict but we are at war, and maybe World 
War III if we are not very careful. That is something that is 
out of control.
    I come from Michigan, and the largest population of Middle 
Easterners outside of the Middle East lives in Michigan. We 
have Jewish friends on both sides. They are all intermingled as 
American citizens, most of them. We have given you $2.2 
billion. You have come with no budget justification asking for 
$4 billion more. As I listen to the discussion, most of that is 
going into equipment that may be antiquated. You might need 
something else. And even the $100,000 that someone mentioned 
here that we will pay the personnel, that is probably a few but 
how many? You are not able to tell us that.
    So as a member of the subcommittee and one that will be 
voting on the supplemental as it goes through, I am scared by 
what I hear and I know that the dollars that we may need are 
not there because we still have to fund education and housing 
and health care and all the like. So as the last questioner, 
statement, I didn't mean to make all that, I had several 
questions here but I do not know what question to ask now.
    Can we do what we need to do? Do we reexamine what TSA's 
mission is? Are the dates going to be met? We cannot build 
those machines. We knew it when we passed that. We had 
testimony before that. The company, whoever it is, there are 
only three companies that make the machines, it cannot produce 
enough, 24 here, 12 there. It cannot do it. 429 airports. We 
are reasonable. We talk bad and big, but we are pretty 
reasonable most of the time if you can get to us right.
    Mr. Mead and Mr. Jackson, as I close, where do we go from 
here?

                          DECEMBER 31 DEADLINE

    Mr. Mead. Mr. Jackson took one of these December 31 
questions before, and I would like to approach the question, 
too.
    I do not think there is any question that the December 31 
date is driving behaviors above costs and acquisitions. I do 
not think they would otherwise occur at that pace. I think that 
the Chairman made a point about magnetometers earlier. I think 
they need to be investigated by TSA because, in fact, the 
magnetometers that we have out there, the magnetometers we have 
at BWI, are old magnetometers. We have an old magnetometer 
standard. The Secret Service has a more modern, more current 
generation of this technology. But magnetometers are not 
mentioned in the deadlines in the security legislation.
    Now, I think there is a question of do we blink on this 
December 31 date together. Who blinks first and speaks to its 
realism because I think it can be done under a certain 
scenario, but it will be costly. I think we all should reflect 
on the history of the December 31 date. I am not privy to how 
the December 31, 2002 date, was established, but I do know what 
led to Congress establishing a date. What led Congress to set 
that date was a regulatory failure over a period of years where 
Congress kept hearing about the underutilization of machines 
that they were investing $1 million in. They were looking to 
FAA to establish rules that would increase the utilization of 
these things. The utilization did not increase, September 11 
happened, and Congress became outraged. They wanted to do 
something. And that is something of the context in which that 
law was passed.
    I do not think this Administration wants to be in a 
position to say, well, if the December 31 date slips or if it 
is modified or caveated or if there is a safety valve put on it 
that security is not important to them. I know no Member of 
Congress wants that, and I certainly do not want that, but 
there are these pressures that are associated with this 
December 31 date that are unfortunate. I think the pressures 
are very difficult to deal with, and that is why you are in the 
position you are, and Mr. Jackson is where he is.
    Mr. Jackson. Congresswoman, thank you for your comments, 
and I will say the Administration did not propose this deadline 
but we agreed to saddle up and ride to it. I know that we can 
balance being quick and nimble with being good at meeting the 
core need. The people that the President of the United States 
calls the evil ones have not gone away for good. They are there 
and there is a threat, and so we know that we are in a 
balancing game.
    You in this committee, of all places in the Congress, have 
that very, very tough balancing process that you have to workon 
multiple competing priorities. What we are trying to do is give you a 
game plan that can fairly and effectively and in responsible and 
deliberate way, put this balance into place and make it work. I do 
think we can make it work.
    We are using very innovative contracting mechanisms. We are 
revolutionizing the way we train and hire and support the staff 
that is going to have to do this. But it is, at the end of the 
day, a daunting national task, and it has to be one that we all 
stay on together so that we can support it.
    So I am absolutely willing to be in a dialogue about all of 
the particulars at a gruesome level. When Mr. Mead said earlier 
this is not a topic that the Deputy Secretary and the IG ought 
to be talking about, I will tell you there is no topic here 
that the Deputy Secretary or the Secretary or Mr. Magaw will 
not chase till the midnight hours on Saturdays and Sundays to 
figure out the right balance. We need to work to figure out 
what we can afford, but we will give you a game plan on what we 
need to get there and it will be a reasonable one and open to 
changes as we work with the committee to fund what we need.
    Ms. Kilpatrick. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Olver, do you have any questions?
    Mr. Olver. I was going to pass, Mr. Chairman, because I had 
come in quite late from my own committee which was having an 
equally contentious kind of hearing downstairs. But the last 
set of comments have made me to want to ask of Mr. Mead, how 
can the deadline of December 31 be met for complete inspection 
of baggage? How can that be met now?

                     BAGGAGE SCREENING METHODOLOGY

    Mr. Mead. I think Mr. Jackson would want to add to this. 
The way is through a combination of taking these big machines, 
these that you have seen at the airports, they are the size of 
a tank.
    Mr. Olver. Which will cost millions of dollars, a million 
and a half each.
    Mr. Jackson. We have reduced the price from about the 
million dollar price point through some good negotiations to 
the $700,000 range. That depends on the size. That is not 
cheap.
    Mr. Olver. How many can be manufactured in the next six 
months?
    Mr. Jackson. By the year's end the manufacturers tell us 
that they can manufacture 1,350 of these devices, and we have a 
procurement contract out on the street to bolster, reinforce 
and improve that procurement capability.
    Mr. Mead. But they would obviously need substantially more 
machines.
    Mr. Olver. Than the 1,300?
    Mr. Mead. Yes.
    Mr. Olver. How else do we do it then?
    Mr. Mead. The other approach that we can supplement it with 
explosive trace detection units. Trace has been in use in 
airports for some time at the passenger screening checkpoints. 
After you go through sometimes they say, can I see your 
briefcase, sir? And they take out something that looks like a 
piece of cotton. They rub it on the briefcase and they put it 
in a machine. That is a trace machine. Those are $40,000 or so 
apiece but very staff intensive because somebody has to rub the 
bag, then put the swab in this machine and the machine says 
within a high degree of reliability whether trace particles of 
an explosive are present or not.
    That technique would be used to screen checked baggage and 
satisfy the legal requirement. Unfortunately, that technique is 
very staff intensive, presents an issue about whether you have 
to open up the bag to do a good trace or a good swab. In other 
words, you have a closed bag. Is it enough to just swab around 
the zipper of it or do I have to open it up and swab the 
contents inside the bag. If I have to swab on the inside, it is 
extremely staff intensive and invasive. It takes more time.
    That is one of the issues that the Administration is 
sorting through and maybe something we could speak to in the 
closed session as to why that is an issue at all. But that is a 
huge cost driver, and Mr. Jackson can speak to the issue of the 
mix.
    So what you are going to end up having, sir, is some 
baggage will be screened by the explosive detection machines, 
some exclusively by trace, and some airports will be using both 
explosive detection machines and trace.
    Mr. Olver. But you would not have people just rummaging 
through the bags per se at all?
    Mr. Jackson. No, sir.
    Mr. Olver. What is the detection mechanism on the trace?
    Mr. Jackson. The trace measures the residue of potential 
explosives that are on the bag, and we will talk a little bit 
about this in the closed session in more detail. But both are 
very, very precise scientific instruments. Frankly, the EDS 
machines are an older x-ray technology. The trace is a more 
recent core technology, but they are used globally in Israel 
and Europe and around this country, and we have some very good 
data on them.
    Mr. Olver. Surely there must be some technology 
improvements, including the trace and simple metal detectors. I 
am surprised, just anecdotally myself, as Ms. Kilpatrick 
pointed out, that we fly two times a week essentially and 
sometimes the machines will catch my watch or my belt buckle 
which I thought was brass but maybe is not, or sometimes it 
will catch the medical medallion that I wear around my neck and 
is very difficult to remove all the time and sometimes I go 
right through. It makes me wonder if we have no realstandards 
on how this machinery is working and whether it is up to date. We 
surely have better technology available than we are using and is 
deployed around here now. But that would take some time.
    Mr. Jackson. Mr. Chairman, you are working on a good 
coalition for the program to upgrade these magnetometers. I 
think you have a coalition going here. We believe that one of 
the courses you raised, sir, is that uniformity and 
predictability across the system is an indispensable component 
of the trust of the American people.
    Mr. Olver. I think to speed things up, I think some of the 
machines are just randomly turned off.
    Mr. Rogers. We have got to get out of here. Do you have 
anything further?
    Mr. Olver. No.

                       CLOSED SESSION DISCUSSION

    Mr. Rogers. I want us to be able to wrap up quickly because 
we have to get ready for the 2 o'clock hearing and they have to 
do certain things to the room. Before Mr. Jackson leaves, he 
will not be able to be with us for the 2 o'clock session.
    Mr. Jackson. I can be, with your forbearance, but I have to 
make a trip up the avenue after that.
    Mr. Rogers. Good. Let me ask you a couple things before we 
wrap this up.
    Mr. Callahan. Mr. Chairman, I have a question for the 
Airport Authority people.
    Mr. Rogers. Go ahead and ask it.

                   COSTS TO MODIFY AIRPORT FACILITIES

    Mr. Callahan. My question is we just briefly touched on 
capital improvements that are necessary as a result of the 
Federally mandated changes. Can each of you give us some 
ballpark idea of some of the dollars that each of your airports 
is going to cost to modify the physical facilities of the 
airport, just a dollar amount per airport?
    Mr. Welna. Mr. Chairman, Congressman, for the EDS 
deployment alone we estimate $50 million dollars. That does not 
address issues regarding checking of employees, improvements in 
perimeter security or the cargo aspects that have to be 
addressed as well.
    Mr. Callahan. None of this is included in the $4 billion 
requested?
    Mr. Jackson. Well, I can say that we have included in what 
we have not sent to you a plan to cover some significant 
installation costs, which could extend to some reconstruction 
costs in, I would say, a modest way for the EDS deployments.
    Mr. DeLong. In Louisville, short-term $3.5 million. You 
have the design for a permanent fix, estimated costs $16.2 
million. That $16.2 million will significantly offset the 
number of people necessary to do the processing.
    Mr. Koslosky. Under the current model short term to meet 
the deadline in Grand Rapids, probably under $100,000 because 
we will stick them in our lobby and insert them. But long term 
it will not work from a customer and queuing standpoint, we 
know that. There also could be some fire code issues with 
ingress and egress. Somewhere in the neighborhood of $15 
million to $20 million at our small airports.
    Mr. Fegan. At Dallas/Fort Worth International Airport, as 
previously testified, it is about $193 million to modify four 
separate terminals to provide for an in-line system. Again it 
is a tremendous amount of work that has to take place in a very 
short period of time.
    Mr. Callahan. What would that relate to nationwide? Four 
airports we are looking at $300 million.
    Mr. Mead. You are looking at a figure well in excess of $2 
billion.
    Mr. Rogers. How much?
    Mr. Mead. Well in excess of $2 billion. I would not go as 
high as $3 billion. But these are estimates, DFW's estimate is 
pretty solid. I cannot speak to the rest of them, how finite 
they are. I would put a range in there of between $2 and $3 
billion.
    Mr. Rogers. Thank you.
    Mr. Jackson, in your budget request I do not see anything 
in there for such things as continued payment under the 
screening contracts, purchase of existing screening equipment 
from the airlines assumedly, the maintenance of the EDS 
equipment, the cockpit door modifications, transponder 
hardening, space rental costs at the airports, more personnel, 
as well as equipment. I do not see anything for surface or 
maritime security, and as we all know, TSA is more than just 
air security, or security related research other than the 
aviation. Am I overlooking something?
    Mr. Jackson. Mr. Chairman, most of the items, although not 
all of them that you mentioned, will be part of the unpacking 
of the $1.9 billion figure that we have baked into the 
preliminary budget that we submitted to the committee. For 
example, the maintenance of x-ray machines, magnetometers, the 
machines that we are purchasing that would be covered there, 
and the screening contracts are already in the part that we 
have provided you information about. The space we have embedded 
into, I believe, the second part, and we can come and explain 
that to you in more detail with you and your staff.
    The cockpit and transponder information that you ask about 
are part of the earmarked money, I believe, and I would just 
like to verify, sir, that that was included with the funding 
that was through multiple channels, but basically that we have 
provided already as part of the $2.4 billion.
    On the surface transportation mode front, we are not asking 
in this emergency supplemental for additional 
surfacetransportation investments.

                            TSA 2003 BUDGET

    Mr. Rogers. I am not talking about supplements. I am 
talking about your 2003 request.
    Mr. Jackson. In the 2003 we will add additional 
granularity. Mr. Chairman, I will tell you that the 2003 budget 
is driven by the decisions that we make on these capital 
investments this year, and that is why we are, regrettably for 
all of us, having to do some of this in some sequence. We think 
that the closure of the last component part of the 2002 
emergency supplemental will allow us, for example, to look at 
whether and to what extent we can move capital costs into this 
year that will not have to be born next year, or vice versa, 
depending on the total available funds.
    The 2003 budget in our view is contingent upon providing 
for your review the full costs of what we are projecting for 
2002 and then adjusting forward and backward and depending on 
the needs of what Congress is willing to supply.

               OBTAINING SECURITY EQUIPMENT FROM AIRLINES

    Mr. Rogers. Now the airlines hold title to a lot of 
security equipment, 150 EDS machines, 1,400 x-ray machines, 
1,600 metal detectors, 600 trace detection systems and so 
forth. The law allows the airlines to give you that property. 
It does not mandate that they do that. And you have no money in 
next year's budget to buy that equipment. Are you confident 
they are going to give you that equipment?
    Mr. Jackson. No, sir, I am not confident that charity 
reigns here.
    Mr. Rogers. The airlines would not want to give you that 
equipment?
    Mr. Jackson. I have not counted on that as a prospect, sir. 
What we have is two large clumps. The EDS machines we do not 
have to pay for. We paid for them to begin with and they are 
ours. The magnetometers and the x-ray machines constitute the 
largest bulk of the equipment. Right now we are contracting to 
maintain them but have not purchased them and the purchase 
price of those is being negotiated, Also, what is being 
negotiated is whether we want any of it or whether we would 
rather just pitch it and buy something new.
    That is part of the last of that $1.9 billion unpacking. I 
will tell you that in terms of priorities, we have asked the 
airlines to give us a couple of months and let us work on some 
of this. They have been very generous in this regard and said 
they would not try to nickel and dime us in the short run. They 
will work out some reasonable accommodation with us over the 
time. So they have been very generous.

                          PASSENGER SCREENING

    Mr. Rogers. You mentioned the BWI Airport is a prototype in 
trying to laboratorize what you are doing. We have been out 
there and went through that system, and you have got a number 
of new positions that assumedly would be a part of the model 
that is put in all airports at the passenger check through 
point. In addition to the pre-September 11 positions, x-ray 
operators, hand wand operators, trace detection system 
operators, checkpoint supervisors, in addition to those you 
will have the law enforcement officers, you will have the 
ticket checkers, you will have a ground station coordinator, 
you will have a customer service representative. I thought the 
airlines did that. You will have a customer service supervisor. 
You will have a line monitor, a shoe and bin runner, and you 
will have additional hand wand operators and you will have a 
secondary screening hand wander.
    So you are talking about a huge number of people, and I am 
not sure we need to do all of this stuff. I thought customer 
service was the airlines responsibility and, number two, if we 
have got better magnetometers, you are not going to need hardly 
any hand wanders. Then ticket checkers, I thought that was an 
airline responsibility. I am confused. Can you help me out?
    Mr. Jackson. Yes, sir, I will try to. We have tested 
multiple configurations and multiple jobs, some of which may or 
may not survive in the final team approach that we have put in 
there. I would like to be able to validate for the record the 
observation on the number.
    [The information follows:]

    In the case of the Baltimore-Washington International 
Airport laboratory at Pier C, five different possible 
configurations of screeners were modeled to determine the most 
effective team configuration. This resulted in the deployment 
of 31 screeners, an increase of three positions from previous 
staffing.
    The three positions we added for large airports are: (1) an 
extra screener at the exit lane to prevent the exit lane 
breaches which can result in extremely disruptive and costly 
terminal evacuations; (2) a line monitor to assist passengers 
in preparation for screening and to most-efficiently direct 
passenger flow; (3) a shoe x-ray screener to expedite passenger 
screening. These positions are crucial to achieving lane-on-
lane increases of 40% in passenger throughput per hour.
    The roles of Ground Security Coordinator and ticket checker 
remain with the airlines.

    Mr. Jackson. I believe that net, given what we are 
currently paying for the airlines and the supervisory structure 
they have, the law enforcement folks that we have there, that 
we are two people up per two x-ray machine team to run through 
that. So we have added a couple of positions. That is exactly 
right. But we have increased the throughput from roughly 500 an 
hour at the peak time to 700 an hour.
    I will give you an example about Baltimore. They had 
planned for construction of another lane at the exact Pier C 
that your staff visited, and we arm-wrestled about that because 
they were convinced that they needed more equipment and more 
people to staff that machine in order to get the throughput 
that they wanted. We said no, that we have a better way, and 
that was this readjustment of the team approach and 
reconfiguration of the machines and tools that we have there. 
So, we not only were able to increase productivity by 23 
percent per person, but we alleviate the necessity to buy 
additional equipment and people to run it.
    It is a math problem, sir, and we will be happy to share 
the math. I am not a mathematician. I am a social scientist, 
but we have taken the math and the observations from experts 
and we have tried to bake it into the most cost effective way.
    Mr. Rogers. The requests for budget for passenger screening 
I assume were driven from the results at BWI?
    Mr. Jackson. Yes, sir, generally so.
    Mr. Rogers. But the metal detectors out there are 10 years 
old, and the technology is 17 years old. According to the 
manufacturer, whom I think is Ceia, C-E-I-A, International, the 
Canadians, French, others are getting the newer systems with 
lower false alarm rates, which reduces dramatically the number 
of people that you need there. Apparently that is not in your 
formula at this point in time to get rid of the old equipment.
    Mr. Jackson. We are looking at a staged approach and 
starting with what we had. But you have asked an important 
question and I do know that we are doing an analysis of each of 
the equipment sets that would be at a given airport and the 
alternatives in productivity and efficiency and costs in 
measuring that out. I apologize that I am just not an expert on 
the magnetometer technology well enough to be able to tell you 
whether that is baked into our plan and whether that is a truly 
significant productivity enhancement for us. If it is, we will 
certainly embrace it.

                 SECONDARY SCREENING AND MAGNETOMETERS

    Mr. Rogers. Back in 1992 high threat airports required 
people to walk through a second metal detector that was tuned 
up differently rather than use hand wanding, and yet that 
secondary metal detector process was discontinued after 
September 11 in favor of hand wanding. Germany I am told 
discontinued the use of wanding, handheld detectors, in favor 
of walk-through detectors. But yet we have gone in the opposite 
direction.
    This is not an insignificant point, because as I understand 
it, you are adopting the policy that only women can wand women 
and men wand men, and in smaller airports that will mean having 
a man and woman hand wander at every station all the time, and 
that is a huge expense, although I am sure necessary. Why can't 
we have the second metal detector instead of all the hand 
wanding, as Germany and other people are doing?
    Mr. Jackson. If I could just consult by way of a glance 
here with Steve McHale, the Deputy Under Secretary of the TSA. 
We have authorized a return to the secondary screening 
magnetometer in at least two category X airports that I know 
of, to try to increase the throughput and diminish the hassle 
factor of going through this. So while not every airport, as 
you accurately said, has employed that secondary screening 
methodology, we are very much open to and are testing and 
getting results from the restoration of that capacity. Frankly, 
I think that is exactly the sort of thing that we need to be 
doing to squeeze as much productivity as we can, while 
maintaining safety at these sites.
    So it is a very good point. We are doing exactly a test of 
that and if it turns out, sir, that the addition of 
magnetometers at some airports could bring a commensurate 
safety and security productivity, we are open to looking at 
buying some of that and requesting funds to do so.

                      AIRPORT IMPROVEMENT PROGRAM

    Mr. Rogers. Now these airport people are obviously very 
interested in what we are going to do about paying for the 
modifications at airports to accommodate the EDSs and space for 
your personnel that they have got to provide. And I have heard 
talk that you may want to try to use AIP funds for those 
expenses. Do you plan that?
    Mr. Jackson. I believe there was a provision of the TSA 
that made the Airport Improvement Program (AIP) 1-year 
eligible. It was a specific provision of the statute in this 
year, 2002, that AIP funds would be broadly eligible and there 
would be granted a significant degree of flexibility to the 
Department to allow airports to use AIP. I do not believe AIP 
is a silver bullet that can solve the size of the problem we 
have here, and we are working on that. I would just say that 
when we bring you the staffing and technology plan for the 
deployment of a combination of explosives detective equipment, 
including the CT scan and trace equipment that we have spoken 
about here today, one of our drivers for this and one of the 
reasons that we stepped back and tried not to leap into a sort 
of cookie cutter approach to this, is that we have been 
reviewing thedifficulties of all this ETD procurement at 
airports around the country and have concluded that it imposes these 
very significant costs and also the potential for disruption.
    For some places, for example at DFW, there may be no other 
solution. If so, we have to be ready to leap in and do what 
they need to get it done there. But at other places we may be 
able to use a combination of these two tools and reduce the 
capital costs to the airports, supplement that with some of our 
own money to help with the installation, something that we can 
bear the burden for and minimize the disruption to the airport.
    These are weighing and balancing efforts that we have been 
trying to go through. We have literally asked 100 airports or 
so to send us copies of their blueprints so we can go over with 
engineers in an effort to try to figure out how this weighing 
and balancing as a public policy could drive our procurement 
solution. So it is another complex math problem, but this is 
the approach that we are trying to bring to it. In EDT and EDS 
deployment we will incorporate a strong sensitivity to the 
issue that you are raising of airport costs.
    Mr. Rogers. I hate to use AIP funds. It was designed for 
something different. There are still great needs at airports 
for other than security improvements, such as runways and other 
things AIP is eligible for. If we get into using AIP for 
security, there will not be anything left over.
    Mr. Jackson. AIP is stretched. I could not agree more.
    Mr. Rogers. I hope before you do that that we will have a 
long conversation.
    Mr. Jackson. Okay.

                     OFFICE SPACE FOR TSA EMPLOYEES

    Mr. Rogers. Number two, you have by your estimate 40,000 
airport-based new employees to house, to office and all of 
that, and you are going to have to get the space from these 
airports, I assume, around the country. Is that so? And what is 
going to be the arrangements with the airports to house these 
people?
    Mr. Jackson. It is physically not possible to put a TSA 
team on airport office space in every location. We are going to 
have to do it. When we have done it once, there are 428 more 
times to do it. So it is going to have to be some common sense 
assessment. We know that we are going to put some people off 
site and we are looking at that and have included some funds to 
be able to do that.
    We also know that hiring a large screener work force is not 
like hiring an office work force, so we do not need office 
space for the vast bulk of people in a large airport. But, for 
example, at the category X airport if you are going to be 
running a team of hundreds of people literally that are working 
at that airport, you are going to have to have a support staff 
and some place for secure communications, for work. So this is 
a problem that we just have to tackle on a case-by-case basis, 
and it may be that we are doing interim steps for some period 
of time until we can put more satisfactory, longer term 
solutions in place.
    At BWI, for example, the airport has been phenomenally 
helpful there. They have cleared out a room, and the last time 
I was out there, about 40 people were in a bull pen. It looked 
like a pig pen. They were all doing good work. So we are just 
going to have to work it this way.
    Mr. Rogers. I guess what the airports are asking is whether 
you are going to pay rent?
    Mr. Jackson. That is a policy decision we have not 
announced a position on yet.
    Mr. Mead. Mr. Chairman, I break this rent issue into two 
pieces. It is fair to say that the airports look at it in two 
pieces, too. One piece has to do with the equipment, explosives 
detection machines, and the space that it occupies, the space 
the magnetometer occupies, etc. The second price is the space 
that the TSA says it needs at the airport to house its 
employees and the office space and so forth.
    From a policy standpoint I think you can look at those two 
quite differently. I look at the screening equipment as kind of 
a necessity that has to be there, and maybe that is an item 
that you should not pay rent for. On the other hand, office 
space strikes me as being an entirely different category.
    It is food for thought.
    Mr. Rogers. I assume the need for training space, office 
space, break room space and whatever is associated with 
personnel operating in an airport, and a lot of these airports 
do not have the space available. Others will have to move 
somebody else out. I assume there would be some discussion at 
some point in time about adequate compensation for airports 
that do provide office space.
    Mr. Jackson. Yes, I think that is absolutely fair to 
anticipate such conversation will take place. I will associate 
myself with Ken's remark that we are not, I will tell you, 
budgeting for rental fees for the footprint, for the safety 
material equipment and teams we are deploying to make the 
airports secure.
    The other category that the IG mentioned is something that 
is part of our ongoing deliberation here.
    Mr. Welna. Mr. Chairman, from a policy standpoint I would 
hope that the TSA would consider breaking that first part into 
two parts, and that is the existing footprint that is being 
used for the screening process may in fact at some airports be 
a workable issue. Other airports currently have the airlines 
paying for that, and so if the TSA does not and the airlines do 
not, they have to have a cost recovery.
    But there is a second part which may take up even more 
space, and that is the finding of space or building of space 
for the new equipment that will be required and that someone 
has to pay for that as well.
    Thank you.

                            Closing Remarks

    Mr. Rogers. We are running late here, and I want to shut 
this down so we can get ready for the 2 o'clock hearing and 
give you a little while to break, those of you here who are 
returning at 2:00.
    I want to thank the airport operators who traveled to be 
with us today and give us your time and wisdom. We thank you 
for your participation. I have been, I guess, to all but Grand 
Rapids, and compliment you on the great operations that you 
have. We had a chance to visit in detail in Dallas/Ft. Worth 
Airport some time back, an enormous operation.
    And of course my home state airport in Louisville is a 
pride and joy for all of us. They have that special connotation 
of having the home base of UPS there, which is a special 
consideration in all of this. Thank all of you for being here.
    Mr. Secretary, thank you for coming and we will see you at 
2 o'clock, as well as Mr. Mead. Thank you so much for your 
information.
    We stand in recess.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Thursday, June 20, 2002.

                 TRANSPORTATION SECURITY ADMINISTRATION

                               WITNESSES

JOHN MAGAW, UNDER SECRETARY OF TRANSPORTATION FOR SECURITY, U.S. 
    DEPARTMENT OF TRANSPORTATION
HON. KENNETH M. MEAD, INSPECTOR GENERAL, U.S. DEPARTMENT OF 
    TRANSPORTATION

                          Introductory Remarks

    Mr. Rogers. The Committee will be in order.
    Today we return for a day of reckoning. It is now seven 
months since establishment of the Transportation Security 
Administration, just about the midpoint between its 
establishment and the agency's most ambitious milestone, the 
federal takeover of passenger screening and comprehensive 
checked baggage screening.
    We have had two hearings so far this year to check the 
temperature of activity at TSA. The first was in early February 
when the budget was committed. The agency asked for more time 
to answer many of our questions and that was understandable at 
the time. So we came back together in April and explored the 
topics in more depth, both in classified and unclassified 
session, and with outside representatives from the nation's 
airports. But still many questions remained unanswered.
    So, as the subcommittee likes to do with important topics, 
we have come back once again to get more answers today. And 
because it is our third hearing on this subject, and because we 
have put them on notice back in February of our insistence on 
performance measurement, I believe TSA has had sufficient time 
for us now to measure progress in a formal fashion.
    So we have created a report card for TSA. It is displayed 
behind us here on this desk. These 10 measures were developed 
in consultation with TSA, although they are not TSA's measures, 
they are ours. I believe everyone would look at these measures 
and agree they are fair--a fair assessment of TSA's 
performance. So at the end of today's hearing, we will find out 
how TSA has done on these measures.
    I should point out that next week the Committee may go to 
conference on the 2002 supplemental, and TSA has over $4 
billion at stake in the outcome of that conference. So I hope 
that after this hearing we will be able to report favorably to 
the conferees on how TSA is doing.
    Make no mistake, we all understand that TSA has an enormous 
task and Congress has not made it easier by writing into law 
some specific deadlines that are almost close to impossible to 
meet. The IG, who sits at the table, describes the agency as 
moving, quote, ``feverishly,'' unquote, toward the end-of-year 
goals, like someone in a fever. And that is leading, I am 
afraid, to a number of wasteful decisions both in the amount of 
staff to be hired and in some salary and benefit levels that we 
are seeing.
    Even at its young age, the agency seems to be running out 
of money constantly, like a young child whose money burns a 
hole in the pocket. Already the agency has received two bridge 
loans from OMB, money to keep them going because their burn 
rate exceeds resources.
    I am very much concerned about cost controls and about many 
of the positions they want to hire, like the veritable army of 
shoe-and-bin runners, customer service representatives, ticket 
checkers, and exit lane watchers in the current plan. We will 
not hire a standing army of 70,000 full-time people to screen 
your bags, take off your shoes, and check your briefcase three 
times for one flight, if this subcommittee has anything to do 
about it; and I think we do. We will scrutinize these plans, 
and we will cut out the unnecessary positions in this growing 
agency.
    We are pleased to welcome back the Honorable John Magaw, 
the Under Secretary of Transportation for Security, and the 
Honorable Ken Mead, Inspector General of the Department.
    Gentlemen, we want to thank you for your appearance today. 
We appreciate your information and assistance as we measure 
TSA's performance. We will enter your entire written statements 
into the record, without objection; and we will ask you in a 
few minutes for oral summaries of those testimonies.
    First, let me yield to my colleague, Mr. Sabo.
    Mr. Sabo. Thank you, Mr. Chairman.
    And Mr. Magaw, Mr. Mead, welcome to the committee.
    This committee didn't write the law, this committee didn't 
sign into law the legislation that created the agency, but 
somehow we get sent the bill. We get sent the bill. And I share 
the chairman's concern over what seems to be a very expensive 
undertaking without a great deal of discipline.
    I was very sympathetic to the difficulty of the job as the 
agency began, but at this point, I have to report I don't run 
into anyone who deals with the agency that gives it high marks. 
Whether it is--now occasionally we run into employees of 
companies that contract with the agency, and generally there is 
a shaking of the head. There is a sense of confusion. I think 
``frenzy'' is a good word to describe what is going on.
    Now, all of a sudden, we have other proposals before the 
Congress. I have no idea what will happen to this agency if you 
shift agencies in a few months, as is being proposed. I expect 
much of that process starts all over.
    As this Congress makes proposals for massive reshuffling of 
many agencies of government, I hope we keep in mind the 
difficulty of doing that. I am fearful we are going to set back 
what we are attempting to do with this agency; and it will take 
years, in my judgment, to accommodate massive shifting of other 
agencies into a new structure and go through all the 
readjustments of new governments while the country faces 
massive security problems, and we miss dealing with some of the 
most crucial ones that are not related to structure, but of how 
agencies perform their service today.
    So, Mr. Chairman, I thank you for having this hearing. 
Ithink it is important and the issue and substance of what we deal with 
is important, but we also have to do it in a rational fashion with some 
discipline of how and where we spend money and what kind of precedents 
we set for how much the rest of government will also operate.
    So I thank you for having the hearing, and I welcome the 
witnesses.
    Mr. Rogers. Thank you.
    Mr. Sabo. I hope I feel a little better after the hearing.
    Mr. Rogers. Chairman Young.
    Mr. Young. Thank you, Mr. Chairman. I want to thank our 
witnesses for being here today, and I know that, by reputation, 
they are outstanding individuals and can get the job done. I 
know that the job that they have here with TSA is tough; it is 
a new agency and it is a new threat. But as the chairman has 
pointed out, you are 7 months into the organizational 
structure, and it is probably time to be able to at least tell 
Congress what it is you plan to do with the money.
    Mr. Rogers mentioned that a little over $4 billion of the 
supplemental is for TSA, and comes without justification. In 
addition to that, the request for the 2003 transportation bill 
is $4.8 billion, again without justification. We have a 
Constitutional obligation as the appropriating agency, or 
branch of the government, that we really need to know and have 
justification on just what it is you plan to do with $8 
billion. So we are hoping that today we get a little better 
handle on that.
    As I said, I know you have a tough job. And John, Mr. 
Magaw, you have, I think, made a good choice when you and 
Secretary Mineta decided to bring Admiral Loy on board. His 
reputation precedes him with this Committee. He is an 
outstanding individual who can get the job done for you.
    But the Constitution is pretty serious to us, and it is our 
responsibility to guarantee that that Constitutional provision 
relative to appropriating the people's money, that we adhere to 
that very, very closely.
    So much said on that, but there is another issue, just 
quickly, Mr. Chairman. The last time we had a hearing, I 
suggested to you that travelers were being inconvenienced. I 
really would hope that you tell the folks you hire to show a 
little courtesy when they are dealing with passengers who are 
in long lines trying to get where they have to go.
    I want to add to that today, and I think I see some 
improvement out there. I see people smile once in a while, 
which is not bad.
    But on a very serious note, I have witnessed personally 
female travelers being, in my opinion, violated by people who 
are supposedly inspecting them to see if they were carrying any 
types of weapons. I think that is outrageous. I don't think it 
is acceptable. I think it is your responsibility to guarantee 
that these male screeners, or these male security people who 
are inspecting female travelers, that they respect the female 
and that they do not violate that female's person. And, 
unfortunately, I have seen that happen, and it really is 
disgusting.
    Mr. Chairman, thank you very much.
    Mr. Rogers. Mr. Chairman, thank you very much.
    And let me just say that if we find some evidence of that, 
I want to know the name, rank, and serial number, because we 
will terminate him if you don't.
    Mr. Obey.
    Mr. Obey. Thank you, Mr. Chairman.
    Mr. Chairman, I want to second what Chairman Young said 
about the two witnesses; they are both fine public servants. 
And what I am going to say I hope does not reflect in any way 
on them personally, but I want to talk about process and 
results.
    I mean, I--like Chairman Young, I have 13 subcommittees to 
cover, so it is hard each day to figure where we have to be to 
plug in the holes or deal with serious problems. We are 
fortunate on this subcommittee to have someone like Hal Rogers 
and someone like Martin Sabo, who are level-headed, who know 
the subject, and who will do their dead level best to see to 
it, if this agency is in trouble, it is steered right.
    But I am here today because I am concerned that we are 
about, in Congress, to repeat the mistakes that were made 
earlier in the way this agency has been set up and the way it 
has been functioning since that time.
    Yesterday the House passed a proposal which creates a new 
select committee. This committee has no interest in that, 
because no matter what, we have no jurisdictional interest, 
because no matter how the reorganization table is set up, we 
will have jurisdiction over it all because of the power of the 
purse. So we don't have a vested interest there where the boxes 
are.
    But we do have an institutional obligation to see to it 
that when a reorganization is put together, it happens in the 
right way. And as I hear the process that is going to be used 
to produce this reorganization bill, the authorizing committees 
who know the most about it, especially Government Operations, 
will be given about 1 week after the July 4th recess to come up 
with their substantive recommendations for reorganization. Then 
their work product will be referred to a committee composed of 
the leaders of both parties in the House.
    With all due respect for their individual qualities, I 
cannot think of a group of people less qualified to review what 
happens at the committee level than the politically elected 
leadership of both parties. And that isn't because they have 
any personal failings. They are all able people, but they are 
not schooled in the substance, as some of the committees in 
Congress are supposed to be. And to me, that means that we are 
liable to see decisions that are made based on the politics of 
the issue rather than on the substance; and I think that would 
be the worst possible result.
    I don't believe in artificial deadlines. I think the chaos 
that the agency that we are reviewing here this morning is a 
function of some of those artificial deadlines. I think--and I 
certainly don't believe in political fixes to what is 
essentially a substantive set of problems, and I don't want to 
see the chaos in this agency repeated.
    And when I say ``chaos in this agency,'' Mr. Chairman, I 
refer to five different concerns of mine. First of all, on 
salaries, we were told by the agency that screeners were going 
to be paid roughly $26,000. Now I understand they are going to 
be paid--they are being paid at Baltimore, so far, an average 
of $39,000. Maybe those numbers have changed, but that is my 
understanding.
    We have a whole slew of people who are paid at salaries 
ranging from $135,000 down to $101,000--very top heavy, in my 
view.
    Guards, after--I mean, after 5 months of planning, 
theagency sent us down a plan, after plotting with the chairman and 
ranking member of the subcommittee, pointing out that without the 
information from this agency, we can't even move on the transportation 
bill. That whole bill is being held up by lack of information from the 
agency.
    When the agency did send down information about guard 
salaries, we were told that they were going to be paid up to 
89,000 bucks; that has since been changed to 63, now it is down 
to somewhere between 31 and 56. I am glad to see it is getting 
down into reasonable territory. My question is, why on Earth 
did it take so long to get there?
    I am concerned about the planning process and the chaos 
associated with it. Also, the numbers don't seem to add up. I 
am told that the agency originally, to recruit people, planned 
to provide for salary levels that would constitute about a 5 
percent increase above what the Capitol Police are getting; but 
because of a miscalculation in locality pay, I am told, that 
results in about a 16 percent increase. And yet that isn't 
going to be corrected. I am not thrilled about that.
    One area where I think the agency has had a success story, 
evidently, is in ramping up to get the required number of air 
marshals on planes. I think--after a slow start, my 
understanding is that the agency is coming along on that fairly 
well. If that is the case, I am pleased about it, but I am 
concerned that some of that is happening at the expense of 
enforcement capabilities in other agencies, such as Customs and 
Secret Service because of the salary anomalies.
    Mr. Chairman, I am also concerned--and I know you have 
raised this point and you referred to it in your opening 
statement--my understanding is, the agency plans to hire 3,407 
shoe-bin runners and 4,241 hand-wanders, that despite the fact 
that this committee has put under the leadership of the 
chairman $20 million in the bill to provide for new 
magnetometers that will substantially reduce the requirement 
for that number of people in those two slots. I hope that we 
can hear that there are different plans this morning.
    My understanding is, the agency also is planning to hire 
1,430 ticket checkers. I thought that was supposed to be a 
responsibility of the airlines; I don't understand why it 
isn't.
    There are a number of other problems which will be raised 
undoubtedly in the questions. But, Mr. Chairman, my concern is 
that the agency leaders sat down there for 5 months, circled 
the wagons, discussed the matters among themselves, not 
consulted broadly, and produced a series of proposals which 
often are not attached to reality. And it just seems to me that 
the culture of that--we hear a lot of talk about the culture of 
the FBI. The culture at this agency, in my view, is going to 
have to be sufficiently flexible to recognize that they just 
can't sit and design their little systems by themselves; they 
have got to deal with the broad world affected by their 
decisions, and they need to recognize that they can't proceed 
on a money's-no-object basis.
    Certainly, money is secondary to public safety, but we have 
got an obligation to try to be responsible on both fronts. And 
as I said earlier, I am concerned that the chaos that I have 
seen in this agency, very well described on pages 38 and 39 of 
the committee report on the supplemental, which I would commend 
to everyone for their reading--I am concerned that that chaos 
is also being matched, or that frenzy is being matched, by 
frenzy on Capitol Hill to do anything just so it is quick and 
down and dirty.
    That isn't the way to deal with one of the most important 
issues facing this Congress, and I think that the leaders of 
both parties need to reconsider.
    Mr. Rogers. Thank you, Mr. Obey.
    Secretary Magaw, we will hear your testimony first, and 
then the IG.

               Opening Statement of Undersecretary Magaw

    Mr. Magaw. Thank you, Mr. Chairman, members of the 
subcommittee, and chairman of the full committee. I am pleased 
to provide testimony on behalf of the Transportation Security 
Administration (TSA). My oral statement this morning is a short 
one; as the chairman has mentioned, the full one is placed in 
the record. A portion of my executive staff is at this meeting 
to hear the committee's concerns, the kinds of comments that 
are being made here, and to understand firsthand how you feel.
    My testimony today will focus on three topics. First, I 
will provide a brief status report on the progress TSA has made 
in improving transportation security; second, I will talk about 
our hiring to date, as well as our current pay policies for TSA 
employees; and lastly, I will discuss our plans to track and 
measure agency performance.
    I then will be prepared to answer the inquiries that you 
have talked about this morning.
    Since I last appeared before this subcommittee, we have 
made further progress in securing air travel. Specifically, we 
have transitioned Baltimore-Washington International Airport to 
a federalized passenger-screening work force; executed 
agreements with local officials to post law enforcement 
personnel at all checkpoints, thereby replacing the National 
Guard presence; awarded a contract to install explosive 
detection equipment in the Nation's airports; announced the 
next airports to be federalized; and selected five airports to 
participate in a private screening program required in the act.
    We have also taken some steps to ensure that the risks from 
cargo are mitigated, including requiring that cargo on 
passenger planes is sent from known shippers and that those 
known shippers are overseeing it in a very close manner. We 
must ensure the integrity of their shipments so that we know 
what is supposed to be in a cargo container and that it has not 
been tampered with in shipment. These are just a few of the key 
steps we have taken recently to tighten security at our 
Nation's airports.
    Given the deadline set forth in the act, TSA's initial 
focus has been on aviation security. But working in conjunction 
with all Department of Transportation (DOT) modal 
administrators and key Federal stakeholders, such as the 
Customs Service, and at the same time, hiring on my staff 
associate under secretaries to work on those specific modes, we 
are moving forward to strengthen the security of all modes of 
transportation.
    Since I last appeared before this subcommittee, we have 
awarded $92.3 million in grants to 51 maritime ports located 
throughout the country.
    Let me now turn, if I could, to hiring and pay. In order to 
achieve the act's deadline, TSA will need to hire a large 
number of passenger and baggage screeners and supervisors. 
These positions will be staffed with a mix of full, part-time, 
and seasonal workers. To ensure that we can attract and retain 
the qualified work force screeners, salaries start at $23,600 
plus locality pay, and locality isdifferent in each location; 
it averages, though, across the country, roughly 12 percent.
    Screener supervisor salaries start at $27,100 plus locality 
pay. In addition to base pay, these employees will also receive 
overtime at time-and-a-half when it is worked, when it is 
needed. These are benefits similar to other Federal employees, 
and our employees will be covered by similar work protections 
like the Equal Employment Opportunity Act and whistleblower 
protection.
    TSA is also required to have a law enforcement presence at 
checkpoints. In 2002, we plan to hire about 1,450 law 
enforcement officers. Their starting salaries are $31,100 plus 
locality pay. Supervisor salaries will be $36,400 to start. 
These salaries are comparable to other Federal law enforcement 
agencies performing similar functions.
    Similar to screeners, these employees will receive overtime 
at time-and-a-half and benefits similar to other Federal 
employees. They will be covered by the protections that I 
previously mentioned for the screeners. We have hired 42 law 
enforcement officers to date.
    I believe it is critical for TSA to have an immediate 
response support and follow-up capability, and we plan to 
provide that by hiring some TSA criminal investigators. TSA 
investigative personnel are needed to respond to Federal 
transportation offenses that cannot be adequately responded to 
by other law enforcement, including passenger screening 
violations, interference with screening personnel, unruly 
passengers on aircraft, false pretenses to enter secure airport 
areas, and various kinds of hoaxes.
    We also have to be able to prepare, present, and testify in 
cases that go to the United States attorney, which later would 
be prosecuted in Federal court.
    Of our Federal law enforcement work force, roughly 15 
percent will be criminal investigators. This will provide a 
small response capability for the agency. The salaries will 
start at $31,100 plus locality pay. In the case of the 
investigators, law enforcement availability pay that is paid to 
other investigators throughout the Federal Government will be 
provided.
    Regarding Federal Security Directors (FSD), the directors 
at the airports, we have hired and have on duty today 30. We 
have dozens more in the pipeline, and over the next 30 to 60 
days we expect all of them to be hired and be going through 
their training at their airports. Depending on the size of the 
airports, FSD salaries will range from $44,400 to $138,200.
    The work force that we have hired to date is a diverse one, 
as I had promised this committee before. Twenty-nine percent 
are minorities, 61 percent are white, and 10 percent are other; 
that 10 percent chose not to fill out that part of their form. 
Seventy-three percent are male, 27 percent are female.
    TSA is committed to hiring a work force that is ethnically, 
racially, and gender diverse, from policy positions right down 
to the newest and youngest screener or law enforcement officer. 
We have initiated outreach to numerous minority and women's 
groups, and have conducted informational briefings to ensure 
that TSA's employment opportunities are well publicized. We 
also plan on advertising for selected positions in minority 
publications and participating job fairs wherever we can.
    I am also committed to establish a leading performance-
based organization. We will develop long-term strategic and 
annual performance goals, manage our resources and investments 
to achieve those goals, institute performance measurements and 
report on the results of our performance.
    One month ago yesterday we submitted our 180-day report on 
performance measurement progress to you, as required by 
statute. I want to reemphasize some of the key points from that 
report.
    TSA is committed to creating a culture that drives 
performance expectations into organizational and individual 
performance goals, and collects data so that you and others 
have access to and can review our performance. We are committed 
to centralized monitoring to assure consistent performance 
across the entire transportation system.
    We have identified and described our goals, designated 
program owners and are identifying the specific performance 
expectations and measurements for those goals. We are 
implementing cost-effective methods and tools to collect, 
analyze, and use performance measures to assess our progress in 
meeting our mission and to ensure programs are held 
accountable.
    Given the importance of our mission, we cannot fail. We 
must have the mechanisms to know what our performance standards 
are and where we stand, and to assure the American people that 
our transportation system is properly run in a secure manner. 
We feel we are well on our way to developing the measures and 
systems that will fulfill these vital needs.
    Thank you, Mr. Chairman and the committee, for the 
opportunity to testify here today about our recent progress; 
that concludes my oral statement.
    Mr. Rogers. Thank you, Mr. Magaw.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Mr. Mead.

                     Opening Statement of Mr. Mead

    Mr. Mead. Thank you, Mr. Chairman and members of the 
committee.
    I think the overriding goal for TSA must be to provide 
tight and effective security in a manner that avoids waste and 
ensures cost-effective use of taxpayer dollars, and that is 
basically the theme of the points I would like to make today.
    I would like to say a word about the President's proposal 
to create a Department of Homeland Security, which is going to 
be considered by Congress at the same time we are creating this 
large security organization inside the Department of 
Transportation. It is going to have enormous implications that 
need to be considered over the summer months. The implications, 
I think, extend to activities anticipates performing, such as 
intelligence gathering and analysis, performing criminal 
investigations, establishing administrative support structure, 
and requesting new space at airports across the nation when 
agencies like Customs and INS already have space at these 
airports. Of course, those agencies are all supposed to be 
merged into this new organization.
    So I think TSA needs to exercise a lot of caution here 
before it embarks on forming criminal investigative divisions 
and intelligence operations, and needs to keep in mind where we 
will be down the road, that we could, in some ways, be putting 
the cart before the horse.
    You have already made clear that the costs associated with 
this law are going to be enormous. When you add it all up for 
2002, our supplemental request from TSA is in the neighborhood 
of $6.8 billion. TSA already had some money going in, but when 
you add up the different requests and the transfers and so 
forth, that is where you end up.
    Of course, the revenues from passenger security fees aren't 
going to cover much; they represent only a fraction of the 
cost. So that makes us look to the general fund of the 
Treasury.
    I want to make a few points about the progress I think has 
been made. There has clearly been some progress at Baltimore. 
Three major contracts are now in place, valued in excess of a 
billion dollars, for dealing with the passenger screening, the 
training, the checked baggage screening.
    I think the selection of Admiral Loy, as Chairman Young 
pointed out, is a real good one. He has had a lot of experience 
dealing with a large organization, big acquisitions, multiple 
missions, and interacting with commerce.
    TSA officials are making sure that they notify us within 5 
days of any allegations of fraud, waste, and abuse; and 
recently there was an agreement entered into with the Office of 
Special Counsel, dealing with whistleblower protection.
    The deadline to have a federalized screener work force in 
place is 5 months away. The deadline to begin screening all 
checked baggage is just over 6 months away. We can attest that 
TSA officials are working fervently to meet those deadlines. 
They couldn't be working any harder or any faster. I do think, 
though, that it ought to be clear soon, probably within the 
next 45 to 60 days, what needs to be done airport by airport 
and determine if midcourse corrections are going to be needed 
as far as what is and is not feasible to do by these deadlines.
    A few words about hiring and training the work force. So 
far, TSA has about 2,600 employees. That excludes the Federal 
Air Marshals FAMs, and it includes the people that came over 
from FAA. By the end of this fiscal year, I think TSA will have 
about 46,000 people on board, again excluding the air marshals.
    The plans for the screener work force go from, about 55,000 
or, 56,000, to about 63,000 at the very outside. That, of 
course, does not include the Federal security directors, the 
support staff at airports, the TSA law enforcement officers, 
criminal investigators, attorneys, former FAA employees or 
headquarters staff. So you have to add those staffs on when you 
hear these numbers of screeners.
    For the period of July through the end of October, TSA will 
need to hire between 7,000 and 8,000 people per month just for 
the passenger screening checkpoints. That does not count 
checked baggage screeners; those are going to come in at 
another 20- to 25,000. So I think the next 60 days are going to 
be decisive on that front, too, as to what adjustments need to 
be made and to what extent those deadlines can be met.
    Regarding screening checked baggage, TSA recently let a 
contract to the Boeing Company at about $500 million. I think 
this is a good thing to do. This contract does not include the 
purchase of the equipment, it includes more or less the 
deployment of the equipment and doing assessments of what is 
going to be required, airport by airport. The actual purchase 
of the equipment will be funded by TSA. If you have major 
airport renovations involved, like Boston Logan, Dallas Fort 
Worth, that will largely not be covered, and I guess you will 
have to look to the airport to cover that.
    In terms of numbers, this equipment deployment effort is 
going to be huge. Two hundred of these big SUV-size machines 
are out there now. There are 200 of the so-called ``trace 
machines'' that are out there now and in use. At least, 900 of 
the large machines and an estimated 5,800 trace machines are 
going to have to be installed by the end of the year if that 
deadline is going to be met.
    We have looked at the contract with Boeing, and, I think 
there are three steps that TSA needs to ensure are taken with 
respect to that contract--first, monitoring the contract bills, 
especially because there is an award fee involved; second 
monitoring the contractor's overall performance; and third 
drawing on work that has already been done by Raytheon and 
airport operators.
    I would like to say a word, Mr. Chairman, about the usage 
of this equipment. I think you know, we have testified 
repeatedly that this equipment, which cost about a million 
dollars a copy, has been underutilized. In fact, I used the 
term woefully underutilized, when the airlines had control of 
the situation. It has been improving since then, but the 
equipment is still underutilized.
    For April 2002, which is the month that we have the latest 
data on, 70 percent of these machines were in use, were 
screening, on average, 750 bags or less per day. Many were 
substantially less than that. These machines ought to be 
screening, at a minimum, 1,250 bags per day. They are capable 
of doing about 125 or 130 per hour. And I think it behooves us 
all that when plans call for spending this kind of money for 
these machines, we should be using more extensively the 
machines we have already bought and paid for.
    It would give us a good base of experience to see what is 
going to happen as we approach December 31st.
    Regarding building incost controls on the salaries. We have 
seen numerous reports that the recruitment of Federal air marshals is 
draining other agencies' law enforcement resources. We found that most 
Federal marshals, though, are being hired at the lower half of their 
assigned pay band, which starts at $36,400.
    Now, air marshals also receive a 25 percent differential. 
It is called LEAP, law enforcement availability pay. So that 
$36,400 basically ends up at about $45,500. And that is what 
most of the entry level people now in the Federal air marshals 
programs are getting, and that salary level is higher than 
those with the Defense Protective Service, Capitol Hill Police, 
and the Federal Protective Service, whose starting salaries go 
from $22,000 to $37,000.
    Mr. Chairman, you will recall at the last hearing there was 
discussion about the law enforcement officers or guards that 
would be at the security checkpoints. There were some plans to 
pay them criminal investigator pay. TSA has reconsidered that, 
and I think that the pay bands that have been set up--although 
those pay bands haven't been popular yet with people--are a lot 
more reasonable.
    The same goes for the screener salaries. It is a bit 
misleading to point to the average screener salary right now of 
$39,000 because most of those are the supervisors. When TSA 
starts hiring in earnest, it will start hiring at, I think, 
about $23,000. I think that is a lot more reasonable than the 
other plans.
    That said though, there are a lot of employees in 
categories other than screeners and screener supervisors and 
law enforcement people at the checkpoint; and I do have a 
concern about the salaries of some of these people when you 
consider the numbers. Fifty-one percent of the people in these 
categories had salaries over $100,000. For example, TSA has 
about 39 attorneys, and 31 of them, or 79 percent, have 
salaries between $101,000 and $148,000.
    All 18 employees hired in the program management series, 
including the Federal security directors and their deputies, 
have salaries over $100,000.
    Of the 32 employees hired in the general inspection and 
investigation series, 65 percent are over $100,000. Of the 30 
criminal investigators TSA has hired so far, 60 percent have 
salaries over $100,000. So I think that bears watching. It 
could be an early sign that we need to pay a lot of attention 
to.
    And, finally, one other item on cost control. TSA is 
letting a lot of contracts, probably over $3 billion worth of 
contracts. And it is doing this very rapidly and in an 
environment where there's not a substantial management 
infrastructure where they can put in internal controls.
    I think it would be wise for TSA to put in a small set-
aside in each one of those contracts to ensure proper oversight 
of them. It is done in other settings, but particularly since 
TSA is just starting out, I think something in the neighborhood 
of 0.5 to 1 percent of the contract value would not be 
unreasonable.
    Thank you.
    Mr. Rogers. Thank you, Mr. Mead.

                        NUMBER OF TSA PERSONNEL

    Mr. Rogers. Now, at the outset of the Airline Security Act, 
we were told, Mr. Magaw, that, max, you would need 33,000 
people. Then we were told shortly thereafter that you would 
need, I think it was 46,000; then the next time we heard from 
the agency, they were up to 63,000.
    Then we had our hearing in March, and the estimate then was 
73,000, at which time we said, Whoa. So in the supplemental 
bill that we passed, we put a cap on the total number of 
employees that you can have at 45,000 people during the period 
governed by the supplemental.
    Yes, we have not conferenced with the Senate yet, but 
regardless of whether or not that number is the final number, 
which it will be, from our perspective, that will be the number 
that we will live by on the House side, regardless.
    Now, you may say, well, we can't live with that. That we 
have got to have so many screeners based on our experience and 
experimentation at BWI. We have extrapolated that, you say, 
nationally, and here are the numbers we need, which we are told 
greatly exceed the 45,000 total people that we had set for you.
    Now, your most recent estimates specify a requirement for 
33,000 personnel to run the passenger screening checkpoints 
alone. And you say we can't cut back on any of these.
    I think you say that, don't you?
    Mr. Magaw. Initially, but in a few months we will cut back 
a lot.
    Mr. Rogers. I guarantee you, you will.
    Mr. Magaw. You asked me the question, Mr. Chairman. I 
didn't mean to sound arrogant or anything. I am here at your 
behest. I just wanted to make sure I was clear.
    Mr. Rogers. I want to make sure you are clear, too. That is 
why we are here.

                       FUNDING FOR MAGNETOMETERS

    Now, we provided $20 million in the supplemental to buy all 
new magnetometers, metal detectors, at every airport, every 
check point in the nation. We are told that will completely 
replace these magnetometers, many of which are 20 to 30 years 
old. And we are told that the new magnetometers are much more 
sensitive, that they measure all the way to the floor as 
opposed to just down to the ankles; and it will obviate the 
need for a lot of hand-wanders and shoe-and-bin carriers that 
you are proposing to hire--in fact, are in the process of 
hiring. Is that not true?
    Mr. Magaw. That is not true. The new magnetometers measure 
from the top of the head to the sole of the shoe. They are very 
highly calibrated, so sometimes you have more alerts than would 
you otherwise.
    [Additional information follows:]

    Magnetometers being purchased for deployment at the 
Nation's 429 commercial airports represent the latest 
generation of metal-detection technology. These magnetometers 
can better differentiate between harmless metal, such as pocket 
change, and metals used in the manufacture of firearms. Indeed, 
these newer devices can direct attention to areas on a person 
that could contain a concealed weapon, unlike the older 
machines, which only detect changes in the electromagnetic 
field caused by the presence of metal objects. However, these 
machines will not be able to distinguish among the full range 
of knives and other metallic objects they detect. At this 
point, TSA personnel at the passenger checkpoints should not be 
reduced because they will continue to need to conduct pat 
downs, perform hand-held magnetometer searches, and help in the 
overall effort to keep passengers moving.
    No international standard has been established for the 
performance of magnetometers. Each country determines the 
threats it will use as the basis for setting magnetometer 
requirements. This may explain the difference in performance 
measures for magnetometers in countries such as Canada, France, 
and Italy and how we measure the machines's performance in the 
U.S.

    Mr. Rogers. But----
    Mr. Magaw. Please, all I am trying to do is answer the 
question, Mr. Chairman.
    So what happens is, that indicates where on the individual 
that alarm is triggering, whether it is under a hat or in the 
shoe area, and then you can go right to that area.
    But in order to make sure that females are doing females, 
males are doing males, and that you answer these particular 
alarms, I don't see it changing that number drastically in 
terms of the number of wanders.
    Mr. Rogers. Michael Jackson, the Assistant Secretary, told 
us at the last hearing just the opposite; that it would obviate 
the need for a lot of extra personnel.
    Mr. Magaw. Can I answer that?
    What we are talking about there is that once we are doing 
that more complete evaluation and once we have a Federal force 
at the initial checkpoint, you will not need near as many gate 
screeners, and therefore that is going to reduce the number of 
screeners by a large number.

                          USE OF MAGNETOMETERS

    Mr. Rogers. Well, our position all along has been, before 
you hire great numbers of people, let's be sure we need those 
people. Let's be sure the machinery is in place that those 
people will be operating before you hire the people to operate 
them.
    And the manufacturer of this new machine, on a test carried 
out in real airports--I am reading from one of the 
manufacturer's documents here--reduces--they say, the new metal 
detector reduces up to five times the number of passengers 
stopped because of their metallic belongings. These are being 
installed now, I am told, in Canada and Italy and France, and 
that the rejection rate of people going through the new 
magnetometers is about 7 percent compared to roughly 31 or 32 
percent under current machinery. Is that your understanding of 
the facts?
    Mr. Magaw. First of all, that is the manufacturer's report. 
We have to be careful that we don't take that at face value. We 
have to do that across the board in anything that we purchase.
    Mr. Magaw. The actual practical application and testing, in 
order to get the number of alerts this device triggers down, is 
to get things out of pockets before they get there. A lot of 
them are leaving on their pagers, and it will pick that up.
    Mr. Rogers. Well, I suggest you contact Canada, France, and 
Italy. They have these in place now, and they tell us that it 
reduces the number of people that get kicked out of the 
detector by up to five times.
    Mr. Magaw. From what they had before?
    Mr. Rogers. Yes, on the old machines that we have now. And 
if that is so, we will not need all of these hand-wanders and 
all of these shoe carriers and all of these exit lane monitors 
that you are saying that Baltimore says that you need.

                           STAFF REQUIREMENTS

    In fact, of the 33,000 screener, personnel that you say you 
need, we think that about half of that is more accurate, 46 
percent of your figures; we think 15,000 of your numbers are 
questionable.
    I don't think you will need 4,241 hand-wanders, 3,400 shoe-
and-bin runners, as you have said Baltimore extrapolated and 
says you need. The exit lane monitors, that to me--I think what 
you are saying there is that those persons sit in a chair to be 
sure somebody doesn't go back in the exit aisle. You know, if 
somebody would invent a self-locking door, we wouldn't need 
those people, would we?
    Mr. Magaw. Yes. we would because you are exiting. The 
passengers arriving on airplanes are exiting. You have to have 
the availability for hundreds--depending on what airports you 
are at, hundreds of people, to exit off the airplane into the 
terminal.
    You are usually passing the magnetometers, which would be 
on your left or your right. The exit area has to be open for 
those people who are arriving and leaving the airport. It has 
to be monitored closely. What has caused us one of our real 
problems in airports, is somebody running through the wrong 
way, because once they go through the wrong way and get lost in 
the crowd, you have to close that terminal wing; that is a 
huge, huge disruption to sometimes hundreds of flights at for 
example LaGuardia, JFK or O'Hare Airport. It is very expensive 
at the same time and very disruptive to the passengers.
    So those are positions that we really would not want to do 
away with, because they have to respond and stop them. If they 
don't stop them other things go downhill from that point on. It 
is a hugely important position for us, sir.

                       NUMBER OF TICKET CHECKERS

    Mr. Rogers. Now, ticket checkers. You say you need 1,430 
ticket checkers. What do those people do?
    Mr. Magaw. I believe we have the airlines doing that now. 
That estimate was back when we were first thinking about--let 
me just check to make sure I am right. I thought that we had 
switched that to the airlines.
    We have not switched it yet; we are looking at it. My 
intention is to look closely, to have the airlines do that.
    Mr. Rogers. I would hope that you would do that. It is 
their responsibility to control entry into the airport lines; 
whether is for Customs, INS, or TSA, that is an airline 
responsibility. That would be another 1,430 people we wouldn't 
need, right?
    Mr. Magaw. I don't know the number off the top of my head, 
sir.

               NUMBER OF CUSTOMER SERVICE REPRESENTATIVES

    Mr. Rogers. Now, you say you want 1,405 customer service 
representatives. What do these people do?
    Mr. Magaw. Those are the early numbers that we--that I am 
looking hard at. I don't anticipate that we will have that kind 
of a position there.
    Mr. Rogers. I mean, the airlines may want to have some 
customer service reps there. I don't see what the government 
needs to be doing.
    Mr. Magaw. We are going to try to do customer service with 
signage. As people get in line, especially during rush time, we 
want to give them the containers way backup the line and have 
signs saying, ``Please check your pager,'' and other things, so that 
when they get down to the magnetometers, they are not finding things in 
their pockets. They are now stumbling around dropping things. That 
really picks up the pace through the magnetometers. We think we can do 
that with signage as a result of trying it in Baltimore.

                         PASSENGER HAND WANDING

    Mr. Rogers. Is it correct that you say you are going to 
hand-wand passengers even when the magnetometer doesn't 
indicate a problem?
    Mr. Magaw. Oh, no, not at all.
    Mr. Rogers. That is being done now, you know.
    Mr. Magaw. No, I don't know that. If the magnetometer does 
not trigger at the major checkpoints, they are not being hand-
wanded. If they get to the gate and they are a person that has 
been designated for additional security, then they may be.
    [Additional information follows:]

    Screening of individuals is normally accomplished using 
walk-through metal detectors (WTMD) at the screening 
checkpoint. If the individual being screened does not alarm 
metal detector, the individual is allowed to proceed beyond the 
screening location.
    If the metal detector alarms, the individual must undergo 
secondary screening prior to being allowed beyond the screening 
location. Secondary screening consists of using either a hand-
wand in conjunction with a limited pat-down inspection or a 
full pat-down inspection. Regardless of the secondary screening 
method used, the screener must determine if the cause of the 
alarm is a weapon or prohibited item. All alarms must be 
satisfactorily resolved. If the number of persons that alarm 
the walk-through metal detector is not enough to ensure 
continual secondary searches, persons will be randomly chosen 
to ensure continuous hand wanding.
    Certain passengers may be identified as selectees by 
Computer Assisted Passenger Prescreening. In addition, some 
passengers may be selected at random. These passenger will be 
hand wanded just prior to boarding the aircraft. All alarms 
must be resolved with a pat down search and physical inspection 
of any item causing an alarm.

    Mr. Rogers. Well, I would beg to differ with you. I came 
through an airport the other day, and everybody in the queue 
line went through the magnetometer; and regardless of whether 
you had an alarm, they hand-wanded you.
    And I said, why are you doing this; and they said, because 
we are being told by TSA that this is what they want done, to 
hand-wand everybody regardless of the magnetometer check.
    Mr. Magaw. Not at all, sir. That should not occur.
    Mr. Rogers. Well, I suggest you get that word out, because 
the word is just the opposite now.
    Mr. Magaw. What airport was that, sir? Do you know? Because 
we will take care of that immediately.
    Mr. Rogers. I will tell you privately. I don't want to 
embarrass them publicly here.
    Mr. Magaw. All right.
    Mr. Rogers. But others have told me the same thing, that 
they are being hand-wanded regardless of whether or not they 
alarm the magnetometer. Are we making work here?
    Mr. Magaw. No, sir. If the magnetometer is not activated or 
if it is not working--we have some that break down on us, and 
while they are broken down, still using that lane, we do the 
hand-wanding. When they walk through the magnetometer, if you 
do not trip that magnetometer, then unless there is some 
unusual circumstance that the screener might see or be 
concerned about, they are not hand-wanded.
    Mr. Rogers. Let me just take a quick poll here of the 
members at the table.
    How many of you are aware of being hand-wanded regardless 
of--even if you did not trip the magnetometer, you are aware of 
instances like that?
    Mr. Magaw. How do they know whether they tripped it or not? 
Because some of them just have a light and no alarm.
    Mr. Tiahrt. They are doing random sampling.
    Mr. Rogers. I think they do a random sampling.
    Mr. Magaw. There should not be hand-wanding if the 
magnetometer doesn't trip.
    Mr. Rogers. Well, the Baltimore people, your people at the 
Baltimore airport told us when we were there that that was the 
policy; that they wanted to hand-wand certain people, 
regardless of tripping the alarm--just for efficiency, keeping 
their people proficient, is what we were told.
    Mr. Magaw. Well, that may be the case, keeping their people 
proficient. There has been a lot of training going on in 
Baltimore. We have put more people at checkpoints at Baltimore 
because that is how we are training the force as we move out 
throughout the other airports. We have to have somewhere to do 
that, but that would only be in a training mode.
    The guideline, when it is fully staffed with a federal 
unit, when the training is completed--of course, training is 
always ongoing. But if a person does not trip the magnetometer, 
they will generally--99 out of 100 times would not be hand-
wanded. Those who are coming through an old magnetometer with 
some kind of a headdress on or something, that would be 
monitored, because that hasn't been checked.
    Mr. Rogers. Well, if that is the policy, it is not being 
understood by the people out there that are doing it.
    Mr. Magaw. We will make sure they understand it, sir.

                      NUMBER OF QUEUE COORDINATORS

    Mr. Rogers. Now, what is--you want to hire 1,405 queue 
coordinators. I didn't ask you about those yet, did I?
    Mr. Magaw. Queue coordinators are the ones that get people 
in the proper lines and move them along and do some of the 
prescreening. They look at the person, see if there is any 
nervousness about them, or see if there is anything unusual 
about them. That is a position that we are still considering. 
That is one of the things that Israel does and has been very 
beneficial, and they have never had a hijacking. We are looking 
at different things we can do to make it somewhat redundant 
from time to time, so that you have a double-check, but at the 
same time, are not disruptive and not overkill.

                   TSA BUDGET JUSTIFICATION FOR 2003

    Mr. Rogers. Well, along the same lines as the Truman 
Commission--the Senator Truman Commission, during World War II, 
during the buildup of World War II, tried to keep track of the 
rapidly rising expenditures of that era--so will we here. That 
is our chore and our job, and we expect information and 
answers.
    We have yet to receive your justifications for 2003. 
Wecan't mark up a bill until you get that to us. We are having trouble 
getting justifications for just about everything.
    Mr. Magaw. Our 2003 budget is at OMB, and we hope that it 
will be coming up to you shortly.
    Mr. Obey. Mr. Chairman, will you yield for a follow-up 
question?
    Mr. Rogers. I would be happy to.
    Mr. Obey. How long has it been at OMB?
    Mr. Magaw. The beginning of this week.
    Mr. Obey. Thank you.

                               TSA HIRING

    Mr. Rogers. Now, we are going to question a lot of these 
people that you are proposing to employ, and I will have some 
questions in a minute about the salaries that are being paid, 
for both you and Mr. Mead. I want to defer first to some of the 
other members of the subcommittee.
    But I have got to tell you, we are not going to provide you 
the money to hire all these people that you say you want to 
hire. You have got to live with that. And you can--if you work 
cooperatively with the subcommittee, we will work cooperatively 
with you. We are on the same team. But we are in the business 
here of watching the taxpayers' dollars, as well as providing 
the best security for the dollar we can get.
    Now, we want the best security for the dollar we can get. 
We are not willing to pay double for it, though, when it is not 
necessary. And that is about where we are headed at this point 
in time.
    Now, we are looking to you and to the Secretary and to CEO 
Admiral Loy and to Ken Mead to keep track of the costs and to 
report to us in advance, so that when we appropriate funds, we 
know what we are appropriating it for and what we are not 
appropriating it for.
    I don't know your experience in the Secret Service, but I 
will guarantee you, it is different here, and we will guard 
every penny, and we will not give you money until you tell us 
exactly how you going to spend it. Is that clear?
    Mr. Magaw. Very clear.
    Mr. Rogers. Mr. Sabo.

                       TSA'S CONTRACT WITH BOEING

    Mr. Sabo. Thank you, Mr. Chairman.
    Can you tell us a little bit about the contract with Boeing 
on--which I understand is in charge of putting all the 
explosive detection equipment in place by December 31st?
    Mr. Magaw. Yes, sir.
    Mr. Sabo. Are there penalties for noncompliance?
    Mr. Magaw. There are penalties for not meeting the 
guidelines that are set in the contract. I would have to pull 
the contract for you to see exactly what those are. There are 
incentives in there.
    But, the contract is set up so that Boeing will send teams 
of people into the airports across the country. I think they 
have over 100 teams right now that are--if they are not at 
these airports today, they are en route. They will meet with 
the airport managers, all the airport family, for the next--
however long it takes, 6 weeks, 8 weeks, 10 weeks, whatever it 
might take. They will be at that airport working with the 
airport personnel to discuss and determine if walls have to be 
moved, if floors have to be reinforced, and to make sure that 
they work with the local contractors and unions, all of the 
people that will be able to install this equipment.
    Then, together, they will say, okay, Chicago, Illinois, is 
ready. They will be ready on such and such a date for this many 
machines; and then those machines will be routed to that 
airport. They will have to figure out when to put them in, 
depending on how much construction has to take place, so it 
does not disrupt the airport itself in terms of its passengers. 
A lot of this work will be done at night.
    Each airport is going to be different, and that is why 
teams are going in there to work with that ``airport family,'' 
as I call it. They are responsible to see the equipment 
installed, see that it is running, provide any maintenance for 
it, and then to train the screeners who will function on those 
machines. Our goal, in the end, is to have a screener anyplace 
in the airport able to do all of these tasks.
    We cannot get there by the end of the year if we train them 
across the board. So, to start with, there are going to be 
passenger screeners and there are going to be baggage 
screeners. As quick as we get up and functioning and get the 
kinks worked out of those areas, then they will take training 
in the other areas so that we will have a multiple work force 
that we can shift around. Boeing will take care of all the 
things that I have just discussed.
    Mr. Sabo. What if Boeing suggests, we think you should tear 
down that wall; and the local airport says, we can't tear down 
that wall?
    Mr. Magaw. Well, then it is like if you and I had something 
we disagreed on, we would talk about it. What are the other 
options? I mean, they are going to work together as part of a 
team.
    Mr. Sabo. Okay. And then we come to an agreement, we will 
tear the wall down. Do we pay or does----
    Mr. Magaw. No. We pay.
    Mr. Sabo. You pay all of it.
    Mr. Magaw. Unless you want to beautify it some way. I mean, 
if you say, okay, now we are going to tear this wall down, but 
instead of putting this kind of wall up, we want to put a 
different one and we want to put different signage on it and 
things that maybe advertise the city or something like that, 
then we would pay for all but maybe the beautification part of 
it.
    In other words, we would put it back so it looked the same 
as if you moved the wall.
    Mr. Sabo. Okay. What if we can't knock walls down, but we 
need to put in lots of equipment, and where people are fairly 
crowded today.
    Mr. Magaw. That is right. Then we go with the smaller 
equipment, we go with a mix, whatever will work best in that 
airport. That is why we have to handle each airport 
individually.
    Mr. Sabo. Okay. My understanding is, in the Minneapolis 
airport, it could take up to 100 to 200 trace machines in 
addition to the EDS equipment; and at busy times, where people 
walk, is already pretty crowded. And some of the projections 
have that either some of the machines or the people will have 
to be outside. And that is not particularly pleasant in 
January.
    Mr. Magaw. No. Not at all.
    That is why we have to look at each airport, Congressman. 
And we will have to see at each airport. Most airports have 
seen this coming down the road. The airport managers, knowing 
this deadline is coming and having an airport to run, have been 
fairly anxious about it, as they should be. So many ofthem 
already have a plan.
    In a lot of cases, you will just go in and look at their 
plan. If it makes sense, the passenger flow and everything 
makes sense, then we will use their plan to get this activated. 
It is not a case of Boeing going in there saying, we are the 
people who know, now step aside and we are going to do this for 
you. Not at all. They are going to go in and become part of 
that team.
    You solve your problems best by working with those who work 
every day and know the airport. In some cases, we will just 
have to make whatever adjustment that particular airport feels 
they can make.
    Mr. Sabo. Mr. Mead.
    Mr. Mead. I would like to respond to a couple of points you 
made.
    First of all, this contract does have what is called a 
negative incentive fee in it of 2 percent. If TSA judges that 
the contractor has not substantially performed, the contractor 
doesn't get as great an award fee as it otherwise would.
    It is important to recognize what this Boeing contract is 
and what it is not. If you are talking about putting these big 
machines, these explosives detection machines, in line in the 
baggage system, that cost will not substantially be covered by 
TSA. Dallas-Fort Worth had estimated it would be about $200 
million, and they were saying they were prepared to pay for it.
    The cost that Mr. Magaw is referring to, I think is that 
they have set aside about $350,000 per large machine as part of 
this contract. So to the extent that costs run to that figure, 
they will be able to handle it.
    And I think the third point ----
    Mr. Sabo. Let me stop you there.
    Mr. Mead. Yes, sir.
    Mr. Sabo. In my understanding, in most cases, if you have 
an extensive number of new machines, the cost of reordering and 
restructuring the airport building is fairly substantial.
    Mr. Mead. That is correct. They are talking about two types 
of technologies, one of the huge machines that you have seen at 
the airports that are the size of SUVs have been running about 
$800,000 to $1 million a copy.
    If you had an airport where that was the technology that 
was being used exclusively to screen checked baggage, that 
would require substantial modification, renovation work at 
airports across the country; that is probably where ultimately 
you are headed with checked baggage technology.
    The trace technology, which doesn't require ripping open 
the basements of airports and things of that nature, that is a 
substantially cheaper machine, but is much more labor 
intensive. Those machines are smaller--you have seen them when 
they ask to see your briefcase, and then they take a swab out 
and they swab the openings of the briefcase.

                        TRACE DETECTION PROCESS

    Mr. Sabo. But excuse me. My understanding is that in some 
cases they are going to open the suitcase.
    Mr. Mead. Yes, sir.
    Mr. Sabo. And so you need a table to open the suitcase.
    Mr. Mead. Yes. And to my knowledge, there is no large 
airport in the country--certainly none the size of Minneapolis-
St. Paul, where trace has been modeled in a real-time 
environment.
    They do have some pilot projects under way in the country 
at smaller airports. I think Norfolk is one of them. But this 
contract should provide you a pretty good indication of what 
things are really going to be like at Minneapolis-St. Paul, 
depending on the mix of technologies that they use there.
    Mr. Magaw. Well, there was a large pilot project done at 
the Olympics, with huge crowds that were handled in short 
periods of time. And so we have done some pilots with larger 
groups.
    Each airport is going to be different. And we are just 
going to have to do the best we can at each of the airports. As 
the Inspector General was saying, there are a few airports who 
are right in the building process, like Philadelphia. There are 
three or four or five others. On those, we are going to go 
ahead and put those in line where we can, at least part of 
them.
    The goal, though, is--as the Inspector General said, that 
we get all baggage being checked by the 31st--each airport, 
almost every airport you go into has got construction plans. We 
are going to work with them from that point on to make sure 
that the equipment will go in line as they are doing this work, 
and do a lot of that work between now and December 31st.
    Some of them have plans, but haven't started, some are just 
starting plans. Every airport is so different, it is hard to 
talk about one over the other.
    Mr. Mead. I would be cautious before taking Salt Lake as a 
perfect analogy, because the Salt Lake experience at the 
Olympics did not involve actually opening the bags to perform 
trace. And it is likely that a very substantial percentage of 
the bags will at least have to be opened. By a substantial 
percentage, I am speaking in the neighborhood of 40 to 60 
percent of the bags. That was not the case at Salt Lake.
    Mr. Magaw. We should not have talk about protocol in an 
open hearing, Mr. Inspector General. You and I talk every day, 
and I have not seen you do something like this. We should talk 
about protocols face-to-face and in private. We have given away 
too much of our security procedures, and we have got to be very 
careful about that as we move ahead.
    What we did find at Norfolk is that in checking bags, when 
they did have to be opened, the ones that we did open took us 
about 2.2, 2 minutes and 2 seconds, instead of about 4, that we 
thought it might take.
    Yes, you have to provide tables. You want to provide 
screens so that when the bag is opened the contents aren't 
showing. It is not a case where you are dumping the bag or 
throwing things out.

                      PASSENGER BAGGAGE SCREENING

    Mr. Sabo. This will generally be out in the public areas of 
the airport, Won't it?
    Mr. Magaw. Well, we are designing tables and screens so 
that as bags are opened and the person is right there looking 
at it, it can not be seen by other people in line. The term 
that is been used is ``dumping the bag.'' That is really a not 
a term that describes what is happening.
    When they open that bag, they are going to do a couple of 
things. One of them is swab the inside of the bag; the other 
thing is to feel throughout the bag. It is not a ``dumping'' in 
general.
    But, again, if we talk much more about that, we would need 
to talk about it in a classified section. I would be happy to 
do that.
    Mr. Sabo. But what I am--my understanding is that you 
probably need the end part of this table at least?
    Mr. Magaw. From here over?
    Mr. Sabo. Yeah.
    Mr. Magaw. For trace?
    Mr. Sabo. Yeah, for the machine and----
    Mr. Magaw. Yes. When you are talking about the machine and 
the people that would be moving around it, that would be about 
right.
    Mr. Sabo. And a place to open the luggage. And you put 150 
of those in the lobby of an airport with a screen around it----
    Mr. Magaw. I don't believe we are going to be at that 
number. I can't talk in specific numbers because you have to go 
to each airport and see.
    The program we have in place will be able to answer those 
questions for you just as soon as they get there and talk about 
it, including what walls can be moved and what can't. In some 
airports, no walls have to be moved at all, just the machine 
installed. So it really runs the gamut.
    The fact is, sir, we are going to be working with those 
airports to do the very best job we can and to listen to what 
they are saying and work with them in this effort.
    Mr. Sabo. Mr. Chairman, I would like to have lots of other 
questions, but other members are waiting. So thank you.
    Mr. Rogers. If you stick around long enough, we will have a 
second chance.
    Quickly, before I yield again on this point, is there an 
absolute necessity that the search of checked baggage be done 
in the presence of the passenger?
    Mr. Magaw. No, it is not a necessity, sir; and when it gets 
in line, it won't be. But then you have to have the technology, 
you have to have the cameras, you have to have the monitoring 
devices, because you will get an awful lot of complaints about 
very expensive things being stolen. You also have the problem 
of how do you get bags unlocked if they are locked.
    Mr. Rogers. Well, it seems to me that when a passenger 
agrees, buys a ticket and signs on to fly in the airplane, if 
it is not now, it certainly could be provided that that is an 
implied consent to search checked baggage. If that is so, why 
couldn't you move these huge machines into tractor-trailer 
trucks and put them out on the air side of the terminal, run 
all the baggage through those trucks; and when that machine 
becomes out of date--which I think it will almost by the time 
you get them installed, new technology will take over--just 
move the trucks out of there. What would be wrong with 
something like that?
    Mr. Magaw. Nothing. You may see something like that. You 
may see huge tents. You may see double-wide trailers pulled up 
that will run it. You may see a combination of things. We will 
just have to see as we get to these airports.
    Mr. Rogers. It would be much better to do that than to rip 
out the guts of the airport at huge expense in order to get the 
machines in place, which, by the time you get them in place, 
may be outdated.
    Chairman Young.

                    UNDERUTILIZATION OF EDS MACHINES

    Mr. Young. Mr. Chairman, thank you very much. You have an 
excellent attendance here today, so--and I know all the members 
are interested in participating, so I am going to be very 
brief, but I have two issues, quickly.
    Mr. Mead, you caught my attention when you talked about the 
underutilization of EDS machines. And I went to your written 
statement, and I read several paragraphs there, and it seems to 
me that while you have made some improvement, still the 
existing machines are underutilized. And while we are talking 
about buying new machines, new technology, why is it that we 
can't get the existing machines that are already paid for--why 
can't we get them up and running at least near their capacity?
    Mr. Magaw. We will with our new federal force. We will do 
that, and we will be taking over those machines. Our 
supervisors on the scene now are working with the contractors 
and the airlines to get more use. Some of the problem is that 
the machines are placed where they serve one airline, where 
maybe, being moved, they could serve two or three. Or where the 
airline would provide runners, you could service two or three 
airlines.
    So it is a case of where it is coming over into our unit. 
This includes the machines that are already out there plus the 
ones that we are going to purchase. Sir, I guarantee you, once 
that federal force gets there that is part of what will be 
decided at the airport, where do we place these so that they 
get the most use, the most continual use, and what makes sense?
    Yes, they were being used, 20 percent or less in some 
places.
    Mr. Mead. I think this is a sad, sad story about how much 
money we have invested in these machines and the utilization of 
them going back a number of years.
    The reason why the machines are not being used more is that 
the airlines did not want to use them more, and the Federal 
Government did not impose and enforce a requirement insisting 
that they be used more.
    I think it is imperative that we get some empirical 
experience under our belts where these machines are pushed to 
the max, and I think that we could certainly marshal enough 
resources to do that in some locations around the country, 
probably as early as 2 weeks from now.
    Mr. Young. Mr. Mead, thank you very much. You made my point 
much more eloquently than I did. And I think it is a shame to 
be out there buying new machines when the existing machines are 
not being utilized.
    So thank you very much, and I look forward to your success.

                          HAND WANDING POLICY

    And the other issue, Mr. Magaw, we were talking about wand 
screeners. And you said that males were doing males and females 
were doing females. When did that start? It must have started 
yesterday, because I sure haven't seen that before.
    Mr. Magaw. Mr. Chairman, when I first came here, I heard 
some of the complaints. I believe maybe before this committee, 
they were very concerned about that. I not only put out an 
order, and we have written procedures. A male will examine a 
male and a female will examine a female. I have said in the 
hiring process and in the scheduling process, you make sure at 
every checkpoint that you have personnel available to make 
these examinations, and that they are done in that manner and 
that they are done with proper respect.
    Even if it is a male doing--examining a male, and vice 
versa with a female, if that is not done with professionalism, 
with integrity, that person will not be on the job. You have 
given me that authority in this law, and we will exercise it, 
sir.
    Mr. Young. I hope you really follow through with that 
effectively, because within just the last 2 weeks I witnessed 
personally another example of a female being nearly violated by 
a male screener, which was tremendously embarrassing. The lady 
was crying because she felt violated. And when I mentioned 
something to the screener, I was basically almost threatened, 
that it was none of my business, get out of there. You just 
can't do that to your American people. We are not going to 
accept that.
    Mr. Magaw. That is right. Michael Robinson is the Associate 
Under Secretary for Aviation. I will have him call your staff. 
If we can find out the airport, we will address that 
immediately. We will send a message out to the rest of the 
airports that this has occurred, it was called to our 
attention, and it will not be tolerated.
    Mr. Young. I appreciate that very much. Thank you.
    Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Obey.

                            TICKET CHECKERS

    Mr. Obey. Thank you, Mr. Chairman.
    Mr. Magaw, you have got a tough job and we all recognize 
that, and we have got an obligation not to try to shoot the 
messenger if we don't like the message. But nonetheless, there 
are a lot of parts of the message that I think a number of us 
find quite disconcerting, and so that is really what we are 
trying to get at.
    I am confused by a number of things after I have heard your 
response to questions. I would like to quickly ask you about 
four or five of them. What is the situation going to be with 
respect to ticket checkers? Is that going to be an airline 
responsibility, or are the Feds going to be picking that up?
    Mr. Magaw. That is my intention.
    Mr. Obey. I wasn't clear.
    Mr. Magaw. My intention was to make that an airline 
responsibility. I thought we had reached that conclusion; I 
understand we have not yet, so I will pursue that, sir. We will 
get back to you. We will continue to confer, sir, and we will 
get back to you shortly.
    [The information follows:]

    The initial estimate of 33,000 screeners was based on 
projections from the pilot passenger screener prototype 
implemented at Baltimore Washington International Airport in 
the spring of 2002. Since that time, TSA has gained additional 
experience as we have deployed Federal passenger screeners at 
BWI and other airports. A revised model for projecting the 
total number of passenger screener including ticket checkers 
and other positions is being developed and will incorporate 
what has been learned based on recent experience. It is 
expected that the estimate will be reduced from the current 
33,000 level. Information describing each of the checkpoint 
positions and their roles will be provided separately.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Obey. All right.
    Mr. Magaw. To your staff.

                    NUMBER OF HEADQUARTERS EMPLOYEES

    Mr. Obey. Secondly, how many people are you expecting to 
hire at D.C. headquarters? Our staff's understanding is 1,300.
    Mr. Magaw. Yes. That is our goal, is to keep it at 1,300 in 
support of a 65,000 organization. Now, if that organization is 
made smaller, then the headquarters will be smaller.

                        TSA ORGANIZATIONAL CHART

    Mr. Obey. When are we going to be able to get a TSA 
organization chart with offices and staffing?
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Magaw. I believe we can provide most of that to you 
now. We certainly can provide to you the organizational chart 
for the upper staff down through the under secretaries. Each of 
the associated under secretaries are in the process of 
developing their structure for my approval and the Secretary's 
approval. Those have been coming to me fairly regularly. We 
have discussed them. Most of them are pretty well finished. 
Mike Robinson, as I say, for aviation operations, yours is 
completed, is that right?
    The Associate Under Secretary for Maritime was Admiral 
Bennis, I believe----
    Mr. Obey. Well, let me just cut in, because I don't have a 
lot of time. I think it is safe to say a number of us are 
concerned that that number is still awfully high. And when you 
couple it with some of the salaries that the Inspector General 
was talking about for some of these support personnel, I mean, 
you are talking about a whale of a lot of money in resources 
here in Washington rather than the field. And I am personally 
concerned that it is going to be top-heavy and decentralized.
    Mr. Magaw. We will be very, very careful of that, sir. We 
have tried to make sure that we keep the organization very flat 
and be very quick. The reason you are seeing the high numbers 
now is that we had nothing 5 months ago. I have hired the 
associate under secretaries for each one of these areas.
    Mr. Obey. Well, 5 months later we still don't have very 
much by way of information.
    Mr. Magaw. It is a case where we have hired a lot of the 
executive staff and the support personnel, which will bring 
those totals down to where I think paywise you will be happy 
with them; this will be coming shortly.
    Mr. Obey. Let me ask about your mathematical calculations. 
When our staff did the math calculations on all of your 
staffing and staffing expenses assumptions, we came up with a 
figure that was $300 million below your Agency's request for 
staffing and staff expenses for this year. Can you please clear 
that up for us and provide us with the details of how you added 
up your assumptions?
    Mr. Magaw. I will do that, sir.
    [The information follows:]

    TSA's FY 2002 supplemental fund request was based on 
information available during the early spring of 2002. This 
included hiring and airport rollout projections, initial budget 
assumptions, and an overall understanding of necessary TSA 
costs for the rest of the fiscal year.
    Since that time, the hiring and rollout projections have 
been revised, budget assumptions have been updated, and more 
information is known about TSA's overall costs of operation. 
This new information has resulted in both savings compared to 
the current request, as well as costs that were not provided. 
For example, while there are savings from hiring later than 
projected, there are also increases due to insufficient funds 
for information technology support and private screener 
contracts. TSA estimates that there are $200 to $300 million in 
adjustments to the current supplemental request.
    Because the net result is zero sum, no change to the 
supplemental has been submitted.

    Mr. Obey. I mean, that is--a $300 million gap is fairly 
large even in this town.
    Mr. Magaw. Absolutely.
    Mr. Obey. Let me ask--well, you indicated OMB now has your 
budget request. Do you have any idea when we are going to get 
it? Because, I mean, the White House wants us to move 
appropriation bills; so does the leadership on both sides here. 
We can't move a bill if we don't have the request from the 
administration to begin with.
    Mr. Magaw. My understanding was that by the 25th or before 
of this month.
    Mr. Obey. Well, I sure hope so.

                 FINANCIAL RESPONSIBILITIES OF AIRPORTS

    Let me go back to the question of airports and who is 
responsible for what. I am still confused by your response 
about who is going to bear the cost associated with the housing 
of the screening equipment; because as I understand it, while 
you indicated that your agency would be bearing a significant 
portion of that cost, your budget certainly didn't appear to 
the staff to include money that would reflect that.
    Mr. Magaw. There is money in the supplemental and in the 
2003 budget to do that. And that is why I am concerned about 
one of the earmarks on our supplemental. If I was able to save 
money in one airport because they didn't cost $350,000 I would 
be hard-pressed, the way that it is earmarked, to move it to 
another. That is one of the things that I hope that you will 
take away, because there are going to be airports that won't 
cost near $350,000 per machine. There will be other airports, 
because of what you are talking, that could be more. If I could 
move that money around, then it gives me the flexibility to 
meet more needs.
    Mr. Obey. But is that going to leave the local airport 
stuck with the construction costs?
    Mr. Magaw. No, sir. If it takes----
    Mr. Obey. I mean, I think your staff and our staff needs to 
get together again on this, because I think you seem to have an 
impression that more of those costs are going to be borne by 
your agency than we do, based on what we have gotten out of 
your people.
    Mr. Magaw. What the plan is, is that there should be 
$350,000 in there for each of those installations. If it costs 
less in one place, I want to have the flexibility to move it to 
another airport who needs it. Will there be areas that will be 
more than $350,000? I am sure there will. But our intention is 
to do whatever needs to be done in order to make the area 
available for those machines.

                            CARGO SCREENING

    Mr. Obey. Well, we need to talk some more on that.
    One last question, Mr. Mead. We have talked a lot about 
passengers. Tell us about cargo. I mean, what have you found in 
terms of what the situation is and what needs to be done? Where 
are we?
    Mr. Mead. Okay, can I respond to your earlier question?
    Mr. Obey. Sure. If you also respond to this one.
    Mr. Mead. I will. I wouldn't be that circuitous.
    The Boeing contract has $350 million built into it. I 
believe that is the figure. So that for each EDS machine, you 
are going to have about $350,000; $350,000 per machine per 
installation. That ought to largely cover the cost of a lobby-
type installation. It will not begin to cover the more 
substantial renovations such as you are hearing about at 
Boston's Logan, Dallas-Fortworth, and I am sure Minneapolis-St. 
Paul, and maybe others, which is when you are starting to put 
these machines in line, you are talking dollars much more than 
350 grand a machine. And to the best of my knowledge, the 
provision has not been made for the Federal Government to 
finance that or for TSA to finance it above that level.
    And as to your second question about cargo.
    Mr. Obey. Well, let me just interrupt to say that is my 
concern, too, because that looks to me like another mother of 
all mandates.
    Mr. Magaw. If an airport is not under construction, and we 
can sit it in line, that is the end plan down the road, to have 
that equipment in line. When you walk up and check your bags, 
it goes on the belt behind it, goes down and is checked. That 
is the goal.
    There are an awful lot of airports that we can't get that 
way by December 31st. So the equipment will be put in to meet 
the requirement to check the bags, and at the same time we will 
work with the airport, whether it is a year down the road or 2 
years down the road or 5 years down the road. Then we would 
come back in subsequent budgets to see what part of that you 
wanted us to pay.
    Mr. Obey. Well, all I would say--and I don't want to get in 
the way of your responding to the last question. But all I 
would say is that it is pretty clear to me that there isn't a 
chance of a snowball in, you know where, that the deadline is 
going to be met with respect to installing this equipment, if 
the costs of housing the equipment is to be laid onto local 
airports to any degree.
    Mr. Magaw. We are not going to lay that on the airports. 
For every airport we look at, we are looking at what will fit 
with them--what will fit and what do we have to do to meet the 
deadline of December 31st. If it is putting in 3 or 4 or 5 or 6 
of the EDS machines and 7, 8 or 10 or 15 of the smaller units, 
that is what we will do. I believe that the $350,000 for each 
of those machines will cover the cost initially to get them 
installed.
    Down the road, in the future, we have to take this up with 
this committee. But the earmarking in the supplemental, if I 
don't spend $350,000 on, let's say, one of your machines, I am 
able to do it for $175,000, the earmarking will not let me move 
that to Mr. Rogers' airport. That is what I want to be careful 
of if I can.
    Mr. Obey. I think Mr. Rogers will find a way for his 
airport to get taken care of.
    Do you want to answer the last question?
    Mr. Mead. Yes, sir. We do have a report that we have not 
made public on cargo security, Which has a number of 
recommendations to TSA. I can't speak to the specifics of those 
recommendations in public session. I will be glad to join you 
in your office or in a closed session on it.
    I should say that TSA has responded positively with respect 
to each of those recommendations. And, in fact, some 
vulnerabilities have already been closed. But I prefer to 
discuss that in your office, sir.
    Mr. Obey. Just one last comment. Staff tells me that--and 
Mr. Rogers, who is the chairman, is more expert on this than 
I--but staff tells me that that earmark that you are referring 
to does not earmark by airport, so that you are not constrained 
in the manner that you have described.
    Mr. Magaw. We will talk to the staff, then, as soon as we 
can, to make sure we understand it correctlythen, sir.
    Mr. Obey. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you, Mr. Obey.

                   FUNDING FOR AIRPORT MODIFICATIONS

    Your staff is correct. My understanding is the monies we 
provided on our own motion in the supplemental, not requested, 
850 million for airport modifications to accommodate the new 
machinery, is not airport-specific. It can be moved among any 
airports in the country, and it is not earmarked for a 
particular airport. You can spend it anywhere you see fit at an 
airport. But it is only for airports, not for personnel or 
anything else.
    And I would reiterate, rather than spend enormous sums of 
money ripping up terminals to make room for these SUV-sized 
systems, which we know are going to be outdated almost before 
they are installed, I would hope that we could temporarily 
house them in line, out back, outside the building in a 
tractor-trailer or a tent or whatever, until the new age 
machinery comes in play, which I don't think will be nearly as 
intrusive as these huge machines. Does that make sense?
    Mr. Magaw. I am going to let the people at each of these 
airports decide. What you say makes sense, and we will see what 
works at each airport. That is why we have hired the 
professional engineers and others at Boeing to do this. I am 
not going to second-guess them, sir. I will let them decide at 
each airport, and then I will make judgments, and Michael 
Robinson will, as we go along.
    Mr. Rogers. Well----
    Mr. Magaw. But keeping in mind.
    Mr. Rogers [continuing]. If you are not going to make the 
judgments, then we will, because we have got to pay for it. And 
I want you to know that we are going to, in each instance, at 
every airport, we are going to second-guess you: Could this 
have been done in a tractor out back, or a tent out back, 
rather than spend zillions of dollars ripping up airports?
    So I respect you, sir. But if you are not going to second-
guess them, then we are. Trust me.
    Mr. Magaw. I won't second-guess them until they have had 
the opportunity to make the examination. We have hired a 
professional Boeing organization to do that. I have full 
confidence in them until they show me different. But I will be 
watching every airport.
    Mr. Rogers. Well, I love Boeing, too. But if they can do it 
with a truck out back, they had better do it, or they won't get 
paid.
    If Chairman Callahan would indulge me, just this. Ms. 
Granger has an appointment and she needs 30 seconds of time. 
Would you be willing to let her speak?
    Mr. Callahan. Why don't I just yield her 30 seconds of my 
time?
    Mr. Rogers. All right. That would be good.
    Mr. Callahan. I yield to the gentlelady from Texas.
    Ms. Granger. Thank you very much. Thank you, Mr. Chairman.

                         AIRPORT MODIFICATIONS

    You said, Mr. Magaw, that the airports had plans. And I am 
sure that is true, because the airport that I am most familiar 
with had a plan. Two million dollars they spent of their money 
to put that plan together, that they submitted to you in March 
asking for a decision by April 15th so they could install that 
and meet our specifications. They have yet to hear from you, so 
they can't do that now. And they are going to now, in order for 
what we have asked, spend $40 million for an interim trace 
system that will not be used after that.
    All they had to have was approval, which they didn't get, 
which other airports are experiencing the same thing.
    Mr. Magaw. 3 months ago I didn't even have the people to 
look at that. I am just now getting contracts where these 
companies can go out. I had nothing 5 months ago. I wrote the 
first job description. We are bringing these contracts on board 
as quickly as we can. We had to go through the bidding process. 
I have been conferring on the telephone and in person every 
place that I go to try to talk to these airport directors. You 
are talking about DFW?
    Ms. Granger. I certainly am.
    Mr. Magaw. The Secretary visited DFW to understand that 
concern. A disaster occurred and we created a law; I am trying 
to carry it out the very best I can. We are hiring very 
capable, dedicated people, and we are going to get there as 
quick as we can. I suspect that somebody from that team will be 
at DFW either this week or next.
    Ms. Granger. Well, as I say, they submitted it in March and 
haven't heard from you yet.
    Thank you, Mr. Chairman.
    Mr. Rogers. Chairman Callahan.

                            AIRPORT SECURITY

    Mr. Callahan. Mr. Secretary and Mr. Inspector General, with 
the assumption that the 70,000-plus, or whatever number of 
employees were in place, all of the screening devices and the 
SUVs and all of this creation of your Department had been in 
effect 9/11, could this have stopped that tragedy?
    Mr. Magaw. It certainly would have stopped the knives 
getting on board. I believe so under the circumstances.
    Mr. Callahan. So you think that it would have detected just 
the knives that were used by the hijackers. Is that right?
    Mr. Magaw. That is probably all that would have been--yes, 
sir.
    Mr. Callahan. And if indeed we had had cabin security for 
pilots, what would have happened then?
    Mr. Magaw. They would not have gotten in the cockpit.
    Mr. Callahan. We are spending a lot of money now. To avert 
the tragedy of 9/11--the agency would have just detected a 
knife that was concealed somewhere by the hijackers. So, you 
know, I just wonder if indeed we are overreacting, if indeed we 
ought to be concentrating on the capsulization of passengers. 
Maybe put them in a bin and lock the door. I don't know. Maybe 
we ought to be moving in a different direction. But 
nevertheless, I just don't think that all of the security can 
avert a tragedy when you have a suicidal person with an 
availability to get into a cockpit. You are not going to do 
that.
    Mr. Magaw. That is right. And that cockpit access has been 
taken away from them.

                        NUMBER OF TSA EMPLOYEES

    Mr. Callahan. I understand that, and that is absolutely 
right. That should have been done beforehand. That is one of 
the things we should have thought about in advance.
    The 70,000 employees--now I am getting confused on how many 
people are actually going to be employed, and maybe you can 
help me here. Now, we talking about contractual arrangements at 
some airports, I think BWI, some have agencies that are being 
contracted, you have others that havethat capability. But are 
you talking about 70,000 employees including contractual employees, or 
70,000 federal employees plus contractual employees?
    Mr. Magaw. We are talking not the 70,000 anymore. We are 
talking in the area of 63- to 65,000.
    Mr. Callahan. Sixty-five thousand.
    Mr. Magaw. Federal employees.
    Mr. Callahan. Federal employees. Plus how many contract 
employees?
    Mr. Magaw. There would not be any contract employees.

               USE OF CONTRACTUAL EMPLOYEES FOR SCREENING

    Mr. Callahan. So you won't have any contractual employees?
    Mr. Magaw. Maybe to repair the equipment.
    Mr. Callahan. Well, but don't you think it a possibility in 
some of these small areas, like Mobile, Alabama, where all of 
this is causing us tremendous problems with respect to our 
ability to hire law enforcement people; we can't compete with 
the Federal Government. So everyone in law enforcement in south 
Alabama is applying for these jobs that pay anywhere from 30- 
to a $100,000 to just work in an airport 8 hours a day, 40 
hours a week.
    And I think that maybe you ought to be looking at the 
possibility of contractual arrangements with airports or with 
communities like Mobile, whereby, with jurisdiction over them 
naturally, but to maybe utilize the cities and the communities 
and the airport authorities to create their own, ability to 
screen employees, with oversight by your agency, rather than to 
go in and disrupt every law enforcement agency in the South, 
and in most areas of the country, with these exorbitant 
salaries which they are foolish not to take.
    Why wouldn't you consider the possibility of contracting 
with local airport authorities to handle the screening and all 
of the necessary things that we are doing, with oversight by 
your Agency, rather than to hire 150, 200 Federal employees in 
Mobile and have to have housing and have to have tenure and 
have to have retirement benefits? Why wouldn't you consider 
that?
    Mr. Magaw. Well, Mr. Chairman, we have, and so has 
Congress. In fact, during the creation of this act, it swayed 
back and forth as to which way this was going to go. They now 
have put a federal force in. But we have five airports where we 
are going to do just exactly what you are suggesting: San 
Francisco, Kansas City, Rochester, New York, Jackson Hole, 
Wyoming, and Tupelo, Mississippi. Those five airports are going 
to do exactly that. Airports at the 2-year point will have the 
option to go back to private. That is part of the law.
    Mr. Callahan. Would you consider coming into Congress, Mr. 
Secretary, and requesting that we revisit the law that we 
passed requiring screeners to be federal employees? Would you 
consider, for fiscal reasons if nothing else, in addition to 
security reasons, coming back to Congress and asking us to 
allow you the flexibility to use contractual labor in smaller 
communities and communities that have a limited number of 
employments? Rather than to create a federal bureaucracy, would 
you consider coming back into Congress and requesting that?
    Mr. Magaw. Well, let me see how these pilot programs work 
out. In some of the smaller airports, we are going to be hiring 
part-time and seasonal personnel, almost like school bus 
drivers, where they would work during the peak hour in the 
morning and the peak hour in the afternoon. We are going to be 
trying to apply a lot of the ideas you have come up with, and 
want to see how that works out, sir.
    Mr. Callahan. Ken, how many people are going to be employed 
as a result, both contractually and ultimately through the 
screening employment? How many people are going to be employed 
and protecting our airports' passengers, best case scenario, by 
the end of 2003?
    Mr. Mead. Their current plans on--just take work force by 
work force. You have your screeners, passenger screeners. I 
think there are going to be in the neighborhood of about 30,000 
of them.
    Mr. Magaw. Can I interrupt you again? Because when you 
start talking numbers, you are going to end up with the 
terrorists figuring out how many air marshals there are going 
to be.
    Mr. Callahan. I wouldn't want to do that.
    Mr. Mead. I am not going to get into that.
    Mr. Magaw. Well, but if you get into any numbers at all, it 
can be deducted. Piecemeal we put this out here, and we are 
playing right into the terrorists' hands. I would ask the 
chairman that we don't talk numbers.
    Mr. Callahan. I will accept that. You can call me later and 
tell me, Ken. And I promise you, Mr. Secretary, I won't divulge 
it to a soul.

              NUMBER OF SCREENERS AT PASSENGER CHECKPOINTS

    Mr. Rogers. Well, there is nothing wrong with answering the 
question insofar as the number of screeners are concerned. That 
is not a----
    Mr. Mead. I thought the screener information was public 
information.
    Mr. Rogers. It is. We have been talking about it all day 
here.
    Mr. Mead. I think they are pretty well settled that--
probably 30,000 screeners are required for the passenger 
checkpoints. But how many screeners you are going to need for 
the checked baggage is something of a wild card, and TSA needs 
some flexibility there. This is because you need fewer 
employees for the big explosives detection machines than you do 
for the trace.
    In the end, I do not know how many people they are going to 
have in the bureaucracy at each airport. I haven't seen plans 
for that. And I do not know at headquarters how many. That is 
why at the last hearing before the committee, I said I thought 
the number was around 70,000. I think I was corrected 
subsequently that it was more like 66,000-67,000.
    Mr. Callahan. With 30,000 screeners, how many support 
personnel have to be hired to take care of--never mind. Thank 
you, sir.
    Mr. Rogers. What were you driving at?
    Mr. Callahan. I am just trying to find out how many 
employees we are actually talking about, Mr. Chairman, that we 
have come from 30,000 to 70,000. And that number is nebulous, 
because I think in addition, if you are going to hire 70,000 
people, they have already said they have hired 30 attorneys, 
you have got to have support personnel to support----
    Mr. Rogers. And the witness can answer that question. There 
is nothing classified there. We have talked all morning about 
the total number of employees. That is the whole gist of this 
hearing.
    Mr. Magaw. But when you start breaking them down, Mr. 
Chairman, then you start----
    Mr. Rogers. Let the witness answer the question. Answer the 
question, please.
    Mr. Callahan. The question is: How many employees are we 
talking about? If we are talking about 30,000 screeners, how 
many additional employees, like secretaries, like--you know, 
you have got to have someone to clean the break rooms that you 
talked about earlier, you have got to have the lawyers, you 
have got to have all of that. So if you have 30,000 screeners, 
how many people do you have to hire in addition to that to 
support a complement of 30,000 employees? In the industry, it 
would be somewhere around 40 percent.
    Mr. Mead. Well, I haven't seen a breakout of what they 
think they need for overhead, and I haven't seen overhead yet 
that is excessive. I truly haven't. That, I presume, you would 
be getting with your budget justification.
    Mr. Callahan. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Pastor. We have 8 minutes until the vote. 
So, Mr. Pastor.

                            EMPLOYEE RIGHTS

    Mr. Pastor. Mr. Chairman, I will----
    On page 6 of your written testimony, you talk about the 
rights that the employees will have, and you talk about 
overtime pay at time-and-a-half, benefits as other Federal 
employees. When you were first here, I asked you about whistler 
protection; you said you were going to think about it, and I 
see that you have included it. And the reason I ask this is 
because I think the law makes you the sole personnel officer. 
You can make decisions, hire people, fire people. You have now 
decided to cover the employees under the EEOC, and I 
congratulate you. What is your policy going to be on sexual 
harassment?
    Mr. Magaw. Zero. Zero policy.
    Mr. Pastor. No policy?
    Mr. Magaw. No. I mean, zero tolerance.
    Mr. Pastor. Are you going to have a policy forthcoming?
    Mr. Magaw. Yes, absolutely. I had one at Secret Service, I 
had one at ATF. There is one at FEMA, and there will be one 
here.

                      COLLECTIVE BARGAINING RIGHTS

    Mr. Pastor. What about collective bargaining or the right, 
the constitutional right of people to organize and protect 
their employment?
    Mr. Magaw. That issue has been discussed a number of times. 
The Secretary and I and others there have conferred. It is in 
the Secretary's office now as to what we will do.
    Mr. Pastor. What have you recommended? If the Secretary is 
looking at it, you must have recommended something.
    Mr. Magaw. I would have to keep that counsel with the 
Secretary private, sir, unless I legally have to divulge it. 
That would ruin our ability to talk in private back and forth.
    Mr. Pastor. When do you think the Secretary is going to 
take your recommendation and rule on it?
    Mr. Magaw. We will ask him and get back to you, sir.
    [The information follows:]

    A decision has not yet been reached on collective 
bargaining rights to be afforded federal security screeners.

    Mr. Pastor. Hopefully it is not classified, because we will 
try to unclassify it as quickly as we can.
    Mr. Magaw. These people on these aircraft are putting their 
life on the line.

                           EMPLOYEES' RIGHTS

    Mr. Pastor. I am just talking about the rights of 
employees. And we recognize them and you have the sole 
determination. I want to make sure that people know if they are 
going to go to your agency what rights they have. So it is not 
because I want to divulge any classified or unclassified 
information. It is interesting, I support the chairman, 
Chairman Callahan, you say we need a pilot program to see how 
policemen at the City of Phoenix who are protecting and 
securing the airport, a pilot program to see if it works. It is 
being done right now. Right now in all the airports I travel 
through it is local police providing security, and they are 
managing it. I got to tell you it is working in most airports. 
And why do we have to do a pilot program to determine whether 
or not this program might be expanded from five cities?
    Mr. Magaw. The law requires us to do it in five. It is the 
total package, it is not just law enforcement. It is the 
screeners.
    Mr. Pastor. I am just talking about the law enforcement. 
Right now in the City of Phoenix you have as people enter the 
secured area police officers, because the National Guard is no 
longer there, you have police officers now providing security. 
My question is why do we need a pilot program to determine 
whether or not this works because it is being done in 425 
airports in our nation? And the idea of having to hire, train 
federal law enforcement may not be the best idea. Maybe the 
best idea ought to be to continue to work with local police 
agencies. And I agree with Sonny Callahan if you need for us to 
relook at the law and give you more flexibility, I am saying I 
am on your side and I am willing to provide it.
    Mr. Magaw. You are saying exactly the same thing as I have 
been saying, Congressman.
    Mr. Pastor. Good, we are in agreement.
    Mr. Magaw. In fact we hired a Phoenix police officer, an 
FSD.
    Mr. Pastor. I understand that. All the other FSDs I am 
being told most are Secret Service retirees.
    Let me ask another question. You keep saying this is a 
customer service, this is a team. At the last hearing that you 
were not able to attend, and I am sorry that you were not able 
to attend, the driving force for all these deadlines is the 
law. Michael Jackson said the law is that we have to implement 
everything by a certain deadline. I find it very incredible 
that you would say this is teamwork because the airport 
managers have now come to you and said we can't meetthe 
deadline. And how are they going to be part of a team if you say you 
have to meet the deadline, you have to put in this equipment at your 
cost and maybe that you only use once or twice in the future.
    So I have a problem in believing that this is a teamwork 
situation and that the airports are actually going to have a 
say in what's going to happen to the airports and that they are 
going to be reimbursed for the cost that is going to be 
incurred. And, you know, are we any safer today than we were at 
9/11 by doing all this?
    Mr. Magaw. Yes, we are safer today than we were on 9/11. We 
will be safer tomorrow. But with those airports that you are 
talking about we are going to do the kinds of things that you 
are talking about here. We are going to do what make sense at 
each airport under the circumstances. I think you and I are 
talking the very same language.
    Mr. Pastor. Thank you, Mr. Chairman.
    Mr. Rogers. We will be in recess until 1:30. We have a vote 
on the floor in 2\1/2\ minutes. We will be back at 1:30.
    Mr. Rogers. The hearing will be in order. We hope to 
conclude at the very first moment, but we want to cover the 
topics. So Mr. Tiahrt, you are recognized.

             CHALLENGES BEFORE TSA AND THE AIRLINE INDUSTRY

    Mr. Tiahrt. Thank you, Mr. Chairman. I have a couple of 
quotes I want to go over first. They were made by the CEO of 
American Airlines. It is a couple of speeches that he made, Don 
Carty. And I want to pick up the first one because I think some 
of his--in fact, I will let him speak for himself. He thought 
some of his comments that he made were misconstrued.
    He said, ``Some of the media have misconstrued some of the 
remarks made by me and others suggesting that we advocate less 
security. Quite the contrary. We want to improve upon what has 
been done already.''.
    In other words, he is advocating smart security. I agree 
with him. I think we should advocate smart security.
    Another quote that he made--this is to, I believe, the 
people in New York at--I am sorry, Merrill Lynch. He said, ``We 
obviously cannot afford to have more traffic driven away from 
us by security qualms.''.
    A third quote I want to make from him: He says, ``It will 
be a hollow victory indeed if the system we send up is so 
onerous that air travel, while more secure, becomes more 
trouble for the average person than it is worth.''.
    I think it is very clear that some people today are 
choosing other means of transportation. The airline industry is 
going to lose $4 billion this year, according to Air 
Transportation this year. Four billion dollars. This comes, 
following last year, in which they lost more money, some 
believe as much as $7 billion.
    So we have a very difficult situation in the air 
transportation industry now. And I think it is complicated by 
some of the difficulty we are having in getting people back in 
the air, because it is so difficult just to get on an airplane.
    I have received telephone calls from people in my district 
while they were standing in line in places like Orlando, 
Florida, Los Angeles, and they compare it to other areas like 
Tel Aviv, Singapore, and they believe that we are not doing it 
in a method that is as smart--smart security I think is the 
word that I want to use. We do not have as smart as security as 
we see in other places around the globe.
    I personally have been wanded in Wichita, Kansas, I would 
say probably in excess of 50 percent of the time that I go 
through the line. They will be going through my bag telling me, 
Congressman, we think you are doing a fine job. I know they 
don't think that I am the type of person that will take over 
the cockpit of an airplane and fly it into a building.
    I spoke today with a woman who is a high government 
official in the Department of Defense, in her fifties to 
sixties, somewhere in that range. She recently, after how many 
months since September 11th, you know, 7 or 8 months, had her--
the what you pluck your eyebrows with taken away from her just 
this past week. I can't imagine a woman in her fifties breaking 
into the cockpit and telling the pilot if you don't give us 
this airplane I am going to pluck your eyebrows.
    We have got to have a little common sense to apply to this, 
because it is driving people from air travel and it is costing 
us revenue for your Agency. And I think we should be doing--one 
other instance; just recently the seventh grade class from St. 
Thomas Aquinas School in Wichita, Kansas came to Washington. 
They happened to be getting on the airplane right before I did. 
Every sixth one of them was wanded, even though they didn't set 
off the metal detector, every sixth one of them. They call it a 
random search. I think I fall into that every sixth one more 
than 50 percent of the time. But there is no reason to do that.
    I think there is a need for profiling, not racial 
profiling, but terrorist profiling. When we see a lady helped 
out of her wheelchair, escorted through the metal detector, and 
then still wanded, I just--you know, if we had had an 80-year-
old woman charge the cockpit, take over the plane and fly it 
into the building, then we should be looking for 80-year-old 
women and profiling them. That is not the case.
    I see the jobs that are at stake here. I see an economy 
that is still trying to recover from recession. I see an 
industry that is on the edge of bankruptcy. I think a big part 
of it, not all of it, some of it, is recession-driven. A large 
part of it is that some people don't want to put up with the 
hassle and the loss of dignity in some cases of getting on an 
airplane.
    How are we going to change the rules so that women with 
stays in their bra no longer have to be harassed. How are we 
going to change the rules so that the elderly gentlemen and 
women are treated with the respect that they deserve as seniors 
in our culture, our society? How are we going to keep young 
kids being picked from every sixth one? There has to be a 
better application of our ideas and science and technology so 
that we can get people back in the air. Otherwise the industry 
will go bottom-side-up and there will be--the economy will 
suffer, and great Americans that are working in that industry 
now will be without work and their dreams won't come true.
    Mr. Magaw. I don't disagree with virtually anything you 
have said. We are working to do just what you have expressedin 
specific and in general terms. When we get this work force in place, 
you will see most of those kinds of things that you talked about go 
away.
    Baltimore is an example of that. Their passenger volume is 
back up. We are getting them through the checkpoints even at 
their busiest time, at 4:30 to 6:30 a.m. in the morning. It 
went from 45 to 50 minutes, it is down now to 14 to 18 to 20 
minutes, max. And we are going to----
    Mr. Tiahrt. With the same number of passengers?
    Mr. Magaw. Increased passengers last month.
    The key is courtesies, in terms of what do you do in 
relationship to children, and what ages are we talking about? 
We are trying to write policy on all of those things. In fact, 
I said to our troops, let grandparents write this policy for us 
on children, or let parents write it, or at least let them 
review it after we have written it.
    We are trying to do all the kinds of things you are talking 
about. We have met at least monthly, but sometimes a couple 
weeks in a row I have met with the representatives of the CEOs 
of the airlines.
    I believe that as we have been over the last 4 or 5 months, 
a huge field. We have rolled up to an empty field, and we have 
got the foundation laid. We have got some of the key personnel 
hired, we are trying to write policies for every issue as we go 
along. We are trying to address every mode. But this building 
is ready to come up out of the ground now. And it is--at 
Baltimore it is something like 78 to 79 percent satisfactory, 
not only with the courtesy, with the professionalism, with the 
respect. We are measuring that, and we will measure it at every 
airport around the country, just as we are going to measure 
other things.

                      PASSENGER SCREENING PROCESS

    You still have that other work force there we are trying to 
oversee. It is a culture that needs to be changed.
    Mr. Tiahrt. Certainly needs to be changed in Wichita. We 
have more than a dozen people at the checkpoint where you come 
in. There are two metal detectors, magnetometers, and 12 people 
there, plus two that stop you, make sure you have an airline 
ticket, before you can get up to that point in the process. And 
there is still an airline representative there, there is 
still--if not more, maybe two. There is still a police force, 
which I think is very important. But we have more people than 
necessary just carrying out, I believe, you know, these random 
checks.
    Now, random searches, when there is no indication, on an 
magnetometer--that is going to go away? Is that what I 
understood you to say earlier?
    Mr. Magaw. In conferring with them during lunch time, we 
have given them the authority to look as people come through. 
If you see something that you are concerned about, a coat that 
is bulging or anything like that, then they take a closer look. 
We are starting to deal with, or we are going to start dealing 
with these belt bombs before long. And we are trying to figure 
out how to address that.
    But the fact is the other thing that is causing the public 
to be upset is the inconsistency. Also when you get to the gate 
to go on the plane, there is another rechecking there. The 
airlines are putting in the kiosks now, you will probably see 
them, the e-tickets, you can go up to that, put your numbers 
in, get your e-ticket. Now at that point, as the people get 
that e-ticket, we will know when they come to the first 
checkpoint that we are going to look at them in depth. We don't 
know that now until they get ready to get on the plane. That is 
another kink that we are going to iron out.
    At Baltimore now, we are trying to measure what is still 
being found at those gate checks. We think we will get to the 
point where you will find nothing there. Then what we plan to 
do is discontinue them, taking them away from each gate, and 
just using jump teams to jump from one gate to another when we 
have maybe a high-risk flight or something like that.
    Mr. Tiahrt. Under the current system, it would still be 
possible for Mohammed Atta to get on an airplane, because if he 
is not the sixth one in line, if he is not one of those random 
samples, and gets through with a plastic sharp object in his 
pocket--which they do make, you know, plastic knives that that 
could do the job that was done on September 11th--we still 
wouldn't stop them. We would let them on. Yet we would hassle 
sixth graders and grandmothers and grandfathers.
    So somewhere in this system, we can't--I am afraid we are 
going to sacrifice this industry to political correctness. And 
technology can overcome that if we get--the system can overcome 
it, but we are going to have to look at it differently and 
start using smart security instead of this random sampling, 
because today I think I am much more safe traveling today than 
on September 10th. Much more safe. I traveled on September 
10th.
    But I still think we have got a long ways to go. There is 
no reason we why we can't apply common sense to this to get the 
industry strong again financially. Because it is on the edge of 
bankruptcy.
    Mr. Magaw. Especially for the short trips. In talking to 
them, from here to Philadelphia and New York, everything is 
booming in comparison to where the others are falling off. I 
understand that, and I am concerned about it also, and will do 
the kind of things where I can that you are talking about.
    Mr. Tiahrt. The highway system is overloaded already. Then 
you put more people into the system, then safety drops on the 
highways. So I think what we need to do will raise the level of 
safety not only on our highways but also in our airlines.
    Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Olver.

                            AIRPORT SECURITY

    Mr. Olver. Thank you, Mr. Chairman. I am very, very glad, 
that you have come to this hearing, although I am also, as a 
couple others have mentioned, confused. I think perhaps the 
gentleman whose name I am now sitting behind said it well. 
``that he was confused by'' what has been said from time to 
time, and I want to follow up on a couple of things.
    From my point of view, the major thing that I see as I 
travel--and it is primarily out of National and into Hartford, 
that is my major back and forth--I have exactly the same 
clothing on my body and take exactly the same items out of my 
pockets and coat. In Washington it goes through without a 
glitch, never a problem with the magnetometer. In Hartford when 
I am trying to get on the plane in the morning, the 
magnetometer goes wild with exactly the same items.
    Now, that must be something substantially different about 
the technology. It suggests--something that I have heard a good 
deal about, which is inconsistency. Not knowing what to expect 
and what you are going to have to do, keeps you from forming a 
pattern for people who are business people that, for example, 
not knowing what to expect and what you are going to have to 
do, keeps you from forming a pattern for people who are 
business people, that, for example,used to manage to get to the 
airport 15 minutes beforehand. Now you don't know.
    So a lot of people, I am hearing, are traveling their 200 
to 250 miles by car rather than by plane. But that may not be 
such a bad thing. We probably ought to be trying to see if 
there are not ways that we can get a lot of the shorter runs 
out of the airspace. So I don't know whether that is 
necessarily bad.
    Another thing I am hearing from people who are employees on 
the planes themselves, the flight attendants, the pilots, is 
that not much has happened within the planes themselves--inside 
the cockpit and the cabin--other than, cockpit coverage. If 
there were two pilots and one needs to use the restroom, they 
go to the rest room. Now the way that is dealt with is that a 
flight attendant must be in the cockpit, but another flight 
attendant must be guarding the door. That leaves you then for a 
period of time with only one person watching what is going on 
in the cabin.
    I have also heard that there is no difference in the 
training of how people should deal with someone who is being 
disruptive in the cabin. We hear every once in a while about an 
incident of disruption.
    So while all this focus is on the equipment we need by the 
31st of December, [the equipment that we have talked about 
earlier today and which I am somewhat confused about], that 
there are other things that haven't changed much. Would you 
comment at all?
    Mr. Magaw. Yes, sir, I would. One of the problems that was 
brought up by the chairman this morning, and why there is that 
$20 million in our supplemental, is to replace the 
magnetometers. There is all different technology out there. It 
is maintained differently, it is set differently. I think we 
will get that cleared up pretty quickly. That is something I 
want to continue to work on so it is consistent across the 
country.

                CONSISTENCY WITH MAGNETOMETER TECHNOLOGY

    Mr. Olver. Do we have anything like an inventory? There 
must be some differences in the use of the technology, of the 
magnetometers, in the two places; or it is just a question of 
the calibration and the settings that have been placed on it. 
There needs to be a reasonable degree of consistency, that is 
rational, so travelers know what to expect.
    But I am one of those--I am torn on this argument about 
whether one puts in technology or whether one uses a lot of 
temporary and part-time people for a period, and uses part-time 
or temporary people until the technology changes. History shows 
us that once we have required technology--and we are now 
requiring and demanding technology--that the technology will 
then advance by leaps and bounds, whether it is the technology 
for these very expensive EDS, CTX, or whatever machines are out 
there, or whether it is for the magnetometers.
    So I have a certain amount of sympathy for not making total 
commitments to things that are coming down in price. When 
technology brings down the price and increases the sensitivity 
and the power by leaps and bounds. In both instances, that is 
what is likely to happen. And part of my confusion here is that 
we have a couple hundred of the large EDS machines, many of 
which are not being used either at all or very little, as was 
mentioned before. Yet we are going to buy another 900 before 
the end of the year. We will have bought them all at the old 
technology level, and the technology is going to outstrip those 
in fairly quick order.
    Then we have the magnetometers. I have already described 
the situation in part, and we have heard here that the 
chairman--I don't know whether Canada and several European 
countries have hundreds of these in place for their whole 
systems, or whether it is only a few. I don't know anything 
about that kind of thing. But obviously there is some sense 
that there are much better magnetometers.
    I was wondering whether we have an inventory of the age, 
the power, and the capacities of the magnetometers that we 
have, and whether we are working on replacing the worst ones 
with the best things that are available, or if this is random. 
Can you give me any sense of that?
    Mr. Magaw. The money is in the supplemental to buy the 
machines. We are taking inventories at all the airports, as 
Boeing and the other companies that have won these contracts go 
out and help us get the airports up to speed. The technology is 
going to be looked at. We will inventory it at that time, and 
we will decide, yes, it needs to be replaced, or it is only a 
year old and it doesn't need to be replaced.
    Let me, if I could--the technology is a concern to me. We 
have been going to all the research facilities, the 
laboratories, MIT, others, talking to them about newer, 
quicker, faster, smaller, more accurate technology. Their 
answer basically is that it probably won't take over 2 or 3 
years to develop a much better technology, but we have to have 
some money to do research. That is where it is stuck.
    The Israelis are working on one that looks to be a very 
good technology. We are involving ourselves in that. You have 
given us money to do research work. One of my worst fears is to 
get this done on the 31st of December and new technology shows 
up in February.
    I have done the very best I can with our laboratory 
technicians and our technical people to determine, and with 
others outside, that it is a ways down the road. But it will 
happen because of American ingenuity. Up until 9/11, these 
machines were out there, the company was just making, you know, 
15, 20, 25 a year, and so there was no research being done. 
What you are addressing will occur and we will be on top of 
that. In fact, we are on top of it today. We have a group of 
people that, because we are getting so many inquiries, so many 
people and companies trying to sell us technology, that we are 
trying to look at everything as close as we can and be able to 
rule in and out of how capable this technology is.
    If I could take one more second on the cockpit and cabin of 
the aircraft. The cockpit is one that the doors are barred now. 
My belief is that if they watch how they allow the pilot and 
copilot in and out of there now--and I will talk about that in 
just a second, if I could, because it is so important--and we 
are pretty safe, very safe. April of next year, all those doors 
have to be replaced; replaced with a totally secure door, not 
just barred. It will be secure from top to bottom and 
reinforced.
    About getting the pilots out of the cockpit to use the rest 
room, what we have been suggesting to our Federal air marshals 
to brief these crews all around the country every day is to put 
a cart in that aisle. Don't allow anybody up there as the pilot 
comes out. Put a cart, just as it is needed, down the aisle, 
stay with that cart, and be in position, looking to the rear of 
the aircraft, until the pilot comes out and goes to the rest 
room and returns and the door is locked. Because they can hear 
that door latch. Of course, if it is a double-wide aircraft, 
you have more people and you have to do both sides.
    In talking to the pilots, in looking at firearms, and 
looking at what firearms might do in a cockpit, my judgment is 
that we give them a rear view mirror. We have pilot programs 
going on now in different airlines where we are putting the 
cameras throughout the cabin. The pilot can see what is going 
on back there. The pilots tell me that with safety, as soon as 
they see something going wrong down there, they are going to 
get the plane on the ground as quick as they can. Except being 
over the ocean, they can get it down in about 10 minutes. 
During that period of time, if they have the rear view mirror 
and you are not fastened in your seat, they can make it so 
unstable for you, safely tilt it a little to the right, a 
little to the left, nose up, a little down, as they are going 
toward that landing, that--pardon my expression--you won't be 
able to find your bottom with both hands, let alone get your 
hand on the door. That is what we are working on there.
    Now, with the crews in the cabin, we have approved for each 
of the airlines a retraining program for the cabin crew. We are 
looking not only for the cabin crew, but the pilots. Should 
they have equipment that is less than lethal? Should they have 
some kind of a spray? Should they have some kind of a stick? We 
have got to look at all of these kinds of things including a 
metal baton. We have to look at all these things because we 
don't want it taken away from them and used on them.
    But with proper training, we are looking at all of those 
possibilities. I hope that that is addressing it. And 
consistency across the country in everything that we do is what 
we are looking for, Congressman. Mike Robinson has four or five 
personnel that he is going to have hired and have in place as 
these airports open up. The airport manager or director of 
Federal security, will be able to pick the phone up and come 
directly into his office and into mine. So there will be a very 
short line.
    If we change something in Boston today because of an 
incident, that same day we are going to let all the airports 
around the country know that we have adjusted something, why we 
have adjusted it, and what to watch for. We are looking for 
consistency throughout.
    Mr. Rogers. Ms. Granger.

                      DISSEMINATION OF INFORMATION

    Ms. Granger. Let me follow up on that. I heard what you 
said, but some way you are getting that information out today. 
But like everyone else on this panel, I travel weekly. And not 
only is it not consistent from one airport to another, it is 
not even consistent from one terminal to the other ,or one 
gate. But every time, if I go through and have to show my photo 
ID at one gate, and then the next week they say, now don't show 
this. They are very, very sure that--you are right--oh, no, it 
has never been done this way. And it changes absolutely every 
week, or in the same week if you are going to a different--so 
how are you communicating with them now? How are they getting 
that information?
    Mr. Magaw. A lot of them are still operating under the old 
rules. What we are trying to do is have a supervisor in each 
one of those airports now that will be monitoring those 
checkpoints. When they see inconsistencies like that, or things 
that are being done that just don't make sense, or are 
repetitious to the point that it is not worthwhile, they are 
supposed to correct it. I don't expect it to totally go away 
until we get the Federal work force in.
    Ms. Granger. So if we see an inconsistency like that, we 
should report it to the person at the airport who is in charge.
    Mr. Magaw. Yes. Or we can give your staff a phone number to 
pick up the phone and call Michael Robinson's number that same 
day. If they are not going to give up who it is, then let's get 
it changed and let's notify the rest of the airports.
    Ms. Granger. Thank you.
    Mr. Rogers. Ms. Emerson.

           SITE ASSESSMENT PROCESS AT CAPE GIRARDEAU AIRPORT

    Mrs. Emerson. Thank you, Mr. Chairman. I was recently 
notified that Cape Girardeau Airport in my district was going 
to be one of the first 23 airports to have its initial site 
assessment. Can you tell me what is involved in that or what is 
going to take place during that assessment, please?
    Mr. Magaw. Yes. A team will come in there, meet with the 
airport personnel, talk to them about primarily the checkpoints 
and is the passenger flow okay there or how about the peak 
times? What are the airport personnel's ideas on the changes 
that have to be made? How old is the equipment? Does all of 
this equipment need to be replaced, or only part of it? What is 
the maintenance record on it? Then that group then will also 
train the new checkers, screeners, for that airport.
    Mrs. Emerson. I appreciate you telling me that because this 
is supposed to be happening some time real soon. This is a 
little bitty airport, and we have three flights a day and that 
is it. And I think on average, Bruce Lawyer, our airport 
administrator, told me, I think we have an average--these 
flights have maybe 27 people a day total.
    And so I am curious as to how many new personnel are going 
to be located at this airport. You know, what types of 
positions are we going to need to fill in when you consider 
that there are only three outgoing commercial flights?
    Mr. Magaw. The screeners would work with your personnel 
there and determine is this the right amount of screeners, do 
we have to adjust the number, or is it too many? Those 
screeners would then be hired and trained and placed there.
    If there are only three checkpoints, the meters--do we need 
to order three magnetometers? That team that comes into your 
airports may have two or three other small airports they are 
doing, and they will jump from one to the other.
    In terms of the federal force, there will not be a Federal 
security director at that airport. The Federal security 
director we would have to look on the chart to see where that 
federal security director is and will have a supervisor at each 
one of those smaller airports, because we are only going to 
have about 160 federal security directors. As we have gone 
along and learned, we have changed that number thatstarted out 
being well over 200. It is now down to 155. As we look at that, we say 
this FSD and a very small staff can handle these five airports.

                        SITE ASSESSMENT PROCESS

    Mrs. Emerson. So we are going to have a supervisor. We will 
have to have at least a male screener and female screener. So 
that is three people. And then we will have to have somebody to 
do baggage maybe.
    Mr. Magaw. Well, the baggage has to be done by the 31st, so 
there will be another unit to come in that is taking care of 
the baggage.
    Mrs. Emerson. The same assessment team.
    Mr. Magaw. It was too hard to get a team together that had 
all the expertise to do both.
    Mrs. Emerson. So we are going to have two assessment teams 
come in. So it is quite conceivable for 27 people flying into 
my airport we have five employees we are going to have to hire 
five or so employees to run the airport now in addition to the 
regular people who are there?
    Mr. Magaw. Well, again, that is what the team is going in 
for. That sounds about right. But then how many does it take to 
do the bags?
    Mrs. Emerson. Right now, American Airlines not only checks 
people in, but they also do the baggage screening.
    Mr. Magaw. We have to do it now. The Federal Government has 
to do it under the law, and the airlines are pressing to get 
out of those duties because of the cost to them. Some of these 
airports have the person that does the baggage and gets it out 
to the plane and loads it and everything. We are going to work 
to help put a Federal unit in there, whatever the size needed 
to take care of the airports. It is probably not going to be 
much different than it is now in terms of numbers, except they 
might have some more for the bags.
    And we have said, as Mike Robinson was saying, that is 
where we are going to go to a lot of part-time seasonal 
employees. It is whatever the need is for that airport. You 
probably have a better feel of how that is going to sort out.
    Mrs. Emerson. Yeah, except even when I talked to the 
airport director today, he doesn't have a clue. And so he asked 
me. He also asked me to ask you what type of bomb detection 
equipment you think an airport of that size needs. We only have 
one security gate, and you don't need more than one security 
pass with 27 people total, 9 on a flight for example. So what 
kind would that--we would probably get one of those smaller 
trace machines, like.
    Mr. Magaw. You probably would, and maybe a backup so if you 
have maintenance problems or something like that, then you 
still can process baggage.
    Mrs. Emerson. You could do everybody by hand there.
    Mr. Magaw. Again, you have to look at each airport and see 
what is best for them.
    Mrs. Emerson. I appreciate that.

           OBSERVATION OF OTHER COUNTRIES AIRPORT OPERATIONS

    Let me ask you one more question. Then I have to excuse 
myself. When you all were doing the--trying to design the best 
kind of system for the United States, did you all travel to 
Europe to see some of the security, or to Singapore, as Todd 
mentioned, and other countries to actually assess their 
equipment and the programs they use?
    Mr. Magaw. We have had a person go to Europe and look. I 
have been asked by the International Airline Association to 
speak next week in Brussels, and I am going to the Brussels 
airport. I am going then to London, because I have met with the 
Transportation Minister from Great Britain, and we are going to 
spend a full day in one airport, watching the peaks and valleys 
in the international and American flights, and then a day in 
Manchester. Manchester has the newest equipment over there.
    Mrs. Emerson. In England.
    Mr. Magaw. Yes. I will have a more specific feel for it, at 
least down in the basement and the underground. You know, I 
have done a lot of traveling internationally, so I understand 
how a lot of it works, but I want to see, you know, in detail, 
when they have the peak traffic, how do they handle the U.K. to 
U.K. As opposed to U.K. to United States.
    Now, at each one of these airports, there is a person, who 
is a security officer, actually part of the embassy or part of 
the consulate. They are responsible to make sure that every 
aircraft coming out of that airport coming to the United States 
meets the proper standards.
    Mrs. Emerson. So that--I mean, you will be doing that. Have 
you done that heretofore? In other words, at happens if what 
you see in Manchester England, you like better than what we 
have decided to do or designed for here?
    Mr. Magaw. Well, we know the kind of equipment they are 
using, and I probably should not comment in an open session. I 
know what kind of equipment they are using. I am satisfied that 
with what there is available to us in the world today, we are 
using the best two pieces of equipment and at the same time 
making sure that we are looking at everything. Sometimes 
people, entrepreneurs, they make things that they just don't 
have money to push forward. I am hoping that that will get us 
down the road very quickly.
    But in the meantime, I will be looking at everything to do 
the best that I can under the circumstances for this committee 
and for the country.

                         NUMBER OF TSA LAWYERS

    Mrs. Emerson. I appreciate that. Just one very quick 
question. Can you tell me why you need 39 lawyers, or however 
many? I know you will have at least 39. I don't know why I 
wrote 69 down here, but I think I heard 39.
    Mr. Magaw. You have the regulatory responsibility, and 
lawyers working with the airline I want to make sure we don't 
make regulations that make things worse. They are dealing with 
the bottom line. You have law enforcement personnel out there 
in these airports, especially the big ones, who are running 
into all kinds of things.
    One Federal air marshal the other day, going into the New 
Orleans airport, heard a shot go off and was able to respond 
quickly to a fellow that had a shotgun.
    If you are investigating cases out there, which we are 
going to do, we must be able to provide legal support. The 
airlines have said they assault us on these planes, they push 
us, they punch us, they get drunk and are assaultive. We call 
ahead, the plane pulls up to the gate, the local law 
enforcement takes them off, and then nobody does anything, they 
are turned loose later. We want that to stop.
    Mrs. Emerson. It is not to say anything against lawyers. My 
husband is one. But I was just curious. I found that to be a 
rather large number.
    Mr. Magaw. If you would look at an outfit of this size, 
most of them will have 200 lawyers. I picked a lawyer who has a 
lot of other experienceas my deputy. I found both at the Secret 
Service and clearly at ATF, that if you don't have lawyers watching and 
talking with and consulting with agents who are doing investigations, 
you don't get as good investigations. And sometimes, especially 
sometimes a youngster won't go far enough, or the lawyer will say, wait 
a minute, that is not worth going down that pike.
    So it saves you a lot of lawsuits, saves you a lot of 
arrests that you shouldn't be making. It saves the courts. So I 
am one to rely a lot on legal counsel.
    Mrs. Emerson. Thank you. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Sweeney.

                            AIRPORT SECURITY

    Mr. Sweeney. Thank you, Mr. Chairman. And Secretary Magaw, 
welcome. And to reiterate what one of my colleagues said, I 
don't want to appear to be beating up the messenger, but I 
think you have gotten a sense from this panel that there is 
great frustration, partly because we travel a lot, but as well 
because we hear from constituents who travel a lot.
    I was an apprehensive supporter, in the end, for the 
federalization legislation. And in some respects, this has 
become everything people feared, and worse, in terms of the 
size, the inability of the agency to really clarify what has 
happened out there and build confidence. There is consternation 
out there. Maybe unease is good, because it heightened the 
sense of vigilance, but I think the unease is directly related 
to the lack of clarity that exists out there.
    So I am going to ask a couple of questions in two areas 
that I am hoping you can help bring some clarity to. And the 
first is, I have heard described what we are doing in terms of 
airport security as searching for the needle in the haystack by 
searching or looking solely at the haystack and not really 
looking at the needle. And that relates I think more directly 
to the notion of random, or not so random, screening and 
screening procedures.
    I am wondering, some have proposed a comprehensive system 
that offsets the human elements of it, the manual elements of 
it, with the use of technology. And there are specifically 
three points I would like to get your comment on: the use of 
validating government-issued IDs for frequent travelers; the 
availability and use of government watch lists at airports; and 
employing sophisticated logic, identifying regular passenger 
activity, that kind of screening process. Can this work? Are 
you working on it? Is it something we can see as a means of 
both ensuring security and safety and expediting the traveling 
process so we don't punish all those who choose to keep our 
airline industry going?
    Mr. Magaw. Yes, sir. We are working on all those areas. And 
they are all things that we will correct. I might not be able 
to give you an exact time line, because we have got so many 
things going on. We have a team of personnel working every day 
on the computer program that you are talking about that would 
deal with the passenger know, what has been their past travel, 
the kind of things that would help us know whether to look at 
that passenger a little closer or not. We call it assessment--
it is not the profiling that had the bad name.
    The watch list we have right now. And, in fact, Jose 
Padilla that was arrested just a few weeks ago, it was from our 
watch list that we first realized that he was going to come on 
a plane. We worked with the Swiss, and the Swiss pulled it from 
the list, so that the normal airline person doing the ticketing 
would not realize that he was on that no-fly list. Again, we 
had to depend on the Swiss--and they were exquisite to 
accompany him back here. He was arrested in Chicago and the 
rest is history. A lot of things are coming out. There is a 
watch list. Again we have to be careful with that, that we keep 
it a valid watch list, with oversight and integrity.
    The valid government ID, we are trying to look at all kinds 
of ID. There are those that would like to have the trusted 
passenger, trusted traveler. There are others, the trucking 
industry and the train industry and the shipping industry. We 
have got to come up with some kind of IDs to make sure there is 
nobody infiltrating those units.
    We are working on all of those areas, and I think we are 
going to come up with something, and maybe some varied things, 
but I don't know exactly what it is.

                    INVENTORY OF SECURITY EQUIPMENT

    Mr. Sweeney. I can appreciate the sophistication that you 
will have to employ, especially as it relates to infiltration. 
And I can understand you don't want to lock yourself into time 
lines, but I would be interested in how quickly; because I 
think that would be an example of something that goes to the 
core of what is adding to that sense of unease that is out 
there.
    I have a couple of other really minor questions, but I want 
to make sure I heard you right. You talked about the equipment, 
the EDS machines and the magnetometers and what we have 
available, and the fact that in a couple of years there may be 
greater technologies, and the apprehensions that you have. But 
you said something that went to the core, again, of why there 
is unease out there, and that was that you are in the process 
of inventorying, after we have spent millions, tens of 
millions, billions of dollars. Wouldn't an inventory be the 
first thing you did?
    Mr. Magaw. You mean of the equipment? You have an inventory 
that came from the airlines. Remember, this was all airline 
equipment. They are sending us their inventory of what they 
have. It is like selling a car. This one is worth $2,000; then 
when you see it, it isn't worth $500.00. That is the inventory, 
and we have got to make sure that that equipment that we are 
getting, that we are paying the proper price for it. So that is 
the inventory I am talking about, the evaluation of it; and 
then also what is the maintenance contract. We have got to 
enter into every airport for maintenance for these machines, so 
when they do go down it doesn't hold you incompetent.

                           BAGGAGE SCREENING

    Mr. Sweeney. You spoke of earlier the efforts to build 
teams, and that may be your greatest challenge and toughest 
test, because this committee, prior to the 11th, was conducting 
hearings that talked about the malfunctions and dysfunctions in 
the aviation industry and the lack of cohesiveness in team 
work. So I wish you well on that.
    The last question related to that, we spoke of passenger 
baggage screening and the fact that the airlines themselves are 
trying to get out of that function, despite the fact that we 
have now eased from them substantial responsibilities and 
provided for them huge resources to continue in their 
businesses, as inefficient as they may be at times.
    In your opinion, who is best equipped to do that? What is 
the role? How are you going to decide that? It seems to me that 
the airlines have to have a role in this. They have to be in 
this process some way, somewhere. And we can't fora lot of 
reasons just let them walk away from the responsibilities here.
    Mr. Magaw. The airlines, sir, are not walking away from the 
responsibilities. As I brought up before, they are on a very 
thin line of survival right now. But nobody wants, none of them 
want to have any kind of an accident happen. In specific answer 
to your question, I believe that TSA can best do the baggage. 
But we would not do it without coordination of the airport 
manager and his staff and the airline personnel and their 
staff.
    For instance, if you have two airlines, is it better to put 
the checkpoint for both of those airlines in one place? And can 
we handle the crowd, and therefore not have to buy two full 
sets of equipment? It is going to be a team effort.
    Mr. Sweeney. Let me point out, the airline industry was on 
a thin line prior to September 11th. A lot it was related to 
their own inefficiencies, and unfortunately a lot of the by-
products of what led to September 11th related to that also. So 
that ought not to be an excuse.
    Mr. Magaw. We have had them go back--because after 9/11, 
the airlines and everyone, police and everybody else, put more 
people into this mix. We said, don't go to 2001, go back to 
2000 and tell us what you spent on security. And they are 
telling us what they spent. It is less than what we think they 
did, but we are trying to verify it and they will pay us that 
amount of money. They will pay this government that amount of 
money. It is going to come up shorter than what we thought, but 
that is being done.
    Mr. Sweeney. Thank you, Mr. Chairman.

                         STADIUM FLYOVER POLICY

    Mr. Rogers. Mr. Magaw, as you know, last fall FAA 
prohibited flying low over football and baseball stadiums and 
other large venues, and that was most welcome, because it gave 
people a sense of some enhanced level of security. But then 
this spring, FAA began giving out waivers to that rule, and we 
can't find out what the criteria is for that. Even though we 
are at the same level of security that we were on after 9/11, I 
am told that there are over 200 such waivers that have been 
granted to pilots who are self-certifying, and all they do, 
apparently, is say they are American citizens and they have 
good planes and they are in good working order, and they get a 
permit, a waiver. And this is a good deal of concern to 
professional and college sports people and other venues like 
racing tracks where large number of people gather. And we know, 
those stadiums have been specified as targets by al Qaeda in 
some communications.
    Now, has TSA taken over that responsibility from FAA yet?
    Mr. Magaw. Yes, sir, we have.
    Mr. Rogers. What will you do about those waivers?
    Mr. Magaw. About 2 months ago this came to my attention. I 
have got all the people that had the history talked to the 
sports people. Clearly the intelligence is as you have said it. 
We have just completed the final project. Unless you direct me 
differently, we were going to keep the no-fly rule for all of 
these events in place as it was on 9/11. The waivers primarily 
are to the advertisers, those who actually pull the banners. 
There are nearly 200 that you are talking about. Some of those 
are TV blimps and those kinds of things. We are going back to 
those who are the advertisers and use the small planes. In 
fact, one had to land in an emergency on one of the football 
airports or football parking lots a week or two ago--FAA will 
do this and we will coordinate it with them. They are going to 
be inspecting the aircraft for its worthiness, they are going 
to inspect the hitches and the way that the banners are 
attached, because these planes were really not designed to haul 
them. There has to be some special things done.
    We are going to require the pilot to be fingerprinted, 
background investigation done, know exactly when they are going 
to fly, and monitor that way. If our color code goes from 
yellow to orange, all waivers will cease. I think that is a 
logical approach.
    Now, on the waivers, they cannot fly over the stadium. They 
cannot fly within 3 miles of the stadium, and they have to be 
at a certain altitude. It escapes me right now what that 
altitude was, but in dealing with the aviation people, I was 
satisfied that that would be a reasonable amount of security to 
apply to those who earn a living by doing that.
    Mr. Rogers. So even if they had a waiver, they would not be 
allowed to fly any closer than 3 nautical miles or 3,000 feet.
    Mr. Magaw. That is right.
    Mr. Rogers. Have to fly that 3,000 feet above the stadium.
    Mr. Magaw. That is right.
    Mr. Rogers. Even if they have a waiver.
    Mr. Magaw. And 3 miles out.
    Mr. Rogers. Even with a waiver.
    Mr. Magaw. Even with a waiver.
    Mr. Rogers. What would you think about a policy where no 
aircraft would be allowed to fly over any stadium of 30,000 
people or more? Because we all know those large stadiums full 
of people are targets.
    Mr. Magaw. Well, I think we really have to look at that. Do 
you know at how many of those events we fly those military 
aircraft, wing to wing, over the top of that? I think we have 
to look across the board at that safety issue. If you have a 
stadium full of people that clearly is a target, it is one that 
could mean a lot of people could die with just a very small 
aircraft.
    Fifteen years ago, one went into the old Baltimore stadium 
a few minutes after the old Colts game was over, and it was a 
malfunction. I think we need to look at it very closely and 
make it as secure as we can.
    Mr. Rogers. It seems as if to me, a stadium of 30,000 or 
more, that many people in one place ought to be off limits 
period.
    Mr. Magaw. Thirty thousand or more.
    Mr. Rogers. That to me would be--because if it is--that 
would protect the major baseball and football venues, but it 
would still allow advertising flyovers of smaller venues where 
the threat, I think, would be a good deal less. Does that make 
sense?
    Mr. Magaw. I am trying to think also of the advertisers, 
and sometimes the sporting units want to be paid for using that 
airspace because they are advertising. I really don't know how 
to handle that yet. I am trying to look at the whole issue.

                        SALARY FOR TSA EMPLOYEES

    Mr. Rogers. Now let's deal quickly with the salary--not 
quickly, but deal with the salary levels that you are paying. 
Secret Service, I am told, has lost 130 uniformed officers in 
the past 6 months to TSA. Capitol Hill Police here have lost 
40. And even though the Secret Service people along with 
military officers can double dip, if you will, I am not sure 
that you are taking that into account when you hire former 
Secret Service personnel.
    Ken Mead's testimony offers an example. He says TSA's air 
marshals, who are eligible for LEAP pay, receive a starting 
salary of about $45,500. Comparable pay for Capitol Hill Police 
and DOD Police Officers ranges from $22,000 to $37,000. 
Journeyman-level salary for an air marshal is $86,000. And he 
also points out that when you exclude the screener positions, 
the average pay for most other positions hired in TSA so far is 
$100,000 or more. Are we paying too much? Are we paying more 
than we have to?
    Mr. Magaw. These figures as they are given there, Ken and I 
need to sit down and look at those again, because I believe 
that they are inaccurate.
    In terms of his $100--over $100,000, we have hired FSD's 
for large, large airports. Those federal security directors 
have an enormous responsibility and we do pay them in a 
competitive range, in fact less than they could earn in the 
private sector; less, much less than the private sector. But we 
are trying to keep those rates fair and equitable, and for that 
kind of experience and that kind of responsibility, we feel 
that they are accurate.
    Now, that total average number is going to go down pretty 
quickly, because, we had to hire the big airports Chicago and 
Boston and all the big airports, which are going to be the 
higher-cost ones. The ones like we were talking about a little 
bit ago the smaller airports, there is going to be one person 
handling three or four of those airports making about 44-, 
$45,000.
    Mr. Rogers. Well, I am not just talking about the federal 
directors of airports. As of pay period 12, you had hired 10 
human resources specialists at an average salary of $100,640. 
You hired three equal employment opportunity specialists at an 
average salary of $93.9; seven public affairs specialists 
averaging $83,000; 39 attorneys, with an average salary of 
$111,200. Do you consider that within reason?
    Mr. Magaw. Yes, sir. Because with as much as we have on our 
plate to get done in terms of building the whole organization, 
I am hiring outstanding people in every one of these 
categories, and then having them build that unit for me. That's 
why those are high. I mean, those are persons in human 
services, human resources, those are the people that are going 
to manage the entire human resource unit for this organization.
     Mr. Rogers. But the Secret Service employees can double 
dip, if you will, draw a retirement plus the salary.
    Mr. Magaw. That's right, some can. That's gone away now. 
They have to be--there are only a few left that can do that. 
That program doesn't apply anymore.
    Mr. Rogers. How many of those, though, do you have working 
now?
    Mr. Magaw. I don't know that. I can find out for you, but I 
wouldn't take that into consideration. If that's the person I 
want-- they have earned that retirement, and I need this person 
to get this started. You are looking at one that's the same 
category I am.
    [The information follows:]

    Our records indicate that as of June 29, 57 former Secret 
Service employees currently receiving an annuity under the 
District of Columbia Police and Firefighters Retirement System 
have been hired by TSA. Since the DC Retirement System is not a 
Federal system, these employees are not subject to the annuity 
offset provisions, which apply to retirees under the Civil 
Service, Retirement System or the Federal Employees Retirement 
Section.

    Mr. Rogers. We have a vote, and we will have a short recess 
and return shortly.
    Mr. Magaw. Those federal air marshals, sir, 84.3 percent of 
our federal air marshals draw $36,400. Wherever they live, they 
will get locality pay on top of that. But that still doesn't 
drive it up to those numbers you are talking about. And I have 
spent hours on these charts.
    Mr. Rogers. Let's take a recess.
    Mr. Sabo. Plus LEAP.
    Mr. Magaw. Yes. That's what the law enforcement has. And 
they are prepared to die on that aircraft.
    [Recess.]
    Mr. Rogers. We will be in order. Mr. Magaw, I apologize for 
the delays; but, like you, we have other chores that are going 
on simultaneously.

               STADIUM FLYOVER WAIVER FOR BANNER AIRCRAFT

    Mr. Magaw. Mr. Chairman, before we start, I knew I had made 
an error when I made it, but I didn't know what the true answer 
was, so I needed to get that during the break. So it really 
helped me.
    When you asked me about banner aircraft that had the 
waiver, I said, yes, they would still have to be up--3 miles 
up, 3,000 feet. And I as soon as I said it, I knew it was wrong 
because nobody could see the advertisement in that case.
    They are allowed to come down to as much as 1,000 feet and 
within three quarters of a mile of the airport. We are going to 
be very careful how we issue those. I have addressed it with 
the commissioner of the NFL football, Cleveland Browns, and the 
legal counsel. Baseball is also interested. I am concerned, 
too, with the All Star game coming up shortly. I will work very 
closely to make sure we do the best we can, and be reasonable 
there. I did want to correct that, sir.
    Mr. Rogers. Now, did I understand you correctly to say that 
you are going to go back and reconsider all of thewaivers that 
have heretofore been granted?
    Mr. Magaw. That's right.
    Mr. Rogers. And before the waiver would be granted, you 
will have some stringent requirements of the identity of the 
pilot and the background check and condition of the plane and 
so on?
    Mr. Magaw. Correct.
    Mr. Rogers. Now, what about if somebody goes up there and 
flies up that plane that's not the person you certified? How do 
we know that that's not going to happen?
    Mr. Magaw. We are talking about trying to determine how 
many there are, where they are located, and can we get the 
sheriff, State police, or the local police department to verify 
that for us that day. We are looking into that now.
    Mr. Rogers. And what do you think about the idea of 
prohibiting any of that above a stadium seating more than 
30,000 people?
    Mr. Magaw. Well, under the circumstances, it makes sense to 
me, maybe even less than 30,000. So, for me, off the top of my 
head, in it makes sense to me to restrict that. I will discuss 
it with those in FAA who have had the history with it, and also 
my others, and we will see what we think about that.
    Mr. Rogers. I would hope that you would consider that, and 
perhaps you can get back with us as soon as you have had a 
chance to give it some consideration.
     [The information follows:]

    TSA has completed a review of the current temporary flight 
restrictions (TFR) in place over major professional or 
collegiate sporting events or over other major open-air 
assembly areas. TSA has determined that it is necessary to 
continue the current restrictions which, in addition to other 
restrictions, prohibit flights within a three-mile radius and 
below 3,000 fee of professional and collegiate sporting events 
held in an open stadium. If the threat situation changes, TSA 
will modify the restrictions to include adding specific 
security requirements, as necessary, on an event-by-event 
basis.
    TSA has also completed review of the process currently in 
place to issue waivers that allow aircraft to enter airspace 
having a TFR. TSA has assumed the review/approval of such 
waivers from FAA. Before a waiver is approved, all persons 
allowed on the aircraft will be required to undergo appropriate 
background checks, to including checks against appropriate 
government data systems.

                             SALARY LEVELS

    Now, back to the salary levels. You know, given--in some of 
these jobs, Mr. Mead, for example, pointed out that of the 18 
employees hired in program management job series, including the 
federal security directors, their deputies, and then related 
fields, the salaries range between $108,000 and $145,000. And 
then some of them, I am told, then--can then add a Secret 
Service or a military pension to that compensation. Is that 
correct?
    Mr. Magaw. Well, I am one of those that you should be 
talking about. My compensation comes from the Secret Service. I 
was moved over to ATF and stayed on the Secret Service payroll 
for a while. Secretary Rubin took the position that I had 
earned that retirement and therefore granted it to me.
    Mr. Rogers. I am not being critical of you.
    Mr. Magaw. No. I'm just saying that I've been on it since 
1995. I draw a Secret Service retirement at the level of the 
sitting director, 80 percent of that. Then I draw a full salary 
here of $150,000.
    Mr. Rogers. Well, I'm not criticizing you.
    Mr. Magaw. No, But I wanted to make sure you knew, since 
you----
    Mr. Rogers. Yes. I appreciate that very much. Now, but some 
of these people would be making more money than the airport 
manager in many cases. Right?
    Mr. Magaw. Well, if you included their retirement. But 
their retirement is earned. They have--they went through their 
whole career with that in mind, and now they have decided to 
come back and help after 9/11 and put all their experience to 
use. It's not much different than somebody retiring from one 
company and drawing a pension and going to work for another 
company.

                      TSA LAW ENFORCEMENT SALARIES

    Mr. Rogers. Well, the point, though, that has not been made 
here--and I am hearing this from my colleagues on the other 
Appropriation Subcommittees that fund things like the Secret 
Service and the Capitol Hill Police and Customs and INS, ATF 
agents and the like--is that because TSA is offering law 
enforcement personnel so much more money, you are really 
causing some harm to these other agencies. In fact, I heard 
virtually an entire shift of Secret Service personnel at the 
White House left for TSA because of the pay increases.
    And then air marshals are also eligible for law enforcement 
retirement provisions, which are lucrative compared to other 
branches of the government. INS, Customs, ATF agents are not 
eligible for law enforcement retirement, and so this pay is 
attracting people from those agencies.
    Why is it necessary for you to offer this special 
retirement package for air marshals?
    Mr. Magaw. Well, really, the air marshals as they are 
coming in, 84 percent of them are at $36,400. Now, that is very 
competitive with all of these others.
    Mr. Rogers. But does that include the LEAP pay, L-E-A-P?
    Mr. Magaw. Well, no. But neither did the others.
    Mr. Rogers. But that's an additional 25 percent.
    Mr. Magaw. Well, that's right. Because they are working 
more overtime. We found that to be the case through the years. 
That's why Congress gave us LEAP. We found that we were working 
so many overtime hours, that it was cheaper and more equitable 
to give us the LEAP pay.

                         CRIMINAL INVESTIGATORS

    Mr. Rogers. Now, in our last hearing--and you mentioned 
this in your testimony--we informed you that we would not 
support a large cadre of so-called 1811 criminal investigators, 
similar in compensation and responsibility to FBI agents. And I 
am pleased that these plans and your numbers have been revised, 
but I see that you hired over 30 people into a related job 
series called 1801, the general investigator series, paying 
them an average of $108,000, which is more than your criminal 
investigators are getting, on average. What are these 1801 
people doing?
    Mr. Magaw. Those are the supervisors of the federal 
airmarshal program. There are 21 locations in the country where those 
offices are. And those are the supervisors of those federal air 
marshals.
    I just wanted to confirm that I was right on that. The 
1811s, we still need a reasonable number of those. I would like 
to be able to move forward with a reasonable number, because 
with the things that are happening on these airplanes, with 
people carrying loaded firearms up to the checkpoints, a lot of 
times the state and local police don't have laws to prosecute 
them or the personnel to do the investigation.
    We don't intend to take responsibility away from the FBI, 
we don't intend to do anything but help them in terms of 
investigations of terrorism. But we do need to be able to do 
investigations and be able to present the cases to the court 
that would involve unruly passengers, interference with our 
screening personnel, concealment of dangerous weapons. I think 
just in the last 10 days there have been five loaded firearms 
show up at the checkpoints, with false pretenses and things of 
that nature.
    So we have to be able to carry our weight there. I commit 
to you that we will keep them at a number which is not 
duplicative of Customs or DEA or the FBI.
    Mr. Rogers. Well, I am concerned about the high salaries 
and the fact that we are attracting so many people from other 
agencies when we could pay less money and save taxpayers some 
dollars and probably get the same people or a lot--similarly 
qualified people in these positions.
    Mr. Magaw. Not in the FAM program. That's the one that we 
have had to really put together very quickly. And we went to 
the military and to law enforcement, to people that had the 
basic background, so that we didn't have to conduct quite as 
long a school and could meet the real urgent need there.

               CIVIL AVIATION PASSENGER PROFILING SYSTEM

    Mr. Rogers. Now, I want to switch gears quickly to data 
fusion at the airports. Since our first hearing in February, 
since, we have been encouraging you to pursue aggressively 
development of a database that fuses the watch lists and other 
relevant info from FBI, CIA, INS, whomever, and provide it 
directly for the airport's use in screening passengers. And I 
know that's high on your list, because you told us in February 
that you had personally heard of technologies that would have 
flagged 17 of the 19 9/11 terrorists for additional security 
screening.
    You have a program called CAPPS-2, Civil Aviation Passenger 
Profiling System. How close are you to having that system 
deployed, either testing or implementation?
    Mr. Magaw. We are still trying to devise the actual 
program. We have a team of people working on that full time. 
They are reporting in as to where we are on it, you know, every 
30 days or so. They are interfacing with all the other law 
enforcement agencies to see what makes sense when we bring all 
of those together, and then also trying to determine the 
equipment that needs to be installed in the airports, and we, 
as we go out there and get our space in the airport. It's 
really in the early stages, Mr. Chairman.
    Mr. Rogers. But you are headed toward a system where you 
received the watch list data from our Nation's intelligence 
network that warns screeners to be on the lookout for a certain 
named person.
    Mr. Magaw. Name of person, background information, any 
specific things that would be noticeable as they looked at the 
individual, such as tattoos and those kinds of things, and also 
a background on convictions. That's one of the areas where, as 
we move forward, I am going to make sure that we work closely 
with Governor Ridge and this potential homeland security, 
because he has a large unit within his structure that comes 
forward that does exactly that. And so we will want to make 
sure that we are coordinating with that and don't have a system 
that's buying equipment and getting out there that will be 
different than what we need to have.

                 INTELLIGENCE INFORMATION FOR SCREENERS

    Mr. Rogers. But what I am getting at is, the screener or 
the person that checks the ticket of a passenger will have data 
handy to them that warns them to watch out for a certain 
person.
    Mr. Magaw. A certain person, or whatever intelligence we 
might have for that airport. They will have a briefing before 
they go to work each day, and one of the criminal investigators 
would be getting the intelligence and determining who needs it 
and where, and do they need to post pictures, trying to make 
sure that they are informed. Yes, sir.
    Mr. Rogers. And will that screener that has that data also 
have the capability to identify the person seeking to board the 
plane, to be sure that person is the person on the ticket, 
through some biometric measurements that are objective?
    Mr. Magaw. Not under this plan, they wouldn't. That's not 
in this plan.
    Mr. Rogers. It's not in CAPPS?
    Mr. Magaw. No, sir.
    Mr. Rogers. But will it be there?
    Mr. Magaw. Well, I think there will be a positive 
identification by some biometrics. But we are looking at 
whether it needs to be done at the ticket counter or where it 
needs to be done so it doesn't bog down the other people as 
they go through.
    Mr. Rogers. Well, I've been saying this for probably 15 
years or more on the other subcommittees--State, Commerce 
Justice, where we tried to get INS and State Department to 
merge their databases for 15 years, unsuccessfully, so that the 
consular officers in State and the embassies around the world 
who granted visas share that data with INS over here, who is in 
charge of enforcing that when they got here. They never did do 
that. So, consequently, over half of the illegal aliens in the 
country came here under a visa and simply stayed over. And we 
had no way of knowing who they are or if they even exist, and 
now we are having the same kind of problem.
    Mr. Magaw. That's right.

                          INTELLIGENCE SHARING

    Mr. Rogers. The hoarding of data by agencies, and not 
willing to share it with the people who make a difference, the 
screeners at the airports, the cops in Denver, and the ATF 
agents, wherever or whomever.
    Mr. Magaw. It has to get to them in a timely manner, or 
it's no value at all. And I know that, as I say, when you see 
the structure of homeland security, there is one major unit in 
there that brings together all of these intelligence units in 
one place. The agencies are required to push the intelligence 
in there. It will be analyzed, and then can from there be sent 
virtually throughout the world that is the plan.
    Mr. Rogers. Well, I understand that. But, you know, we are 
going to be a little while off before that takes place,the 
reorganization of the government and implementation of those types of 
things. In the meantime, you need a stop-gap measure to fill that void 
until we get that other one in place. Do you not?
    Mr. Magaw. Yes. Our intelligence unit briefs me every 
morning and calls me in the evening if they need to. We decide 
what needs to be sent out to the field. Sometimes they will 
pick the phone up on secure lines and give them the 
information, or send the information to them if it's something 
that doesn't need to get there right away. So we are paying 
attention to that, sir.

                       FUNDING FOR MAGNETOMETERS

    Mr. Rogers. Now, as we discussed earlier, we have included 
20 million in the supplemental for the new metal detectors. 
Frankly, after our April 17th hearing with Deputy Secretary 
Jackson, he told us that you and the Department would move 
forward immediately to replace detectors at the passenger 
checkpoints. We put the money in the supplemental for that 
purpose, and we are now told that you don't plan to begin those 
replacements until September, 5 months after April, when it was 
agreed they were needed immediately.
    In the meantime, we are hiring staff to man those screening 
points as if we weren't going to have new detectors. Why can't 
we get those detectors replaced more quickly?
    Mr. Magaw. Well, these teams that are going out there now 
under contract are going to look at the magnetometers. Those 
that need replacing, they will let us know. And that $20 
million is in our supplemental.
    But frankly, Mr. Chairman, we are running almost day to day 
now. And people are giving us funds on, you know, temporarily--
legally, but giving us funds to run on. And so that's something 
that I don't know exactly how many we need where yet. So it's 
something that can sit there for a few weeks until I get that--
get the right number in the right place.
    Mr. Rogers. Well, I don't want to differ with you here, but 
we said to replace them all. We are not going to decide which 
ones to replace; we are going to scrap them all.
    Mr. Magaw. There are some out there that are very new.
    Mr. Rogers. We are going to scrap them all. The money will 
be there to buy new state-of-the-art, consistent magnetometers 
that are set on the same settings at every airport. Do you have 
a problem with that?
    Mr. Magaw. No.

                      ACCESS CONTROL PILOT PROGAMS

    Mr. Rogers. Now, last year's Aviation and Transportation 
Security Act required FAA to establish pilot programs--I'm 
quoting here--to establish pilot programs in no fewer than 20 
airports to test and evaluate new and emerging technology for 
providing access control and other security protections, for 
closed or secure areas out of the airport, unquote. And those 
projects were to include biometric technologies or other means. 
How many of those 20 pilot projects are underway now?
    Mr. Magaw. I will have to get back to you with that answer, 
Mr. Chairman.
    Mr. Rogers. All right. How soon can you do that?
    Mr. Magaw. By the middle of next week.
    Mr. Rogers. I'm sorry?
    Mr. Magaw. The middle of next week. Is that soon enough?
    Mr. Rogers. It shouldn't take 15 minutes to find out, I 
would think. I'm amazed that no one knows.
    Mr. Magaw. I will have to go and talk to FAA and talk to 
our laboratory in Atlantic City.
    Mr. Rogers. Find out by tomorrow this time, and let us 
know. I mean, these are biometric measurements that we 
directed--that Congress directed you to experiment with in at 
least 20 locations a long time ago, and we want to know.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                          HIRING OF SCREENERS

    Mr. Rogers. Now, in hiring the screening personnel over at 
B W I, only about 20 percent of the screener applicants 
actually passed your tests, which is far lower than I think 
anyone anticipated. And you are going to--as the IG said, in 
order to get to your screening levels by the deadline in 
December, November, you will need to hire up to 8,000 screeners 
each month between July and October to meet that deadline. But 
if 80 percent of them are washing out in the interviews, you 
are going to have to interview upwards of 30- or 40,000 people 
a month, are you not?
    Mr. Magaw. Yes.
    Mr. Rogers. Can you do that?
    Mr. Magaw. Yes, sir. That's what the contract is for. Some 
of the things we learned from Baltimore was that in addition to 
putting ads on the Internet and getting it in the newspaper, we 
need to make sure that we are at job fairs, that we reach out 
to minority publications, and that we advertise much earlier 
than we did there.

                    MIX OF TECHNOLOGY AND PERSONNEL

    Mr. Rogers. Well, again, I certainly hope that you will put 
in place as much of the magnetometers and other machinery 
before we hire the personnel. I don't want to see us get in a 
place where we hire the personnel, put the machines in place, 
and realize we have got 30 or 40 percent excess numbers of 
people and cause them disruption, not to mention the cost to 
the government of having done that. Is that a fair assessment?
    Mr. Magaw. We will have to run them side by side, because 
some of these machines are going to be going in, and the people 
that we are training will be there. Where we are going to be 
able to do what you are saying is, the people that are at the 
gates now just before you get on the plane, as you walk on the 
plane, that number is going to go way down after we get the 
kinks ironed out of each airport. It is clear to me that we are 
going to be doing a better job of screening up front, we are 
going to be able to identify those people who have to have 
additional screening and do it up front.
    Now we don't know about that until they show up at the 
gate. That, then, will be the number that we will be able to 
reduce as we go along and do the same thing you are talking 
about, but in a slightly different way.
    Mr. Rogers. Well, I think we can streamline what we have 
now, certainly. And flying out of here last week at Washington 
Reagan, I went--and I am not complaining, but I am just saying 
this. I went through three different searches in Reagan Airport 
before leaving it, searching my person, my carry-on, taking my 
shoes off, being wanded, three times in flying out of there 
once. And a lot of people are having that experience, and it is 
a lot of wasted motion, a lot oftime, a lot of wasted 
employees, a lot of wasted tax dollars that are being spent now on, it 
seems to me, senseless things. And I know you can't defend every single 
instance of that sort, but it seems to be a pattern, and I think we can 
do a better job of what we are supposed to be doing right now even 
before we hit the big crunch this year.

                       BAGGAGE SCREENING DEADLINE

    Now, this coming December 31st, the deadline for screening 
100 percent of checked baggage, 39 airport directors 
representing about 60 percent of the traveling air travelers 
recently wrote to Secretary Mineta that meeting the deadline 
was, quote, ``was in serious jeopardy,'' unquote. And they 
expressed a good deal of concern that this coming holiday 
season at the end of the year would be a chaotic situation. 
What do you think?
    Mr. Magaw. I believe that I would be concerned if I were 
sitting out there like they are right now, also. But as we 
speak, this week and next week, those teams are going to be 
arriving in their airports. They are going to be talking to 
them about their plans, figuring out how they can be 
implemented. I believe that a great deal of that will go away 
very quickly, Mr. Chairman. If I see that that is not the case 
and we are not on target, I will let you know immediately.
    Mr. Rogers. Well, obviously there is a good deal of 
reluctance here to even talk about relaxing the deadline. And I 
know that you share that sentiment. But we have got to be 
realistic; and if it is absolutely not achievable, I think we 
need to be adults and face up to it early on, because it is 
costing us a lot of money to try to meet that deadline. As it 
is, we could do it, I think less expensively, if the deadline 
were not as soon as it is. Do you agree with that?
    Mr. Magaw. Yes.
    Mr. Rogers. So I think we need to be adults and face up to 
it soon, before we spend extraordinary amounts of money trying 
to meet a deadline that we can't meet. Is that fair?
    Mr. Magaw. That is fair. And I think it will really clarify 
itself in the next 45 to 60 days, sir.
    Mr. Rogers. Then you are saying by around the middle of 
August we should know where we stand?
    Mr. Magaw. Well, I know where we stand right now. And there 
are hurdles that we have to get over. I don't expect us to trip 
over any of the hurdles or any of them to be knocked down. But 
if that does come into view, what you were just saying, we 
would know by then if there is any indication of that.
    Mr. Rogers. Well, can we talk?
    Mr. Magaw. Absolutely.
    Mr. Rogers. Mr. Sabo.

                   LOCATION OF SITE ASSESSMENT TEAMS

    Mr. Sabo. I was just looking at the list of where the site 
assessment teams are going to on the 23rd, and they are 
generally not large airports.
    Mr. Magaw. Yes, but just a few days after that, they are 
going to large ones.
    Mr. Sabo. Okay. Because it strikes me that those are----
    Mr. Magaw. Just a few days later, they are going to New 
York, to Boston, to Newark, Chicago.

     NUMBER OF CONTRACTS/SUBCONTRACTS AWARDED TO TSA ADVISORY TEAM

    Mr. Sabo. Okay. Do you know, is TSA, as awarded contracts, 
how many have been--contracts and subcontracts have been 
awarded to companies of TSA's senior corporate advisors?
    Mr. Magaw. None. That was one of the agreements when they 
came in there, that no contracts would be awarded to those 
companies. We went through that with legal counsel and with 
ethics groups, and the Secretary was very careful on the people 
that they selected so that there were not people whose 
companies were bidding on contracts.
    But it seems to me, though, as I am thinking about it, that 
there was a person there that their company bid on it, but I 
don't think they got it. Let me get the answer for you for 
sure.
    [The information follows:]

    When the Advisory Team was formed to assist in the 
establishment of TSA, each advisor agreed that they would avoid 
any matters concerning contracts with their respective company 
and TSA. TSA has awarded contracts to two companies that had 
representatives on the Advisory Team. The first company was 
Fluor, which was one of the three contractors involved in the 
phase one planning of the airport rollout. Fluor also had a 
small contract that provided engineering support services. The 
second company was EDS, which completed several site visits 
early in the year, and supported the bag match pilot project.
    TSA does not have information on subcontractors associated 
with each contractor.

    Mr. Sabo. And what about subcontracts?
    Mr. Magaw. I don't know. I will just have to look at that.

                         INDEMNIFICATION POLICY

    Mr. Sabo. I understand that TSA is indemnifying some of its 
contractors for liability. What policy and process is used to 
determine who will and who will not be granted indemnification?
    Mr. Magaw. Well, those who have the high risk and unusually 
hazardous and difficult activity performed, we have been 
granting them indemnity. The police officers who are working at 
the airports, where they want--when their department wants 
indemnity, like the Chicago Police Department, we have been 
doing that. It's the only way we could get them to come on 
board. And the major companies that are contracting with us to 
do the machines and the screeners, and also doing the 
reevaluation of the airports have been granted indemnification.
    Mr. Sabo. Could we just get a written description of what 
that policy is, if there is one?
    Mr. Magaw. We will get that for you.
    Mr. Sabo. Okay.
    Mr. Magaw. Francine is our chief legal counsel, and she 
will get that for you, sir.
    [The information follows:]

    Attached is a copy of Under Secretary Magaw's 
correspondence that was sent to Congressman Sabo and Chairman 
Rogers concerning TSA's written indemnification policy.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                     TRANSPORTATION WORKER ID CARD

    Mr. Sabo. Okay. I'm curious if you are planning to develop 
a standard card to identify transportation workers at the 
airports and elsewhere.
    Mr. Magaw. We are. We are working with a project to try to 
have identification of not only the airport people, but also 
the truckers.
    Mr. Sabo. Concessionaires?
    Mr. Magaw. Concessionaires would be the airport pass. We 
would restrict where they could go. But that's what we want to 
tighten up is the airport passes, so that there are areas that 
they go--that they could go and come from. Miami, Los Angeles, 
and others are doing that now.
    And so we want to try to work with the airports across the 
country, and these Federal security directors will be doing 
that at each airport.
    Mr. Sabo. What's the time frame for that? Do you have any 
idea?
    Mr. Magaw. I suppose it will be different for each airport. 
For instance, if you are going into Miami, that is done.
    Mr. Sabo. Does the card vary from airport to airport, or 
will you have a uniform?
    Mr. Magaw. Right now, it does vary from airport to airport.
    Mr. Sabo. Are you----
    Mr. Magaw. You are talking about an overall national card?
    Mr. Sabo. Yeah.
    Mr. Magaw. That's huge, and has huge problems. And if we 
aren't careful, if we don't track the money, then you are going 
to have terrorist cells get into there. The whole theory is the 
soup of revenge is best enjoyed cold, and they will wait 5 or 6 
years. They will take a job. So we have to be very careful with 
something across the board like that.

                 SALARIES FOR LAW ENFORCEMENT PERSONNEL

    Mr. Sabo. Okay. Back to the salary issue. I assume that 
your judgment was that because you are hiring lots of folks 
quickly, you wanted to hire existing law enforcement people for 
your law enforcement, for the Federal air marshals. And the way 
to do that was to give higher pay than what they were getting.
    Mr. Magaw. What we did is--let's say we were interviewing 
an INS agent or a DEA agent or a Secret Service person, 
whatever they were being paid then, we offered them a 5 percent 
increase over what they were being paid at the time.
    Mr. Sabo. Okay. Now, I understand some miscalculation for a 
while on Capitol policemen.
    Mr. Magaw. That's correct. I'm told that's correct.
    Mr. Sabo. Okay. So it was just a general rule that for a 
variety of agents, if they came in to apply for air marshal--
what other jobs? Primarily air marshal.
    Mr. Magaw. No. We also have to work with the Inspector 
General, so we have an inspection unit which has I think 30 or 
40 people in it----
    Mr. Sabo. Okay.
    Mr. Magaw [continuing]. Now. So it would be that group. And 
a small number that interfaces with all the other law 
enforcement agencies to do the kind of coordinating things that 
the Chairman is talking about.
    Mr. Sabo. So you took whatever their salary was at their 
current job and said we will add 5 percent to it?
    Mr. Magaw. That's right.
    Mr. Sabo. And so they entered differing places within the 
salary scale?
    Mr. Magaw. That's right. They did. They would enter at a 
lot of different places.
    Mr. Sabo. How does your salary scale compare to the salary 
scale for some of these other agencies?
    Mr. Magaw. If you compare like numbers to like numbers--in 
other words, if you are comparing somebody who gets LEAP pay 
with somebody else that--sometimes they put the LEAP pay on. If 
they were taking my salary and you are looking at it that it 
has the LEAP pay on it, it may be less than somebody else is 
getting over here, but they are getting overtime. They are 
getting paid time-and-a-half for every bit of overtime. You 
have to put them together at the end of the pay period or at 
the end of the month. And when you do that, there is not a very 
big difference.
    Sometimes if we are not careful, we compare apples to 
oranges. The Federal Protective Service, which is one of the 
figures that they used this morning, that in no way compares in 
terms of a Federal air marshal, in terms of the training they 
have to go through, the ability to defend themselves, and to 
act quickly to defend somebody else in very tight confinement, 
the requalification. Nobody has the firearms requalification 
that they have. So they have a real expertise to maintain, and 
it has to be maintained continually in terms of physical 
conditioning also.
    So, when you look at--in fairness, either to a base against 
base, or you look at base with LEAP pay and base with overtime, 
and you look at the pay at the end of the month or at the end 
of six months for like tasks, they are not much different.

                          PAY SCHEDULES CHART

    Mr. Sabo. Have we gotten--I know there have been requests, 
and I'm not sure we have gotten a copy of pay schedules for 
different jobs yet.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Magaw. I think your committee does have them. We have 
the current ones, and they are dated 6/11, and that is the one 
that we have continued to work with.

                 OVERTIME PAY FOR FEDERAL AIR MARSHALS

    Mr. Sabo. Do air marshals make overtime?
    Mr. Magaw. LEAP is the overtime. In other words, that's 
what it's paid for. When we started it in the Secret Service 
and also when I was at ATF, we found that the overtime, paying 
it at time-and-a-half was more expensive, and created 
scheduling problems. So the LEAP was put in. And that does take 
care of the overtime.
    Mr. Sabo. Of all the air marshals?
    Mr. Magaw. Yes. And of someone like Tony Woo here, who is 
an agent, who is an 1811. He works nights, weekends, and all, 
and the LEAP is all he gets. So it doesn't make any difference 
whether he works an 80-hour week or a 60-hour week; it stays 
the same.
    Mr. Sabo. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.

                          PERFORMANCE MEASURES

    Now, Mr. Magaw, we want to get you out of here. It has been 
a long day and we have kept you longer than actually we had 
planned. But before you leave, we do have this chore that we 
have to perform here. And some days it's good, some days it's 
not so good, and some days it's bad. But we are ready to grade 
you on your report card, and we have three grades. We have a 
frowny face, we have a smiley face, and we have a star. And we 
are going to grade you now, and then we will grade you again in 
September.
    The first one is the percent of commercial airports with 
permanent Federal security directors on the job. Do we know 
that figure?
    Mr. Magaw. 19.4 percent; 31, sir.
    Mr. Rogers. Thirty-one out of----
    Mr. Magaw. About 150 or 60. We are between 155 and 60. We 
are trying to combine some of these airports, and I think it's 
going to come out close to 160.
    Mr. Rogers. And what we are trying to do here with this 
board--I'm dealing with it sort of lightly in this respect, but 
it is deadly serious. And that is, to give some objective way 
for us to feel out where you are. And I don't mean to treat it 
lightly, because it is not light at all, but it is at least 
some stab of an effort to give some objective grading. And we 
obviously have talked to you and your staff about these items, 
and there may be others that will come along later that would 
be helpful, but for the moment this is what we have.
    Number two. The percent of airports with TSA conducting 
passenger and baggage screening. And it is a bit early for that 
to be objectively judged, because you have just issued the 
contracts.
    And, likewise, number three, the percent of passengers 
nationwide covered by Federal screening. It is a bit early for 
us to judge that one.
    Number four, the percent of required EDS and ETD systems 
deployed or being manufactured.
    Mr. Magaw. EDS, sir, would be 52.8 percent. And ETD would 
be 32.6 percent.
    Mr. Rogers. Now, that's either deployed or being 
manufactured?
    Mr. Magaw. Or being manufactured.
    Mr. Rogers. Very few are deployed, I would think.
    Mr. Magaw. EDS, 219 are being deployed. ETD, 1,226 are 
deployed. So a total deployed would be 1,445.
    Mr. Rogers. And the percent of airports utilizing CAPPS-II?
    Mr. Magaw. CAPPS-II is still in the developing stage, so 
there are none.
    Mr. Rogers. That would be zero.
    Number six. Percent of commercial aircraft with phase 2 
cockpit and doors installed.
    Mr. Magaw. None of them have installed them yet. They have 
the April 2003 deadline. They are all preparing and, in my 
view, are on course to complete that, most of them probably 
well before that date.
    Mr. Rogers. Number seven. The average wait time at 
passenger screening checkpoints for federalized airports. This 
is the first time we have laid this at you, so I am not going 
to hold you to that at this point in time. But we do want--do 
you think that can be measured?
    Mr. Magaw. Oh, we are measuring it right now. We are 
measuring it at Baltimore. And as each of these airports come 
up, that is one of our measurables and why it is important that 
we do measure these things. And so that is being done now.
    Mr. Rogers. Do you have the figure for Baltimore? The wait 
time?
    Mr. Magaw. It has fluctuated because we had a lot of 
trainers there. But when it is functioning as it is designed, 
which it is doing most of the time now, it is below the 10-
minute wait.
    Mr. Rogers. But by September, we would hope that we could 
get these figures collectively for the country.
    Mr. Magaw. Well, whatever airports are up by September. You 
know, we almost have to be up in August for us to draw any kind 
of statistic for September. But we will certainly have some 
airports up. Yes, sir.
    Mr. Rogers. Well, I am just asking you for the federalized 
airports. I don't----
    Mr. Magaw. Yes, sir.
    Mr. Rogers. Just the ones you have taken over.
    Mr. Magaw. Yes.
    Mr. Rogers. Now, number eight. The number of complaints per 
1,000 passengers for the airports that you have taken over. 
Since you only have BW I, we can't really judge you on that.
    Mr. Magaw. Well, we do have that. We have been monitoring 
that, and right now it is .0065.
    Mr. Rogers. That's per----
    Mr. Magaw. Per 1,000 passengers.
    Mr. Rogers. For BWI?
    Mr. Magaw. Yes, sir.
    Mr. Rogers. So would that be 6\1/2\ people per 1,000? Am I 
right?
    Mr. Magaw. That's right.
    Mr. Rogers. That seems mighty low. Surely there are more 
than 6 people per 1,000 people going through there that are 
complaining about something.
    Mr. Magaw. They are so glad to see the new uniforms, the 
TSA, the courtesy of the troops. I think that will mellow out. 
Because of some of the things that you have been talking about 
here today that's happened around the country, I think as 
personnel see this, the travelers, they are very surprised and 
pleased by it.
    Mr. Rogers. Now, are these written complaints or verbal?
    Mr. Magaw. They are mixed. It is verbal, it is written, it 
is computer-driven, it is telephone calls.
    Mr. Rogers. So this figure includes all of those?
    Mr. Magaw. Yes, sir.
    Mr. Rogers. Now, one item we want to start tracking isthe 
security cost per originating passenger at your airports. You can't 
give us that now because you are not in----
    Mr. Magaw. We have a contract in place, though, to develop 
unit cost at BWI. So I think probably within 90 days we would 
have that at BWI; by probably the late fall we would have it in 
probably a number of other airports. I don't know quite how 
many, 10, 12, 15, something like that.
    Mr. Rogers. Now, a non-aviation question. Number 10. The 
percent of the major ports that have completed their port 
vulnerability assessments.
    Mr. Magaw. Forty percent, sir. There are 361 ports, and 55 
of them have been completed.
    Mr. Rogers. All right. Well, number one, 19 percent, that's 
too low, so we will have to give you a frowny.
    Number two and three, we don't have any way to judge you on 
those two.
    Number four on the EDS, ETD systems, that's not--I don't 
think we can give a frowny or a smiley on that one because it's 
just sort of in between.
    On number five, that is a frowny.
    Number six is a frowny.
    We really can't judge number seven or eight, because it's 
only BWI that we are talking about.
    And we can't judge you on nine because we just told you 
that that is going to be one of the criteria.
    And on the major ports, 40 percent assessments is not bad, 
so we are going to give you a smiley face on that one.
    There will be--we have stars in the box; and when we have a 
good, happy result on one of these, we assure you that we will 
give you a gold star.
    Mr. Magaw. Can I appeal on number one, Mr. Chairman?
    Mr. Rogers. Yes, we will hear your appeal.
    Mr. Magaw. We have 31, but we have 60 in process. And some 
of them have to go before an SES board and others have to have 
background investigations, which I don't really have any 
control over. I think we wouldn't disappoint you if we were 
either nothing there or a smiley face.
    Mr. Rogers. How many of those are out of your hands; you 
have nominated somebody, but they are being backgrounded now? 
How many of those are there?
    Mr. Magaw. Approximately 30 of those 60 have already gone 
forward and they are out of our hands. Thirty of those 60. So 
we would be 61 if you would consider that number. And that's 
about--that's a little over a third of the way with 6 months to 
go.
    Mr. Rogers. Well, I will tell you what. We will leave that 
there, but we will agree to take it down at the September 
hearing time. And if you have made remarkable improvements, you 
know, a star may be in your crown.
    Mr. Magaw. All right, sir. That is fair.
    Mr. Rogers. We want to do this again in September to give 
you another 90 days and to take the temperature of everything 
at that time. And I hope you don't take this too lightly. It 
is----
    Mr. Magaw. No, I don't take it lightly.
    Mr. Rogers. It is a nice and an easy way for us to try to 
work with you to see that we are on track with what we all 
think is important.
    Mr. Sabo, do you have any questions?
    Mr. Magaw. No, I don't take that lightly at all, sir. 
That's why I appealed number one.
    Mr. Rogers. You would be amazed. Last year when we had a 
similar board for airline delays, when we were experiencing the 
huge airline delay problem, we had a similar board as this, you 
would be amazed, some of the high ranking officials in the U.S. 
Government who came to us almost in tears, wanting a change. 
They wanted a star rather than a smiley face even.
    Thank you for your time. We kept you here longer than we 
had intended, but we had some interferences along the way. I 
want you to know, in closing, that we support you. We want to 
help you do your job, because when you succeed, the nation 
succeeds. And that's what we are after, too.
    I hope you appreciate the obligation that we have on this 
side of this desk to try to keep track of the dollars that the 
taxpayers entrust to us, and we take that job very seriously.
    We fully understand, halfway understand at least, from this 
point of view, the difficulty of the chore that you have 
undertaken, and we appreciate your signing up for a really 
tough one. And we know the complexity of the problem that you 
are handling and the geographic spread under which you are 
having to operate against the kind of enemies that are trying 
to do us in. So, I want it to be said and remembered that we 
are here to help you and support you. It may sound at times 
like we are being very critical. We hope it is constructive and 
we hope that we are doing the chore from our point of view, 
from this side of the aisle.
    So we wish you well, and we hope you will stay in touch 
when you think we can be of help.
    Mr. Magaw. Thank you, sir.
    Mr. Rogers. Thank you.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




 DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2003

                              ----------                              

                                       Wednesday, February 6, 2002.

                 TRANSPORTATION SECURITY ADMINISTRATION

                                WITNESS

JOHN MAGAW, UNDER SECRETARY OF TRANSPORTATION FOR SECURITY

                          Introductory Remarks

    Mr. Rogers. The Committee will be in order. The Committee 
will be in order.
    Today, we would like to welcome everyone to the 
subcommittee's first hearing on the Fiscal 2003 budget request. 
I think, in fact, the first subcommittee hearing of the entire 
Appropriations Committee, to hear from Mr. John Magaw, the new 
Undersecretary of Transportation for Security, as he presents 
the administration's request of $4.8 billion for the 
Transportation Security Administration.
    It is stunning to reflect on just how much transportation 
has changed over the last year. A year ago airlines were making 
good profits, and pushing so many people through the system, we 
were worried here about system gridlock. The big problem was 
airline delays.
    A few short months later, airlines were tottering on the 
brink of bankruptcy, even taking a $15 billion federal bailout 
to stabilize that industry, and public confidence in flying, as 
we all know, is still not quite back to normal.
    Aviation security has gone from being a poor stepchild in a 
large agency to one of the highest priorities in the land, 
overseen and managed directly by the secretary's office. And 
new priorities are being established for the U.S. Coast Guard 
and other modal administration as budgets are trimmed to 
finance improvements in our homeland security, not only in 
aviation but maritime and surface transportation as well.
    None of us could have imagined one year ago that we would 
open our hearings off this year with an entirely new agency, 
the Transportation Security Administration. TSA has a daunting 
challenge ahead of it this year, and I believe their leaders 
deserve the strong support of the Congress.
    This agency has to go from about 25 people today to an 
estimated 40,000 by the end of this year, or a little later. 
They are expected to manage the procurement and installation of 
as many as 3,000 bomb detection systems at over 400 commercial 
airports without disrupting airline operations, without 
disrupting passengers or cargo, all in about 10 months. They 
have to build an improved intelligence network and evaluate a 
busy array of security systems and technologies.
    And as if this weren't enough, they have to focus their 
sights beyond aviation security, toward improvements in the 
security of our ports, our subway systems, intercity rail, and 
the like.
    This is a colossal challenge, but one that is critical and 
urgent for national security. I believe Congress made the right 
decision in establishing a new agency to meet this challenge, 
one with a single mission--security. In doing so we put a sharp 
focus on the issue at hand. We elevated the management 
responsibility several levels, to an undersecretary position. 
Expert advice is now only two levels below the president. Under 
this structure we will no longer have minimum wage bag 
screeners with criminal backgrounds who may or may not be 
citizens of the country. We will no longer have to force the 
airlines to use bomb detection equipment bought for them by the 
Federal Government. We will no longer have a sky marshal force 
the size of an NFL football team to deter and prevent hijacking 
all across the country. And we will no longer have intelligence 
gathered but unshared among relevant agencies of the 
government.
    Making all of this happen will not be easy, but I am glad 
to see the President has chosen an executive who has taken on 
tough jobs before with great success. This morning we are 
pleased to have before us for the first time Mr. John Magaw, 
who served as director of the Secret Service and the Bureau of 
Alcohol, Tobacco and Firearms, as well as acting director of 
the Federal Emergency Management Agency. He has an extensive 
background in law enforcement, dating back to his service as a 
trooper with the Ohio State Patrol.
    It is an extraordinary background and I think it will be of 
great value as he sorts through the challenges of standing up 
this new agency this year.
    We want to welcome you, sir, before the subcommittee. Your 
entire written statement will be placed in the record without 
objection, and we would in a moment welcome your oral summary 
of your statement. But first let me recognize for any comments 
he would like to make, my good friend the gentleman from 
Minnesota, Mr. Sabo, for any opening remarks he would care to 
make.

                    Mr. Sabo's Introductory Remarks

    Mr. Sabo. Well, thank you, Mr. Chairman, and Mr. Magaw, 
welcome to the Committee. You have a big task in front of you, 
and you bring impressive credentials to this job, and I am sure 
you will do well.
    I expect I, like others, have lots of questions. We deal 
with money in this committee. While I understand that is a new 
agency developing a program, and it is not easy to put budgets 
together, we still await detail for both 2002 and 2003. We have 
a money request for 2003, but not much detail. I hope you would 
describe some of the issues that make it difficult for you to 
put a budget together so we can begin to have some 
understanding of what is necessary this year, and next year.
    I noted that the DOT's inspector general in testimony 
yesterday said in his judgment that TSA clearly will need a 
supplemental for 2002. If that is the case, and I expect it is, 
when we are going to get that request and to what degree will 
this impact what we have to do next year?
    We are less than two weeks away from TSA taking over the 
contracts for all the screeners. I read with some interest a 
story in the paper this morning indicating that some contracts 
will be continued with some airlines for a periodof time. I am 
just curious how that whole process is going to work, and we are 
looking at lots of screeners being federal employees by the end of the 
year.
    The other concern that I have not heard much discussion of 
is that we also assume a significant amount of law enforcement 
obligations by the federal government. How many law enforcement 
people we are going to have to hire to be available at our 
airports throughout the country, what kind of pay scale are we 
looking at for those people, and what kind of recruitment and 
organization is in place for that?
    I would also have to say that we have some concern that we 
made money available last year for responsibilities other than 
airports. Particularly we provided money for increased port 
security, and plans on how those dollars are going to be used 
appear not to be ready yet. Has anything happened in that 
category? I have lots of other questions.
    Let me just voice one additional concern at this point. I 
know that the agency is using lots of senior advisors from 
outside government to help get going. I can understand that 
need, but I hope that there are strong safeguards in place so 
that those advisors are not in a position to impact contracts 
that might be related to the particular companies or other 
outside group they come from. Any structure you have in place 
to make sure that is the case would be welcome information for 
this committee.
    I thank you. You have a big challenge in front of you, and 
I am sure you are up to it.
    Mr. Rogers. Please proceed.

                           Opening Statement

    Mr. Magaw. Chairman Rogers and Ranking Member Sabo, and the 
members of the committee. I am pleased to appear before you 
today and I wish to thank the committee for calling this 
hearing on a matter of critical importance to the nation, 
ensuring the security of all modes of travel across the United 
States.
    As we implement the Aviation Transportation Act, it is 
very, very important that you have close oversight and I will 
make sure that we are working very closely with all of your 
staff. If you ask a question, you will get an answer. It will 
be a straightforward answer. I commit to that as we move along, 
you will get a quick response.
    Your leadership in passing the act means that Americans 
will continue to exercise their right to travel free from fear 
of terrorist violence. On behalf of Secretary Mineta, I want to 
assure Congress that the Department of Transportation is 
making, and will continue to make, every effort to fulfill each 
and every deadline contained in the act.
    In just a few months, as the Chairman mentioned, TSA will 
have hired thousands of new employees to screen passengers and 
baggage at 429 airports nationwide. We will put in place 
employee background screening, testing and evaluation 
procedures. With our public and private sector partners, we 
will strengthen every mode of transportation based upon 
comprehensive security and intelligence assessments.
    From the date of enactment, the Secretary has focused on 
efforts on complying with or exceeding the deadlines 
established in the new law. As Secretary Mineta has stated, we 
consider the law's tight deadlines as a promise made to the 
American people, and we will do everything humanly possible to 
keep these promises.
    As you know, we met the 30-day deadlines of this act, 
including action on enhanced Class B airspace and 
qualifications for the future screeners. January 18th marked 
the 60-day deadline for action. We met all of the deadlines, 
including the most challenging and important one, 100 percent 
screening of checked baggage.
    Our comprehensive baggage checking measures employ a 
combination of explosive detection equipment and alternative 
techniques.
    We also issued the necessary guidelines for the new 
passenger security fee on airline tickets that are sold on or 
after February 1.
    The one-year deadline for screening all baggage and cargo 
through detection technology is one of our highest priorities. 
In the meantime efforts are being made to utilize every 
available explosive detection machine to its maximum capacity.
    The FAA issued its guidelines for flight crews who face 
threats on board an aircraft, and we had a chance to 
reviewthose before being issued. Air carriers began to electronically 
transmit foreign airline passenger manifests. We have released our 
screener training plan, a plan that is key to creating a highly 
professional, uniformed career federal security force that this 
committee and the American people will be proud of.
    Our success to date in meeting the deadlines is due to the 
contribution of our dedicated employees and the cooperation of 
all parts of the nation's aviation industry.
    I would also like to mention future deadlines on which we 
are most focused. On February 17, just a few days from today, 
TSA will take over the airlines' screening contracts and 
equipment. As we move forward, we will staff TSA with 
sufficient federal screener and other personnel to assume all 
passenger screening responsibilities by November 19 of this 
year.
    In bringing TSA on line, we are creating a flat and 
flexible organizational structure with well trained managers, 
emphasizing front-line service delivery at a low number of 
levels prior to getting to the decision of main security, the 
main decisionmakers.
    One key to our success will be a core of senior managers, 
to be known as Federal Security Directors, who will bring 
federal authority directly to the point of service, directly to 
the point of the passenger interface at the airport. I expect 
to select those first Federal Security Directors shortly.
    Another key to our success will be baggage screeners. We 
are designing a compensation and benefit structure that will 
help attract the highest quality employees while also 
developing a fair process that allows us to quickly remove 
those who neglect their work.
    Last December we announced the qualifications for the new 
screeners. Our federal screeners will be part of a competent, 
dedicated workforce that will be proud not only in their 
uniforms, but in their training and in their courtesy to the 
public in providing world class security.
    Regarding our resources, the President's 2003 budget for 
TSA requests $4.8 billion, an increase of $3.6 billion above 
the level of funds provided directly to TSA in fiscal year 
2002.
    We will maintain a commitment to measure performance 
relentlessly, building a security organization that, as I said 
before, provides both a world-class security and world-class 
customer service to all of those who travel in our nation.
    Just as military personnel are on the front lines defending 
our country overseas, our airport screeners will also serve on 
the front lines defending right here at home.
    The new security system will be robust and redundant, and 
will be relentless in our search for improvements. It is better 
today than it was yesterday, and it will be better tomorrow and 
for the foreseeable tomorrows to come.
    As I stated before, TSA will be paying attention to moving 
forward with improved security in all modes of transportation, 
not just the one that is getting a great deal of focus today, 
aviation.
    That concludes my statement, Mr. Chairman.
    Mr. Rogers. Thank you, Mr. Magaw.
    All of us have a number of questions. We will try to be as 
brief as we can. Out of fairness, we should do it today, 
because of the number of members here, we will go by the five-
minute rule.

                           SCREENING DEADLINE

    I want to ask you first about the screening deadline. 
Within nine months you have got to hire 30,000 screeners, maybe 
more. That is about 3,000 a month, 150 people hired each 
business day between now and then for nine months.
    I assume you will have to ramp up slowly in the beginning, 
so you are going to have a crunch as this thing goes on like no 
one has seen in a long time.
    Can you do it?
    Mr. Magaw. Yes, Mr. Chairman, we can do it. We are putting 
plans together to do that. We believe that an outstanding 
workforce is out there. The airlines business has had a number 
of layoffs. Those people will be given an opportunity to apply. 
The military, obviously, will be given the priority as we have 
done in the past. The pay scale that is being put together is 
going to be very inviting in every area of the country. We are 
putting together training programs now, organization and teams 
that will do the training, the 40 hours classroom, the 60 hours 
practical, and then the continuing testing. The uniforms are 
being looked at now to select and purchase. We think we are 
clear that all of these things will come together to meet the 
time frame, sir.

                            SCREENER DUTIES

    Mr. Rogers. One of the problems we have faced in the past 
with the screening was the low performance level, the low 
morale of that group of people doing very mundane things over 
hours and hours of time.
    How will you cure that problem that we have had?
    Mr. Magaw. Each one of the duties, as you say, can be 
boring. Most airports have what they call a bank of flights, 
and that bank of flights comes and goes in about a two-hour 
block, sometimes a three-hour block. What we plan to do, for 
instance, during the time that they are doing the examination 
of the baggage we expect to rotate them to three or four 
positions, not leaving them too long in any one--20 minutes, 25 
minutes, to rotate them. So that if they are watching the 
screens and operating the equipment, they would then move to 
hand checks, they would move to the other equipment that is 
there.
    During the downtime in between the banks, we expect to have 
a training facility, a room to train in at each airport where 
we can take those examiners--screeners--during the downtime and 
do some training. It does not always have to be training 
concerning their work. As we move along, it can be training 
that helps them be better family members, that helps them be 
better--whatever it might be, whatever theirwishes are.
    And we also want to attract the type of person that wants 
to move forward, that wants to become a supervisor. My guess is 
three or four years from now some of them will be federal air 
marshals that we hire between now and then. Some will be on the 
law enforcement side, on the coordination side there at the 
airport. So we do want to create things that will keep them 
from boredom.

                 SCREENING CONTRACTS--FEDERAL TAKEOVER

    Mr. Rogers. Now, do you expect any problems in taking over 
the existing screener contracts February 17?
    Mr. Magaw. It is all on schedule right now. I suspect that 
there will be a little problem here and there in terms of 
working out the contracts. However we will have our federal 
personnel at the airport. There is going to be an interim 
manager there a couple of days before this takes place so that 
every airport will have somebody speaking for TSA and watching 
out for the concerns of security.
    It could be that after we are looking at this for three or 
four days that there are a number of people that need to be 
pulled out and given training. We will be prepared to do that.
    There could be a situation where the contractors are not 
measuring up. And if that is the case, we will have to move 
them and bring another unit in, and we have done some 
preparation to do that if those problems occur.
    We are trying to anticipate problems that might occur and 
make preparations for them. I would rather not talk too much 
about it in a public forum because we want to make sure that we 
keep the competition in terms of prices and contracts so that 
they are reasonable for us to assume.
    Mr. Rogers. The Secretary this morning announced in the 
paper that he would not re-employ Argenbright, a company that 
we have been quite critical of on this subcommittee for 
security lapses.
    Can you elaborate on that?
    Mr. Magaw. Argenbright has some existing contracts which we 
then would be responsible to oversee. We are going to look at 
that performance very quickly and in very much detail at the 
airports. And if that security is not measuring up, then we 
will replace it.

                        INTELLIGENCE INFORMATION

    Mr. Rogers. Now, on 9-11 the problem was not with 
screeners. The problem was, in my judgment, intelligence that 
was not shared nor used; is that a fair statement?
    Mr. Magaw. Well, I think clearly intelligence is so 
important. I do not disagree with what you are saying, but I 
also do not know enough about the specifics of that day to be 
able to say for sure.
    Mr. Rogers. Well, the point I wanted to get at was in the 
law that we passed, we provided, of course, as you mentioned, 
for federal security directors at each airport who would be 
privy to intelligence from our nation's intelligence systems, 
which hopefully they would be able to share so that each 
airport would have direct information about who and who was not 
a suspected terrorist, or who was on the watch list or what 
have you, that could then hopefully be utilized to prevent 
those people from boarding aircraft. Is that essentially 
correct?
    Mr. Magaw. That is essentially correct and very, very 
important. And in our organizational chart at the very highest 
level, just one level under my office, is an Office of 
Intelligence, and we are seeking now to hire a person for that 
position and a deputy for that position that are totally 
acceptable and received within the intelligence community, 
because it is a rather guarded community.
    So that if we need to--if this person needs to walk in and 
confer with any of the intelligence units, regardless of who 
they are here in D.C., they will have that immediate open door. 
And then they will very quickly be transferring or have a 
secure direct line to those airport directors so that there 
should be a very quick flow.
    In fact, we have already started to do that. In the last 
couple of weeks we have--because I get briefings every morning 
or I get a call in the evening--we will put something out to 
the security directors of the airlines, giving them some 
information that they might want to do something slightly 
different for the next few days.
    Mr. Rogers. Now, how soon will you have those federal 
security directors on the scene?
    Mr. Magaw. Well, we are going to have some interim 
directors on the scene immediately. We are taking----
    Mr. Rogers. Are these federal employees?
    Mr. Magaw. These are federal employees. They are FAA and 
TSA employees. In fact, we are notifying, have already notified 
them, and are doing some training in the next few days, and 
they will be on scene prior to the implementation of this.
    At the same time, for instance, at National and Dulles and 
Atlanta, and there are others, there must be 15 or 20 that we 
are very close to hiring. And so we will have them on the site 
either before or on the very day or a few days after. We 
advertised for 81 airports and have had 10,500 applications.
    Mr. Rogers. Well, this is one item that we are going to 
keep a real close watch on. To me, it is utterly important that 
we have the intelligence that the nation has gathered in a 
usable place, i.e., the place where people board aircraft at 
every commercial airport in the nation. So this is what I am 
going to be keeping on you.
    Mr. Magaw. Yes, sir.
    Mr. Rogers. And perhaps we need to talk about this in a 
closed setting, and I understand that. But I just want youto 
know that this is one thing that the committee is going to take very 
seriously, getting that intelligence capability in the right place 
quickly, and then utilizing the intelligence we have to prevent certain 
people from boarding aircraft.
    Mr. Magaw. That is right.
    Mr. Rogers. And I know you share that same----
    Mr. Magaw. Yes, sir. Yes, sir, I do.
    Mr. Rogers. Mr. Sabo.
    Mr. Sabo. Thank you, Mr. Chairman.
    I am still trying to understand how this coordination is 
going to occur on February 17, and in the period until 
November, I think it is, when they all become federal 
employees.
    My understanding is you have received bids for the 
contracts that go into effect in February?
    Mr. Magaw. That is correct. The legal counsel is working 
with the existing contract holders that are now contracted to 
the airlines, for us to take those contracts over.
    Mr. Sabo. Are those contracts then simply extended with 
you----
    Mr. Magaw. It's----
    Mr. Sabo [continuing]. Rather than being new bids and new 
contracts?
    Mr. Magaw. It's a combination of both. If that contract is 
set up, there are, you know, 40 some major security firms, and 
then there are a lot of the small family operations--so the 
contracts differ a little bit.
    The fact is we will be paying for all of them as of the 
17th. And some of them are being renegotiated because there are 
additional requirements put on them now--on the 17th--that they 
do not have now because some of the airlines will not be doing 
some of the security that they are doing now, some of the 
checks that they are doing. So it is a mixed bag.
    The fact is, though, that every airport and the security 
people who work in that airport in those companies will have 
contracts that are paid for by the government, by TSA.
    Mr. Sabo. Okay. The story in the paper this morning 
indicated that the airlines, and this was in relationship to 
Dulles, will continue their existing contract.
    Mr. Magaw. Well, yes. There are some contracts around the 
country that are better left alone in terms of money. If you--
sometimes if you renegotiate them, you are at a much higher 
rate. We will just reimburse the airlines for that cost, but we 
will be there physically on that date overseeing everything 
that takes place.
    The money and how it is going to be paid, what we are 
trying to do is do it with reasonable economy because it is 
going to be a big ticket item. And so we will be paying for 
them.
    Now, also, as you mentioned, while we put this federal 
force in place, that federal force in some of these airports 
are going to start arriving fairly quickly after that, and it 
will be geared up to where they are arriving very fast. There 
are also some very good checkers, security people within those 
existing companies, and we want to--we want to recruit the very 
best ones. And if they can meet the requirements, we will 
certainly hire them. They should have the opportunity to do 
that.
    I am sure as you have gone through these lines you have 
seen some very, very good ones, and then others that you are 
not sure of. We will have that weeded out very quickly. But the 
ones who are good, we will--put them through the same training 
as the others do, so even though they have been on the job for 
awhile, we will bring them through our system.
    Mr. Sabo. Have any bids been let yet for the purchase of 
more baggage explosive detection equipment?
    Mr. Magaw. They are very close to being issued. I do not 
think they have been issued yet today, but they are very close 
to being issued.
    Mr. Sabo. I think that is one of your biggest challenges to 
get all of those in place by the end of the year. That is lots 
of equipment, and not something you buy off the shelf.
    Mr. Magaw. No, that is right, and that is a big concern. 
What we are trying to do is to look at the whole picture. There 
are two companies that are capable of producing the machines 
that are certified. There is one that has come very close to 
certification. If we just issue--well, let us say they can--the 
make about 100 a year. They can gear up for a few more. But 
even if they could each make 200 a year, that is only 600, sir, 
and we need almost 2,000.
    So what we are doing is trying to look at how we can take 
care of their property rights and at the same time expand the 
production to other major producers who--it is not a difficult 
machine to make in terms of putting it together. It is a matter 
of getting all the parts and the parts suppliers.
    But if we would just cut a contract with the three 
companies to do that, they go on making those machines, we will 
not get there. So what I wanted to do is, before we gave them 
contracts, is to make sure that we have the whole picture in 
sight so that we can meet these deadlines, and to keep them 
competitive and to get them to talk about their intellectual 
property rights, and give those to other producers.We want to 
hold the contracts. It is very close. It could have been issued this 
morning, I do not know.
    Mr. Sabo. As it relates to the money question we face, I 
assume that is probably one of the most capital-intensive parts 
of your budget. You need a supplemental for this year, and I am 
not sure what you are assuming for capital expense next year. 
If we are going to meet that goal, we not only have the expense 
of buying all that equipment, which has to be paid for, at 
least in this calendar year, not fiscal year, but also the 
expense of putting the machines in the airports, which is 
substantial.
    Mr. Magaw. That is right. Everything is----
    Mr. Sabo. And I assume that is going to have to be paid for 
too.
    Mr. Magaw. Everything----
    Mr. Sabo. I would think it is a huge capital expense 
before----
    Mr. Magaw. That is right.
    Mr. Sabo [continuing]. The end of the fiscal year.
    Mr. Magaw. Everything that we bring up would have best been 
done months ago. But what we are trying to do, again, four 
weeks ago this organization was just a white piece of paper, 
and so what we are trying to do is to make sure that we are--we 
are trying to send teams out now for each airport. What has to 
be done in order to--first of all, how many machines do they 
need for sure? Then, what has to be done in that airport to 
handle those machines? Does the floor have to be reenforced? 
These machines weigh tons. And do they have room for them? Do 
they have to move walls? What is that cost going to be?
    And then installation, there are a number of contracts, 
union rules and regulations in each of the airports, that we 
have to deal with in order to see how much it is going to cost 
us for construction, or installation. So all of those things 
are trying to be done simultaneously so that we can have that 
picture for you in 60 to 90 days, sir.
    Mr. Sabo. Good luck.
    Mr. Rogers. Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    Welcome to the committee, John.
    Mr. Magaw. Thank you, sir.
    Mr. Tiahrt. I have three things I would like to have you 
comment about.
    First, in air travel we want people to be safe when they 
travel in the air, but it is becoming an uncomfortable 
situation to get on an airplane. And I think there is 
technology out there that would help us for people who want to 
voluntarily submit themselves to a background check, to use 
some kind of a technology to let them have access to an express 
lane. I think it would help with the bottleneck that we have 
now getting people on the airplane, plus it would help with the 
costs that are associated with that, and once we have the 
nonrecurring cost of getting the technology in place.
    The second thing is the burden we put on the airports. This 
is a tremendous cost not only to airlines to implement new 
safety regulations, but also to the airports.
    Mr. Magaw. That is right.
    Mr. Tiahrt. Once we get this nonrecurring cost or 
investment of technology, we need to design a system that does 
not overburden the airports so that we have a disincentive for 
air travel by such high costs. So in constructing that system, 
I hope you will remember the cost effectiveness on long term on 
the effects of the airport.
    The third thing is general aviation in the smaller airports 
that concerns me. The unfortunate incident of the teenager who 
flew a Cessna 172 into the side of a building in Florida showed 
us that a Cessna 172 is not a very good weapon for a terrorist. 
I am not sure what the child's motivation was. I know he was 
troubled. But he broke an office window, he did some damage to 
an office, and killed himself, unfortunately, and destroyed an 
airplane. But it was not a September 11th type incident.
    Yet we have categorized some of these small airports and 
shut them down for a long period of time, and you even have 
some of these problems with security today. And I think we need 
to have sort of a thoughtful approach to the general aviation 
in these smaller airports so that we do not overburden them 
with security regulations that may be overkill.
    So I want people, again, to be safe. We do not want to have 
anybody misuse an aircraft regardless of the size, but I think 
it can be proportional.
    Would you comment, please?
    Mr. Magaw. Yes. On the general aviation, clearly we have to 
address that, a tragic situation. There is a lot of probably 
small things that we can do security-wise that will help those 
be safer. That is a topic which, at the same time all of these 
others are being taken up, we are trying to take that up and 
address it not only in the near term, but in the longer term. 
So we will be addressing that.
    The burden on the airports, we will watch that as we move 
along, and that is the same thing with the burden on the 
federal government. If we are not careful and use technology 
the way it should be used, there is no amount, a number of 
people that we would have to hire in order to do it. I mean, we 
could--you know, we could get to the point of 70 or 80 thousand 
people here. We are just not going to do that. Sotechnology is 
very important as we move along both for us and for the airport.
    I visited an airport last week, and have instructed all of 
our personnel to start visiting these airports, go directly to 
the airport manager, to the law enforcement entity, to the 
airlines there, sit down and listen to their concerns. Each 
airport is going to be somewhat different, and we want to make 
sure that we are coordinating with the airport and keeping in 
mind the burden.
    The special pass issue, the technology is there to do that 
now, the ability to do it. It is not as costly, nearly as 
costly, as the kind of things we are talking about. I would 
like to look at it for a little bit longer. I know it is used 
in a couple of places in Europe now.
    What they find is two or three things. If you put it next 
to the lines of the normal traffic, it becomes an us and them, 
the haves and the have nots. It also, in order to make it more 
workable in those areas, they have put it to a kind of an off 
place in the airport, and they find that the people are not 
using it. So there is a lot of things to look at.
    But even more important than that, what does that gain us 
to do that? Would you now not put their suit--I am not 
answering this question, I am just throwing it out. Would we 
not ask them to have their suitcase checked? Would we let them 
carry their handbags on the aircraft without them being 
checked? I am not willing to take that move at this point.
    The other thing is, for the long term, I want to look at 
it. The terrorist motto is revenge is best enjoyed, the soup of 
revenge is best enjoyed cold. They will wait seven, eight, ten 
years, and they will be in this system because they will come 
here clean. They will operate in a clean manner. And we will 
have to be very careful that we do not build a system that will 
later defeat us.
    So for all those reasons I would like a little more time to 
look at that. We are certainly not against it. Secretary Mineta 
has said that it is something worth looking at, and we will 
look at all of the pros and cons on that, sir.
    Mr. Rogers. Thank you.
    Mr. Pastor.
    Mr. Pastor. Good morning. A few minutes ago you talked 
about working with the airports in response to a question that 
Congressman Sabo had, that you did not know whether the floors 
had to be reenforced because you had these machines that 
weighed tons, and then you talked about the transition of the 
screening employees.
    You are going to visit the airports or have visited 
airports. What other steps have you taken? For example, I would 
think that as you implement the act and you talk about 
screeners and screening devices, 300-foot waivers, et cetera, 
that you need and should involve the airport operators.
    Mr. Magaw. Absolutely.
    Mr. Pastor. So in addition to visiting airports, what have 
you done in terms of involving the actual operators----
    Mr. Magaw. My first few days----
    Mr. Pastor. like the operator down in Sky Harbor. How is he 
involved with you in implementing this act?
    Mr. Magaw. On my first few days after being confirmed, we 
did have a telephonic conversation with 20 or so airport 
managers to kind of listen to what their concerns were. As a 
result of that, now we are going to continue trying to do that, 
myself and others, in a conversation every other Friday for a 
couple of hours.
    In the meantime, as I mentioned, we are having our interim 
federal supervisors move into all of those airports starting 
late next week, I believe.
    Mr. Pastor. How many would you--how many airports would you 
be able to cover----
    Mr. Magaw. We will cover all 429, sir.
    Mr. Pastor. Next week?
    Mr. Magaw. We have pulled them out of our ranks right now, 
the existing. When we--when we became TSA, approximately 1,500 
personnel from FAA were in the security area. They transfered 
to TSA.
    Mr. Pastor. Okay.
    Mr. Magaw. And so we are using a cadre of that personnel. I 
made a video tape talking to them. We are putting together a 
package of briefings for them, and within the next few days 
have them prepared to move to each of these airports.
    Mr. Pastor. So are these potential federal security 
directors?
    Mr. Magaw. No, they are not.
    Mr. Pastor. No.
    Mr. Magaw. They are the interim ones until we can get the 
permanent ones hired. And again, just in the last three or four 
weeks we have been able to advertise them. We have got 
something like--Korn Ferry has got something like 140 or 150 
people that, based on our job description, that they have 
selected for us to interview. We are doing those interviews 
every day, and we will get them in there one, two, three or 
four at a time, sometimes ten in a week or 15 in a week, so 
that we get this covered as quickly as we can.
    And once they move in and are briefed and their training 
takes place and their interface takes place, then the interim 
person will go back to the duties that they were performing now 
or some other duties in the restructuring of TSA.
    Mr. Pastor. Because of the deadlines the act has, I would 
hope that as much as you can and beyond visiting the airports 
and possibly having telephonecalls, that you actually develop 
working teams with your interim people and with your director to see 
how these machines are going to fit and how these screeners are going 
to occupy space, because the deadlines you have imposed on you are very 
difficult. And I would hope that you would develop a working 
relationship with the airport directors so that----
    Mr. Magaw. Absolutely.
    Mr. Pastor [continuing]. You will be able to meet the 
deadlines, at the same time do not have the costs that people 
are anticipating.
    Mr. Magaw. Can you imagine them sitting out there today 
knowing a lot of these things are going to take place, but we 
have not conferred with them yet? It is not lack of intent, it 
is because of just getting started. But we are going to have 
those interim managers in there within the next few days, and 
they will start this process. That would be one of their 
requirements, to oversee the screening process, the changes, 
and then make plans for how these other things are going to 
occur.
    Mr. Pastor. If you do not have the 30,000-40,000 federal 
employees who are going to be screeners, what is your plan 
going to be by November?
    Mr. Magaw. Well, the plan is we advertise these jobs, and 
as quick as we advertise them we have the procedures set up to 
do the background checks and do the training in regional areas, 
so they do not have to go very far for training.
    As they are moved into a particular airport, let's say we 
have a class of 30 that we are moving into the airport, we will 
identify 30, just using rough figures, 30 in the existing force 
that can meet the requirements, that are quality employees, get 
them trained locally and back into the force. So that is in 
general the way it will work.
    Mr. Pastor. My last question, Mr. Chairman.
    Will these employees be seen as second class employees or 
will they have all the rights of all federal employees? Meaning 
will they have whistle blower protection? Will they have all 
the health benefits? Will they be allowed to organize under 
Chapter 71 of U.S. Code, Title 5? Will you have equal 
employment protection, laws, and regulations that will cover 
these people?
    And you said you will also have a process that if they do 
not work out, you will be able to remove them as quickly as 
possible. Now, hopefully, these employees will enjoy all the 
rights to a good job and also to be able to protect themselves 
from the whims of some of the managers.
    Mr. Magaw. Yes. Well, that is a long question.
    Mr. Pastor. No, it is not a long question. Basically, the 
question is are they going to have all these rights that any 
federal employee enjoys? And are you going to make sure that 
those rights are prtected?
    Mr. Magaw. Based on the law that is written, you know, if 
they are nonperformers, I have the authority to remove them. My 
guess is that the Congress wanted us to do that so that we did 
not have systems that would protect nonperformers, or delay us. 
If we employ the whistle blower part of it, they can come in 
and stop that operation. So I do not think it was the intent to 
employ the whistle blower. But virtually every other benefit, 
you know, they are going to have retirement. They are going to 
have the training. They are going to have the locality pay. 
They are going to be paid on a scale with the rest of the 
market in that community. They are going to be very, very 
competitive. These jobs are going to be sought very quickly.
    In fact, the first thing we are going to get is complaints 
from city and state and some of the airlines that we are taking 
a lot of their good people away.
    So it is a--it is a good first class, first rate federal 
system, like all the other federal employees, with the 
exception of the in-depth whistle blower. All of my history has 
been fairness and rights to employees and I will continue that. 
But the full force of the whistle blower, they would not have.
    In terms of unionizing, that is still being discussed by 
the Secretary and the administration, and we will have to see 
how that goes.
    Mr. Pastor. Thank you, Mr. Chairman.
    Mr. Rogers. Ms. Granger.
    Ms. Granger. Yes. Thank you very much. I have a couple of 
questions of concern.
    With increased security and restrictions and additional 
equipment, I think everyone understand that this may increase 
costs, and I think the public is very aware that that may 
increase the time it takes to travel. I also think the public 
has been very patient through these changes. I am in airports 
all the time and they stand quietly and patiently, and go 
through the security, and those of us in Congress travel very 
frequently. Most of us go home every weekend.
    Mr. Magaw. Right.
    Ms. Granger. And during the district time, travel from one 
city to another. And I became more and more concerned about 
consistency. And we are willing to fund. However, just dollars 
poured in is not going to make it right.
    Mr. Magaw. That is right.
    Ms. Granger. Make it safe.
    Mr. Magaw. That is right.
    Ms. Granger. And we can put all the restrictions and rules 
we want to, but if those rules are not followed andconsistently 
followed, which they are not being from airport to airport, in fact, I 
do not think they are being followed consistently within the same 
airport from week to week.
    And the President has asked us all to be vigilant, and so I 
know that I have been vigilant. And when I see that there is a 
change, I will quietly, politely point out, and there is 
complete disagreement about what the rules are, when do you 
show your identification, when do you not.
    I am very concerned about that, so I want to know not only 
how intensive the training is, but also the follow up of those 
trained individuals.
    Mr. Magaw. All of those things that you have just described 
are occurring. They will not occur as we have some time to move 
this into position. The consistency is very, very important. 
That is why we are going to have a very--flat organization no 
levels. That director of the airport can pick up and talk to my 
office in a moment's notice.
    If, let us say, we decide something in San Francisco makes 
sense today, we are going to change something, we are going to 
adjust something. As soon as that is done every airport in the 
country, and those managers of the airports, our federal 
managers, will be advised so that you will have consistency 
across the board.
    You know, we are having people take their shoes off, and I 
want to make sure that that procedure is a reasonable one. And 
if we have somebody take their shoes off, should we not also 
have chairs and shoe horns. I mean, if somebody asks me to take 
my shoes off, I have an artificial hip and a bad knee, I cannot 
do it without sitting down. At the check points, when we have 
somebody examined or at their agreement be frisked, that should 
be closed. That should not be just two walls that people 
walking by can see that.
    So we are going to correct all of those things. In fact, 
your concerns about lines and people waiting, that patience is 
going to go away. It is starting to go away now. What we want 
to--in fact, what we have now is we have two companies 
assisting us. And, by the way for all the companies that are 
helping us, there are documents, legal documents set up that it 
is not going to gain their company in any way. So we have 
companies that are now helping us that handle--for instance, 
Disney. Nobody handles lines and crowds better than Disney. 
What can we learn from Disney that will help us improve these 
airports?
    Everything we look at we are trying to get the experts in 
the field to also confer with the government, and see how we 
can better do it. I agree with all your concerns.
    Mr. Rogers. But Mr. Magaw, you are not going to have a 
Mickey Mouse operation, though, are you?
    Mr. Magaw. No, sir. [Laughter.]
    No, sir. No, sir, not at all, not at all.
    Ms. Granger. Good. I hope that is absolutely true because 
it really is not happening right now.
    The other concern I have, and I had the opportunity to talk 
for several hours with an air traffic controller who has been 
in that position since October, and it was of great concern. 
And one of the concerns he had in talking to me was the 
cooperation with authorities. Now, as you said, the 
interaction, the shared information, not only shared 
information but what is the shared follow up?
    If there is a problem, then who takes control? If it is the 
local authorities, what kind of follow up is there, from place 
to place? And he gave an instance that I will not share right 
now, but it was of great concern. So that interaction with 
agencies is going to be absolutely necessary and work very 
quickly, and I think that is going to be something that we need 
to be very aware of. Because if there is, as you said, we are 
going to become lax again, that is not going to be helpful.
    Mr. Magaw. No.
    Ms. Granger. So I want us to really follow up and listen to 
those people that have been there.
    Mr. Magaw. Absolutely.
    Ms. Granger. I mean, they have been flying, they have been 
watching it. They say there is not consistency. For instance, 
from airline to airline and how they are treated, our air 
traffic controllers are treated. That should have been, to me, 
a pretty easy one. So I would certainly hope that we would work 
with that.
    And the last thing, when you are talking about this 
additional equipment, are you working with the airports? Are 
you working with the airlines?
    In other words, when you are going into an area, saying at 
an airport what is needed, who is giving you an answer? The 
airlines or the airport?
    Mr. Magaw. A combination of both. When I went to the Miami 
Airport last week, the airport manager met me. We talked for 
awhile. She is anxious to move forward with this. Then we met 
with the airlines representatives, and we walked through the 
whole process. They talked about how many machines they would 
need, what they were going to have to do to meet those needs.
    See, an airport like Miami is probably going to need 
another 50 or 60 machines, and of course, this takes personnel 
also. So we have to look at all of that. And we are doing that. 
Like I say, 30 days ago, you know, we hardly existed.
    Ms. Granger. My question though is not what you are doing. 
It is who gives the answer. I sat on an airport board, and I 
remember the concerns over and over and over concerningsecurity 
and other things that would come to the airport. It turned out it was 
not in the control of the airport, of course. It was in the control of 
the airlines. And I know that in airports often an airline comes in and 
puts in the way they want their services to be handled. So it is really 
under their control because it was their dollars. So I think it is very 
important who is answering those questions and who is giving you the 
information.
    Mr. Magaw. Well, with the federal manager there, you have 
not had that before. See, with the federal security manager 
there these things will be addressed right up front. They will 
work hip to hip with the airport manager, the law enforcement 
unit there, and the airlines to make sure that it is a smooth 
process.
    Mr. Rogers. Ms. Kilpatrick.
    Ms. Kilpatrick. Thank you, Mr. Chairman. Good morning, Mr. 
Magaw.
    Mr. Magaw. Good morning.
    Ms. Kilpatrick. I'll look forward to working with you.
    You mentioned earlier that all baggage is now being 
screened, and if so, the machines that were mentioned before--
the congresswoman just mentioned--do we have all baggers on 
line now to check all screened baggage, or is there some other 
method you are using?
    Mr. Magaw. There are only--there are less than 170 
functioning machines out there today, so not all baggage is run 
through an EDS machine, explosive detection machine. But all 
bags on originating flights, and I have to be very careful here 
because I do not want any misunderstanding.
    If I am going from San Francisco nonstop to Chicago, all 
that baggage from San Francisco is being examined. It is being 
examined either by an EDS machine or by dogs or it is being 
done by a hand search or it is being done by what they call a 
swatch.
    Ms. Kilpatrick. We have seen those.
    Mr. Magaw. Okay.
    Ms. Kilpatrick. We fly twice a week.
    Mr. Magaw. So it is being done by at least one of those and 
sometimes two. There is also a baggage match.
    Now, if you are going from San Francisco to Washington, 
D.C. via Chicago, and there is a plane change in Chicago and 
your bag is moved to a connecting flight, the baggage at this 
time is not being checked from Chicago to Dulles. It is a very 
difficult, much more difficult job to do that because coming 
off of an airplane that pulls into Chicago may be 15 or 16 
connections. Some of them may be with other airlines, and a lot 
of them are, and their systems do not talk to each other.
    So to get the baggage match done in time with a date 
certain that you gave us, we did it on originating. We are 
about to start, and have had the agreement from the airlines to 
start, a pilot project on how we--how we do this in terms of 
the connection.
    Ms. Kilpatrick. Okay, let me just stop you there because I 
know the Chairman is going to--thank you. Thank you very much 
for that. I know it is an awesome responsibility and the 
deadlines that the law now gives you, you are attempting to 
meet them. I can see that just by your testimony this morning, 
and we appreciate that.
    You mentioned the airport managers, the airlines and the 
law enforcement people who are the team. The missing piece is 
the concessions, the concessionaires who are almost out of 
business across America since September 11th. I know now--you 
know, I do not have the answer, but as you put this together, 
and I know you need to come back before the committee and we 
will be working with you closely, right now two-thirds of the 
people who come to the airport, at least before September 11th, 
were not flying. They were either bringing somebody, seeing 
someone off, and in those instances they used the various 
concessions across America.
    The Association of Concessions has been in my office a 
couple of times asking for relief. The only relief I can see 
down the line after you get your primary responsibilities set 
up is that those people be allowed to come into the facility as 
well, at some point going through the screening, which means 
you will have to have more manpower or whatever you have to 
have in order to save that industry, and you know, I do not 
care what airport you go in in America all concessionaires are 
really being devastated. Their mortgages, their rent payments, 
all that is going on, but their revenue has been decreased, in 
many instances two-thirds of what they were making prior to 
September 11th.
    I would like to work with you to see how we can help in 
that regard, if anything can be done. Otherwise, many of those 
businesses will be out of business, many people will be out of 
work.
    Any thoughts or is this so overwhelming right now that we 
have not really gotten to that?
    Mr. Magaw. I am aware of the problem. It has been made 
aware to me, not quite in the detail that you have made it.
    My reaction to anything like that is let us work with it. 
There has to be a way that will make it better and still be 
secure. And so we will be working with you.
    Ms. Kilpatrick. Okay. And finally, Mr. Chairman, just 
please, my last thing would be on--well, maybe I will hold that 
one for next time.
    Thank you, Mr. Magaw. Thank you, Mr. Chairman.
    Mr. Rogers. Ms. Emerson.
    Ms. Emerson. Thanks, Mr. Chairman. Thank you, Mr. Magaw, 
for being here, and thank you for the dedication that you have 
given to this job which is probably the toughest in the country 
right now.
    I have got a couple of questions I want to ask. The first 
one has to do with smaller airports, particularly the one like 
mine in Cape Girardeau, Missouri where I live. We probably have 
three, four, maybe five flights in and out a day, and my 
concern is that we do not overburden that airport with those 
few flights a day with so much that they are not going to be 
able to stay in business.
    Can you just address that issue for me a little bit?
    Mr. Magaw. That is very important to me to include the 300-
foot parking rule, which sometimes puts them clear outside the 
parking area. What can we do to--it is common sense and good 
judgment that we are going to be trying to apply here. And with 
the federal force you can generally do that fairly quickly once 
you get them on and get them properly briefed and trained. So 
every airport is going to be treated, you know, as an 
individual airport.
    If we need one machine there or we need to do something at 
the airport--at the parking lot, we are going to work very 
closely with them not to overwhelm them. And I realize that, 
you know, being an ATF, that is a regulatory agency, regulating 
industry. And so we want to make sure that we do not 
overburden, and those will be kept in mind on virtually every 
issue.
    Ms. Emerson. Okay. Yes, because, you know, with 300-foot 
rule, we are parking on the grass now.
    Mr. Magaw. That is right. That is right.
    Ms. Emerson. And so it is--that is--it is a point I hear 
more about from my constituents----
    Mr. Magaw. Sure.
    Ms. Emerson [continuing]. As you can well imagine.
    If I can go back to some of the other questions that were 
asked having to do with airports and the airport managers who 
currently run airports all over the country, and their 
involvement with you in trying to formulate the best plans, and 
I appreciate how much you have to do in such a short amount of 
time.
    But it concerns me that perhaps, and I have heard from some 
that were not involving the airport managers enough in making 
decisions because lots of time we forget on the federal level 
that people down at the local level know best about how to----
    Mr. Magaw. Absolutely.
    Ms. Emerson [continuing]. Make things function. And while I 
appreciate your having conference calls, I wonder if your 
intentions are to go beyond the conference call at least as far 
as involving these folks in the total--in making the situation 
at their particular airport work most efficiently.
    Mr. Magaw. One of the--one of the mottos that we have 
adopted is that we want to think and plan locally, coordinate 
nationally. So as soon as that interim manager gets on board at 
that airport within 10 days, then followed by the airport 
manager or director of security, these kinds of things will 
virtually go away because if it is still happening then I need 
to get a new airport director.
    Ms. Emerson. Okay.
    Mr. Magaw. So I would be--just very shortly those are going 
to go.
    Absolutely, the people who can solve the problem the best 
are the people who are there doing the work, and that is the 
approach we are going to take.
    Ms. Emerson. Okay, I appreciate that. Thank you. And then 
one last question.
    Because I am concerned as one who represents probably the 
biggest part of the Mississippi River in my congressional 
district, I am concerned about funds for other modes of 
transportation. And how much--because I have not looked at--
probably it is my fault, I should not be even asking you this 
question, but how much of your budget request will be for other 
modes of transportation, whether it be barge or rail or buses?
    Mr. Magaw. Let me talk about the ports for a minute.
    Ms. Emerson. Okay.
    Mr. Magaw. Seaports. We have been given $93 million, just 
short of $93 million. There are about 341 ports in the country. 
We are going to issue grants in a very short period of time to 
those ports, and give them an overlay of the kinds of security 
things that we would want to make sure they considered along 
with their input. And it will not take near the $93 million to 
do that. And so we also want to then give them money to start 
buying the alarms, the bio equipment and things like that. So 
that is just the seaports.
    In terms of rail, in terms of trucking, in terms of buses, 
at the highest level of the organization you will see that we 
are going to have people who have backgrounds in those areas on 
my immediate staff, watching out for that throughout the 
country. We are going to have somebody who also has a rail 
background, a different person who has a trucking background, 
and we are hoping to recruit somebody who has a commercial bus 
background. So that every day as we are making decisions none 
of those entities are forgotten, at least it is put in some 
kind of priority.
    Ms. Emerson. Do you think you will have enough money for 
all of that?
    Mr. Magaw. Well, you know, the President has said that I 
certainly have to do all those things in what we arelooking at 
for this year or next year. But the President has said that, you know, 
the money will be there to do these kinds of things, and I take that at 
face value.
    Ms. Emerson. Thank you. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman, and welcome, Mr. 
Secretary.
    Let me just pick up on Ms. Emerson's comments. We have been 
talking about airports, so I did not hear anything about rail 
before. Will you be expanding your authority and does the law 
mandate that you also look at other areas?
    Mr. Magaw. The law, the Aviation and Transportation 
Security Act of 2001, does give us the authority for security 
of rail and all kinds of transportation, so whether it be a bus 
or a train or an airport or a dock, a deep sea port, whatever, 
we do have the responsibility.
    Now, there is a bill up here on the Hill, as you know, I am 
not sure who it is sponsored by, I think Senator Hollings is 
one of them, it was passed by the Senate, I believe it is now 
in the House--that talks about port security and cruise ship 
security and those kinds of things.
    The way the early writing of that is, is that it would give 
that responsibility to TSA, so we will have to see how you 
decide as it comes off the Hill.
    Mr. Serrano. But at present, is there something being done 
with rail service? Because I know that there are no added 
security visible with Amtrak, for instance.
    Mr. Magaw. Again, that is why I am trying to hire somebody 
at the highest levels. In fact, I just--on my desk this morning 
were two recommendations from the railroad companies as people 
that we could interview that knew well the railroad and the 
railroad problems and they have a security background. So I 
have to get personnel on my highest level of staff and then it 
has to filter down through the organization.
    Mr. Serrano. So the answer is that eventually you will be 
seeing all modes of transportation.
    Mr. Magaw. Absolutely.
    Mr. Serrano. Also, I understand that the law requires for 
you also to act on what we call non-passenger cargo, such as 
FedEx and UPS and so on.
    What are we doing in that direction and what are your 
concerns?
    Mr. Magaw. Well, my concerns are that cargo is being not 
examined in the depth that you or this country would expect 
that it would be under the circumstances. It is not, though, 
not doing anything. For instance, in your cargo area, if you 
want to put some kind of cargo on an aircraft, whether it be a 
cargo aircraft or whether it be a multiple type, which would be 
cargo and passengers, there are procedures in place.
    In talking to the Inspector General and others, they have 
tried to subvert that over the last few months and get cargo 
screened. They have not been successful one time. So that gives 
me a little bit of early observation.
    In talking yesterday with some of the airline executives, 
FedEx and others, they have some specific concerns that I would 
want to talk about in a classified briefing. They have given us 
some pretty good ideas of how they could close those loops, 
potential loops, and we are going to be working very closely 
with them to take those recommendations and see how we can make 
that better within reason and we will keep this committee 
advised as we go along.
    Mr. Serrano. Thank you. Let me clarify something for my 
information. You will be hiring directly these 40,000-plus 
folks or you will be contracting out to folks who then will 
hire these folks?
    Mr. Magaw. We will have the job descriptions written and 
then we will contract it out. We have identified good training 
companies all over the country. We will be able to give them 
the training packet as to how it is to be done and make sure 
that they are complying with that so it is consistent around 
the country, keeping it in regions, using some community 
colleges and other places to get the training done in a 
reasonable time and with consistency.
    Mr. Serrano. I am sure, Mr. Secretary, that you are trying 
to do the right thing. Let me just close by making a comment to 
you which if not fully understood some people may think is 
tacky at this moment of this national crises, but when my city 
was hit and the World Trade Centers came down, those terrorists 
did not single out one group or another, they hit all Americans 
and all visitors and you see what our country is like when you 
see the list of those who are missing and those who died.
    I imagine if you were to put a camera on the battlefields 
right now of where we are you would see the diversity that is 
America in those troops. I hope when we move to the next step 
of security that those employment opportunities and assignments 
also reflect what America looks like.
    Mr. Magaw. If I could just comment for a moment, because 
that is a very important issue to me. In my years on the 
highway patrol in Ohio, we did not have one female, we did not 
have one African-American, we did not have one Asian. When I 
left there, we just received the first African-American.
    All during my years at the Secret Service, we had trouble 
getting them to the high policy level. ATF had that problem 
when I went there. We had a lawsuit that we settledand now you 
look at ATF and you will see that.
    This organization, this is the one advantage I have because 
I can start from the top down. This organization is going to 
look like America and if they sat around this table, they will 
look like America and I guarantee you that it will go through 
the whole organization. If you start there, it will go through. 
It has been hard coming up. That will not happen here.
    Mr. Serrano. Well, I thank you so much. That is a very nice 
thing to say and I know you will follow up on it.
    Thank you, Mr. Chairman.

                           REGIONAL STRUCTURE

    Mr. Rogers. When I hear you talk about regionalizing the 
organization, bells go off in my head because my former chore, 
as Mr. Serrano has now, on the Commerce, Justice, State 
subcommittee, is overseeing INS. We do not want your 
organization to look like the INS. We want it to look like 
America, but not the INS organization.
    Are you in any way remotely familiar with INS?
    Mr. Magaw. Yes, I am.
    Mr. Rogers. And is that one you will steer away from, that 
problem?
    Mr. Magaw. We are not going to regionalize at all in terms 
of our structure. The regionalization will only be to help 
recruit so that people do not have to pull their families up 
and move some place for both training and their assignment.
    Mr. Rogers. But you will retain the authority to make this 
organization uniform and responsive nationwide, will you not?
    Mr. Magaw. That is right. Because I will go directly to the 
airport director and all of our assets for that particular 
airport, whether it is air marshals or whether it is the 
investigators or the undercover agents or the person who backs 
up the checkers or the checkers, they will all be under that 
individual person who can come direct to my office.
    Mr. Rogers. And will you have the authority to fire anybody 
like that who does not obey orders?
    Mr. Magaw. You have given me that right in the law and that 
came up a little bit earlier. You have given me that authority 
and I will exercise it.
    Mr. Rogers. Well, that is one thing I want to be sure, that 
we are not creating another INS type organization, which is the 
worst in the whole government.
    Mr. Sweeney.
    Mr. Sweeney. Thank you, Mr. Chairman.
    Welcome, Under Secretary Magaw. I recognize, we all 
recognize the great challenge that you have and, as you said, 
30 days ago this was an agency that barely existed. So I think 
in your subsequent testimony, April 17th, when you are next 
scheduled, there will be more defined questions and we will 
look for more definitive answers. And what I would ask in 
preparation for that is you and your folks work with us, we 
work at developing as best standards of performance evaluation 
that we can on all of the myriad challenges that you are 
facing, issues that you face, so there are really in that 
subsequent appearance some more definitive opportunities for us 
to explore what challenges we all face and what you in 
particular face.
    I have one area that relates to a company in my district 
and I would like some clarity from you. I am concerned about 
the interactions between the department and the various 
existing airport security companies, how we are going to 
utilize them. I understand that all are going to stay under 
contract or most are going to stay under contract until 
November.
    Command Security happens to be one of those companies that 
happens to be in my district, so you will understand my 
particular interest here. It is domestically owned and my 
question fundamentally begins with will each of the companies 
be dealt with individually or separately? There are other 
companies that exist out there, many of them rather infamous at 
this point in time, who have lesser records that this 
particular company and some others that exist.
    After November, what happens with the expertise that these 
companies have developed? What happens? How do they fit in the 
system or will they fit into a system at all?
    And, in the meantime, what procedures are you going to use 
with these companies to award the contracts at the five test 
airports that are called for?
    And, finally, will domestic companies be treated any 
differently--or will foreign-held companies be treated any 
differently than domestic companies? Will there be preferences 
for domestic companies?
    And I ask this because the point has been raised--some of 
those who run some of those security firms are very successful, 
have very successful security records, they are feeling as 
though this is a government taking and the principles of 
eminent domain ought to be applied here and I am also concerned 
that maybe what we are doing is we are throwing the baby out 
with the bath water, where in that process going to lose some 
real quality expertise that could be used and help you expedite 
the challenge that you have before you.
    Mr. Magaw. Congressman, we plan to use every bit of 
qualified expertise that is out there right now. Yes, once the 
federal force comes in, once they are all trained and 
everything, the company responsibility and that contract will 
go away, but the people do not have to go away. If there are 
people within the company that qualify to come on and 
becertified and become supervisors of the federal screening force, we 
are going to give them every opportunity to meet that requirement. But 
the contract with the company will go away as soon as we get the 
federal force in there. That is the direction I have in this law.
    Mr. Sweeney. How will you deal with the individual 
companies? And I'll give you a specific example, the 
Argenbright firm versus a Command Security firm, there is a 
great disparity in their records.
    Mr. Magaw. Hugely different. We will come in, look at what 
they are doing, the federal manager will come in and look at 
what they are doing. If things are being done very, very well, 
then some of those ideas will be put into the national plan and 
every person that they have working for them and with them at 
the time will be screened for possible federal employment. So 
that is about the only way I can answer that question.
    Mr. Sweeney. If I could, I would like to just direct this 
through you to your colleagues from the department and we 
request for this particular firm and others the opportunity to 
come in and talk about the transition period and the post-
November period and if that opportunity could be afforded, I 
would appreciate it.
    Finally, I will just say this. I think there are going to 
be a lot of modifications and I think the fiscal constraints 
especially over time that you are going to face and we are 
going to face in this committee are going to be tremendous and 
I think there will be modifications to the underlying bill and 
one of the notions I had, I am hesitant to go in this area, 
just because I know that the chairman, as he mentioned, the red 
flags went off when anyone talked about regionalization because 
of some past experiences with the INS and other agencies, the 
idea of hiring interior managers for every airport in the 
nation seems to be a little bit duplicative.
    I know in my region, for example, there are three airports 
that probably all have similar experiences, similar challenges 
in terms of security and the notion that you hire a U.S. 
Marshal-like figure to really oversee the security of those may 
save money and that may be something we find appropriate later 
on.
    Have you had thoughts about that? And maybe you could 
comment on the need for flexibility or the lack thereof. I know 
there is some flexibility in the law for you and where would 
you recommend we look next?
    Mr. Magaw. What we are going to do is, when these internal 
managers are out there, if you have an airport that has four or 
five flights a day and you have an airport close by that has 
the same number, can we do that with one manager?
    I believe the answer is yes, but I would want to bring that 
back to this chairman because as the law is set, I think it was 
the intention that you would have one at each place and I would 
want to make sure it is clear that, yes, you have an airport 
manager for this airport and this airport, but they are one and 
the same. And so I would want to work that through. And we will 
be able to resolve that, I think, or at least get to the 
discussion phase, when these interim people go in here in a few 
days and work with that.
    Mr. Rogers. Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman. I want to apologize, 
the committee on which I am ranking member is meeting as we 
speak and I needed to be there for a least a portion of that 
and I will be going back shortly. I had intended, actually, to 
sit quietly and listen to what others were saying, but that 
only lasts for a very short period of time. I have now heard 
what some others have been saying and so I do have a couple of 
comments to make.
    To you, Mr. Magaw, you have a big job and you have made a 
commitment to make your organization look like America from top 
to bottom. That is something that you cannot hide from because 
one of these times you will be here with six or eight of your 
management people and it will become obvious how you have 
worked on that. So I am grateful for your commitment on that 
matter.
    The Secretary of Transportation recently--I am going to 
comment mostly on non-air things, I guess, because I suspect 
those have been covered rather well here. The secretary had 
given you the charge, to focus mainly on aviation and so I am 
sort of curious at this point, recognizing that you are new and 
your full management team is not in place and following up a 
law that is less than 60 days old, how much of your effort has 
been on the aviation side up to now? Just as a kind of a 
benchmark.
    Mr. Magaw. Well, a lot of my work up until now has been 
building and growing and maintaining a structure and writing 
job description for these directors. But I would guess you 
would say 75 percent, but it is clear--and the secretary was 
very clear when we interviewed for this job that he wanted to 
make sure that in light of all of the attention on aviation 
that we were paying attention to the maritime, that we were 
paying attention to the railroad and all of that.
    And in transportation, we have administrators for each one 
of those areas and in my organization I am hiring people at the 
top level that have expertise in each area. So we are going to 
pay attention to it as we move along.
    Mr. Olver. Okay. Well, I am actually gratified to hear that 
it is 75 percent of your time. There is not much getting out in 
the public awareness that there is much going on other than in 
air transportation. Of course, 9/11 had an enormousand profound 
effect upon the whole travel and hospitality industry all over the 
country, it was not just the devastating effect in Boston and New York 
and Washington that we have seen, but a very, very profound effect on 
the whole of that industry. And we have rightly spent a good deal of 
effort on that.
    At the same time, my guess is if there are cells out there 
that are trying to create the next major problem for the U.S., 
seeing what a profound effect it had on our economy and 
employment and so on, that it is not likely to be in the air 
area where so much effort has been put down. I mean, where 
would one disrupt the transportation system without a major 
loss of life?
    Well, it probably would be something like the bridge and 
tunnel crossings of the Hudson River and you might attack a 
couple of places at once, the San Francisco area, the Bay area 
and so on. That would have a tremendous effect.
    On the other hand, probably the most profound effect upon 
the American psyche would be attacks upon something like a 
train or subway system, transfer points where there are a huge 
number of people going quickly from one place to another in 
transfers. Lives would be much more at risk than from an attack 
upon a tunnel directly or bridge crossings and so forth.
    And so those issues of the bus systems at major transfer 
points, our subway systems and our train stations, I think we 
need to get at those pretty quickly and, of course, ports are a 
little bit different, from these other things that I mentioned.
    Mr. Magaw. You are right on mark and the ports are 
important not only because of the ports but also because of the 
cruise ships. So we really have to get at every area that you 
have discussed. You have hit it right on the head.
    Mr. Rogers. Thank you.
    Mr. Wolf. Chairman Wolf. My predecessor in this chair.
    Mr. Wolf. Thank you, Mr. Chairman.
    Mr. Magaw, welcome. You just seem to be a glutton for 
punishment. We go from point to point in all these tough jobs, 
but I think you are a good appointment and I welcome you and 
wish you well and I know the chairman and the committee will 
work with you.
    I have two questions and if they have been asked then 
somebody can just tell me and we will just look at the record.
    One, Mr. Rogers and I worked together and we put language 
in last year mandating that the airlines, Kuwaiti airlines, 
Saudi airlines, share the manifest with us before. What is the 
status of that? Is that now being done? Do the Saudis currently 
give you the manifest and do you have it now?
    Mr. Magaw. I will have to answer that question specifically 
on Saudi because----
    Mr. Wolf. Well, the Saudi, Kuwaiti, everyone should be 
complying.
    Mr. Magaw. Most of them are. About 83 or 85 percent are. 
There are a few airlines that do not have the technical 
capability to do that and we are working that with Customs. In 
fact, it is probably more near 90 percent. We are working with 
Customs now to try to figure out how we can help those who do 
not have the technical capability, the information systems, how 
we can work with them to meet that requirement. We are not 100 
percent there, but we are fairly close.
    Mr. Wolf. What airlines are not complying?
    Mr. Magaw. I would have to get that list for you.
    Mr. Wolf. If you could share that with us for the record, 
because, you know, the Saudis did not want to do it and if they 
are not complying at a certain point I do not believe that we 
should allow them to land.
    Mr. Magaw. I think the only ones that are not complying now 
are those that do not have the technology and the Saudis have 
the technology, but let me make sure I get that answer back to 
you. We are very close to being 100 percent.
    Mr. Wolf. Okay. Secondly, is all the information being 
shared now with--are your computers tied in with the FBI and 
INS with regard to if somebody in a consular's division over in 
whatever country is picking up something, they notify the FBI, 
are you being notified?
    Mr. Magaw. Yes.
    Mr. Wolf. You are now part of that link?
    Mr. Magaw. We are not part of the link yet because I do not 
even have the machines and the systems, but we will be. And I 
get a briefing every morning, I participate with the secretary 
on the CIA briefing and others. There is a good intelligence 
unit within FAA that will be coming to this unit. There is a 
very good intelligence unit in the Coast Guard.
    So I want to make sure that I do not create another entity 
here, I want to make sure that when we form this that we have 
somebody at the head of this organization that can walk in to 
the head of every intelligence agency in the country and be 
received as one who is totally qualified and understands so 
that we have that free flow.
    The airport directors, when they are in place, we are going 
to put direct secure lines to them so that we can communicate 
with them on a moment's notice.
    We will get to where you are talking about as TSA. As TSA 
we are not there yet, but we are there yet in terms of me 
knowing----
    Mr. Wolf. And you have not seen anybody notcooperating in 
the federal government, law enforcement?
    Mr. Magaw. No, in fact, I went to--we have asked the CIA, 
we have asked the FBI, we have asked NSA and the White House to 
give us recommendations of who they think should head this 
unit.
    Mr. Wolf. Okay. And the last question is there were stories 
that the FAA and some of the airport security people were 
sharing pictures of the FAA teams in order so that the airport 
would have a very high rating. In essence, the FAA had a team 
that would try to breach security. Some of the airports were 
sharing the pictures of those people on the team so that they 
would be apprehended and the airport would have a good record.
    If you find that taking place, what are you going to do 
about that? What should an airport operator know, that if they 
do that and share the pictures of anybody?
    Mr. Magaw. I would discharge them for an offense like that.
    Mr. Wolf. No, but what if it is a private operator who 
wants to show that his or her airport is doing very well in 
screening and therefore they are letting people know at 
security that this person is going to try to breach it, this 
person is going to try to breach it, and you are trying to do 
it to find out if the system is working? What will you do to an 
airport that you find is doing that?
    Mr. Magaw. I would make every effort in this transition 
time to replace that company with another company.
    Mr. Wolf. But not only the company, at times, it was 
actually the airport. It was actually the airport. At Dulles 
Airport, they were circulating pictures of the FAA team that 
was trying to breach security to see if it worked. They had the 
person's picture up so that the security people were able to 
say, okay, I see this person. Then they shut that person out 
and their ratings look very, very high.
    If you find that any airport authority is doing that, what 
would your intentions be?
    Mr. Magaw. Well, my intention would be to have it 
discontinued immediately and I would have to look at what laws 
you have given me that I could--if there is a violation of law, 
I would certainly charge them.
    The other thing, and I have talked to the Inspector General 
about that, he has teams that rotate all the time, different 
people on different teams and they rotate all the time going to 
these airports and I have encouraged him to continue.
    Mr. Wolf. Are you going to have a team doing that, too?
    Mr. Magaw. I will have to discuss that with the Inspector 
General. I could have.
    Mr. Wolf. But does not every law enforcement--I mean, the 
police department usually has a division to make sure that 
things are working, the FBI has an Office of Professional 
Responsibility. Are you not going to have a group to make sure 
that the system is working and it cannot be breached?
    Mr. Magaw. No, I will have an office of inspection and we 
will try to make sure we coordinate with the IG so that if they 
are doing certain airports we will do other ones so that there 
is----
    Mr. Wolf. I would hope and encourage you to do that because 
that was part of the problem at the FAA, I think, in the past. 
They really did not want to show that there was a problem and 
therefore they were not--so I think you should try to breach 
your system as much as you possibly can to find out if there is 
a problem and I would hope that you would have an office that 
would have that responsibility.
    Mr. Magaw. The airport directors also--the new federal 
airport directors are going to have the authority, too, to call 
in teams and take a look. We will do those kinds of things that 
you are talking about.
    Mr. Wolf. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    We have two votes on the floor back to back and so I am 
going to declare a recess here for 10 or 15 minutes at least. 
Immediately after the second vote we will resume the hearing. 
And we will try to conclude near the noontime hour. So we will 
stand in recess briefly.
    [Recess.]
    Mr. Rogers. The committee will be in order.
    We will conclude the session very soon. I appreciate the 
fact that you are here during the lunch hour and I apologize 
for the delay that we just had with the votes on the floor.

                      EXPLOSIVE DETECTION SYSTEMS

    Back briefly to the explosive detection systems. This is 
going to cost a huge amount of money (a) to acquire the 
machines and (b) to rearrange airports at great expense. I 
assume that in the final analysis, at our expense. At any rate, 
we are talking about billions of dollars, are we not?
    Mr. Magaw. Yes, sir. We are. The installation is going to 
be fairly expensive, too, even after the walls are removed.
    Mr. Rogers. Yes. I live with the fear that we are going to 
spend these billions of dollars and rearrange every airport in 
the country at great expense, to them and to us, and then when 
we get all this done we will discover that there is a much 
simpler, cheaper way to detect bombs in luggage. And we will 
ask why did we not think about this before we disrupted the 
whole system?
    Is that something I should worry about?
    Mr. Magaw. Well, it is certainly something I am worried 
about and going to pay attention to and will keep you advised 
on, Mr. Chairman. That is one of the reasons we are taking a 
look at this whole package. These machines can cost up to 
almost a million dollars. If we are going to buy these and 
there is going to be a larger group producing them, can we not 
get that price down some? And along with that where is the next 
technology? There has to be the next technology somewhere and 
if it is three or four years down the road, that is one thing. 
If it is six months or a year down the road, that is a totally 
different item.
    So as we mentioned in our conversation yesterday, I am 
reaching out to hire some of the best engineers that I can 
find, those that have been in the private sector and those that 
have been in the public sector so that we make sure that 
somebody every day is constantly watching this for me and 
making those kinds of judgments.
    Plus, as you talked about yesterday, and it is so important 
to us, what technology is out there? Are we listening to 
everybody? Is there somebody out there that has technology that 
has not had the funds to bring it forward?
    We need to look at all of that and we do have a group that 
are receiving all of the inquiries, looking at them. If they 
make some kind of sense or are something we possibly could use, 
then we are asking the people to come in and present it to us.
    So we are trying to do the very best job that we can, also 
interfacing with other entities in government and the private 
sector to make sure there is not being something done out there 
that we would miss.
    Mr. Rogers. Well, I just have to believe in this 
technological age in which we are now involved that there has 
got to be a much simpler, less expensive way to do what we need 
to do. And I would hope that your folks would be out there 
searching every angle, every nook and cranny of the 
technological world to find this.
    I know last year, the subcommittee looked at the Rome 
airport. They have done a masterful remodeling job based around 
security. This was before 9/11, obviously, and they have done a 
huge job, but down underneath, in the basement where all the 
baggage goes, it is a maze of computer-driven carrier belts 
that route a particular piece of luggage any number of ways.
    But in the security aspect, they have the machines that we 
are talking about, the L-3 in-line, but they first run all 
baggage through a regular X-ray machine, and only if they are 
still unsure about something does that bag go to the more 
complex CAT scan machines, which we are talking about here. And 
they do not need as many CAT scan machines, therefore, at 
greatly reduced cost and space requirements. Is that a 
possibility?
    Mr. Magaw. Well, we are going to look at that, every 
possibility that we can find. The backscatter technology that 
is out now, it just seems--we are using it on the borders in a 
couple of places and it really--very quickly, when you look at 
it, it tells you what is there, it is so clear that very seldom 
has any----
    Mr. Rogers. Well, I am just going to say this. It is not 
humanly possible for you to acquire the 2000 machines that we 
need by the deadline. That is not going to happen. It is 
humanly impossible for these two companies, even if they 
outsource or whatever, to get that many machines made and in 
place by the deadline.
    And so we are looking for alternatives. And I just want to 
tell you, unless I am assured that you have checked every nook 
and cranny for alternatives to building these huge, expensive 
machines, we may be hard to get along with. And I have just got 
to believe out there somewhere that there is an answer to this 
problem. You have a deadline to meet and we are going to insist 
upon the deadline. You had better be looking for other ways, 
because you are not going to get there on this route, and I 
think you know that.
    You cannot admit it to me, but I think you know that.

                       BUDGET REQUEST FOR FY 2003

    And that brings me to the budget request. We appropriated 
$2.3 billion for TSA or the FAA in '02. You are requesting for 
next year, '03, $4.8 billion. I think it is very unlikely that 
the combined amounts of '02 and '03, will be enough to meet the 
mandated deadlines that we have laid before you, unless you 
find some way around this big machine problem.
    The IG estimates that the cost to acquire and install these 
systems could cost about $4.8 billion, $2.5 billion for 
acquisition and $2.3 for installation. I think those are 
conservative numbers.
    Operating costs in '02 alone are estimated at $2.2 billion, 
bringing the screening costs to therefore $7 billion. That does 
not include sky marshals, management, security improvements on 
other modes of transportation. So you have a huge shortfall in 
the making.
    The budget request is far short of what will be needed 
unless we change course here somehow, but the department has 
been silent on how much you are going to need to meet these 
deadlines or when you are going to get to where you can tell us 
what the amount is going to be.
    Any request after April 1st is not going to give us 
adequate time to review it--after the middle of April--so we 
are going to need from you some detail on how you plan to use 
this $4.8 billion, and how far short that is going to fall in 
the real world.
    Other committees can deal with ideas and with platitudes. 
We have to deal with everyday existence. We have to pay the 
bills and we cannot pay them unless we know what the bills are 
and what they are being used for.
    So I just plead with you to get that information to us as 
quickly as you can so that we have time to digest it, run it 
through the machinery that it has to go through before we can 
make a decision on it. Is that a fair request?
    Mr. Magaw. Yes, sir.

                                CAPPS II

    Mr. Rogers. Mr. Magaw, it is very obvious that the airline-
developed CAPPS system did not work very well last year. No 
surprise, really, looking back at it. On that day, 19 
terrorists got by the CAPPS system and were allowed on 
aircraft, even though some of them had known contacts with 
other terrorists and others were on expired visas. One of them 
at least had a stolen identity. So the system broke down, what 
system we had.
    If at that time we had homogenized profiling data from the 
FBI, the INS, other agencies' databases, and that information 
had been available to whomever screened people onto the plane, 
we very well may have prevented that disaster. And so that is 
where I want us to focus our attention, a better CAPPS system.
    I do not know whether that should be done by the airlines 
or in conjunction with your agency or just how. My guess is 
that we will not get these agencies to share this kind of data 
with anything other than a very secure governmental agency, 
i.e., yours.
    My question is how will that information, when you get it, 
be practically applied on the ground to prevent another 9/11?
    Mr. Magaw. Two areas, Mr. Chairman. There is technology out 
there now that when we ran the names of the 19 it kicked out 17 
or 18 of them. So that technology is there. And we are going to 
be working with all the other federal agencies to try to get 
that technology, not in duplication, but shared by all. We are 
using some of our research funds to do that as we speak and I 
will be able to update you on that as we move along. But your 
thoughts are exactly right, there is so much information out 
there, properly handled with meeting all the guidelines for the 
safety and freedom of the American public that we can do a much 
better job in this area.
    Mr. Rogers. Well, I agree and I want to be kept up to date 
on that as we go through the process with private briefings of 
our committee, confidential briefings as we go along, not 
necessarily a hearing, but the briefing process. I do not want 
to take so much of your time away from what you are doing, but 
we do want to be kept informed.
    Can I say that at this point in time the other agencies 
that handle classified security information are on board, 
cooperating, working with you on creating the shared database?
    Mr. Magaw. I have not delved into that enough yet. That is 
why I am trying to get this intelligence--one of my major 
assistants in intelligence to start working with that every 
day, so I have not had time to delve into it. The technology is 
there, the cooperation of the heads of the other agencies is 
there. It is a matter of us spending more focused time in that 
area to see exactly where we are.
    Mr. Rogers. Well, we hope Homeland Security would be on top 
of this.
    Mr. Magaw. Absolutely. And Homeland Security, virtually 
everything we do is in coordination so that we are not going 
different directions.
    Mr. Rogers. They are working with you?
    Mr. Magaw. That is right. Yes, sir.

                            COCKPIT SECURITY

    Mr. Rogers. Now, cockpit security. Let me just deal quickly 
with some of the other issues. We have focused on screeners and 
checking baggage and all of that. What about the real cause of 
September 11? Frankly, the proximate cause was intruders 
gaining access to the cockpit, the last line of defense. Where 
are we?
    Mr. Magaw. The cockpit doors on virtually all the big 
airliners and most of the smaller ones have the doors 
reinforced on a temporary basis and they are functional. What 
we are doing now, too, is developing a replacement door and as 
those replacement doors--again, the technology is there, some 
of the designs are finished and the phase two would be to 
replace the existing doors with the new fully armored door.
    Mr. Rogers. We gave you $100 million for that very effort 
this past year. When do you expect that to begin to take place?
    Mr. Magaw. I'll have to get back to you on the date on 
that, Mr. Chairman.
    Mr. Rogers. All right.
    Mr. Magaw. The doors now are being examined. There are two 
or three that they are trying to be decided on, but I will have 
to get back to give you the specifics on that, so we will do 
that.

                              SKY MARSHALS

    Mr. Rogers. The sky marshal program, an equally important 
part of the cockpit security efforts. We were told last 
November that the program was being slowed not by the pool of 
candidates, but by a lack of training capabilities, facilities. 
We provided $15 million last December to address that problem. 
Have we got that under control?
    Mr. Magaw. The Federal Law Enforcement Training Center in 
Georgia has a complex in New Mexico that we have been able to 
virtually take over that operation. We bring the personnelin to 
Atlantic City, do the initial briefings, the ethics briefing, the 
personnel papers, then we fly them out there to New Mexico and bring a 
fresh class back. So we have--right now, I think we have four classes 
going on out there.
    They vary in size because every two weeks we want to start 
one and so we will start with whatever we have. Some of them 
might be two classes totaling 70 at one time, others will be 31 
or 32. But those classes are in session and that rotation is 
working very well.
    Mr. Rogers. What is the duration of the training program?
    Mr. Magaw. Until we get to the point that we have the 
number that you and the rest of us believe is a good number, 
that has not been decided yet. I can discuss that with you in a 
closed session.

                         ARMING OF FLIGHT CREWS

    Mr. Rogers. All right. Now, what do you think about arming 
the flight crews with non-lethal weapons like stun guns?
    Mr. Magaw. The Justice program that is doing that study is 
supposed to be getting back to us within a few weeks with their 
recommendation and their reports. I want to study that, I want 
to make a decision fairly soon after that, also in conference 
with your committee, and with the secretary's approval we would 
move forward.

                  BUDGET FOR MODES OTHER THAN AVIATION

    Mr. Rogers. On other modes of transportation, other than 
aviation, how much of this $4.8 billion budget request for '03 
would be used in areas other than aviation?
    Mr. Magaw. It is a little too early for me to tell that. I 
am in the process of, as I mentioned before, hiring the 
equivalent to a top assistant for maritime, for the railroads 
and for the trucking and bus and once I can get them on board, 
which I would hope to do that within a few weeks, I would want 
them totally looking at that program so we could get some sense 
of what we are going to be able to do and what that would cost.
    Mr. Rogers. You gave us a copy of your organization chart.
    Mr. Magaw. Yes, sir.
    Mr. Rogers. We have looked at it. Is that a finalized 
chart?
    Mr. Magaw. It is finalized in my judgment to this level, to 
the level that you see it here, and the secretary has approved 
it at this level. I think the Equal Employment Opportunity 
unit, I think that will be renamed as Civil Rights, but it is 
really all the same issues.
    You can see that top line going across there, the eight 
boxes. That is the staff that will actually run this 
organization every day to make sure that we are keeping on 
track with spending, we are keeping on track with the 
timeliness, the goals, that we are keeping on track in terms of 
budget and that we are meeting the strategic plan.
    This organization will be driven by the strategic plan and 
this is the group that will drive it every day as a single 
entity. That way, every part of the kind of things that you are 
concerned with, whether it be maritime, or railroads or 
training or intelligence or inspection or financial things or 
goals performance, will all be represented in what we do every 
day.
    We installed this in the Secret Service a few years ago and 
it was successful. When I went to ATF we installed it and if 
you are running a shortfall, for instance, on something, that 
whole team meets, they decide what it is that they are not 
going to do in order to do what now becomes a priority.
    So it has been very successful. I installed that at ATF 
when we went there right after Waco and it has performed very 
well for seven years there. You just cannot make decisions in a 
vacuum and these people will not allow you to do that. They 
will not allow any other entity to do it and it has proved very 
successful.
    Mr. Rogers. Well, it has in the past, and you are to be 
commended for it. We only wish you the very best and that it 
works in this instance as well.

                      USE OF FORMER FAA PERSONNEL

    Now, one thing bothers me a little bit. I believe your plan 
is to bring into TSA virtually the entire FAA aviation security 
organization that was managing these efforts before 9/11.
    Let me just note that if Congress wanted the FAA to 
continue with security, we would have said so, but we did not. 
We took it away from FAA and gave the mission to the secretary 
and consequently TSA. That was not an accident, there was a 
very important reason. This committee has been very critical of 
how the FAA managed its aviation security operations. Make us 
feel comfortable that this is no longer going to be the case, 
that FAA, the old way, is not going to prevail.
    Mr. Magaw. The old way, as you refer to it, did not satisfy 
you. I was not here, but I know clearly what you want. You know 
clearly what my intentions are. And whatever changes need to be 
made, we will make.
    The Secretary is very clear on that and so is the Deputy 
Secretary, to the point that a decision has not been made yet 
of what personnel will come to me and what will not. That is in 
a discussion phase right now. And it is at the Secretary's 
level. So he clearly understands.

                          PERFORMANCE MEASURES

    Mr. Rogers. Last year, long before 9/11, the problem this 
committee dealt with, and took upon ourselves in a real 
detailed way, was the airline delay problem, which a year ago 
people recollect was a real problem. And we brought a panel of 
experts from variousaspects of the problem here, and we brought 
them back from time to time. I thought it was a very effective way of 
addressing that problem and I think it produced some results.
    Obviously, that problem has gone away now, but the problem 
we are dealing with, of course, is security, principally 
airline security, but also others. We are talking and thinking 
about re-instituting that type of periodic temperature taking, 
if you will, of security, TSA, to have a group of people that 
would be here from time to time to keep us informed.
    And so by our next hearing, April 17th, I want to develop 
specific performance measures, objective checkpoints along the 
way to effectively evaluate how things are going. So I just 
wanted to be sure that you understood that what we are thinking 
about doing. We are talking with the IG, among others in your 
offices, about ways to do that objectively, and hopefully 
reassure the American traveling public that things are on track 
and doing well or where there is a problem. I do not want us to 
hide our heads in the sand and say there is not a problem when 
in fact we know there is.
    We cannot afford another mistake, so I would hope that you 
could see your way clear to help us with it.
    Mr. Magaw. We will be happy to do that, sir. We will be 
very responsive.
    Mr. Rogers. I want you to know, Mr. Under Secretary, that 
this subcommittee wants to be helpful to you. We are not here 
to stand in the way or block by any means. We are here to 
promote and help and push and shove and hopefully furnish 
enough money for you to do the job with. So rest assured that 
we have a telephone line that is open to you, my office and the 
committee's offices are open to you. And feel free to ask. We 
may not be able to provide, but we can certainly try. But we 
wish you every success, obviously, in this job. You have a huge 
chore that you are trying to handle. We appreciate your coming 
out of retirement, I think it was, was it not?
    Mr. Magaw. I was still working with terrorism, helping FEMA 
prepare for response to terrorism events, but I was not near 
this----
    Mr. Rogers. As busy? Well, we appreciate your public 
service and the national chores that you are doing for all of 
us. And we, as I say again finally, we wish you every success.
    Mr. Magaw. Thank you, sir.
    Mr. Rogers. Thank you.
    The hearing is adjourned.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, April 17, 2002.

                 TRANSPORTATION SECURITY ADMINISTRATION

                               WITNESSES

MICHAEL JACKSON, DEPUTY SECRETARY, U.S. DEPARTMENT OF TRANSPORTATION
KENNETH M. MEAD, INSPECTOR GENERAL, U.S. DEPARTMENT OF TRANSPORTATION

                      Chairman's Opening Statement

    Mr. Rogers. The committee will be in order. This morning we 
will have our second hearing of the year on the budget requests 
and start-up activities of our newest agency, the 
Transportation Security Administration (TSA). At the time of 
our first hearing on February 6, TSA was just getting started 
and their first budget had just been submitted. So we gave the 
agency more time to provide details of their budget and tell us 
how they want us to measure and judge their performance.
    Unfortunately, even today much of this work remains to be 
done. The agency has a long way to go justifying its $4.8 
billion budget request for next year and they can only describe 
about half of the $4.4 billion supplemental request which was 
recently submitted.
    Much of this stems from an inability to make a decision on 
how to proceed with the deployment of explosive detection 
systems. This lack of detail and lack of crisp decision making 
by those in charge will not be tolerated much longer by this 
subcommittee. We have a responsibility to make sure you are 
spending money wisely--we are talking lots of money--and we 
cannot do that unless you provide budget details and answer 
questions in a timely manner.
    I am also disappointed that TSA has not yet developed 
performance measures by which we can hold them accountable. I 
mentioned that as a top priority to Under Secretary Magaw when 
he was here in February. These measures have still not been 
developed and approved, and DOT included no performance 
measures in its recently issued performance plan.
    Well, so be it. If you cannot do it, we will. I have 
developed my own lists, which I am sure surprises you, which I 
will share with all of us today. These measures will be put on 
a board back here. You may have seen something like this 
before, and we are going to use that board to track your 
performance all through the year. Racetracks have these boards. 
We are not going to be doing any betting on whether or not you 
achieve your goals.
    Mr. Callahan. Yes, we are.
    Mr. Rogers. But do not be surprised if there is money 
involved in whether or not you meet your goals. We will have 
the agency back in a few weeks, and we will see how you are 
doing. We will expect improvements and we will hold you 
accountable in the budget process. Mark that down. If anyone at 
TSA doubts the resolve of this subcommittee, let them ask other 
agencies what happened to their executive performance bonuses 
when they did not meet their goals.
    The taxpayers expect us to hold agencies accountable, even 
law enforcement agencies, and we will make sure it happens.
    TSA has a huge challenge ahead of it with strict 
Congressional deadlines, but that does not give the agency a 
license to grow into a huge bureaucracy. I am deeply concerned 
over reports that TSA projects a work force now estimated at 
72,000 people, when the estimate was only 30,000 just a few 
months ago. I am deeply concerned when I hear the agency may 
pay $1.6 billion this year for screening contracts that the 
airlines paid $400 million for last year. I do not know where 
we get jumping this four times in just one year, and I am 
concerned when the IG says that the agency is not taking 
adequate control over how it spends money.
    Finally, TSA must do more to coordinate effectively with 
the 429 commercial airports in the country. That is where 
airport security largely takes place. It is where the rubber 
meets the road in security. TSA expects to do an effective job 
without the close involvement of airport officials, and what I 
am hearing from airports all around the country is that 
cooperation from TSA has been, to put it mildly, poor. TSA must 
work cooperatively with airports, not impose its will on them.
    We want to hear some of those issues today and help steer 
TSA toward a more effective relationship with the nation's 
airports.
    We are glad to welcome back today the Honorable Michael 
Jackson, the Deputy Secretary of Transportation, representing 
the TSA--the Director is unable to be with us today; the 
Honorable Kenneth Mead, the Inspector General of DOT; and 
representatives of four airports, who will give us case studies 
of the issues faced by individual airports as they try to 
accommodate new security systems, procedures, and staff in a 
very short time frame.
    Let me welcome Mr. James C. DeLong, the Chief Executive 
Officer for the Regional Airport of Louisville in Jefferson 
County, Kentucky; Mr. James J. Welna, the Director of Public 
Safety for the Metropolitan Airports Commission in Minneapolis, 
Minnesota; Mr. James Koslosky, Aeronautics Director for the 
Gerald R. Ford International Airport in Grand Rapids, Michigan; 
and Jeffrey Fegan, CEO of the Dallas/Fort Worth Airport in 
Dallas, Texas.
    Gentleman, we want to thank each of you for coming from out 
of town to offer your testimony today. It will be helpful to 
see the kind of problems that are cropping up at individual 
airports, particularly as we see TSA's requests for funding.
    We would like to hear a brief oral summary of the statement 
in the order in which I mentioned your names, with Mr. Jackson 
first, and we will make your complete written statement a part 
of the record without your having to read it, and we would 
welcome in a moment your oral summary of your testimony.
    First, let me recognize Mr. Sabo.

                      Mr. Sabo's Opening Statement

    Mr. Sabo. Thank you, Mr. Chairman, and welcome to all the 
witnesses this morning. I would echo everything the chairman 
said in terms of our expectations. I find it incredible that we 
are at this point in late April and we have no detail to speak 
of for next year's budget, and virtually none for the 
supplemental that we have before us, which I assume people want 
acted on rather quickly.
    That is just totally unacceptable. I think all of us 
understood the difficulty of getting started. I think this 
committee showed a great deal of patience at earlier hearings. 
But as we have looked at all the money that is being requested, 
I think most Members at the point in time that they voted for 
the authorization bill which was signed by the President, 
thought that it was self-financed. All the money we are looking 
at in the supplemental, the 4.4, is money from general revenue.
    My understanding is that as we look forward to next year 
the fees from the tickets and the airlines will be around 2 
billion. The budget is 4.8. That is another 2.6 billion coming 
from general revenue, with the nonair traveler paying the bill. 
We are looking at, as I recall, about $3 billion of general 
revenue for the operations of FAA. This is lots and lots of 
money that could fund lots of things, and we need to know that 
that is being spent in the most important fashion.
    The obligation of this agency is not only airports, it is 
the balance of transportation security. We are looking at 
spending close to $5 billion this year of general revenue, 
close to $3 billion next year, and none of us really expect the 
$4.8 billion budget request is going to be the total bill for 
next year for the most important transportation security issues 
in this country.
    So we expect much more from the department. We expect more 
detail. We expect more judgment. We wait for that, and I think 
I and all members of this committee are very disappointed at 
the lack of detail and explanation we have yet today.
    Thank you, Mr. Chairman.
    Mr. Rogers. Chairman Young.

                     Mr. Young's Opening Statement

    Mr. Young. Mr. Chairman, thank you very much. I want to 
welcome all of our witnesses today. You have an important task 
before you and we certainly want to be cooperative and part of 
the solution. We welcome you and look forward to hearing your 
testimony.
    I would like to repeat something Chairman Rogers said and 
Mr. Sabo said. My job is to get this supplemental through the 
House and hopefully through the Senate and to the President. 
The President would like the supplemental through the House by 
the end of April. The Speaker of the House has asked me to do 
everything possible to have this supplemental through the House 
by the end of April, and I am doing everything I can to make 
that happen.
    But I would tell you, with emphasis, we are not in the 
business of creating contingency funds. In this supplemental 
request there are numerous requests for contingencies for which 
we have no idea what the purpose would be or how they would be 
used. So the $1.9 billion contingent emergency appropriation is 
something we need answers for. I hope that your testimony will 
address the issue of when we might get the specifics on that 
$1.9 billion.
    I am also concerned very much about what cost containments 
are in place to ensure we are getting what we expect for the 
dollars we are investing. I am interested in are we getting a 
commensurate increase in security and safety with the 
additional increases in appropriations.
    Those are the things I would like to hear about this 
morning, and I know that you all are interested in having this 
supplemental become law just as quickly as it possibly can, 
but, again, we are not going to move a bill that is full of 
contingencies for which we have no specifics on how those 
monies are to be used.
    Mr. Chairman, thank you very much.
    Mr. Rogers. Thank you, Mr. Chairman. Mr. Obey.

                      Mr. Obey's Opening Statement

    Mr. Obey. Thank you, Mr. Chairman. I would simply like to 
add my voice to what has already been said, and I guess I can 
do it in the form of a couple of questions, rhetorical, but 
questions nonetheless. I guess I would ask does the agency take 
this committee to be a bunch of chumps or do you really expect 
that we are simply going to supinely provide blank checks.
    The Secretary of the Constitutional Convention was a fellow 
by the name of Jackson, and the Constitution that he certified 
that our Founding Fathers had written gave the Congress an 
obligation to hang on tightly to the power of the purse. And as 
the Chairman of the full committee has indicated, we have got 
work to do. We need to work together. But so far with respect 
to the supplemental my understanding is that you have provided 
the needed explanations for only one-half of that $4.4 billion 
that you are asking. And for the new regular appropriations 
bill, so far as I know, you have provided nothing by way of 
detailed explanations.
    I mean, that is the most miserable case of the slows I have 
seen in quite some time. And I would just say we have a 
responsibility to work with you, but we also have a 
responsibility not to appropriate taxpayers' money until we 
know what we are doing. And we are not going to know if your 
agency does not get off its fazagga and get it to us.
    So, Mr. Chairman, I simply want to say that I agree with 
everything that the previous three members have said. I know it 
is very frustrating to be charged with the responsibility, as 
the Chairman Young is, to produce legislation in a timely 
fashion. It is even more difficult when the people who 
areasking for the money don't provide the information that we need to 
comply. So my only message is get with it.

                       CLOSED SESSION DISCUSSION

    Mr. Rogers. Thank you. Just by way of information for 
members mainly, we will be going into a closed session of this 
subcommittee on these topics at 2 o'clock this afternoon. So if 
you have a question or if the witness has an answer to a 
question that needs to be done in a closed setting, let us know 
about that so we can reserve that then for the closed session 
at 2 o'clock. Some of these matters obviously cannot be 
discussed in public.
    Mr. Secretary Jackson, you are recognized.

                  Deputy Secretary's Opening Statement

    Mr. Jackson. Thank you, Mr. Chairman. Mr. Chairman, I would 
like to report that Mr. Magaw is recovering from his surgery 
and will be back on the job next week.

                   TSA EMERGENCY SUPPLEMENTAL REQUEST

    Mr. Rogers. Will you please convey to him our best wishes? 
We hope things are well, and I understand they are.
    Mr. Jackson. Yes, sir, thank you very much.
    Mr. Chairman and members, I understand the frustration that 
you have about our having laid a request on the table for a 
$4.4 billion emergency supplemental without laying at the same 
time the detail that you need to make a decision. I absolutely 
understand that you need to have, that you must have that. We 
expect to be able to provide the remaining detail that we did 
not provide with our original submission in a matter of days. I 
apologize for the inconvenience of bringing it to you 
piecemeal, but we thought that we would give you the parts that 
we knew were clear and that we were certain about. I will 
explain a little bit more in a moment what is to come and what 
is missing. But I certainly understand your frustration and I 
share your frustration.
    It is a very complex set of tasks we are trying to pin 
together. We will do so in the most expeditious manner 
possible. Mr. Chairman, the team is hard at work on these 
issues and our focus is on this mission in delivering the 
requirements of the statute as passed by the Congress. We 
recognize that there is a large amount of money and a large 
challenge particularly for this committee. We are grateful for 
your willingness to roll up your sleeves with us. I promise 
that we will keep ours permanently rolled up in working with 
you.

                               TSA GOALS

    Since we met last February we have had clarity in the 
planning process on the four driving goals to protect 
passengers, checked bags, cargo and the perimeter of our 
Nation's airports. There are questions that I think we will 
have through your conversation today, what is the plan and what 
are we doing to guarantee that we have improved security.
    Chairman Young, we absolutely must prove to you that we are 
indeed using these tremendous amounts of monies in an effective 
and responsible fashion. We will do that, sir.
    The second question this committee must struggle with is 
how much will it cost. We are prepared to talk significant 
details about that today and, in a moment, I will tell you 
about the remaining deliverables and when we can get those to 
you.

                               TSA BUDGET

    How do we think about the problems? Our budget and our 
process is really focused on three things: people, one-time 
capital expenditures to start up this agency and make the 
initial deployment work effectively, and then the capital 
equipment for costs of equipment and other capital investments 
that we make at the start of this program.
    So, if you take those programs and money and you divide it 
into these three categories, we have a matrix that really 
requires the discussion of six levels of conversation: people, 
one-time startup, and capital costs.

                          PASSENGER SCREENING

    I would like to provide a quick status on the substance and 
then move to the money. On the passenger screening side, which 
is one of the major points of our work, we have good progress 
and we have provided details to you on how we would roll out 
the passenger checkpoints screening process through the 429 
airports. We have conducted an intense process redesign that we 
tested at Baltimore-Washington International Airport (BWI). We 
are in the deployment phase for 15 pilot airport tests of these 
principles for passenger checkpoint screening. We have hired in 
the last several weeks three classes of supervisors who will be 
training the screeners all around the country. There are 
approximately 850 people on board with roll-outs in play. We 
have a contract that we are prepared to sign contingent upon 
appropriate funding that will help us do this roll-out.

                           BAGGAGE SCREENING

    On baggage screening, we have looked at this issue with 
great care. Frankly, after talking to airport directors, after 
talking to the industry who has had experience screening 
baggage in the Nation's airports, after reviewing alternative 
technologies that are out there, and after careful financial 
planning, we have stepped back a little bit and revised our 
initial plans about the application and approach to those 
technologies. This is an area that has required resources from 
within and outside of government to make this process work. The 
President himself has been keenly interested in this and we are 
bringing that set of decisions to a close and recalculating how 
to submit an appropriate funding request to this committee. I 
literally expect within a few days we will have worked that all 
through again, put the numbers together, and will give it to 
the committee so you can consider in appropriate detail the 
entire package of the $4.4 billion request.

                              TSA'S BUDGET

    There is no contingency fund here that is out in theozone 
as a protection blanket for this. We have kept the budget lean. We have 
strong and clear needs and we have a very precise calculation of how 
these monies would be used. We will be absolutely delighted to go 
through that in detail with the committee and have all that patched 
together.
    I just want to say a word about the technology because we 
will come back and talk, Mr. Chairman, at your discretion in 
both the closed session and also in a subsequent session. I 
would like to say a couple of words of orientation quickly.

                            CORE PRINCIPLES

    Two core principles for us, as we looked at the question of 
how to take these very large and significant costs in people, 
and equipment, and deliver in two of the core requirements of 
the statute, were the core principles of fairness and good 
security. The same high performance standards are applied at 
all airports. In our plan, everyone deserves and will get world 
class customer service and world class security. Of course, we 
will apply different tools to different sized airports. ``One 
size fits all'' will not work, and I hope that is a welcome 
message to my colleagues on the airport side.
    Frankly, it is through input from them that we are refining 
this approach to try to get it right. We have made changes 
continuously and will continue to make them. For example, next 
week the TSA will be announcing some refinements to the dreaded 
300-foot rule. We think those are good and warranted changes. 
We will continue to work on components of our security package 
and keep the system of systems alive as we look through changes 
in our security portfolio.

                     CURBSIDE CHECK-IN RESTRICTIONS

    We have already, for example, imposed and then removed 
certain restrictions on curbside check-in. I think that is just 
the nature of this operation. It will have changes as we bring 
new security tools on line, and we hope to be responsive to the 
business needs of our airport partners and our airline 
partners.

                     MULTIPLE TOOLS FOR DETERRENCE

    Taken together across the entire system, we will have a 
fair and comparable system using multiple different tools, both 
the two scientifically certified and reliable tools that we 
have for us today, CT scan technology and trace detection. Both 
are very different machines. Both have different pros and cons. 
Again, Mr. Chairman, with your permission, I would like to talk 
a little bit more about that later today. But both have a role 
here in our roll-out.

                               TSA BUDGET

    Let me just say a word about the numbers which we have 
shared in advance with you. Of the three parts, we have 
provided you the numbers for the people and the one-time 
startup costs. We owe you the costs for the people and the 
capital associated with the $1.9 billion. I think that we have 
that just about pinned down and should be able to give you the 
level of granularity that you need. I wish I could give you the 
type of granularity for this budget that you all want and that 
I want for you early and quick. We just have been working 
through this, and frankly, we have tried to use these last 
couple of months to try to get to as close to the right 
solution as we can.
    I think that we have a good plan and it is an expensive 
plan, Mr. Chairman. It is more expensive than we thought. I 
know it is more expensive than you thought. I will defer 
talking about the detailed components of the numbers I have 
submitted so far. I will simply say that I will be happy to 
answer questions about that and any other matters, and thank 
you very much, sir, for your having me here today.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                 Inspector General's Opening Statement

    Mr. Rogers. Thank you very much. Mr. Mead.
    Mr. Mead. Thank you, Mr. Chairman. I think the overriding 
goal for TSA must be to provide tight and effective security in 
a way that avoids waste and ensures cost effective use of 
taxpayer's dollars. That is the value system that should be 
driving us all.
    In February we testified that the cost of good security 
would be substantially greater than anyone had anticipated at 
the time this legislation was passed, and I think Mr. Sabo is 
quite right. Today there is greater clarity on what those 
numbers look like, and they are, in fact, sobering. I would 
like to say a word about the Department to all of you.

                               IG'S ROLE

    The IG's role is to exercise oversight. The challenges this 
law imposes are very formidable, and we are encouraged in most 
respects by the direction the Department has been going in. I 
think we all know that this is a task that has never been 
undertaken before on a scale of this magnitude. This year alone 
we are talking about $6.8 billion, and this is a partial year.

                              TSA'S BUDGET

    I do not know what TSA will look like at the end of fiscal 
year 2003 and what the fiscal year 2004 budget will look like. 
The estimated size of the work force, back when the law was 
being discussed, was 30,000. It then jumped to 40,000. Then you 
started hearing 50,000, 60,000, and today you are hearing 
estimates of somewhere in the neighborhood of 70,000.
    You should also know that after much planning the pace is 
about to pick up substantially in terms of acquisition of 
staff, the creation of overhead, outlays, the acquisition of 
the explosive detection machines, and the acquisition of trace 
technology, which is also used to detect explosives.
    As Mr. Sabo pointed out, the new passenger security fee is 
not going to come close to covering the cost. I think TSA will 
collect about $2 billion this year, and you are looking at a 
budget for TSA in the neighborhood of $7 billion.
    By the end of May, TSA is likely to be out of money, and 
there is some urgency in moving through the supplemental. It is 
also true that they (TSA) have not fully clarified their 
budgetary requirements, particularly in the area of the 
explosive detection machines, the associated staff, and the 
approach that will be required at airports, for checked 
baggage. This is associated with the December 31 date by which 
100 percent of all checked baggage must go through an explosive 
detection system.

                      TECHNOLOGY TO SCREEN BAGGAGE

    I would like to just say a word about the two types of 
technologies that are being used to check bags for explosives. 
One is the explosive detection machines that you have been 
funding all these years. They run in the neighborhood of about 
$1 million a copy, perhaps a bit less. They require fewer staff 
than what is known as the trace technology. The trace 
technology costs about $40,000 per unit, but at the same time 
it requires much more staff. That is the balance the Department 
and other units of government, are trying to deal with.
    At the present time it is a virtual certainty that we will 
not be able to have 100 percent of checked baggage going 
through explosive detection machines, at least the $1 million 
version, by the end of this year. There are several reasons for 
that. One is that the manufacturers cannot produce enough 
machines. Second, even if they could, you couldn't install them 
in airport lobbies. You are going to have to integrate them 
into the baggage system, and that level of construction cannot 
be done throughout the country by the end of the year. This is 
why you are going to have to rely on the trace technology.
    In addition, coming back to the point that Mr. Sabo was 
making about financing, in this entire financing arrangement 
the costs of construction and renovation at the airports for 
these explosive detection machines is not covered by TSA. So I 
imagine you will hear from my colleagues from the airports 
today as to how this construction would be paid for. We know 
that one airport, Dallas/Fort Worth, estimates construction 
will cost about $193 million. We are pegging across the country 
an estimate of a little over $2 billion for construction. I 
think it is also important, that as you start up an agency like 
this, when we are talking about $7 billion, possibly 70,000 
people, that we be ever vigilant for opportunities for cost 
control and cost effectiveness. I have a list of measures. I 
would just like to mention several for the committee to 
consider. We have shared them with the Department and I know 
they are considering some. It will take some time to sort out 
exactly how they can be implemented.

                     OPPORTUNITIES TO CONTROL COSTS

    One is part-time positions. Most of the screeners will be 
full-time positions. However when you have periods at an 
airport where you need to have more staff than you would for 
most of the day, I think they should consider part-time 
screener positions. The cost savings could be enormous.
    Second is former FAA positions. A little over a thousand 
people that were at FAA were transferred over to the 
Transportation Security Administration. They are there now. It 
is not clear to us what plans TSA has for them, how they are 
going to integrate them into the work force. Some of these 
people used to be in charge of security oversight at the 
individual airports, but that is not going to be their job 
presumably any longer. I think that is important. That is a 
$300 million cost item.
    Third is law enforcement positions. TSA's budget includes 
room for about a thousand law enforcement officers. The law in 
fact says there shall be a law enforcement presence at each 
screening checkpoint. This does not mean that you need somebody 
at each screening checkpoint that is paid the equivalent of an 
FBI special agent. For the FBI Special Agent series, the 1811 
series, median pay would be about $95,000 a year. The Defense 
Department uses a series called Police Officer, which seems to 
me to be more suited for the law enforcement presence at a 
checkpoint. Their salary runs about $56,000 a year. We will 
recommend that the Department consider that.
    Also, TSA is forming a Criminal Investigations Division, an 
Internal Affairs Division. They will have criminal 
investigators at airports. I think some scrutiny is needed 
regarding what the role of these people will play and how they 
will interface with the Federal Bureau of Investigation.
    Finally, a word about the security contracts. We all know 
they were low bidded in February by the Department. We took 
them on. You are right, we are paying more than the airlines 
did. I think we are frankly getting more, too, than the 
airlines did, but it is a lot of money. It is about $1.6 
billion. A lot of bills are coming in. We just started an audit 
of this and about 2 weeks ago found that there are not 
sufficient controls in place. I mentioned this to Mr. Jackson, 
and I am sure the Department will take some action to correct 
that. But we need to validate these bills that are coming in, 
especially when we were outlaying $250 million a month to these 
people to make sure that we are getting what we are paying for.
    Thank you.

                       DEMEANOR OF TSA EMPLOYEES

    Mr. Rogers. Thank you. Chairman Young, do you have 
something?
    Mr. Young. Mr. Mead's comments brought to mind some issues 
that we wanted to make mention before our comments get cold 
this morning. All of us travel a lot because of the nature of 
our business, and I am sure you travel a lot. And I have spoken 
with so many people waiting in line to get screened and waiting 
for tickets and whatever it is they are waiting for, and I find 
that nobody really objects to that. They understand that it is 
important that we secure our transportation agencies and our 
transportation facilities, but I would just like to ask Mr. 
Jackson and Mr. Mead, whoever is in charge at any particular 
time, to give these people some sensitivity training because 
some of them are not very nice. Some of them are downright 
rude. And I think that the traveling public is willing to 
suffer the inconvenience because they want to be safe in their 
travel, but at least these people could be halfway friendly, at 
least not be rude. And I just wanted to say that while your 
discussion was fresh in my mind about the screeners and how the 
process would work.
    Thank you.

                          SENSITIVITY TRAINING

    Mr. Rogers. You can respond now briefly or we can do it 
later.
    Mr. Jackson. I will be very brief. We could not agree with 
you more, sir. We are building into the training of our new 
Federal screeners courses on courtesy and elements on conflict 
resolution. This is an absolute mandate for us. It must be that 
way and we will insist upon it.
                                         Wednesday, April 17, 2002.

                 TRANSPORTATION SECURITY ADMINISTRATION

                               WITNESSES

JAMES A. KOSLOSKY, AERONAUTICS DIRECTOR, GERALD R. FORD INTERNATIONAL 
    AIRPORT, GRAND RAPIDS, MICHIGAN
JAMES C. DeLONG, GENERAL MANAGER, LOUISVILLE INTERNATIONAL AIRPORT, 
    LOUISVILLE, KENTUCKY
JEFFREY P. FEGAN, CHIEF EXECUTIVE OFFICER, DALLAS/FORT WORTH 
    INTERNATIONAL AIRPORT
JIM WELNA, DIRECTOR, PUBLIC SAFETY, METROPOLITAN AIRPORTS COMMISSION, 
    MINNEAPOLIS-ST. PAUL, MINNESOTA

                      Mr. DeLong's Opening Remarks

    Mr. Rogers. Mr. DeLong.
    Mr. DeLong. Thank you, Mr. Chairman. I am Jim DeLong, 
General Manager of the Regional Airport Authority responsible 
for Louisville airport in Bowman.
    A brief description of our airport system--first, it is one 
of two of the largest cargo express carrier operations in the 
world, obviously the home of UPS's headquarters for aviation. 
We are a medium hub airport claiming 1.9 million passengers a 
year. We have 15 scheduled airlines regularly serving 
Louisville. Our peak hour is 6:00 to 7:00 in the morning and in 
the afternoon between 4:00 and 5:00 with a max number of bags 
being handled of about 2,100 per hour, and that is critical 
when you start to calculate the number of people as well as 
equipment necessary for operations at our airport.
    I should also emphasize the importance of Louisville being 
in Kentucky, and Kentucky is home to Chairman Rogers, who we 
are very pleased to be in Kentucky with the chairman.
    My remarks today will focus on basically two things, number 
one, the actual cost that we envision for putting in place the 
TSA operation. I will provide some granularity at the micro 
level that Michael alluded to earlier: Costs for checkpoint, 
cost for 100 percent bag screening and cost at the gates 
themselves.
    Also I want to share with you some pending concerns we have 
learned from our experience with international arrivals 
facilities. We are hoping that the Deputy Administrator, or 
Secretary rather, can focus on those as he moves forward. 
First, the cost as it relates to the TSA.

                        ENHANCED SECURITY COSTS

    Pre-9/11, at Louisville International Airport, we spent 
$629,904 on the screening operation. This is strictly activity 
at the checkpoint itself. Globe Aviation Security provided 32 
people to achieve that goal. The airport put a police officer 
doing a 16-hour a day operation at the checkpoint, at a cost of 
$127,000. So the total came to approximately $750,000. That is 
pre-9/11.
    Post-September 11, today, currently, Globe Security has 126 
people, with an average cost per year of $2.983 million. We 
have police officers whose costs are in excess of $500,000, so 
today we are spending $3.5 million.
    I would now draw your attention to a chart that I provided 
in my prepared remarks that tries to dissect what we estimate 
the cost of TSA, including the cost of capital equipment, might 
be once the program is fully implemented. We have had an 
opportunity to do work in this area simply because we initially 
established what we identified as a Beta project and worked 
closely with TSA to determine the numbers of people necessary. 
So as the chart suggests, there would be a need for a director 
of TSA, a deputy manager, security supervisor, and I will not 
go through all the list but you can see that the number exceeds 
250 people necessary for Louisville. That compares with the 
number I stated earlier, 32, pre-9/11. The costs for TSA 
employees we believe to be in the order of $8,635,600, direct, 
that means FICA, that means medical insurance. Others, using a 
factor of 1.4, would be another 3.4 million; and indirect, 
which would include leasing of offices, costs at the 
headquarters and elsewhere of $3.6 million. So a total cost of 
personnel of $15,716,792.
    As it relates to security equipment, we have been told that 
we will require a minimum of nine CTX 5500s and 13 ETDs. We 
estimate miscellaneous costs of $100,000. Amortizing that over 
4 years, which we believe to be the useful life of the 
equipment, we can assume the annual cost of the equipment alone 
would be $2,795,000.
    As it relates to facility requirements, there is going to 
be a necessary beefing up of the structure underneath the 
ticket counter to accommodate these very large machines, wiring 
installation, and a major modification to the checkpoint to 
accommodate more people. That amortized over a much longer 
period of time reflects a cost of $295,000. When you recognize 
that the sum of these three comes to $18.806 million, and that 
we have a total of 1.9 million passengers, the cost per 
passenger, per enplaned passenger, is on the order of $9.90.
    I would remind the committee that the authorizers have 
allowed, to my understanding, a $5 charge, although only $2.50 
is being instituted at this time.
    So again, those are the costs as we understand them based 
on the salaries that we have been provided by the TSA.
    Let me move to another subject, and it is based on an 
experience I have had working in other airports that have had a 
Federal inspection services area housing Federal employees, 
including Agriculture, Customs, Immigration and sometimes 
Health. These are just concerns that I have that I am sure we 
can circumvent if we think about them now rather than in the 
future.

              FOCUS SCREENING EFFORT TO DETECT TERRORISTS

    First, there has been a tendency in the past to enforce 
laws other than the laws strictly dictated by Congress. We hope 
the TSA spends most of its time at the checkpoints looking for 
potential terrorists and not getting into drug interdiction and 
other activities. That is a very important job, but it seems to 
me that it will kind of diffuse the effort that is most 
available to us. That is number one.

                      FLEXIBILITY OF TSA WORKFORCE

    Number two, the appropriations process has historically 
been slow in the international arrivals facility. I can tell 
you at airports we can see 25 percent swings in passenger 
traffic in 12 months. Louisville experienced that in the 1994-
1995 time frame. Providence is experiencing that today because 
of Southwest Airlines. Give the TSA latitude to increase and 
decrease numbers of people quickly as market forces dictate. 
That is point number two.

                DISCRETION OF FEDERAL SECURITY DIRECTORS

    Number three, do not fall into what I refer to as facility 
standardization syndrome. There is a tendency before changes 
are made in a terminal to centralize the decision-making 
process. As it relates to the international arrivals 
facilities, that sometimes takes years. Give the latitude to 
that local director, whoever it might be, to go with whatever 
seems to be the best approach. There will be some mistakes 
made, but that will really pay dividends in the long term, from 
my perspective at least.

                EQUITABLE TREATMENT OF AIRPORT EMPLOYEES

    And finally, fund the program to a point that employees can 
be treated the same way other employees are treated in the 
terminal. There is a paradigm. Employees are used to paying for 
bussing, used to paying for remote parking. They are expected 
to pay for badging. I hope TSA employees are treated and funded 
appropriately so they can be treated like any other airport 
employee working in the terminal.
    That completes my remarks, Mr. Chairman.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                      Mr. Welna's Opening Remarks

    Mr. Rogers. Thank you. That is very helpful, Mr. DeLong.
    Mr. Welna.
    Mr. Welna. Thank you, Mr. Chairman, committee members. My 
name is Jim Welna. I am the Director of Public Safety for the 
airport in Minneapolis-St. Paul, Congressman Sabo's home. In 
addition to being the Public Safety Director, I have been the 
chief law enforcement officer at the airport for the last 17 
years.
    I have also recently completed three terms as chair of the 
ACI World Security Committee, which is based in Geneva, 
Switzerland, which represents over 1,200 airports in over 160 
countries on security issues. In that work I have looked 
closely at what they do in Israel, what the U.K. has been 
doing, what the European countries have been doing during the 
last 10 years in addressing some of the issues that we are 
facing today.

                          PART-TIME EMPLOYMENT

    And building on Mr. Mead's comments on the use of part-
timers, in Israel work at the airport in security is one of the 
most sought after positions in the country. It is a position 
that is often filled by young men and women that have come out 
of the military, and as they go into college they work at the 
airport on a part-time basis. In their case the bulk of their 
flights depart in the morning so they have a 3 or 4-hour period 
where the security staff comes out on a part-time basis, works 
at the airports and then goes to their college, schools. So 
there may in fact be applications in our country as well for 
that.
    I have read and support the comments of the chief 
executives from the other three airports that are here this 
morning. I would like to focus on a couple of points from my 
testimony that is completed and given to you.

                       IMPORTANCE OF INTELLIGENCE

    The first is to step back and say while it is very 
important for us to have the best we can in aviation security 
and have the personnel and have the technology, it is very 
important to look at September 11 and remember that part of 
what happened on September 11 was in part a failure of 
intelligence, and the effort that is going on and the 
cooperation that we are reading about as late as this week 
between the National Security Council, the CIA, the FBI, the 
sharing of data bases between the State Department, between the 
U.S. Customs and the FBI and getting that information to the 
TSA and their commitment, which they have been very clear 
about, that they will get the information to the right people 
at the right time is a very important part of having the right 
foundation, which will then be supported by the personnel and 
equipment that are put in place.

                           BAGGAGE SCREENING

    With regards to the explosive detection system or the 
requirement of the 100 percent screening, we think every day 
that passes it becomes more difficult to meet the deadline if 
EDS is going to be the solution. And looking at the problems 
with it, we have looked at--in our case that is going to take 
about 24 machines. A cost of infrastructure, not the machines 
but the infrastructure changes will run about $50 million.
    The place to do that, in our ticket lobby areas they are 
already full. We are already to the position where the 
customers in some cases are being pushed out into the street, 
and being outside in the Minnesota winter is not a place where 
we want to put our customers. To put in additional pieces of 
equipment in our lobby areas, there is not going to be space. 
In the baggage makeup areas, they are also full. So we will 
have to go to make a new area to put this system in place. We 
will probably think that our valet parking garage will be the 
best spot for that. But it will take about $50 million to bring 
the infrastructure changes in place to go to the valet parking 
in order to be able to use that.
    And the deadline itself may be driving some decisions, 
which I am concerned about may result in some poor decisions, 
and in the effort to make that December deadline we may have to 
make choices which are not the best choice. We may make 
mistakes that we will have to go back later and spend more 
money to correct. And I know that the deadline is a very 
sensitive issue, but I believe in the Congress' 
originaldeadline they were looking at a December 2003.
    I would urge Congress to listen carefully to what TSA 
shares with you regarding the challenges that they face as they 
learn more about this issue during the coming weeks.

                   TRANSITION FROM THE NATIONAL GUARD

    The other issue I would like to talk about is the transfer 
or the change from the National Guard to the LEO's of the 
checkpoints. As the National Guard leaves, airports are being 
asked to put in their own airport LEO presence there. Since 
September 11 at the airport in Minneapolis we have had our 
officers working 12-hour shifts with limited days off in order 
to meet the existing requirements that came out shortly after 
September 11 associated with the changes.
    So we are not going to be able to take and have those 
officers work more hours. We have to go out to the surrounding 
community in the metropolitan area and hire those departments 
to come in and provide officers to do that on a mutual aid 
basis. The costs for that are--because those officers are 
coming on a time and a half basis are substantial. We are 
trying to negotiate with the TSA an agreement to do that, but 
frankly we are being told they do not have the money in order 
to fully fund us. We are looking at right now about a $6 
million shortfall between what our actual costs would be, not 
any markup of costs that goes on right now with what the 
screening companies are charging the TSA, these are actual 
costs, we will have a $6 million shortfall. We do not have the 
money to do that and we need your help to do that.
    Thank you very much.

                     Mr. Koslosky's Opening Remarks

    Mr. Rogers. Thank you. That is very useful testimony.
    Mr. Koslosky.
    Mr. Koslosky. Thank you, Mr. Rogers and members of 
subcommittee, for the opportunity to be before you here today. 
I am Jim Koslosky, Aeronautics Director for the Gerald R. Ford 
International Airport in Grand Rapids, Michigan. We are a small 
hub airport in the west coast of Michigan opposite of Detroit 
and have for a small hub airport an excellent level of air 
service. We have 12 passenger airlines, 7 cargo airlines, about 
170 flights a day in and out of our community and about 6,000 
people a day between passengers and meeters and greeters 
interacting with our air terminal facility in the greater Grand 
Rapids area.

                  GRAND RAPIDS TESTING NEW PROCEDURES

    I am here today, I believe, to speak about our experience 
and we have real live working experience now with the TSA. 
First, we were one of the 15 airports selected to be a 
benchmark. We had consulting teams come in and look at our 
facility in terms of how passengers are processed from the 
front curb through ticketing, through the checkpoints, to the 
gate area. We had people observe the processing of baggage, how 
that is currently handled at our airport, and I suspect this 
went on at the other 15 airports as well, how belly hold cargo 
is dealt with, and a team that looked at access control and 
perimeter activities. And I assume from that benchmarking 
exercise TSA is going back and again trying to develop best 
practices and approaches to dealing with civil aviation 
security moving into the future.
    We also have heard that we were selected as a test site for 
installation of the EDS equipment as a smaller airport in terms 
of again their benchmarking exercises, and we have been working 
diligently and cooperatively with the TSA over the last month 
or so in terms of trying to find a suitable location for these 
rather large pieces of equipment. As you know, they are the 
size of a pickup truck. We have looked at four alternatives, 
four options for installing this equipment within our terminal 
facility, and found that in reality we only had one place to 
put them because of space, building code, fire code, and air 
handling issues related to placement of this equipment. That 
was in our ticketing lobby. And at this point we are looking at 
six of these machines to be placed in our ticketing lobby, 
5500s. Originally 2500s were selected, but because of their 
research with our carriers, the number of bags that are handled 
during peak hours, we increased the capability of this 
equipment to be placed in our building. We have been working 
towards installing that equipment, I believe as soon as this 
week, but have since run into an impasse that I will describe 
to you later.
    We have also been notified that we will be one of the first 
airports to receive a fully federalized screening security 
point work force at our airport, requiring the full transition 
from contract labor to TSA employees at the checkpoint and 
related support facilities which have yet to be fully defined. 
So we are gaining extensive experience in advance of many of 
our peers in this process.

                          TSA INWARDLY FOCUSED

    I want to acknowledge, and I think others would as well and 
you certainly have, that the TSA is faced with a daunting task 
of trying to implement the law and the deadlines that are 
before them. Unfortunately, I think that has forced them to be 
internally driven in terms of developing their organization. As 
much as I keep hearing that they need to work with airports and 
I keep hearing that they are giving you assurance that they are 
doing that, I cannot help but feel that airports are not being 
included or collaborated with by TSA as a result of the way the 
TSA is currently operating.
    A concern that I have overall is that we are going to lose 
our flying public, number one, if we do not have a safe and 
secure system and the public has an assurance of that. Number 
two, we have to have a system that is customer friendly, user 
friendly and convenient, and it has got to be cost effective. 
All three have to be kept in balance. If any one of those 
swings out of balance, we will affect our civil aviation system 
in this country in a detrimental way.
    To give you an example of how TSA is largely internally 
focused, the most recent event was the mandate, the directive 
that the airports step in and provide an increased law 
enforcement presence until the TSA can staff up.
    It seemed to me there was plenty of lead time to do some 
planning in this particular area. We at the airports found out 
about this mandate in our biweekly telecom with the TSA, and 
there was an indication by smaller airports that this may be an 
obstacle that they couldn't climb. Unfortunately, the attitude 
was: Perform, meet the directive, or you may face the loss of 
air service at your given community. And, quite frankly, I 
think that is an attitude that we in the aviation business can 
do without.
    Mr. Rogers. Would you mind repeating that, what you just 
said?
    Mr. Koslosky. A question in the telecom was what happens if 
an airport or a community--because these airports are owned by 
communities--can't staff up to deploy law enforcement officers 
at the checkpoint because local resources would not permit it? 
Keep in mind in many small communities you may only have five 
law enforcement officers in a given department, and they are 
stretched at this point as well. The response was that the 
community may be faced with the loss of air service.
    Mr. Rogers. Response from whom?
    Mr. Koslosky. TSA.
    Mr. Rogers. How did you take that? What did you take that 
to mean?
    Mr. Koslosky. I took that to mean that if we did not in 
some manner find law enforcement for the checkpoint, that we 
would be forced to lose air service because we were not meeting 
the directive to have a continuous presence of law enforcement 
at the checkpoint. I would hope we would be able to build in 
for those situations some kind of flexibility. We for years 
worked with flexible response to the checkpoint within certain 
times and time requirements to do that. We have formally asked 
for that in a letter to the TSA. We have yet to get a response 
to our letter to provide a flexible response at our two 
checkpoints.

                             TSA'S ATTITUDE

    That is just one example of what I am concerned about in 
terms of attitude and presence.
    Airports and communities are hungry to work collaboratively 
and cooperatively with the TSA. We recognize their daunting 
task. They just need to realize we are not the enemy. We are 
here to work with them in a positive manner, and we have 
something to offer in terms of helping them get through this 
process.
    I think they have got to realize that we have a public role 
as professionals and experienced airport operators to provide a 
safe and secure facility. That has been our goal all along, and 
that is probably more important for us at the local level than 
it is even here in Washington.
    Another recent example is ever since the interim facility 
director representative arrived on site requesting office 
space, we have indicated that there was going to be a lease 
requirement within our facility, as we do for all of our 
tenants, including the FAA, who want to lease space in our 
facility. Our airport is wholly self-sufficient by policy of 
our local unit of government, and as a result, we charge user 
fees and lease rentals to all of our tenants to cover the cost 
of the space we provide to them.

                   FUNDING CONCERNS AT LOCAL AIRPORTS

    We subsequently submitted two lease documents to two 
different arms of the TSA project teams that are working our 
facility and asked that those leases be considered, and up 
until today we hadn't received a single response to those lease 
submittals. We are willing to discuss, negotiate in any form 
how we can get by this particular impasse. But TSA has to 
realize that the airports are business operations. Many of us 
have local public policies dealing with leasing requirements 
and business practices at our airport that have to be complied 
with, as well as covering the cost of the space that we provide 
to them.
    We just went through a $50 million terminal remodeling 
project in Grand Rapids, and it was not funded with Federal 
funds because of other Federal and local priorities, and local 
dollars, lease rentals, are paying off the debt service on that 
$50 million.
    I don't want to repeat what has already been said. You have 
a copy of my written testimony. I think it is also important 
that we focus in on getting airports reimbursed, fully 
reimbursed, for these homeland defense issues that we are 
dealing with. There is a concern among us that we may not get 
full reimbursement for the law enforcement presence that we may 
be providing at our airport. We have already only recovered 
half of our costs by virtue of the $175 million. I want to 
thank you for the $175 million you did appropriate last year 
for airports, but at our airport, out of the $1.2 million that 
we are already advancing this year for increased security 
requirements post-9/11, we have only been reimbursed for about 
half of that, and we will incur additional costs as the TSA 
moves into our facility.
    So I would urge you to do everything you can to appropriate 
the funds to reimburse airports especially smaller airports, 
for their continuing costs. And I would also like to suggest 
perhaps it is time we stepped back and looked for a new 
security screening model. The current model which TSA continues 
to pursue to implement is a 30-year-old model that has been 
developed in a tiered, fragmented approach dealing with threats 
as they occurred. I would suggest that we should as a country, 
as a Nation, get the best minds in security and airports, 
airlines, TSA, FAA, anybody else that wants to be in the room, 
and look at a new model for screening of baggage, cargo and 
passengers, and to do it more effectively and more cost-
effectively.
    We have got a tired old model that needs to be looked at, 
and I think some of the cost numbers that you are looking at 
are evidence of that. So I would urge you to again continue to 
find additional resources to reimburse airports, and I would 
like you to look at the issue and deal with TSA's use of space 
at airports up to and including a provision in the bill, as you 
have done for the FAA, to prohibit the TSA from getting cost-
free space. Thank you very much.
    Mr. Rogers. Thank you for that frank testimony.

                         TSA EMPLOYEE ATTITUDE

    And before we move on to Mr. Fegan, let me just say that 
this subcommittee will not tolerate a dictatorial attitude at 
TSA, the same as the subcommittee that funds the Secret Service 
does. This is a different job. You are clients. You are not 
subservient people, and you are whom we represent up here, and 
we will just not tolerate a Secret Service-type dictatorial 
attitude toward you. And I hope that message gets to the proper 
place.
    Mr. Fegan.
    Mr. Jackson. Mr. Chairman, if I might, I would like to say 
that certainly resonates with this gentleman. I will not 
tolerate that, nor will Norm Mineta, nor will John Magaw. So, I 
just want to say, I was not on this phone call. I have 
repudiated this policy when it was raised by staff, as has 
John. So the idea that we are stopping flights if we can't 
resolve one of these temporary hiccups is ludicrous. That is 
just not going to happen.
    I do want to say that if you agree to be on the far end of 
the learning curve, then there are going to be times when you 
learn with us. I am grateful for the collegiality of those at 
this table who have agreed to learn with us on the far edge. 
Sometimes it is painful, but I will tell you that none of us 
will tolerate anything other than looking at these people as 
our partners in this terribly important enterprise.
    Mr. Rogers. Good. I am glad to hear that. I appreciate your 
clarification of that for us. We are all learning as we go; 
you, me, and everyone else. We must not get too haughty in our 
attitudes.
    Mr. Fegan.

                      Mr. Fegan's Opening Remarks

    Mr. Fegan. Mr. Chairman, members of the committee, I 
appreciate the invitation to testify before you today on this 
very critical and timely issue. My name is Jeff Fegan. I am the 
chief executive officer of the Dallas/Ft. Worth International 
Airport.

               SECURITY IMPROVEMENTS AT DALLAS/FT. WORTH

    Of course, the most critical piece of legislation stemming 
from the September 11th attacks on our country was the Aviation 
and Transportation Security Act, and already working with the 
TSA the National Guard and other local law enforcement 
agencies, the initial deadlines of the act have been met. But 
we have also been working with the TSA to begin the required 
transition of security forces, and, in fact, DFW Airport is one 
of the first airports in the country to enter into a memorandum 
of understanding with the TSA which outlines how we will deploy 
our local law enforcement officers at these security 
checkpoints until such time as the TSA can deploy their own 
agents or officers.
    Currently, DFW and the Nation's other 400 airports are hard 
at work planning for the compliance with December 31st deadline 
to screen all checked bags with explosive detection systems. I 
believe it is this deadline that will be the most challenging 
for U.S. airports to meet.
    In an effort to be proactive, DFW Airport recently 
completed a 12-week, $2 million planning process including 
enhanced computer simulation, which identified the facility, 
operational and manpower requirements necessary to meet the 
December 31st, 2002, deadline. As part of that process, we 
assembled a multidisciplinary team, 18 different consulting 
firms, people who were qualified in architectural engineering, 
baggage systems and other analysis, in order to look at our 
existing infrastructure to determine how best to accommodate 
this new EDS requirement.
    The DFW team of consultants studied numerous processes, 
numerous alternatives, and in evaluating the alternatives, the 
consultants had to take into account that DFW Airport's layout 
and design is very unique and has some very unique 
characteristics. We have four separate semicircular-shaped 
terminals that handle both airside and landside functions. And 
relative to other large hub airports, we actually have a very 
small depth of passenger processing areas, approximately 35 
feet between the ticket counter and the wall or the glass at 
curbside. So it is virtually impossible to accommodate enough 
of the stand-alone EDS machines in the ticketing area of DFW 
Airport's terminals. Simply put, there is virtually no space to 
accommodate the EDS machines in the ticketing area of DFW 
Airport's existing terminals. In addition, DFW Airport 
processes approximately 55,000 pieces of luggage a day, a 
substantial number by any measure.
    At the conclusion of this comprehensive 12-week planning 
process, it was determined that the preferred alternative, in 
fact, really the only feasible alternative for the airport 
given its unique layout and design, is an explosive detection 
system that will be integrated in line with the airport's 
existing baggage system. The concept is expected to cost the 
airport approximately $193 million to create the necessary 
footprint and infrastructure in all four of our existing 
terminals. The concept not only meets the statutory deadline to 
screen all checked bags, it will also have a minimal impact on 
customer service and airline operations and actually results in 
the lowest recurring operating and maintenance cost to the TSA.

                 FORMAL COMMITMENT BETWEEN DFW AND TSA

    Obviously, we are very eager and willing to do our part to 
meet the December 31st deadline. We have on numerous occasions 
informed the TSA that in order to meet the aggressive deadline, 
we need a written assurance by mid-April that TSA would endorse 
the preferred inline solution, commit to procure a sufficient 
number of EDA CTX 9000 systems--we actually need 40 machines 
and, in addition, 20 spares, for a total of 60. We also need 
157 ETD machines plus spares. We also asked the TSA to commit 
to have the available andtrained security staff and supplies at 
DFW to operate and maintain this preferred alternative by the deadline. 
And, again, we wanted to have a memorandum of understanding formalizing 
the details of this effort by the TSA and DFW Airport.
    Unfortunately, the TSA has recently informed us that they 
could not provide us a written commitment by mid-April, and as 
a result we have informed the TSA, and I am here to inform you 
today, that DFW Airport will be unable to guarantee its ability 
to provide the new infrastructure to support the EDS inline 
solution by the December 31st, 2002, deadline. We estimate that 
we will experience a day-for-day delay in making available the 
required infrastructure from this point forward.
    I want to assure you, each and every one of you, that if we 
do get a written commitment from the TSA, I am prepared to ask 
our board of directors to immediately invest in the necessary 
infrastructure improvements; however, I can no longer guarantee 
that the facilities will be ready by the statutory deadline. As 
I understand it, at least part of the TSA's reluctance to 
commit is their concern over receiving the necessary funding 
from Congress to acquire the machines and provide the necessary 
manpower.
    I strongly urge you to appropriate sufficient funds to meet 
all the mandates articulated in the Aviation and Transportation 
Security Act. As a first step, I urge you and your colleagues 
to appropriate the $4.4 billion for the TSA that was included 
in the administration's $27.1 billion supplemental budget 
request. I want to bring to your attention that noticeably 
absent from the request is funding to reimburse airports for 
security expenses already incurred, as well as funding to 
install the many and costly EDS machines at our Nation's 
airports. On behalf of all the airports across the country, I 
urge you to appropriate this funding so that airports can move 
forward with their plans to install EDS machines to comply with 
the act.
    I also want to urge to you consider waiving the eligibility 
requirement that mandates these construction projects must meet 
all the Federal bidding requirements in order to receive 
Federal reimbursement.
    In conclusion, I want to thank you for inviting me to 
testify today and to address the very serious and time-
sensitive issues airports face in trying to comply with the 
Aviation and Transportation Security Act. Thank you.
    Mr. Rogers. Thank you, Mr. Fegan.

                  COST CONTROL OVER SCREENER CONTRACTS

    Mr. Jackson, let me ask you, TSA thus far has received 
appropriations of $2.3 billion for fiscal 2002, but you are out 
of money. Just to get you through the end of May, I am told you 
are transferring $275 million from the federal air marshal 
program as a bridge loan, if you want to call it that, until 
the supplemental that we have here might be approved, and 
because of the spendout rate that you are on, you are putting 
enormous pressure on us to approve the supplemental quickly. 
However, Mr. Mead says that TSA is exercising little cost 
control over the screener contracts that they inherited from 
the airlines in February. He says, in fact, quote, ``According 
to the contracting officers, they receive bills from many 
companies that have no contracts, and no one knows the exact 
number of companies actually providing services. Bills are 
being paid as they come in, even though no one can verify that 
the amounts being charged are actual costs. These contracts 
could cost as much as $1.6 billion by mid-November, yet there 
appears to be virtually no controls,'' end of quote, Mr. Mead.
    You started this year with $2.3 billion we gave you, and 
now you are out of money, and apparently--according to Mr. 
Mead--no controls about how you are spending your money. Do you 
want to respond to that?
    Mr. Jackson. Yes, sir, I do. I would like to disagree 
respectfully with my colleague Mr. Mead. He told me about this 
particular concern for the first time last night. We have 
already allocated some resources to look at the issue that he 
raised with me last night.
    I don't believe that it is true that we have no controls. 
Nor do I think Mr. Mead would suggest that we have no controls. 
Can we improve them? Absolutely. Let me talk a little bit about 
the contracts that he raises specifically and that you have 
asked about, sir.
    When we began to assess the amount of money that we would 
need and what we had on our hands, we realized the initial 
contract had grown from a pre-9/11 state in a very, very 
significant way. It is misleading to look at these contracts a 
year ago at airports and try to figure out what the cost is. We 
have had some testimony here about very, very significant 
increases in security screening that have taken place this 
year. We have worked with Ken on trying to understand those 
issues, too. So what we have is a system which, on February 
17th when we inherited the responsibility to manage these 
ongoing contracts, has grown very, very substantially.
    The typical contracting terms prior to 9/11 were minimum 
wage workers. In order to retain those workers and to entice 
them to do the work and to meet new screening requirements 
imposed by the DOT after the terrorist attacks, the airlines 
typically gave some significant increases to the wages of 
employees, plus added more screeners. So what we see 
issometimes two, three, four, five times as many people in a given 
airport based upon a 1-year retrospective look back.
    Second thing is that every one of these contracts is going 
to end, and every contractor is going to be out of a job by 
November. We are going to roll them off sequentially as we go 
along. This was a considerable part of the conversation when we 
had this debate during consideration of the original 
legislation. The absolute requirement to end all third-party 
contracts at a certain time at the end of this year 
disincentivized them to provide cost-effective contracting with 
us.
    Despite that we have, I think, done an excellent job with 
them. I want to say that the contracting firms have cooperated 
very, very well, including Argenbright, who we have begun to 
move out and will move out from the system with a large 
transition that starts next week.
    We have had good cooperation. The costs are up, and the 
$1.6 billion is a good estimate of what we expect the screening 
contracts to cost. It may be diminished if we can go forward a 
little bit faster. But it is a reasonable estimate of how to 
make this thing work.
    Mr. Rogers. Mr. Mead, do you want to respond to this topic?
    Mr. Mead. Yes. We started an audit 2 weeks ago of the 
screening contracts. We thought it was a prudent thing to do. 
One of the first things that came to our attention was that the 
program is not being administered by TSA, it is being 
administered by FAA employees. There were two employees. They 
were obligating out $250 million a month. When the contractors, 
or the security companies, submit their bills, they do submit 
documentation. There is no validation currently going on that 
that service was actually provided. What needs to be done, and 
I think we are still very early in the process so it can be 
done, is that TSA needs to set in place a program where they 
spot-check bills so that the billing actually comports with 
what is occurring. You can't do a universal check, but you can 
do a spot-check. We may need to hire a contractor to do that.
    Just this past week, or within the last 2 weeks, they added 
some additional clerks to support these two other employees. 
But it was the contract office that was telling us, if you want 
to have controls over these contracts and to validate that the 
costs are as represented, then TSA is going to have to 
establish some controls over them.
    I would also like to say that Mr. Jackson and I did discuss 
this yesterday, and frankly, I don't think that the Deputy 
Secretary of Transportation or the Inspector General ought to 
have to be the ones that ensure that these charges get checked. 
I think it should come naturally to the agency that is 
incurring the charges at the low, maybe middle management 
levels. But Mr. Jackson and I, work together all the time, and 
I am sure we will take this one on, too, I am sure the next 
time we come back to report, these costs will be validated.
    Mr. Jackson. Mr. Chairman, one more layer of data on this. 
I agree with Mr. Mead that we need to do this. We so ordered 
this morning, and it will be dealt with.

                  CONTROLLING SCREENER CONTRACT COSTS

    Mr. Rogers. Well, before you get away from that, we would 
like to know what you agreed to do and the fact that it is 
being done, and I want a report up here to this committee, a 
letter or whatever from both of you, saying what steps are 
being taken to verify that the costs these screening companies 
are submitting are verifiable expenses, legitimate and 
verifiable expenses. I can't believe that you would have let 
this go this long, and just two people apparently, according to 
Mr. Mead, two people trying to keep track of all of these 
expenses.
    Mr. Jackson. Well, I will give you a little bit more 
granularity on it. The interim Federal security folks at the 
airport have the responsibility at the ground level to review 
these invoices and to evaluate and send them forward. That is 
one point. So the people in Washington are augmented by folks 
in the field who have responsibilities as well.
    The second point is that these contracts are by and large 
still undefinitized contracts. Let me explain what that means. 
In order to be able to execute contracts, we established the 
terms and conditions and a price cap that we would not exceed 
with the multiple screening companies. We have approximately 70 
contracts of this nature in place. We are undergoing a 
contract-by-contract definitization process, and I am sure I do 
not have the number for you. I will provide it in the letter 
about where we stand on the definitization. The definitization 
provides a look-back function that allows us to take those 
invoices after we have finished the definitized contract terms 
on pricing. The costs will not go up. It goes down. We will go 
back and look at those invoices and retroactively adjust costs 
if necessary.
    So the process that Mr. Mead is identifying now is the 
beginning stage of a process that will take many months for us 
to reach completion. But we promise that we are going to engage 
the right type of accounting assets, oversight assets to make 
sure this is done carefully and that we account for every 
penny.
    Mr. Rogers. Well, we expect a letter telling us what you 
have done to correct this problem.
    Mr. Jackson. Absolutely. Happy to.
    [The information follows:]

    A letter discussing the screening contracts is being 
prepared and will be provided to the committee as soon as 
possible.

    [Clerk's note.--As of September 23, 2002, this letter has 
not been received by the Committee].

                          ARGENBRIGHT CONTRACT

    Mr. Rogers. Number 2, Argenbright. Apparently you debarred 
Argenbright a couple of months ago from operating in airports, 
correct?
    Mr. Jackson. Yes, sir, the Federal Government, had a 
debarment action in place.
    Mr. Rogers. However, I am told that now some airlines are 
employing Argenbright, and you are reimbursing the airlines; is 
that correct?
    Mr. Jackson. Yes, sir. Let me explain how that process 
worked. We made a determination that when we took over the 
security screening contracts at each airport, we would evaluate 
whether we wanted to go forward and execute contracts and do 
business with each of these screening firms. In the case of 
Argenbright, the Department of Transportation decided that we 
would not use them as a vendor during the bridge period between 
now and November.
    So what we did is allow the existing airline contracts with 
Argenbright to remain in place and reimbursed the airline for 
their expense through that contracting mechanism. In other 
words, we did not renegotiate another contract; we did not work 
on pricing with Argenbright. We maintained the existing pricing 
and the existing contract in place and then put in place a 
mechanism to replace the Argenbright Company with other 
screening companies on an airport-by-airport basis in the 
roughly 35 airports they were operating in mid-February.
    We have already made the transition in some of those 
airports. The largest group of them will take effect next week, 
and we will very shortly have those contracts, with the 
exception of a few very small handful of airports which we will 
move directly from third-party screening to Federal employees 
in a couple of the pilot airports.
    Mr. Rogers. Let me say there, if Argenbright is still in 
any airport by the time we pass the supplemental bill, you will 
know that. You will know by what we do in the supplemental that 
Argenbright shouldn't be in any airport.
    Mr. Jackson. We are moving expeditiously to get that 
situation completed, sir, and we are trying to find the right 
balance so as not to disrupt the airport operation by 
precipitously trying to make a transition that we are not 
prepared to work. It does involve some increased training 
requirements of new employees, and moving a management team in 
place. We have put oversight through the TSA, so I would tell 
you that we are absolutely in lockstep with you on the 
intention. We are executing it smartly. In this month we are 
making the vast bulk of the changes necessary, and it will be 
done.
    Mr. Rogers. However you want to do it, they better be out 
by the time we pass the supplemental bill. I do not care how 
you do it. Get them the hell out of these airports.
    Mr. Jackson. Okay. Understood.
    Mr. Rogers. Mr. Sabo.

                REQUIREMENT FOR LAW ENFORCEMENT OFFICERS

    Mr. Sabo. There is so much that concerns me, it is hard to 
ask questions practically. In my view, TSA is an agency that 
seems to think that there is endless money out here or out at 
the airports, and you issue all kinds of requirements. It is 
beyond me why you have to have law enforcement officials to 
replace the National Guard, who played a largely symbolic 
value. For people who are highly trained, it takes lots of 
skill to stand around and look and stay attentive. They should 
be commended.
    But why we spent the millions of dollars to keep them there 
for months when, as I understand, if there was any problem, you 
had to call a law enforcement officer. And now we finally say, 
you can go home to your regular job, and now you have got to 
hire more law enforcement officers to replace them. It is 
beyond me. I see these staffing requirements coming in with 
just exploding numbers. You are going to have an agency much 
larger than the Coast Guard, you know. It just boggles my mind 
what you are doing.
    Why we aren't looking at part-timers for activity that 
clearly has significant peaks and valleys. Where the biggest 
problem is boredom, a part-timer is likely to stay more 
attentive than a full-timer.
    But why in the world would you require the airports to go 
out and pay double time, probably, to hire law enforcement 
officers to stand around and do what the guards were doing?
    Mr. Jackson. I will be happy to answer that. It is a 
component of the congressional statute that there be a law 
enforcement officer at each passenger screening checkpoint, and 
that is the requirement of the TSA. It has a November 
implementation date. In the spirit of this law, we are trying 
to provide some continuous supplemental coverage by law 
enforcement trained people at passenger screening checkpoints. 
The President, in consultation with the Governors, did deploy 
the National Guard for good reason, to try to augment and 
stabilize the confidence of the traveling public. They have 
done, I think, an excellent job and have contributed to the 
work that is being done.
    Mr. Sabo. If there was an incident, what did they have to 
do, call the airport police?
    Mr. Jackson. There are a lot of incidents. If there is an 
unruly passenger, there is an amazing calming influence that 
comes when someone with a rifle comes and says, can I help you, 
sir? What is the problem? They have engaged in that same 
process. They have been a security blanket to some extent.
    What we have in the statute is an absolute and clear 
requirement that there be a Federal law enforcement officer at 
each screening checkpoint. The idea here is that they are 
capable of resolving any incidents, and even if they do not 
become the arresting officer, they can detain and question 
passengers.

           TRANSITION OF LAW ENFORCEMENT OFFICERS AT AIRPORTS

    Mr. Sabo. I assume on November 1st, then, the local 
airports can put their police force back to normal days and 
maybe even reduce their force?
    Mr. Jackson. This is intended as a transitional device to 
keep a law enforcement presence there, and the TSA has 
volunteered to pay at the rate of roughly $50 an hour to 
reimburse airports for the cost of doing this.
    Again, Mr. Chairman, this goes to one of your points. We 
are not trying to hit a big stick on the table and make 
unilateral demands. We have been working for weeks and weeks 
trying to find a bridge to get the Guard out. The President has 
determined that, and appropriately so, that this deployment of 
the Guard will end by the 31st of May. Our clear reading of the 
statute was that there was a strong congressional intent to 
have law enforcement presence at these sites. We literally 
cannot hire, train, and deploy Federal law enforcement officers 
at these sites in a sufficient time to cover that gap between 
the end of May and the November deployment.
    Mr. Sabo. I am not sure that this bill is about unruly 
passengers. It is about terrorism, and there is a significant 
difference.
    Mr. Welna.
    Mr. Welna. Mr. Chairman, Congressman Sabo, committee 
members, I agree with Mr. Jackson about why the TSA is having 
to do this. But absent that requirement to have an LEO at the 
checkpoints, going back historically we had that requirement 
back in the early 1970s, and it is very difficult to go out and 
to attract and to retain the folks to stand at those 
checkpoints to do basically stationary patrol.
    In Minnesota, as in many States, we have a college degree 
requirement for police officers. They go to school for 13 weeks 
to become a police officer. They want a career in community 
service. To recruit them to go to the airport in the 1970s, 
airports had many problems with recruitment and retention.
    I believe that we can meet the needs for tough security, 
meet the intent of Congress, and meet the goals of what TSA is 
trying to do by having a flexible response capability at the 
airports, whether it be the airport operator, whether it be the 
TSA, which will really allow that person, instead of just 
standing there, to be able to move around in the area, to be 
observing, to be watching, to be talking to folks instead of in 
that sort of fixed location. So I would ask Congress to 
reconsider that requirement.
    Mr. Sabo. Did having the Guard on duty alleviate--reduce 
your law enforcement officer obligations while that was going 
on at any of your airports?
    Mr. Fegan. No.
    Mr. Jackson. There were increased law enforcement 
requirements all across the country's airports, and so as a 
whole there was no takedown as a general rule. I think most of 
my colleagues would agree.
    Mr. Sabo, if I could just--I made a mistake. I said $50 an 
hour. I meant $50,000 annual rate for our officers here on 
reimbursement.

                       USE OF PART-TIME EMPLOYEES

    Sir, you have also raised a question about part-time 
employees, and that is absolutely part of our plan. The federal 
law enforcement officer and the federal security director on 
the ground will make appropriate decisions about how to use a 
workforce that can be a part-time and full-time mix. We are 
giving them those tools, and we would expect that, depending 
upon the flight structure and the number of banks and the size 
of them, that there will be many airports where an opportunity 
to use part-time employees in a cost-effective way will be 
absolutely part of the mix of employment at the airport.

                    TECHNICAL AND POLICY AMENDMENTS

    Mr. Sabo. Let me also suggest that as you go about 
implementing this law and you find things that do not make 
sense, I think there is an obligation to come and ask for 
change. The message I got from authorizers as I listened to the 
discussion of this legislation was that it would pay for itself 
with the fees being imposed and the assessment on airlines. 
That clearly is not the case. We are now being asked to pay 
billions of dollars in general revenues for the requirements of 
this law that is being implemented by the Administration. And 
the Administration signed it, bought on to it. I think that is 
part of your obligation.
    Mr. Jackson. We are keeping a list of possible technical 
amendments.
    Mr. Sabo. I am not just looking at technical amendments. 
These are substantial issues. I think this is a prime example.
    Mr. Jackson. This includes technical and policy amendments, 
you are right, and we have a list of issues that we will bring 
up in due course for consideration.
    There was no ill will on anybody's part, but when we took 
on this task in the days after 9/11, no one knew what the price 
tag was going to be.
    I do think it is important for us to allow in 2002, and to 
some extent in 2003, a sorting out of the one-time costs and 
the stand-up costs so that we can figure out what the 
relationship is between the ongoing operational expenseof this 
agency with the fees that we have levied here. I think they may be a 
little higher than the $2 billion figure discussed earlier. In the next 
couple of months we will have the second set of data by that 
regulation, we have required from the airlines to be able to give you a 
definitive answer on what size the fee structure will generate.
    I know that there are very, very significant and strong 
investments that we have to make in this year and next, and I 
think we are a few months, regrettably, from understanding 
fully what the baseline operating costs of this new statute 
will be.
    Mr. Sabo. Well, Mr. Chairman, I am fearful we are going to 
spend a lot of money unwisely on TSA, and, as some witnesses 
suggested, find ourselves redoing airport security measures at 
great cost in the near future. I think Mr. Mead----
    Mr. Mead. I would just like to refer back to a point I made 
in my testimony because it is germane to this law enforcement 
presence issue. Now is the time to watch the cost growth in 
that area, and I am hopeful that in the budget justification 
materials that you find out how much they are planning to pay 
these law enforcement officers. The law enforcement series can 
be very expensive, and if you had the equivalent of FBI special 
agents at each security checkpoint, you are going to pay a lot 
more than if you have a regular Federal police officer such as 
they have at Defense. It is roughly, as I said in the 
testimony, the difference between $56,000 and almost $100,000.
    Secondly, I think you need information about the numbers. 
This can turn out to be a pretty big area and a pretty big cost 
driver.

                          STAFFING REQUIREMENT

    Mr. Rogers. Well, we are talking about an enormous amount 
of money here. And as we said earlier, when Congress envisioned 
this agency, we envisioned about 30,000 employees. As has been 
said, the estimates of the Department over the past 4 months 
have steadily risen to around 72,000 people. That would be 
larger than either the FAA, which is 50,000, or the Coast 
Guard, which is 40,000. It would be bigger than the FBI, DEA, 
Border Patrol, and Customs Service combined.
    I am here to tell you, it ain't going to happen. Why, it is 
ridiculous. We are not going to fund 72,000 people.
    So make your plans. Make do. You do part time, you do what 
you want to do, but we are not going to fund 72,000 people. 
Why, it is incredible, more than twice what we envisioned 4 
months ago.
    Mr. Callahan.
    Mr. Callahan. Mr. Chairman, I share in your frustration, 
and I am sure that they share as well in the frustration of 
trying to resolve this problem we face at this time in history. 
But you and I as late as last night discussed the dilemma we 
are in with Amtrak, and that is the cost of Amtrak supersedes 
the cost of flying a passenger to California. The taxpayer is 
paying $300 to Amtrak for every passenger that rides from 
Chicago to California. So wouldn't it be better off if we just 
gave them $300 and let them fly?
    The same theory is here, Mr. Chairman. We are taking a 
situation where we might be better off to give the traveler a 
clothing allowance and a toiletry allowance when he or she 
boards the airplane, and when they get to the destination 
without all of these bags, give them a check for $300 and let 
them buy some clothes. We are going to have to make some 
radical changes, Mr. Chairman.
    And I know that I have discussed this with you and some 
members in the industry about the inevitability of a major, a 
radical change, and that is by disallowing any baggage other 
than a hand-carry-on baggage to go on a passenger airplane. 
Some people might think that is ludicrous, it wouldn't work, 
but I assure you that UPS or FedEx could get their bags to the 
hotel before they would get there. They have overnight and 1-
day delivery, and we may someday be looking at an alternative 
by using UPS or FedEx and telling passengers, you stop by this 
terminal here or at this drop-off, and you check your bags 
through in a different fashion if they exceed one carry-on that 
the does not fit above, and then we could adequately screen 
what they carried on.
    But these costs Mr. Chairman, are not going to go down. And 
I know your threat, and I will agree with you that we should 
admonish them to start saving their pennies. My Web site and 
telephones are ringing off the hook because of the 
advertisement that you all are rightfully doing in putting out 
these employment opportunities on the Internet, and most of the 
people that call me are interested in the $100,000 and above 
jobs.
    And that is one question I have, how many jobs are we 
creating that pay an annual salary in excess of $75,000?
    Mr. Jackson. I will have to get you a more accurate answer. 
The vast bulk of the employees are screeners. They are the 
marching soldiers of this organization. Their starting salary 
is $23,600, I believe, for an entry-level screener.
    [The information follows:]

    As of April 17, 2002, there are 111 employees whose 
salaries are in excess of $75,000.

                 MANDATES AND COSTS IMPOSED ON AIRPORTS

    Mr. Callahan. Secondly, let me reemphasize what one of the 
airport managers said, and that is the capital cost that 
someone is going to have to pay for in order to comply with all 
of these new regulations that Congress and TSA and everyone 
else are putting on them. We are talking about major physical 
reconstruction of airports.
    Secondly, let me say that you cannot use a cookie-cutter 
approach towards airport security with respect, for example,to 
the 300-foot setback. In a small town like Mobile, Alabama, in an 
airport with a design like ours, which is still 600 or 700 yards from 
any airplane, there is no need for a 300-foot setback. If you are going 
to allow a car to drive up, you have an opportunity for a terrorist to 
blow the airport up, and to have this cookie-cutter approach saying 
every airport in America must have this restriction I think is moving 
in the wrong direction.
    I have some other concerns, Mr. Chairman, but I want to 
stay within my 5 minutes. But let me tell you this figure that 
you are facing today, this $4 or $5 billion, next year is going 
to be $8 billion, and it is going to continue to grow. And 
ultimately the bottom line, Mr. Chairman, who is going to have 
to pay for this? It is the consumer, the user. Somebody is 
going to have cough up the money to pay for this monstrosity of 
protection that we are creating. And I don't mean monstrosity 
in a negative sense. I mean in the huge sense. The flyer is 
going to have to pay for it. We have tokenized the flyer by a 
$2.50 enplanement fee, but we are looking at a $50 enplanement 
fee per passenger to pay for all of this.
    So I would encourage you to do everything you can to keep 
that cost down because your primary concern, other than 
security, is the loss of passengers. You are going to lose 
passengers when they realize that they are going to be paying 
the $50 that it takes to protect them from terrorist 
activities.
    And let me just close by saying, and I know Mr. Mineta has 
been under the weather, but eight Members of Congress wrote a 
letter to Secretary Mineta on February 27th regarding a 
communication service from the ground up, a different type of 
antenna situation. We still have not received a response to 
that. Would you get someone in Mr. Mineta's office to see what 
happened to that?
    Thank you, Mr. Chairman.
    [The information follows:

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Rogers. Thank you, Chairman Callahan.

                     CONGRESSIONAL OVERSIGHT OF TSA

    Mr. Mead made a point that I think might be appropriate to 
underline here in this conversation a moment ago, and that is--
and it is an obvious point--while you are going through this 
rapid, huge buildup that Congress directed you to do, once we 
get that system set in place, it is going to be hard to modify 
or change. That is just the way bureaucracies are. It will take 
on a life of its own. So it is very important that we restrain, 
as best we can, the urge to overstaff at this point in time, 
because once they are in place, it is hard to get rid of them.
    That is another big reason why we are going to insist that 
we know what you are doing every step of the way, because we 
are not going to pay for it unless we know that, unless we are 
assured in our own minds that you need these numbers of 
employees or the type that you have. And we are going to keep a 
close eye on that. And I just want to tell you again, we need 
answers to our questions. And if you do not provide them, you 
do not get any money.
    Mr. Jackson. Yes, sir. We welcome that oversight, that 
scrutiny, and the partnership with you in this. You have our 
pledge, from the Secretary, myself, and Mr. Magaw, that we will 
work with you.
    Mr. Rogers. I have heard that before, Mr. Jackson.
    Mr. Jackson. We are doing our very best, sir, to work 
through a series of things that have never been undertaken 
before on such a large scale, and we will keep working with 
you.
    Mr. Rogers. I understand that, and we are in that position, 
too. We have never gone through this either.
    Mr. Jackson. I understand.
    Mr. Rogers. But we will be the ones held responsible one of 
these days if something goes wrong moneywise. That being the 
case, and me being Chairman of this subcommittee, I am going to 
insist that we know precisely what you are doing, when you are 
doing it, and how, and if we do not like what we see, we will 
insist on changes as we go along. I don't want this thing set 
in place without us knowing about it, and then give us a bottom 
line bill that we can say yes or no on, and giving us no choice 
to control the process as it is set. Do you follow me?
    Mr. Jackson. I absolutely understand.
    Mr. Rogers. I have heard you say before, we are going to 
keep you informed, and you haven't. And so you have got a short 
string you are on at this point in time.
    Mr. Jackson. Understood. We have been working to close on 
what I think are some of the most thorny problems related to 
the Explosives Detection System (EDS)/Explosive Trace Detection 
(ETD) deployment, and that is what, within a matter of days, 
will allow us to impact not only the question about personnel, 
but equipment, and those are very large drivers of our success.

                             MAGNETOMETERS

    Mr. Rogers. Here is just a typical point, and I will be 
brief on this because others have questions. You could do with 
a lot fewer people, in my judgment, at the check-through lines 
for passengers if we spent a few dollars renovating the 
magnetometers, the plain old x-ray lines that are in airports 
now. I am told that the latest models of the magnetometers 
would reduce the numbers of people needing to be wanded by a 
human being from some 32 or 33 percent that is now required to 
around 7 percent. In other words, the newest equipment can 
discern whether or not a nail in your shoe is a pistol, where 
the present ones cannot, just as an example, and that we could 
substantially reduce the numbers of wanders that would be 
required under your setup just by bringing in the new 
magnetometers, at a cost of around $20 million for all 
airports. That is my information. Am I incorrect on that?
    Mr. Jackson. I will have to get back to you on these rates. 
I would just say that that is a part of the equipment review 
that we will be presenting in our dollar figures for you, sir.
    [The information follows:]

    The number of staff required for hand wand searches would 
not be reduced by the purchase of the latest models of Walk-
Through Metal Detectors (WTMD). The number of hand wand 
screeners is dictated by the security procedures put in place 
after September 11.
    Approximately $24 million is the full amount needed to 
upgrade and deploy our metal detection capability by purchasing 
next-generation WTMDs. Annual maintenance is estimated at $0.5 
million. An additional $1.2 million is required to replace 
7,500 hand-held metal detectors that are currently in use.

    Mr. Rogers. Before you hire the people that may not be 
necessary, we want to know the benefits of modernizing existing 
equipment.
    Mr. Jackson. Understood.
    Mr. Rogers. And I use that only as an example. There are 
many others.
    Mr. Jackson. I would just give you a caution, sir. If I had 
been able to take a buck to the bank for every vendor's claim 
about what they were going to do to make this cheaper, faster, 
then I would be able to retire from government service today. 
It is something that we have to look at every single day. We 
have to look at every single technology and examine them very 
carefully. We have been disappointed in many of these claims so 
far.
    We will certainly make sure that we give you the detailed 
information about the magnetometer manufacturers.
    Mr. Rogers. Well, other countries have been doing this, 
modernizing the magnetometers at great savings. They do not 
need as many personnel on the payroll as they would have, other 
countries. Yeah, vendors, sure, they will sell you anything.
    But at some point in time it is verified and other 
countries, you know, are doing this. I do not know why we have 
not done it sooner myself. Maybe some of the airport operators 
might have a thought about this point.
    Mr. DeLong.

                             TSA WORKFORCE

    Mr. DeLong. Not as it relates to the checkpoint, but we 
know, for example, that the CTX 9000 can process twice to three 
times as many bags and do it with one fewer person than the 
proposed combination, where with the 5500 and one trace 
detector they need three people. So as, for example, that 
technology comes on-line, you can reduce by 33 percent the 
number of people necessary for the bag search portion. So the 
answer is in time I believe you will see those economies 
occurring.
    Mr. Rogers. By then we will have hired all of these people 
we do not need.
    Mr. Jackson. Mr. Chairman, I will say we have built into 
this process, through statutory provisions that Congress baked 
into the statute, the capacity to surge the work force up and 
down, and that is how we are advising people. That just has to 
be a component of this particular operation. If a given airport 
drops 20 percent of its flights because of an ingestion in the 
marketplace or an airline moving, we have tobe able to match 
appropriately our assets in the field. In addition, our multi-year plan 
for TSA starts with balancing people versus the large capital 
expenditures in, I think, a measured way. So the people costs will be 
initially somewhat higher and, in a plan that is measured, move down as 
we make coherent technology investments to go along with the work that 
you are generically asking us to do.
    We do not intend to be hamstrung, nor did the Congress 
intend to hamstring us, by the amount we have to surge in to 
meet the challenge. But by the same token, we are very 
respectful of the specific obligations that this department has 
under the statute to meet these requirements. We are taking 
them seriously. We are trying to give you our best plan to get 
there and to do what is asked of us and to do it in a 
reasonable and coherent fashion that allows us to minimize the 
expense to the taxpayer this year and in years forward.
    Mr. Rogers. We will just keep a close tab on it, and I will 
tell you again you will not get 72,000 employees.

                    VOTE TO CLOSE AFTERNOON HEARING

    We have to do a housekeeping chore while we have several 
members of the majority here. The afternoon session at 2:00 is 
proposed to be a closed session. That does require a vote of 
the subcommittee. So I move the afternoon's hearing be closed 
to the public for the purposes of discussing national security 
information which has been determined to be classified by 
appropriate authority. All in favor of the motion say aye. All 
opposed say nay. The Clerk will call the roll.
    The Clerk. Chairman Rogers.
    Mr. Rogers. Aye.
    The Clerk. Mr. Sabo.
    Mr. Sabo. Aye.
    The Clerk. Chairman Young.
    [No response.]
    The Clerk. Mr. Olver.
    Mr. Olver. Aye.
    The Clerk. Mr. Wolf.
    [No response.]
    The Clerk. Mr. Pastor.
    Mr. Pastor. Aye.
    The Clerk. Mr. Delay.
    [No response.]
    The Clerk. Ms. Kilpatrick.
    Ms. Kilpatrick. Aye.
    The Clerk. Mr. Callahan.
    Mr. Callahan. Aye.
    The Clerk. Mr. Serrano.
    [No response.]
    The Clerk. Mr. Tiahrt.
    Mr. Tiahrt. Aye.
    The Clerk. Mr. Clyburn.
    [No response.]
    The Clerk. Mr. Aderholt.
    [No response.]
    The Clerk. Mr. Obey.
    [No response.]
    The Clerk. Ms. Granger.
    Ms. Granger. Aye.
    The Clerk. Mrs. Emerson.
    Mrs. Emerson. Aye.
    The Clerk. Mr. Sweeney.
    Mr. Sweeney. Aye.
    Mr. Rogers. The vote is 10 in favor and none against, and 
the 2 o'clock session will be closed accordingly.
    Mr. Pastor.

                       USE OF ADVANCED TECHNOLOGY

    Mr. Pastor. First after all, Mr. Chairman, thank you for 
having this hearing. And I, like many members up here, after 
hearing the testimony, have acquired a sense of frustration. 
One is hearing, Mr. Jackson, that because the statute requires 
certain deadlines and in trying to reach those deadlines it is 
causing serious concerns among the airports. Therefore they 
want to be partners. I think they should be partners, but yet 
they are finding themselves in a situation where as they 
respond to your inquiry, their response may not be the one that 
you want to hear.
    Something was brought up that I would like to just spend a 
few minutes on, and anyone on the panel could discuss it. I 
agree with Congressman Sabo, I feel like I am throwing good 
money at a bad situation. We are dealing with a screening 
process that is at least 30 years old and other nations are now 
using more advanced technology but it seems that we are 
addressing this problem in the same old way by throwing 
billions of dollars, 72,000 employees, maybe less, and a 
$100,000 salary, and are people as secure as we want them to 
be?
    Has anybody thought about maybe looking at this and saying, 
hey, maybe this deadline is not realistic and it is causing us 
to look at this situation in the wrong manner? Is there a 
better system that we can implement that would be more 
effective, maybe less costly and the airport could be able to 
implement and you would not have to have a policeman standing 
at every screen? Do we have time to do that?
    Mr. Jackson. Mr. Pastor, I believe that we are not imposing 
a 30-year-old system. That would be an unfair characterization 
of what we are trying to do. We are open to every technology 
and operational change that we can find to make this work 
better. I will give you just two quick examples.

                     EVALUATING SCREENING SOLUTIONS

    First, at BWI Airport we ran a laboratory on the process of 
how to run people through an airport screening checkpoint more 
effectively. We did not use rocket science for this. We used a 
lot of very smart people who looked at a multiplicity of very 
small things. It was a combination of 20 or 30 different minor 
changes that yielded a 23 percent per employee productivity 
increase on moving passengers through the checkpoint. We made 
an enormous stride there, and it was not by taking the 30-year-
old system and simply embracing it. We used that laboratory to 
good effect.
    Mr. Pastor. Let me ask a question on that. Was there new 
technology used and did it show that there was a reduction of 
personnel needed, which is a concern the chairman has?
    Mr. Jackson. The technology was not new. We used the exact 
technology that was there. So we could say if we inherited the 
magnetometers and x-ray machines that we had and added to them 
in minor ways, what would we be able to do. The chairman raised 
an absolutely appropriate and important question. You go and, 
say for a dollar, added what is the incremental net benefit if 
you bring new technology in. That is very much a part of what 
we are doing there.
    I would love to take any of the members of this committee 
to BWI and show you our lab and how we are working that 
process. I think it is a very educational experience.
    We are using the 15 airports next to try to take that model 
and squeeze it down more and learn more. We are absolutely in 
partnership with the airports. They are absolutely frustrated 
because they all wanted to know in January what is it I need to 
do. They all stood up and saluted to the President and to the 
Congress and to the reality of the threat that there are bad 
guys in this world and in this country.
    They have been willing to do a lot and we have taken what 
is, I know, a frustratingly small pause here to make sure we 
get it right. We take it at a couple of places, and work it and 
test it, so that when we take this crushing deadline schedule 
of a 1-year forced march we can deliver with the maximum 
impact. We are now at the point, as the Inspector General said, 
where we are about to launch a lot more publicly visible work, 
but we did not want to launch without effect. We did not want 
to fire before we aimed.
    So that is a case of the process on the passenger side. On 
the baggage side we have gone through an arduous process of 
reevaluating the mix and protocols for using the explosives 
detection equipment in airports over the last 2 months. Again 
it has not been publicly visible to my colleagues for the most 
part. But we did so precisely to make sure we could reduce the 
capital expenditures in a coherent way and refine and test and 
use this technology in an aggressive fashion.
    We have recruited in a procurement, which closed last week, 
some of the finest technology companies in the world to be 
partners in helping to drive down the error rates and to 
strengthen the capacity to detect explosives with the equipment 
we have. I am very pleased at the type of cooperation we are 
getting.

                      TSA DECISION-MAKING PROCESS

    I do not want to leave you with a misapprehension that we 
are sitting on our thumbs or that we are just taking what is 
inherited and working it. It is a hard set of issues. We do not 
have all the answers. We will make mistakes. We have already 
done so. We will get back there and try to correct them while 
they are there.
    Mr. Pastor. I want to minimize mistakes but we have a tough 
deadline. The deadline is pushing you, is pushing them, and yet 
we are coming to some decisions that may be very costly to the 
airport and costly to TSA and more costly to the passengers 
because they do not know if they are any more secure than they 
were before September 11.
    Mr. Jackson. We are very much more secure than we were 
before September 11. We have all worked hard to make this work 
right. The Congress has, the Administration has, the airports 
have, the airlines have and the public has been patient while 
we do this for the most part. It is a significantly better 
aviation system. It will be better month by month throughout 
this year.
    I will tell you about Mr. Fegan. He jumped up to the plate 
early in this process. I went down to visit him in January. We 
went through this process to look at his airport because he has 
a very unique set of very complicated and very expensive 
problems. Secretary Mineta was in his airport on Sunday.
    Mr. Pastor. I was there yesterday.
    Mr. Jackson. I am sure the airlines appreciate that. We 
have been back there. We put one of our newest federal Security 
Directors on the job in his airport. We think that we can 
reach, with the policy decisions that we are bringing to close 
within the Administration this week, an answer to the question 
that he has fairly and appropriately laid on the table and we 
can proceed in a deliberate way. If we did not want to false 
start, we needed another week or two to make sure that we did 
not have one. He has been patient and we will get there.
    Mr. Pastor. It is not to criticize you and I did not want 
it to sound that way. As I sat up here and heard the panel, it 
seemed to me that the deadlines of the statute are causing some 
decisions to be made and those decisions may be throwing good 
money at a bad situation. None of the members of this 
subcommittee do not want to do that. So again, as Congressman 
Sabo told you, what you need to do is inform us and say, look, 
this deadline is not practical for these reasons, so at least 
we can be aware of the reality and as we work on appropriations 
or the supplemental then maybe we can give relief, he may also 
be able to adjust the legislation or help you in making sure 
that the security is there, but it is at a reasonable cost and 
that the airports are not taking up all the load.
    Mr. Chairman, I will tell you maybe one of the first things 
we ought to do with the supplemental, as we discuss it, is to 
consider the cost that the airports have already been bearing 
up to date and maybe that should be the first cut in their 
reimbursement.
    Mr. Rogers. The gentleman is correct and in putting the 
supplemental together, there will be monies that we recommend 
for that purpose.

                   DOT'S COMMITMENT TO MEET DEADLINES

    Mr. Jackson. Mr. Pastor, I will give one contextual 
response to your remarks, and I appreciate the intensity which 
all of you have focused on this issue. When I came to the 
Department of Transportation to work for Norm Mineta and his 
team was put together, one of the things we heard in talking to 
members is the that Department ofTransportation had a culture 
of noncompliance. It had too often missed regulatory mandates given to 
it by the Congress, and it had failed to move with alacrity on many 
important tasks to implement crucial statutes.
    So we were determined to try to remedy, as much as we 
could, the backlog, but when we got this most important 
national security priority from the Congress after a 
substantial convulsion of debate and discussion, and admittedly 
compressed into a short period of time, we affirmed to 
ourselves that we were not going to let anybody get in the way 
of this program. We are not going to do it stupidly. We are not 
going to spend money wastefully. We are going to to make this a 
case study for the implementations that will be an A-plus 
effort by the Congress and Administration to work together.
    I will tell you if we are guilty of anything, I am guilty 
of intolerance for people who tell me they cannot figure it out 
or get it done. If they cannot figure it out, we will work with 
you to figure it out. If we make a mistake, we will correct it 
and we will get on with it. But we will not sit on our haunches 
and say we cannot do this and woe is us.
    So if the conversation with the Congress generally will 
give us a different direction, we will make sure we behave 
accordingly, but until otherwise instructed this is one crew of 
people who otherwise are intent on doing the job. It is a hard 
one. It is a tough row to hoe. It requires an enormous amount 
of money, but we will get it done with your help. We know it is 
going to be hard.
    Mr. Pastor. Thank you, Mr. Chairman. I will recommend one 
thing, as Chairman Young made the recommendation to have the 
screeners have sensitivity training, that Mr. Koslosky 
suggested maybe the TSA could also participate in those 
classes.
    Mr. Rogers. I thank the gentleman for his excellent 
questions and comments.

                         DECEMBER 31ST DEADLINE

    I think Mr. Sabo's suggestion is an excellent one. Mr. Mead 
has said that, in his judgment, you cannot comply with the law, 
that you cannot do what you have got to do by the deadline, 
December 31.
    Mr. Mead. I did not quite say that. I said that they cannot 
install by December 31 the explosives detection machines 
sufficient to screen 100 percent of checked luggage. They in 
fact probably can, through some combination of the explosives 
detection machines and explosive trace detection units, which 
is very staff intensive. Somehow, if they focus on that 
myopically, I think they can do it, but it will be very, very 
costly.
    Mr. Rogers. Like I said, you cannot get there from here. 
You can qualify what you say, but we all know you cannot get 
there. That being the case, I think Mr. Sabo's suggestion is a 
very good one. If you would tell us what technical corrections 
to the law would be especially helpful, it is something that we 
can try to work on with the authorizers to try to provide some 
safety release here, because if these deadlines were causing us 
to spend $10 zillion when if we waited a couple months more we 
could get it done for half that price by getting new equipment 
or whatever, then that is worth talking about and we are 
willing to be the agents for that if necessary. So I hope that 
you will take that seriously.

                      ABILITY TO REDUCE STAFF SIZE

    Number two, if you hire all of these people and then later 
we learn that we can get new magnetometers or some other 
equipment that renders a good portion of these people 
unnecessary, I do not think we can quickly reduce that work 
force as you have suggested might be possible. If so, it will 
be the first time in the history of mankind.
    Mr. Jackson. There will be many firsts in the history of 
mankind when the history of TSA is written. I hope to make this 
one of them and I fully intend that it is one of them.
    Mr. Rogers. I am saying we do not want you to hire those 
people until you have exhausted all other avenues, equipment 
upgrade, what have you. That is the only point I can make 
because I do not think you can get rid of those people once you 
have hired them.
    Mr. Jackson. Actually, sir, you gave us pretty good 
authority there, sir, and we will use it.
    Mr. Rogers. Mr. Tiahrt.

               FLEXIBLE AND APPROPRIATE SECURITY MEASURES

    Mr. Tiahrt. Mr. Jackson, you are setting up a new 
administration and I assume that you are using generally 
accepted accounting practices in the way you are keeping your 
books. If you are not, I would like to know why and what 
obstacles are in the way. We do not want to have another 
situation like the Department of Education that cannot account 
for a billion dollars. A lot of money is going to be going 
through your administration, and we want to make sure we can 
account for it.
    Secondly, I have personally witnessed what appeared to be 
an 8-year-old girl being searched and wanded. I have also seen 
an 80-year-old woman who is helped out of a wheelchair to be 
searched and wanded. In my wildest dreams I cannot imagine them 
charging a cockpit, kicking down the door and holding a pilot 
hostage. I have also seen a Navy captain who we have entrusted 
with our Nation's most dangerous weapons be searched and wanded 
at an airport. I was told as I came from Wichita, Kansas just 
yesterday that Ray Charles, the blind performer, the pianist 
was searched and wanded at Wichita's airport.
    The system is broke because even with all of thatnonsense, 
which is a waste of time and taxpayer dollars, it still does not stop 
someone who is intending on committing suicide, a homicide bomber from 
getting on an airplane if they happen to fall outside the random 
sample. We are checking one out of three or four or five and still 
people are getting through that system.
    So through technology and common sense we have to change 
that system and we have to allow for frequent travelers 
especially to travel comfortably. We are strangling general 
aviation, small and medium airports, fixed base operations, mom 
and pop shops are suffering because the Department of 
Transportation, the FAA and TSA are not acting in a timely 
manner to open up airports and allow access. A good example is 
Reagan National.
    We have an opportunity, through a proposal that was put 
forth by the National Business Aviation Association, through 
security letters of authorization that allow background checks 
for pilots and crew and people that maintain airplanes, a 
passenger list, that are more than we get out of Saudi Arabia 
on their incoming flights. They are willing to do that so we 
can open up airports like Reagan National and allow people who 
conduct business here in Washington to do that.
    Right now it is a tremendous inconvenience that is running 
people out of business. I want to see us move forward on 
opening these airports. I do not understand the restrictions. I 
understand the United States Secret Service asking them for 
advice. They are pessimists. The glass is never half full. It 
is their job to be pessimists, I am glad they are, but they 
cannot rule over what is going on at Reagan National. And I 
think you guys have only listened to them. I want to know why 
we cannot open up Reagan National and general aviation.
    One last thing, you mentioned the 300-foot rule that is 
going to be revised. I hope it will not be a one size that fits 
all. Can you give us a preview of what that will be and can you 
commit to when we will get some kind of firm guideline?
    Mr. Jackson. I think it is the intention of TSA to wrap 
this up next week. It has not come to me or the Secretary for a 
final briefing. We would like to make sure that we do that. It 
is a rule that is intended to make sure that we do not have a 
one size fits all. It is a rule that bakes in flexibilities at 
the smaller level and the higher level in different ways, and 
then some on-ground discretion to exercise what you so rightly 
said needs to be a cornerstone of the way this works, which is 
some common sense from the Federal Security Director on the 
ground to work with airports to make that work more 
effectively.
    I will say there is a lot of frustration on that front, but 
it is an example of what happened after September 11. I was 
sitting with the Secretary as he had to make some tough 
decisions about how to throw up a system of systems around a 
threat that we did not fully understand. We knew it was real. 
We had seen it bring mayhem to our country on that day and I 
think we did some things that were beyond what we needed on a 
normal operating basis once we return to the new normalcy.
    So we are trying systematically and carefully to review 
each of these types of rules. We have made significant changes 
and new additions as we go along. It will be a moving picture 
to continue to provide common sense. I think you are absolutely 
right on that, sir.
    On Reagan National, I can report that I am very pleased 
that this week marks the return of authorization for all 
commercial flights to Reagan National. This was a long and 
difficult process, but one we have managed in a systematic way 
from the very beginning with support from the President of the 
United States, the Secretary, all the way down, to make certain 
that we got there.
    General Aviation (GA) is the last component part that we 
have to fix and we are working very, very carefully on that. As 
a matter of fact, I believe it was last week with the same 
individuals that you mentioned in the trade association that is 
trying to represent a solution here, we are actively engaged on 
a process to try to make that work. It is a complex set of 
questions but we are committed to working it. I am optimistic 
that we will find a timely solution to that as well.
    So that will be the last GA disruption in the United 
States. We have narrowed the range. It took months to get here, 
but we have not lost the vision of making sure we get back to 
normal in some meaningful way everywhere across the country.

                      ECONOMIC IMPACT ON AVIATION

    Mr. Tiahrt. Aviation typically is the first to feel the 
impact of economic recession. Cashflows get short so they quit 
taking delivery on airplanes. They are also the last to recover 
because people want to see cash before they buy the airplanes 
or take delivery on airplanes. So every moment that we delay we 
put a hindrance in air transportation and the aviation 
industry, and that is a big component of our economy. And if 
our economy is not strong, our revenues are down. And if our 
revenues are down, we cannot pay for the things we need to pay 
for to make this country safe.
    I want to encourage you to keep pushing the envelope, keep 
pushing to get things done.
    Mr. Jackson. Yes, sir, we are in agreement with you. This 
is the last one that we have to figure out this way, and there 
are alternatives that business users are currently using in 
local area airports to land and take off here. Thisis an 
important thing to do and we are working on it. Thank you, Mr. 
Chairman.
    Mr. Rogers. Mr. Olver.
    Mr. Olver. Mr. Chairman, Ms. Kilpatrick was here before I 
was.
    Mr. Rogers. Ms. Kilpatrick.
    Ms. Kilpatrick. Thank you, Mr. Olver. Thank you, Mr. 
Chairman.

                         UNREALISTIC DEADLINES

    Two and a half hours later I am just trying to make sure 
first that I understand. Since February--let me back up, since 
September 11 the very foundations of America and the world has 
been shattered. Loss of lives and degradation that the country 
and the world has gone through since that time, the world will 
never be the same and certainly not our country. As we passed 
the legislation that set up the TSA, the goals that the 
Congress put forth appear unrealistic. We now know that. The 
airports know it. The airlines know it, and I think TSA knows 
it and really has not been back to this body, as many have 
said, to ask for some changes.

                               TSA COSTS

    This is the appropriations committee. You spent $2.2 
billion or will be out of it in the next few weeks. You come to 
the committee with no budget justification asking for another 
$4.4 billion and then expect us to just give it to you, which I 
think the chairman and the ranking member and all of us are 
saying that will not happen. Four months ago it was 30 to 
40,000 employees. Today it is 70,000-plus employees.
    The costs are too high. The equipment we are talking about 
putting into facilities, and we have four airports represented 
here, two of which have to have new facilities to even house 
the equipment. The costs are too high. I like what the Grand 
Rapids gentleman said, maybe the technology needs to be looked 
at. Some members up here also acquiesced to that. The passenger 
security fee is not enough. Now we know that. What Mr. Callahan 
said, what we thought would be $2.50 or $5 may end up being $25 
to $50 and the cost of flying is already too high.
    The reimbursements the Dallas airport asked for and you 
talk about working with them and, yes, they want to work with 
you, but they need a new facility to put machines in at the 
cost of some $193 million. No rooms for machines at other 
places.

            CONCERNS WITH COSTS, EFFECTIVENESS AND DEADLINES

    The screening companies, and we found out right after a 
week after the tragedy, the companies were foreign-owned, 70 
percent of the employees were not U.S. citizens. We are still 
finding Argenbright is still operating. The chairman said 
emphatically today move them or you will not get much of the 
supplemental funding you are asking for. I think it is time for 
the subcommittee and the administration and all of us to work 
better together.
    What we have done since September 11 to rectify the 
aviation system that existed then and what we are trying to 
build now is not working. We do not have the dollars to make 
sure that you get what you need. Mr. Mead has been very gentle. 
They always take particular attention to listen to him when he 
testifies. He is the objective voice we listen to. 
Additionally, we have four airports here, I might say.
    Mr. Jackson, I might say you have been masterful in Mr. 
Magaw's stead. I commend you for that. You certainly know how 
to testify before a congressional committee. You are very good 
at that.
    I am just at a loss where we go from here. The dollars that 
you need, and they are not unlimited dollars. The country is in 
very much of a slowdown. We have to take care of our medical 
care system, which is collapsing in America and is not on 
anybody's agenda, from the doctors to the hospitals or anybody 
in between.
    Today as we come to airline security and TSA's 
responsibility as this Congress has given to you, you cannot do 
it. When I came to this committee we were talking about Amtrak 
was going to be self-sustaining by this December. They could 
not do it then and they cannot do it now. We have to be 
realistic. It is so stressful to fly. Ninety percent of 535 
Members fly twice a week, so you have our ear to make it right. 
We too are spread-eagled and shoes off and all of that. We are 
not asking it be any different, but the system we have been 
talking about for the last 2 hours, instead of doing the cookie 
cutter approach, we need to do an overhaul and we need to take 
the time to do it right and look at what is available 
technology-wise realistically at the airports and then see how 
we do it. I think the American people want us to do it right 
rather than quick, want us to be secure.
    So, Mr. Jackson, as you come today for Mr. Magaw, and we 
send our regards to him as he has had heart surgery, thank you 
for your presentation, but I am certainly at a loss to see 
where we go from here. 30,000 employees 4 months ago, now you 
need 70,000. I do not care what you say, the employees do not 
make up this $4.4 billion. The bulk of that, and we have no 
budget justifications, is probably the equipment, and it may be 
outdated.
    I saw you get a little afraid when somebody talked about 
it. Of course, you have to try everything and come up with the 
best. We live in a high tech society and there is probably 
something on the drawing board that can probably do it quicker, 
faster and cheaper. And being the last person and having heard 
everyone else speak, the advantage of that is to really see, 
and, Mr. Mead and Mr. Jackson, you have heard everything all us 
of have said. We have heard you this morning. Are we going to 
make it? Do we start over anew?
    We know the deadlines are unrealistic. The way they 
getchanged is you come to the chairman or somebody and say let us get 
it changed. We can do that. That only takes 218 votes and 51 on the 
other side.
    So the screeners themselves who are at the airport and you 
are saying $21,000, that could not add up to $4 billion. And by 
the way, another problem, women screeners. Women want women to 
screen them. We do not particularly want men to screen us. You 
do not have enough women on staff for that.
    It is problems right down from the very existence and 
starting of TSA. Rather than doing it wrong, I would like to do 
it right. We have to help the airports. They need new 
facilities to put the machines in. We used to do big phones 
with cords. Everything is new now. There is probably something 
new that can help us in our baggage as we go on airlines.
    Really, Mr. Jackson, I am making more of a statement than a 
question. You have been masterful this morning in terms of 
fending for yourself and the agency, but 70,000 new people when 
you needed 30,000-40,000 a few months ago, that probably will 
not happen. Are we any safer? We do not really know. There has 
not been any new conflict but we are at war, and maybe World 
War III if we are not very careful. That is something that is 
out of control.
    I come from Michigan, and the largest population of Middle 
Easterners outside of the Middle East lives in Michigan. We 
have Jewish friends on both sides. They are all intermingled as 
American citizens, most of them. We have given you $2.2 
billion. You have come with no budget justification asking for 
$4 billion more. As I listen to the discussion, most of that is 
going into equipment that may be antiquated. You might need 
something else. And even the $100,000 that someone mentioned 
here that we will pay the personnel, that is probably a few but 
how many? You are not able to tell us that.
    So as a member of the subcommittee and one that will be 
voting on the supplemental as it goes through, I am scared by 
what I hear and I know that the dollars that we may need are 
not there because we still have to fund education and housing 
and health care and all the like. So as the last questioner, 
statement, I didn't mean to make all that, I had several 
questions here but I do not know what question to ask now.
    Can we do what we need to do? Do we reexamine what TSA's 
mission is? Are the dates going to be met? We cannot build 
those machines. We knew it when we passed that. We had 
testimony before that. The company, whoever it is, there are 
only three companies that make the machines, it cannot produce 
enough, 24 here, 12 there. It cannot do it. 429 airports. We 
are reasonable. We talk bad and big, but we are pretty 
reasonable most of the time if you can get to us right.
    Mr. Mead and Mr. Jackson, as I close, where do we go from 
here?

                          DECEMBER 31 DEADLINE

    Mr. Mead. Mr. Jackson took one of these December 31 
questions before, and I would like to approach the question, 
too.
    I do not think there is any question that the December 31 
date is driving behaviors above costs and acquisitions. I do 
not think they would otherwise occur at that pace. I think that 
the Chairman made a point about magnetometers earlier. I think 
they need to be investigated by TSA because, in fact, the 
magnetometers that we have out there, the magnetometers we have 
at BWI, are old magnetometers. We have an old magnetometer 
standard. The Secret Service has a more modern, more current 
generation of this technology. But magnetometers are not 
mentioned in the deadlines in the security legislation.
    Now, I think there is a question of do we blink on this 
December 31 date together. Who blinks first and speaks to its 
realism because I think it can be done under a certain 
scenario, but it will be costly. I think we all should reflect 
on the history of the December 31 date. I am not privy to how 
the December 31, 2002 date, was established, but I do know what 
led to Congress establishing a date. What led Congress to set 
that date was a regulatory failure over a period of years where 
Congress kept hearing about the underutilization of machines 
that they were investing $1 million in. They were looking to 
FAA to establish rules that would increase the utilization of 
these things. The utilization did not increase, September 11 
happened, and Congress became outraged. They wanted to do 
something. And that is something of the context in which that 
law was passed.
    I do not think this Administration wants to be in a 
position to say, well, if the December 31 date slips or if it 
is modified or caveated or if there is a safety valve put on it 
that security is not important to them. I know no Member of 
Congress wants that, and I certainly do not want that, but 
there are these pressures that are associated with this 
December 31 date that are unfortunate. I think the pressures 
are very difficult to deal with, and that is why you are in the 
position you are, and Mr. Jackson is where he is.
    Mr. Jackson. Congresswoman, thank you for your comments, 
and I will say the Administration did not propose this deadline 
but we agreed to saddle up and ride to it. I know that we can 
balance being quick and nimble with being good at meeting the 
core need. The people that the President of the United States 
calls the evil ones have not gone away for good. They are there 
and there is a threat, and so we know that we are in a 
balancing game.
    You in this committee, of all places in the Congress, have 
that very, very tough balancing process that you have to workon 
multiple competing priorities. What we are trying to do is give you a 
game plan that can fairly and effectively and in responsible and 
deliberate way, put this balance into place and make it work. I do 
think we can make it work.
    We are using very innovative contracting mechanisms. We are 
revolutionizing the way we train and hire and support the staff 
that is going to have to do this. But it is, at the end of the 
day, a daunting national task, and it has to be one that we all 
stay on together so that we can support it.
    So I am absolutely willing to be in a dialogue about all of 
the particulars at a gruesome level. When Mr. Mead said earlier 
this is not a topic that the Deputy Secretary and the IG ought 
to be talking about, I will tell you there is no topic here 
that the Deputy Secretary or the Secretary or Mr. Magaw will 
not chase till the midnight hours on Saturdays and Sundays to 
figure out the right balance. We need to work to figure out 
what we can afford, but we will give you a game plan on what we 
need to get there and it will be a reasonable one and open to 
changes as we work with the committee to fund what we need.
    Ms. Kilpatrick. Thank you, Mr. Chairman.
    Mr. Rogers. Mr. Olver, do you have any questions?
    Mr. Olver. I was going to pass, Mr. Chairman, because I had 
come in quite late from my own committee which was having an 
equally contentious kind of hearing downstairs. But the last 
set of comments have made me to want to ask of Mr. Mead, how 
can the deadline of December 31 be met for complete inspection 
of baggage? How can that be met now?

                     BAGGAGE SCREENING METHODOLOGY

    Mr. Mead. I think Mr. Jackson would want to add to this. 
The way is through a combination of taking these big machines, 
these that you have seen at the airports, they are the size of 
a tank.
    Mr. Olver. Which will cost millions of dollars, a million 
and a half each.
    Mr. Jackson. We have reduced the price from about the 
million dollar price point through some good negotiations to 
the $700,000 range. That depends on the size. That is not 
cheap.
    Mr. Olver. How many can be manufactured in the next six 
months?
    Mr. Jackson. By the year's end the manufacturers tell us 
that they can manufacture 1,350 of these devices, and we have a 
procurement contract out on the street to bolster, reinforce 
and improve that procurement capability.
    Mr. Mead. But they would obviously need substantially more 
machines.
    Mr. Olver. Than the 1,300?
    Mr. Mead. Yes.
    Mr. Olver. How else do we do it then?
    Mr. Mead. The other approach that we can supplement it with 
explosive trace detection units. Trace has been in use in 
airports for some time at the passenger screening checkpoints. 
After you go through sometimes they say, can I see your 
briefcase, sir? And they take out something that looks like a 
piece of cotton. They rub it on the briefcase and they put it 
in a machine. That is a trace machine. Those are $40,000 or so 
apiece but very staff intensive because somebody has to rub the 
bag, then put the swab in this machine and the machine says 
within a high degree of reliability whether trace particles of 
an explosive are present or not.
    That technique would be used to screen checked baggage and 
satisfy the legal requirement. Unfortunately, that technique is 
very staff intensive, presents an issue about whether you have 
to open up the bag to do a good trace or a good swab. In other 
words, you have a closed bag. Is it enough to just swab around 
the zipper of it or do I have to open it up and swab the 
contents inside the bag. If I have to swab on the inside, it is 
extremely staff intensive and invasive. It takes more time.
    That is one of the issues that the Administration is 
sorting through and maybe something we could speak to in the 
closed session as to why that is an issue at all. But that is a 
huge cost driver, and Mr. Jackson can speak to the issue of the 
mix.
    So what you are going to end up having, sir, is some 
baggage will be screened by the explosive detection machines, 
some exclusively by trace, and some airports will be using both 
explosive detection machines and trace.
    Mr. Olver. But you would not have people just rummaging 
through the bags per se at all?
    Mr. Jackson. No, sir.
    Mr. Olver. What is the detection mechanism on the trace?
    Mr. Jackson. The trace measures the residue of potential 
explosives that are on the bag, and we will talk a little bit 
about this in the closed session in more detail. But both are 
very, very precise scientific instruments. Frankly, the EDS 
machines are an older x-ray technology. The trace is a more 
recent core technology, but they are used globally in Israel 
and Europe and around this country, and we have some very good 
data on them.
    Mr. Olver. Surely there must be some technology 
improvements, including the trace and simple metal detectors. I 
am surprised, just anecdotally myself, as Ms. Kilpatrick 
pointed out, that we fly two times a week essentially and 
sometimes the machines will catch my watch or my belt buckle 
which I thought was brass but maybe is not, or sometimes it 
will catch the medical medallion that I wear around my neck and 
is very difficult to remove all the time and sometimes I go 
right through. It makes me wonder if we have no realstandards 
on how this machinery is working and whether it is up to date. We 
surely have better technology available than we are using and is 
deployed around here now. But that would take some time.
    Mr. Jackson. Mr. Chairman, you are working on a good 
coalition for the program to upgrade these magnetometers. I 
think you have a coalition going here. We believe that one of 
the courses you raised, sir, is that uniformity and 
predictability across the system is an indispensable component 
of the trust of the American people.
    Mr. Olver. I think to speed things up, I think some of the 
machines are just randomly turned off.
    Mr. Rogers. We have got to get out of here. Do you have 
anything further?
    Mr. Olver. No.

                       CLOSED SESSION DISCUSSION

    Mr. Rogers. I want us to be able to wrap up quickly because 
we have to get ready for the 2 o'clock hearing and they have to 
do certain things to the room. Before Mr. Jackson leaves, he 
will not be able to be with us for the 2 o'clock session.
    Mr. Jackson. I can be, with your forbearance, but I have to 
make a trip up the avenue after that.
    Mr. Rogers. Good. Let me ask you a couple things before we 
wrap this up.
    Mr. Callahan. Mr. Chairman, I have a question for the 
Airport Authority people.
    Mr. Rogers. Go ahead and ask it.

                   COSTS TO MODIFY AIRPORT FACILITIES

    Mr. Callahan. My question is we just briefly touched on 
capital improvements that are necessary as a result of the 
Federally mandated changes. Can each of you give us some 
ballpark idea of some of the dollars that each of your airports 
is going to cost to modify the physical facilities of the 
airport, just a dollar amount per airport?
    Mr. Welna. Mr. Chairman, Congressman, for the EDS 
deployment alone we estimate $50 million dollars. That does not 
address issues regarding checking of employees, improvements in 
perimeter security or the cargo aspects that have to be 
addressed as well.
    Mr. Callahan. None of this is included in the $4 billion 
requested?
    Mr. Jackson. Well, I can say that we have included in what 
we have not sent to you a plan to cover some significant 
installation costs, which could extend to some reconstruction 
costs in, I would say, a modest way for the EDS deployments.
    Mr. DeLong. In Louisville, short-term $3.5 million. You 
have the design for a permanent fix, estimated costs $16.2 
million. That $16.2 million will significantly offset the 
number of people necessary to do the processing.
    Mr. Koslosky. Under the current model short term to meet 
the deadline in Grand Rapids, probably under $100,000 because 
we will stick them in our lobby and insert them. But long term 
it will not work from a customer and queuing standpoint, we 
know that. There also could be some fire code issues with 
ingress and egress. Somewhere in the neighborhood of $15 
million to $20 million at our small airports.
    Mr. Fegan. At Dallas/Fort Worth International Airport, as 
previously testified, it is about $193 million to modify four 
separate terminals to provide for an in-line system. Again it 
is a tremendous amount of work that has to take place in a very 
short period of time.
    Mr. Callahan. What would that relate to nationwide? Four 
airports we are looking at $300 million.
    Mr. Mead. You are looking at a figure well in excess of $2 
billion.
    Mr. Rogers. How much?
    Mr. Mead. Well in excess of $2 billion. I would not go as 
high as $3 billion. But these are estimates, DFW's estimate is 
pretty solid. I cannot speak to the rest of them, how finite 
they are. I would put a range in there of between $2 and $3 
billion.
    Mr. Rogers. Thank you.
    Mr. Jackson, in your budget request I do not see anything 
in there for such things as continued payment under the 
screening contracts, purchase of existing screening equipment 
from the airlines assumedly, the maintenance of the EDS 
equipment, the cockpit door modifications, transponder 
hardening, space rental costs at the airports, more personnel, 
as well as equipment. I do not see anything for surface or 
maritime security, and as we all know, TSA is more than just 
air security, or security related research other than the 
aviation. Am I overlooking something?
    Mr. Jackson. Mr. Chairman, most of the items, although not 
all of them that you mentioned, will be part of the unpacking 
of the $1.9 billion figure that we have baked into the 
preliminary budget that we submitted to the committee. For 
example, the maintenance of x-ray machines, magnetometers, the 
machines that we are purchasing that would be covered there, 
and the screening contracts are already in the part that we 
have provided you information about. The space we have embedded 
into, I believe, the second part, and we can come and explain 
that to you in more detail with you and your staff.
    The cockpit and transponder information that you ask about 
are part of the earmarked money, I believe, and I would just 
like to verify, sir, that that was included with the funding 
that was through multiple channels, but basically that we have 
provided already as part of the $2.4 billion.
    On the surface transportation mode front, we are not asking 
in this emergency supplemental for additional 
surfacetransportation investments.

                            TSA 2003 BUDGET

    Mr. Rogers. I am not talking about supplements. I am 
talking about your 2003 request.
    Mr. Jackson. In the 2003 we will add additional 
granularity. Mr. Chairman, I will tell you that the 2003 budget 
is driven by the decisions that we make on these capital 
investments this year, and that is why we are, regrettably for 
all of us, having to do some of this in some sequence. We think 
that the closure of the last component part of the 2002 
emergency supplemental will allow us, for example, to look at 
whether and to what extent we can move capital costs into this 
year that will not have to be born next year, or vice versa, 
depending on the total available funds.
    The 2003 budget in our view is contingent upon providing 
for your review the full costs of what we are projecting for 
2002 and then adjusting forward and backward and depending on 
the needs of what Congress is willing to supply.

               OBTAINING SECURITY EQUIPMENT FROM AIRLINES

    Mr. Rogers. Now the airlines hold title to a lot of 
security equipment, 150 EDS machines, 1,400 x-ray machines, 
1,600 metal detectors, 600 trace detection systems and so 
forth. The law allows the airlines to give you that property. 
It does not mandate that they do that. And you have no money in 
next year's budget to buy that equipment. Are you confident 
they are going to give you that equipment?
    Mr. Jackson. No, sir, I am not confident that charity 
reigns here.
    Mr. Rogers. The airlines would not want to give you that 
equipment?
    Mr. Jackson. I have not counted on that as a prospect, sir. 
What we have is two large clumps. The EDS machines we do not 
have to pay for. We paid for them to begin with and they are 
ours. The magnetometers and the x-ray machines constitute the 
largest bulk of the equipment. Right now we are contracting to 
maintain them but have not purchased them and the purchase 
price of those is being negotiated, Also, what is being 
negotiated is whether we want any of it or whether we would 
rather just pitch it and buy something new.
    That is part of the last of that $1.9 billion unpacking. I 
will tell you that in terms of priorities, we have asked the 
airlines to give us a couple of months and let us work on some 
of this. They have been very generous in this regard and said 
they would not try to nickel and dime us in the short run. They 
will work out some reasonable accommodation with us over the 
time. So they have been very generous.

                          PASSENGER SCREENING

    Mr. Rogers. You mentioned the BWI Airport is a prototype in 
trying to laboratorize what you are doing. We have been out 
there and went through that system, and you have got a number 
of new positions that assumedly would be a part of the model 
that is put in all airports at the passenger check through 
point. In addition to the pre-September 11 positions, x-ray 
operators, hand wand operators, trace detection system 
operators, checkpoint supervisors, in addition to those you 
will have the law enforcement officers, you will have the 
ticket checkers, you will have a ground station coordinator, 
you will have a customer service representative. I thought the 
airlines did that. You will have a customer service supervisor. 
You will have a line monitor, a shoe and bin runner, and you 
will have additional hand wand operators and you will have a 
secondary screening hand wander.
    So you are talking about a huge number of people, and I am 
not sure we need to do all of this stuff. I thought customer 
service was the airlines responsibility and, number two, if we 
have got better magnetometers, you are not going to need hardly 
any hand wanders. Then ticket checkers, I thought that was an 
airline responsibility. I am confused. Can you help me out?
    Mr. Jackson. Yes, sir, I will try to. We have tested 
multiple configurations and multiple jobs, some of which may or 
may not survive in the final team approach that we have put in 
there. I would like to be able to validate for the record the 
observation on the number.
    [The information follows:]

    In the case of the Baltimore-Washington International 
Airport laboratory at Pier C, five different possible 
configurations of screeners were modeled to determine the most 
effective team configuration. This resulted in the deployment 
of 31 screeners, an increase of three positions from previous 
staffing.
    The three positions we added for large airports are: (1) an 
extra screener at the exit lane to prevent the exit lane 
breaches which can result in extremely disruptive and costly 
terminal evacuations; (2) a line monitor to assist passengers 
in preparation for screening and to most-efficiently direct 
passenger flow; (3) a shoe x-ray screener to expedite passenger 
screening. These positions are crucial to achieving lane-on-
lane increases of 40% in passenger throughput per hour.
    The roles of Ground Security Coordinator and ticket checker 
remain with the airlines.

    Mr. Jackson. I believe that net, given what we are 
currently paying for the airlines and the supervisory structure 
they have, the law enforcement folks that we have there, that 
we are two people up per two x-ray machine team to run through 
that. So we have added a couple of positions. That is exactly 
right. But we have increased the throughput from roughly 500 an 
hour at the peak time to 700 an hour.
    I will give you an example about Baltimore. They had 
planned for construction of another lane at the exact Pier C 
that your staff visited, and we arm-wrestled about that because 
they were convinced that they needed more equipment and more 
people to staff that machine in order to get the throughput 
that they wanted. We said no, that we have a better way, and 
that was this readjustment of the team approach and 
reconfiguration of the machines and tools that we have there. 
So, we not only were able to increase productivity by 23 
percent per person, but we alleviate the necessity to buy 
additional equipment and people to run it.
    It is a math problem, sir, and we will be happy to share 
the math. I am not a mathematician. I am a social scientist, 
but we have taken the math and the observations from experts 
and we have tried to bake it into the most cost effective way.
    Mr. Rogers. The requests for budget for passenger screening 
I assume were driven from the results at BWI?
    Mr. Jackson. Yes, sir, generally so.
    Mr. Rogers. But the metal detectors out there are 10 years 
old, and the technology is 17 years old. According to the 
manufacturer, whom I think is Ceia, C-E-I-A, International, the 
Canadians, French, others are getting the newer systems with 
lower false alarm rates, which reduces dramatically the number 
of people that you need there. Apparently that is not in your 
formula at this point in time to get rid of the old equipment.
    Mr. Jackson. We are looking at a staged approach and 
starting with what we had. But you have asked an important 
question and I do know that we are doing an analysis of each of 
the equipment sets that would be at a given airport and the 
alternatives in productivity and efficiency and costs in 
measuring that out. I apologize that I am just not an expert on 
the magnetometer technology well enough to be able to tell you 
whether that is baked into our plan and whether that is a truly 
significant productivity enhancement for us. If it is, we will 
certainly embrace it.

                 SECONDARY SCREENING AND MAGNETOMETERS

    Mr. Rogers. Back in 1992 high threat airports required 
people to walk through a second metal detector that was tuned 
up differently rather than use hand wanding, and yet that 
secondary metal detector process was discontinued after 
September 11 in favor of hand wanding. Germany I am told 
discontinued the use of wanding, handheld detectors, in favor 
of walk-through detectors. But yet we have gone in the opposite 
direction.
    This is not an insignificant point, because as I understand 
it, you are adopting the policy that only women can wand women 
and men wand men, and in smaller airports that will mean having 
a man and woman hand wander at every station all the time, and 
that is a huge expense, although I am sure necessary. Why can't 
we have the second metal detector instead of all the hand 
wanding, as Germany and other people are doing?
    Mr. Jackson. If I could just consult by way of a glance 
here with Steve McHale, the Deputy Under Secretary of the TSA. 
We have authorized a return to the secondary screening 
magnetometer in at least two category X airports that I know 
of, to try to increase the throughput and diminish the hassle 
factor of going through this. So while not every airport, as 
you accurately said, has employed that secondary screening 
methodology, we are very much open to and are testing and 
getting results from the restoration of that capacity. Frankly, 
I think that is exactly the sort of thing that we need to be 
doing to squeeze as much productivity as we can, while 
maintaining safety at these sites.
    So it is a very good point. We are doing exactly a test of 
that and if it turns out, sir, that the addition of 
magnetometers at some airports could bring a commensurate 
safety and security productivity, we are open to looking at 
buying some of that and requesting funds to do so.

                      AIRPORT IMPROVEMENT PROGRAM

    Mr. Rogers. Now these airport people are obviously very 
interested in what we are going to do about paying for the 
modifications at airports to accommodate the EDSs and space for 
your personnel that they have got to provide. And I have heard 
talk that you may want to try to use AIP funds for those 
expenses. Do you plan that?
    Mr. Jackson. I believe there was a provision of the TSA 
that made the Airport Improvement Program (AIP) 1-year 
eligible. It was a specific provision of the statute in this 
year, 2002, that AIP funds would be broadly eligible and there 
would be granted a significant degree of flexibility to the 
Department to allow airports to use AIP. I do not believe AIP 
is a silver bullet that can solve the size of the problem we 
have here, and we are working on that. I would just say that 
when we bring you the staffing and technology plan for the 
deployment of a combination of explosives detective equipment, 
including the CT scan and trace equipment that we have spoken 
about here today, one of our drivers for this and one of the 
reasons that we stepped back and tried not to leap into a sort 
of cookie cutter approach to this, is that we have been 
reviewing thedifficulties of all this ETD procurement at 
airports around the country and have concluded that it imposes these 
very significant costs and also the potential for disruption.
    For some places, for example at DFW, there may be no other 
solution. If so, we have to be ready to leap in and do what 
they need to get it done there. But at other places we may be 
able to use a combination of these two tools and reduce the 
capital costs to the airports, supplement that with some of our 
own money to help with the installation, something that we can 
bear the burden for and minimize the disruption to the airport.
    These are weighing and balancing efforts that we have been 
trying to go through. We have literally asked 100 airports or 
so to send us copies of their blueprints so we can go over with 
engineers in an effort to try to figure out how this weighing 
and balancing as a public policy could drive our procurement 
solution. So it is another complex math problem, but this is 
the approach that we are trying to bring to it. In EDT and EDS 
deployment we will incorporate a strong sensitivity to the 
issue that you are raising of airport costs.
    Mr. Rogers. I hate to use AIP funds. It was designed for 
something different. There are still great needs at airports 
for other than security improvements, such as runways and other 
things AIP is eligible for. If we get into using AIP for 
security, there will not be anything left over.
    Mr. Jackson. AIP is stretched. I could not agree more.
    Mr. Rogers. I hope before you do that that we will have a 
long conversation.
    Mr. Jackson. Okay.

                     OFFICE SPACE FOR TSA EMPLOYEES

    Mr. Rogers. Number two, you have by your estimate 40,000 
airport-based new employees to house, to office and all of 
that, and you are going to have to get the space from these 
airports, I assume, around the country. Is that so? And what is 
going to be the arrangements with the airports to house these 
people?
    Mr. Jackson. It is physically not possible to put a TSA 
team on airport office space in every location. We are going to 
have to do it. When we have done it once, there are 428 more 
times to do it. So it is going to have to be some common sense 
assessment. We know that we are going to put some people off 
site and we are looking at that and have included some funds to 
be able to do that.
    We also know that hiring a large screener work force is not 
like hiring an office work force, so we do not need office 
space for the vast bulk of people in a large airport. But, for 
example, at the category X airport if you are going to be 
running a team of hundreds of people literally that are working 
at that airport, you are going to have to have a support staff 
and some place for secure communications, for work. So this is 
a problem that we just have to tackle on a case-by-case basis, 
and it may be that we are doing interim steps for some period 
of time until we can put more satisfactory, longer term 
solutions in place.
    At BWI, for example, the airport has been phenomenally 
helpful there. They have cleared out a room, and the last time 
I was out there, about 40 people were in a bull pen. It looked 
like a pig pen. They were all doing good work. So we are just 
going to have to work it this way.
    Mr. Rogers. I guess what the airports are asking is whether 
you are going to pay rent?
    Mr. Jackson. That is a policy decision we have not 
announced a position on yet.
    Mr. Mead. Mr. Chairman, I break this rent issue into two 
pieces. It is fair to say that the airports look at it in two 
pieces, too. One piece has to do with the equipment, explosives 
detection machines, and the space that it occupies, the space 
the magnetometer occupies, etc. The second price is the space 
that the TSA says it needs at the airport to house its 
employees and the office space and so forth.
    From a policy standpoint I think you can look at those two 
quite differently. I look at the screening equipment as kind of 
a necessity that has to be there, and maybe that is an item 
that you should not pay rent for. On the other hand, office 
space strikes me as being an entirely different category.
    It is food for thought.
    Mr. Rogers. I assume the need for training space, office 
space, break room space and whatever is associated with 
personnel operating in an airport, and a lot of these airports 
do not have the space available. Others will have to move 
somebody else out. I assume there would be some discussion at 
some point in time about adequate compensation for airports 
that do provide office space.
    Mr. Jackson. Yes, I think that is absolutely fair to 
anticipate such conversation will take place. I will associate 
myself with Ken's remark that we are not, I will tell you, 
budgeting for rental fees for the footprint, for the safety 
material equipment and teams we are deploying to make the 
airports secure.
    The other category that the IG mentioned is something that 
is part of our ongoing deliberation here.
    Mr. Welna. Mr. Chairman, from a policy standpoint I would 
hope that the TSA would consider breaking that first part into 
two parts, and that is the existing footprint that is being 
used for the screening process may in fact at some airports be 
a workable issue. Other airports currently have the airlines 
paying for that, and so if the TSA does not and the airlines do 
not, they have to have a cost recovery.
    But there is a second part which may take up even more 
space, and that is the finding of space or building of space 
for the new equipment that will be required and that someone 
has to pay for that as well.
    Thank you.

                            Closing Remarks

    Mr. Rogers. We are running late here, and I want to shut 
this down so we can get ready for the 2 o'clock hearing and 
give you a little while to break, those of you here who are 
returning at 2:00.
    I want to thank the airport operators who traveled to be 
with us today and give us your time and wisdom. We thank you 
for your participation. I have been, I guess, to all but Grand 
Rapids, and compliment you on the great operations that you 
have. We had a chance to visit in detail in Dallas/Ft. Worth 
Airport some time back, an enormous operation.
    And of course my home state airport in Louisville is a 
pride and joy for all of us. They have that special connotation 
of having the home base of UPS there, which is a special 
consideration in all of this. Thank all of you for being here.
    Mr. Secretary, thank you for coming and we will see you at 
2 o'clock, as well as Mr. Mead. Thank you so much for your 
information.
    We stand in recess.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    


                            W I T N E S S E S

                              ----------                              
                                                                   Page
DeLong, J.C......................................................   105
Fegan, J.P.......................................................   105
Jackson, Michael.................................................    87
Koslosky, J.A....................................................   105
Magaw, John......................................................1, 155
Mead, K.M.......................................................87, 155
Welna, Jim.......................................................   105


                               I N D E X

                              ----------                              

                 Transportation Security Administration
                            February 6, 2002

                                                                   Page
Aviation Security Products.......................................    81
Airports:
    Airport Concession Industry..................................    55
    Encouraging Airport Participation............................    79
Arming of Flight Crew............................................32, 43
Assistance to Current Unemployed Screeners.......................    62
Aviation Security Products.......................................    81
Budget:
    Modes Other Than Aviation....................................    32
    Request for FY 2003..........................................    29
    Emergency Supplemental.......................................    60
    Short Duration Projects......................................    76
    TSA Budget Development.......................................    58
    TSA Security Funds/Other Modes...............................    53
    TSA's $4.8 Budget Request....................................    59
CAPPSII..........................................................    30
Civil Service Protection.........................................    67
Cockpit Security:
    Arming of Flight Crew........................................32, 43
    Cockpit Door Improvements....................................    40
    Cockpit Door Security........................................    77
    Cockpit Security.............................................    31
    Options of Non-Lethal Force..................................    43
    Permanent, Secure Cockpit Doors..............................    42
    Regulation for Non-Lethal Weapons............................    44
    Replacement of Cockpit Doors.................................    41
Conflict of Interests............................................    69
Consultation With Local Enforcement..............................    85
Contingency Plans................................................    64
Contingency Plans for EDS Machines...............................    72
Cooperation With Law Enforcement Officials.......................    82
Criminal History Checks..........................................    84
Deployment of EDS/EDT............................................46, 53
Emergency Supplemental Funding Requested.........................    60
Employees Rights:
    Civil Service Protection.....................................    67
    Union Representation.........................................    66
    Veteran's....................................................    67
Equal Employment Opportunity.....................................    66
Explosive Detection Equipment:
    Contingency Plans for EDS....................................    72
    Deployment of EDS Equipment..................................    46
    Deployment of EDS............................................    53
    Detection Results of EDS/EDT.................................    46
    EDS Purchase.................................................    70
    Explosive Detection Systems..................................    28
    Increasing EDS...............................................    70
    Infrastructure Improvements..................................    71
    Installation of EDS Machines.................................    71
    Performance of EDS Equipment.................................    47
    Schedule for EDS Machines....................................    70
    Security Equipment...........................................    44
    Supply of TIP-Ready X-Ray....................................    45
    TRX Cost and Installation....................................    48
    TRX Technology...............................................    47
Federal Air Marshals:
    Federal Air Marshals.........................................    67
    Number of Federal Marshals...................................    68
    Sky Marshal Program..........................................    43
    Sky Marshals.................................................    31
Fees:
    Revenue Estimates............................................    54
Identification Systems:
    CAPPSII......................................................    30
    Criminal History Checks......................................    84
    Manifest Information.........................................    57
Intelligence:
    Intelligence Information.....................................     7
Law Enforcement:
    Consultation With Local Officials............................    85
    Cooperation With Law Officials...............................    82
    Law Enforcement Officer......................................38, 39
    Local Law Enforcement........................................    52
    Role for Federal Officials...................................    83
Manifest Information.............................................    57
National Guard Deployment........................................    84
Non-Lethal Force Options.........................................    43
Number of Federal Marshals.......................................    68
Other Modes of Transportation:
    Expressing Security Concerns.................................    54
    Securing Bridges.............................................    73
    Security Activities for Modes................................    74
Performance Measures:
    Performance Measures.........................................    33
    Screener Standards...........................................    64
    TSA Performance Management...................................    56
Personnel:
    Regional Structure...........................................    21
    Role of Federal Security Directors...........................    80
    TSA Organization.............................................    35
    Use of Former FAA Personnel..................................    33
Port Security:
    Port Security Grants.........................................    48
    Port Security Status.........................................    55
    Seaport Security Assessment..................................    75
    Seaport Security Enhancements................................    59
    Top 25 Ports Handling Trade..................................    49
Screening:
    Current Unemployed Screeners.................................    62
    Contingency Plans............................................    64
    Equal Employment Opportunity.................................    66
    Equipment to Screen Cargo....................................    82
    Gaps in Screening Service....................................    61
    Positive Passenger Bag Match.................................    78
    Screener Aptitude Test.......................................    65
    Screener Citizenship.........................................    62
    Screener Performance.........................................    63
    Screener Transition..........................................    52
    Screener Working Conditions..................................    65
    Screening Contract Cost......................................    61
    Screening Contractors........................................    60
    Screening Contracts--Federal.................................     6
    Screening Deadline...........................................     5
    Screening Duties.............................................     6
    Screening Personnel..........................................    51
    Screening Turnover...........................................    62
Sky Marshal Program..............................................31, 43
Supplemental Funding for Short Projects..........................    76
Testimony:
    Chairman Rogers..............................................     1
    Mr. Sabo.....................................................     2
    Undersecretary Magaw.........................................     3
TSA Advisor Program:
    Conflict of Interests........................................    69
    Go-Teams.....................................................    82
    Procurement Hiring Decisions.................................    69
    Senior Advisor Program.......................................    68
Union Representation.............................................    66
Use of Former FAA Personnel......................................    33
Veteran's Protection.............................................    67

                             April 17, 2002

Advance Technology...............................................   130
Airport Improvement Program......................................   146
Airport Relations..........................................88, 107, 113
Airport Costs.............................................124, 142, 147
Baggage Screening..........................92, 97-98, 101-102, 109, 140
Budget..........................................91-93, 96, 98, 101, 143
Cargo Container Security.........................................    96
Checked Baggage................................................101, 102
    Technology to Screen Baggage.................................   101
    TSA's Budget.................................................   101
Closed Session Discussion........................................    90
Congressional Oversight of TSA...................................   127
Core Principles..................................................    92
Cost Controls....................................................   102
Cost Free Space..................................................   147
Criminal Investigations Division.................................   103
    Opportunities to Control Costs...............................   102
Criminals Investigations.........................................   103
    Opportunities to Control Costs...............................   102
Curbside Check-in Restrictions...................................    93
D/FW Security Improvements......................................114-115
Deadlines.............................................133-134, 136, 139
Mr. DeLong.......................................................   105
EDS............................................................101, 102
    Technology to Screen Baggage.................................   101
    TSA's Budget.................................................   101
Emergency Supplemental Request............................87, 89-91, 97
Employee Demeanor................................................   103
Enhanced Security Costs..........................................   105
Explosive Detection Systems......................87, 93, 97-98, 101-102
Federal Security Directors.......................................   107
Mr. Fegan........................................................   114
Flight Restrictions..............................................   150
Former FAA Positions.............................................   102
    Opportunities To Control Costs...............................   102
Goals............................................................    91
Grand Rapids Testing Procedures..................................   111
Inspector General................................................   101
Mr. Jackson:
    Opening Statement............................................ 91-93
    Reply to Question............................................   103
    Written Statement............................................94-100
Mr. Koslosky.....................................................   110
Law Enforcement Officers:
    Requirements at Airports...................................102, 120
    Transition at Airports.......................................   121
Opportunities To Control Costs...................................   102
Magnetometers..................................................127, 146
Mr. Mead.........................................................   101
National Guard...................................................   110
Mr. Obey.........................................................    90
Opening Statement:
    Mr. DeLong...................................................   105
    Mr. Fegan....................................................   114
    Mr. Jackson.................................................. 91-93
    Mr. Koslosky.................................................   110
    Mr. Mead.....................................................   101
    Mr. Obey.....................................................    90
    Chairman Rogers..............................................    87
    Mr. Sabo.....................................................    88
    Mr. Welna....................................................   109
    Chairman Young...............................................    89
Opportunities To Control Costs...................................   102
    Criminal Investigations Division.............................   103
    Criminal Investigators.......................................   103
    Former FAA Positions.........................................   102
    Full-Time Positions..........................................   102
    Law Enforcement Officers.....................................   102
    Law Enforcement Positions....................................   102
    Median Pay for Law Enforcement Officers......................   102
    Part-Time Positions..........................................   102
    Salary for Law Enforcement Officers..........................   102
Security Contracts...............................................   103
Part-Time Positions..............................................   102
    Opportunities To Control Costs...............................   102
Passenger Security Fee...........................................   101
    TSA's Budget.................................................   101
Passenger Screening.........................................92, 95, 144
Performance Measures.........................................87, 99-100
Personnel:
    Demeanor...................................................103, 114
    Flexibility................................................107, 134
    Number of.........................................88, 123, 128, 134
Positions:
    Criminal Investigators.......................................   103
    FAA..........................................................   102
    Law Enforcement............................................102, 120
    Part-time.............................................102, 109, 122
Chairman Rogers...............................................87-88, 90
Mr. Sabo..........................................................80-89
Salary for Law Enforcement Officers..............................   102
    Opportunities To Control Costs...............................   102
Screening:
    Baggage Screening...........................92, 97-98, 101-102, 140
    Contracts With Private Companies...................88, 103, 116-119
    Passenger Screening.....................................92, 95, 144
Security Contracts...............................................   103
    Opportunities To Control Costs...............................   102
Technology To Screen Baggage.....................................   101
    Checked Baggage..............................................   102
    EDS........................................................101, 102
    Trace Technology...........................................101, 102
Temporary Flight Restrictions....................................   150
TSA's Budget.....................................................   101
    Checked Baggage..............................................   101
    EDS..........................................................   101
    Passenger Security Fee.......................................   101
    Workforce....................................................   101
Mr. Welna........................................................   109
Chairman Young...............................................89-90, 103

                             June 20, 2002

Access Control Pilot Programs....................................   226
Administrative Services Percentages..............................   250
Airlines:
    Challenges Before TSA and the Airlines Industry.............204-206
    Liability Cap..............................................258, 268
Airports:
    Airport Security......................................199, 208, 215
    Airports Concern With Deadlines..............................   252
    Aviation Practices of Foreign Carriers in the U.S............   255
    Description of Functions at Passenger Checkpoints...........190-192
    Dissemination of Information.................................   211
    Financial Responsibilities of Airports.......................   196
    Funding for Airport Modification.............................   198
    Modification of Terminal Structure at Airports...............   250
    Observation of Other Countries' Airport Operations...........   213
Aviation Practices of Foreign Carriers in the U.S................   255
Awarding of Contracts............................................   263
    Contracts....................................................   175
Baggage Screening................................................   216
Baggage Screening Deadline.......................................   230
BWI Airport Federalization Results........................257, 266, 267
Boeing....................................................175, 184, 196
    Contracts....................................................   176
Budgetary Concerns To Meet Deadlines.............................   250
Budget:
    Budgetary Concerns To Meet Deadlines.........................   250
    Cost of Undersecretary's Suite 249...........................   249
    TSA Budget Justification for 2003............................   182
Cargo Screening...........................................196, 197, 264
Challenges Before TSA and the Airlines Industry.................204-206
Civil Aviation Passenger Profiling System........................   223
Civil Aviation Passenger Profiling System CAPPSII................   258
Collective Bargaining Rights.....................................   203
Conclusion of Undersecretary Magaw's Remarks.....................   174
Consistency with Magnetometers Technology.......................209-211
Contracts:
    Number of Contracts/Subcontracts Awarded...................231, 263
    TSA's Contract With Boeing........................175, 183-184, 196
    Use of Contractual Employees for Screening...................   200
    Raytheon.....................................................   175
Cost Controls....................................................   176
    Contracts..................................................176, 262
    Financial....................................................   262
    Overhead.....................................................   202
    Salaries.....................................................   176
        Federal Air Marshals...................................176, 261
        Law Enforcement Officers...............................176, 261
        Screeners................................................   176
Cost of Undersecretary's Suite...................................   249
Criminal Investigators...........................................   222
Department of Homeland Security:
    Merger to Department of Homeland Security....................   259
    Transfer to Department of Homeland Security..................   249
Deployment of EDS and EDT at Airports..........................175, 251
    Explosive Detection Systems......................175, 184, 185, 201
Employee Rights:
    Collective Bargaining Rights.................................   203
    Employees' Rights..........................................202, 203
Explosive Detection Systems..........................175, 184, 185, 201
    Deployment...................................................   175
    Utilization................................................175, 188
Explosive Trace Detection......................................185, 201
Federal Air Marshals Salaries..................................176, 261
    Cost Controls................................................   176
    Overtime Pay.................................................   245
    Salaries.....................................................   176
Federal Security Directors.......................................   169
Federalization of Screeners at Airports..........................   253
Financial Responsibilities of Airports...........................   196
Hand Wanding:
    Hand Wanding Policy..........................................   188
    Passenger Hand Wanding.......................................   180
Hiring...........................................................   175
    Hiring and Retaining Employees To Achieve the Mission........   167
    Screeners....................................................   229
    Workforce..................................................175, 202
Identification Systems:
    Civil Aviation Passenger Profiling System....................   223
    Civil Aviation Passenger Profiling System CAPPSII............   258
    Racial Profiling.............................................   257
    Transportation Worker ID Card................................   241
Indemnification Policy...........................................   231
In-line Explosive Detection Equipment............................   252
Installation of Screening Machines...............................   252
Intelligence:
    Intelligence Information for Screeners.......................   224
    Intelligence Sharing.........................................   225
Law Enforcement Officers.........................................   168
    Salaries...................................................176, 261
    Cost Controls................................................   176
Magnetometers:
    Consistency With Magnetometers Technology...................209-211
    Funding for Magnetometers..................................177, 225
    Use of Magnetometers.........................................   178
Modification of Terminal Structure at Airports...................   250
Observation of Other Countries Airport Operations................   213
Opening Statement of Mr. Mead....................................   174
Opening Statement of Undersecretary Magaw........................   160
Opening Remarks of the Inspector General.........................   174
Overhead.........................................................   202
    Cost Controls................................................   176
Passenger and Baggage Screening Schedule.........................   251
Passenger Baggage Screening......................................   186
Passenger Hand Wanding...........................................   180
Passenger Screening Process......................................   206
Pay Schedule Chart..............................................243-244
Performance Measures.......................................170, 245-248
Personnel:
    Administrative Services Percentages..........................   250
    Criminal Investigators.......................................   222
    Federal Security Directors...................................   169
    Hiring and Retaining Employees To Achieve the Mission........   167
    Hiring of Screeners..........................................   229
    Law Enforcement Officers.....................................   168
    Mix of Technology and Personnel..............................   229
    Number of Customer Service Representatives...................   180
    Number of Headquarter Employees..............................   193
    Number of New Employees......................................   249
    Number of Queue Coordinators.................................   181
    Number of Screeners at Passenger Checkpoints.................   201
    Number of Ticket Checkers....................................   179
    Number of TSA Employees......................................   200
    Number of TSA Lawyers........................................   214
    Number of TSA Personnel......................................   177
    Staff Requirements...........................................   179
    Ticket Checkers..............................................   189
    TSA Hiring.................................................182, 260
    Workforce Diversity..........................................   170
Perimeter Security...............................................   265
Pilot Progams:
    Access Control Pilot Programs................................   226
    Location of Private Screeners Pilot..........................   258
    Screening Pilots Results.....................................   253
Protected Airspace...............................................   254
Questions for the Record for Mr. Magaw...........................   249
Racial Profiling.................................................   257
Raytheon.........................................................   175
    Contracts....................................................   175
Revenues.........................................................   174
Salaries:
    Cost Controls................................................   176
    Federal Air Marshals.......................................176, 261
    Law Enforcement Officers...................................176, 261
    Overtime Pay for Federal Air Marshals........................   245
    Pay Schedule Chart..........................................243-244
    Salaries for Law Enforcement Personnel.......................   241
    Salary for TSA Employees.....................................   219
    Salary Levels................................................   221
    Screeners....................................................   176
    TSA Law Enforcement Salaries.................................   222
    TSA Organization Chart.......................................   194
Salt Lake City...................................................   186
Screening:
    Baggage Screening............................................   216
    Baggage Screening Deadline...................................   230
    BWI Federalization of Screeners Results......................   257
    Cargo Screening..............................................   196
    Cost Controls................................................   176
    Federalization of Screeners at Airports......................   253
    Hiring of Screeners..........................................   229
    Installation of Screening Machines...........................   252
    Passenger and Baggage Screening Schedule.....................   251
    Passenger Baggage Screening..................................   186
    Passenger Screening Process..................................   206
    Screening Personnel..........................................   167
    Salaries.....................................................   176
    Workforce..................................................175, 202
Securing Our Transportation Systems..............................   164
Security Equipment:
    Deployment of EDS and EDT at Airports........................   251
    In-line Explosive Detection Equipment........................   252
    Inventory of Security Equipment..............................   216
    Threat Image Projection X-ray (TRX) Machines.................   255
    Trace Detection Process......................................   185
    Underutilization of EDS Machines.............................   187
Site Assessment:
    Location of Site Assessment Teams............................   230
    Site Assessment Process......................................   212
    Site Assessment Process at Cape Girardeau Airport............   212
Stadium Flyovers:
    Stadium Flyover Policy......................................217-219
    Stadium Flyover Waiver for Banner Aircraft...................   220
Testimony:
    Conclusion of Undersecretary Magaw's Remarks.................   174
    Introductory Remarks by Mr. Rogers...........................   155
    Opening Statement of Mr. Mead................................   174
    Opening Statement of Undersecretary Magaw....................   160
    Statement of Undersecretary Magaw............................   163
Threat Image Projection X-ray (TRX) Machines.....................   255
Ticket Checkers..................................................   189
Trace Detection Process..........................................   185
Training.........................................................   175
    Workforce..................................................175, 202
Transfer to Department of Homeland Security......................   249
Transportation Worker ID Card....................................   241
TSA's Contract With Boeing.......................................   183
Underutilization of EDS Machines.................................   187
Use of Contractual Employees for Screening.......................   200
Utilization....................................................175, 188
    Explosive Detection Systems......................175, 184, 185, 201
Whistleblower Protection.........................................   174
Workforce......................................................175, 202
    Diversity....................................................   170
    Hiring.......................................................   175
    Screeners..................................................175, 201
    Training.....................................................   175

                                <greek-d>


</pre></body></html>
